CASE NO. _________________

IN THE SUPREME COURT OF THE UNITED STATES
___________________________________________
TIMOTHY L. COLEMAN, Petitioner,
vs.
MARGARET BRADSHAW, WARDEN,
CHILLICOTHE CORR. INST., Respondent.
___________________________________________
On Petition for a Writ of Certiorari to
the United States Court of Appeals
for the Sixth Circuit
___________________________________________
APPENDIX TO PETITION FOR WRIT OF CERTIORARI
(CAPITAL CASE: NO EXECUTION DATE SET)

Timothy F. Sweeney (OH 0040027)*
MEMBER OF THE BAR OF THIS COURT
LAW OFFICE OF TIMOTHY FARRELL SWEENEY
The 820 Building, Suite 430
820 West Superior Ave.
Cleveland, Ohio 44113-1800
Phone: (216) 241-5003
Email: tim@timsweeneylaw.com
John P. Parker (OH 0041243)
MEMBER OF THE BAR OF THIS COURT
Attorney at Law
988 East 185th Street
Cleveland, Ohio 44119
Phone: (216) 881-0900
Email: advocateparker@gmail.com
*COUNSEL OF RECORD
Counsel for Petitioner Timothy L. Coleman

INDEX TO APPENDIX
APPENDIX A
Coleman v. Bradshaw, Case No. 15-3442, 974 F.3d 710 (6th Cir. 2020) ............. APPX-0001
APPENDIX B
Coleman v. Bradshaw, Case No. 15-3442, 2020 U.S. App. LEXIS 33253
(6th Cir. Oct. 21, 2020) ...................................................................................... APPX-0020
APPENDIX C
Coleman v. Bradshaw, No. 3:03-CV-299, 2015 U.S. Dist. LEXIS 41324
(S.D. Ohio Mar. 30, 2015) ................................................................................. APPX-0021
APPENDIX D
Coleman v. Bradshaw, No. 3:03-cv-299, 2013 U.S. Dist. LEXIS 94269
(S.D. Ohio July 5, 2013) (Supp. R&R) .............................................................. APPX-0027
APPENDIX E
Coleman v. Bradshaw, No. 3:03-cv-299, 2012 U.S. Dist. LEXIS 170609
(S.D. Ohio Nov. 28, 2012) (R&R) ..................................................................... APPX-0042
APPENDIX F
State v. Coleman, 2004-CA-43 and -44, 2005-Ohio-3874, 2005 Ohio App.
LEXIS 3583 (Ohio App. 2nd Dist. July 29, 2005) ............................................ APPX-0111
APPENDIX G
State v. Coleman, No. 2001-CA-42, 2002-Ohio-5377, 2002 Ohio App.
LEXIS 5396 (Ohio App. 2nd Dist. Oct. 4, 2002) .............................................. APPX-0119
APPENDIX H
State v. Coleman, No. 1997-0737, 85 Ohio St. 3d 129,
707 N.E.2d 476 (1999)....................................................................................... APPX-0134
APPENDIX I
State v. Coleman, Case No. 96-CR-0142 (Court of Common Pleas,
Clark County, Ohio), judgment and entry denying second post-conviction
petition and related motions, July 21, 2004 ....................................................... APPX-0149
APPENDIX J
State v. Coleman, Case No. 96-CR-0142 (Court of Common Pleas,
Clark County, Ohio), judgment and entry denying post-conviction
petition, June 1, 2001 ......................................................................................... APPX-0160

i

APPENDIX K
State v. Coleman, Case No. 96-CR-0142 (Court of Common Pleas,
Clark County, Ohio), judgment of death sentence & sentencing opinion,
March 3, 1997 .................................................................................................... APPX-0176
APPENDIX L
Transcript of Mitigation Hearing in State v. Coleman, Case No. 96-CR-0142
(Court of Common Pleas, Clark County, Ohio), February 20, 1997 ................. APPX-0190

ii

Case: 15-3442

Document: 51-2

Filed: 09/04/2020

Page: 1

RECOMMENDED FOR PUBLICATION
Pursuant to Sixth Circuit I.O.P. 32.1(b)
File Name: 20a0299p.06

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

TIMOTHY L. COLEMAN,
Petitioner-Appellant,

┐
│
│

>

v.
MARGARET BRADSHAW, Warden,
Respondent-Appellee.

│
│
│
│
│
┘

No. 15-3442

Appeal from the United States District Court
for the Southern District of Ohio at Dayton.
No. 3:03-cv-00299—Edmund A. Sargus, Jr., District Judge.
Argued: January 29, 2020
Decided and Filed: September 4, 2020
Before: BATCHELDER, GRIFFIN, and BUSH, Circuit Judges.
_________________
COUNSEL
ARGUED: Timothy F. Sweeney, LAW OFFICE OF TIMOTHY F. SWEENEY, Cleveland,
Ohio, for Appellant. Margaret Moore, OFFICE OF THE OHIO ATTORNEY GENERAL,
Columbus, Ohio, for Appellee. ON BRIEF: Timothy F. Sweeney, LAW OFFICE OF
TIMOTHY F. SWEENEY, Cleveland, Ohio, John P. Parker, Cleveland, Ohio, for Appellant.
Stephen E. Maher, OFFICE OF THE OHIO ATTORNEY GENERAL, Columbus, Ohio, for
Appellee.
_________________
OPINION
_________________
ALICE M. BATCHELDER, Circuit Judge.

An Ohio prisoner, sentenced to death,

appeals the denial of his 28 U.S.C. § 2254 petition for a writ of habeas corpus. We AFFIRM.

Appendix A
Appx-0001

Case: 15-3442
No. 15-3442

Document: 51-2

Filed: 09/04/2020

Coleman v. Bradshaw

Page: 2
Page 2

I.
On January 2, 1996, Timothy Coleman killed Melinda Stevens to keep her from
testifying against him at his trial on charges of drug trafficking.

The grand jury indicted

Coleman in March 1996 for aggravated murder. See Ohio Rev. Code Ann. § 2903.01(A) (1996).
Count 1 of the indictment attached a capital-specification for his killing a witness to prevent her
testimony, see id. § 2929.04(A)(8), as well as a firearm-specification, see id. § 2929.71. Count 2
charged Coleman with unlawful possession of a firearm. See id. § 2923.13.
In February 1997, a jury convicted Coleman of both counts and recommended a death
sentence. The Ohio trial court sentenced him to death and four-and-a-half years in prison.
Coleman unsuccessfully sought relief on direct appeal. See State v. Coleman, 707 N.E.2d 476
(Ohio 1999), cert. denied, 528 U.S. 954 (1999). The Supreme Court of Ohio recounted the
pertinent facts as follows:
On the night of January 2, 1996, Melinda Stevens was shot to death in an alley
behind Riddle’s Ribs in Springfield, Ohio. Timothy Coleman, appellant, was
convicted of her aggravated murder and sentenced to death.
During the previous summer, Stevens had worked as a confidential informant for
the Springfield police and made controlled purchases of drugs from suspected
drug dealers. On three separate occasions, Stevens made purchases of crack
cocaine from Coleman, which were observed and recorded by the police.
As a result of these sales, a grand jury indicted Coleman in September 1995 for
aggravated trafficking in cocaine and associated possession offenses. Stevens
was a material witness to these offenses, but her identity was not listed in the
indictment. Coleman pled not guilty to these charges.
While in jail awaiting trial for these charges, Coleman told his cellmate, James R.
White, that he had discovered that Stevens was the one that “got him busted” and
that “if he [Coleman] got out on bond, he was going to take care of her.”
According to White, Coleman stated that he had a newborn baby, was facing
fifteen to forty-five years on the pending drug charges, and “couldn’t * * * do that
much time in the joint.” Coleman had known White for years and asked him to
“take care” of Stevens if White got bailed out first. However, Coleman was
released first on October 12. Another inmate, Donovan Hayes, testified that he
heard Coleman tell White “[t]hat if it was her [Stevens] that was responsible for
him being here, he would have to do something to her.”
White was released from jail in mid-November and testified that Coleman again
asked him to help “take care” of Stevens. They talked about burning down

Appendix A
Appx-0002

Case: 15-3442
No. 15-3442

Document: 51-2

Filed: 09/04/2020

Coleman v. Bradshaw

Page: 3
Page 3

Stevens’s house or the possibility of White shooting her. Early on January 2,
1996, Coleman saw White twice and told White he would pick him up that
evening to take care of Stevens, but Coleman never showed up. On January 3,
after Stevens had been killed, Coleman told White that “he took care of his
business.”
Christopher Holtz testified that he saw Stevens and Coleman on the evening of
January 2, 1996 around 7:00 or 8:00 p.m. at Riddle’s Ribs, apparently buying
takeout food. Holtz recalled that Coleman was wearing a flannel-type shirt and
that Stevens and Coleman left Riddle’s together around the same time Holtz did.
Holtz last saw the two alone in a nearby alley. The weather that evening was
cold, windy, and snowing. As Holtz was walking home, he heard shots.
Around 7:25 p.m., police and paramedics responded to the alley behind West
Pleasant Street near Riddle’s Ribs, the scene of a shots-fired report. They found
Stevens lying face up with no pulse or respiration and only minimal heart activity.
Although the paramedics took Stevens to the hospital, the coroner later concluded
that Stevens had died at 7:20 p.m. on January 2, 1996. Icy rain had fallen that
evening, followed by heavy snow and strong winds, thereby hampering
investigative efforts.
Coleman frequently visited the house of Fayette Strodes in Springfield. Strodes’s
granddaughter, Dana, had a child by Coleman, and Fayette’s son, James Strodes,
was Coleman’s friend. Prior to January 2, 1996, Coleman told Fayette several
times that “he was going to kill [a] black bitch” to whom he had sold drugs
because she was a “drug informant.” Vera L. Strodes, Fayette’s daughter, also
recalled Coleman discussing his legal problems, saying, “he’s not going to do any
time,” and also talking about “popping that bitch.”
Coleman also talked frequently with Lynnda M. Gaskins, who lived across the
street from Fayette. Gaskins testified that Coleman talked constantly about his
legal problems and that he had found out that Stevens was the confidential
informant in the case against him. Gaskins further testified that Coleman stated,
“[i]f they don’t have a witness, they don’t have a case,” and also said, “he was
going to kill her.”
Hope Strodes, Fayette’s granddaughter, recalled that Coleman visited the
Strodeses’ house early on the evening of January 2, and asked her for some
bullets. Hope told him that there was a box of bullets on a shelf. Coleman took
some bullets, showed Hope a silver gun with a clip, and said, “I’m going to go
take care of a bitch that set me up.”
Around 7:30 p.m. that same evening, Coleman stopped in for a few minutes to see
Gaskins and told her, “I took care of my business.” When asked what he meant,
Coleman replied, “Bloop, bloop, two to the back of the head * * *. The bitch fell
like a rock,” while demonstrating at the same time what happened by physically
falling to the floor. After January 3, Coleman again talked with Gaskins and

Appendix A
Appx-0003

Case: 15-3442
No. 15-3442

Document: 51-2

Filed: 09/04/2020

Coleman v. Bradshaw

Page: 4
Page 4

disclosed to her that the murder occurred in an alley behind Riddle’s Ribs and that
he had slowed down while walking in order to shoot Stevens from behind.
After Coleman left Gaskins’s house that night, he went back to the Strodeses’
residence. Hope, Vera, and Fayette all testified that Coleman did not look normal
and was nervous. Vera testified that he was wearing a flannel shirt that had
cockleburs on it. Coleman told Fayette that he “had took care of it.” When she
asked what, he said “Melinda” and “twice in the head” because he “couldn’t do
that many years.”
On January 3, 1996, police interviewed Coleman after advising him of his rights.
Coleman asserted to police that sometime after 7:00 p.m. on January 2, Stevens
came to the house of Coleman’s daughter, next to Riddle’s Ribs, and asked him
for money to buy food for her children. Coleman told her he was not going to
give her money, but that he would walk over there and pay it for her. After going
to Riddle’s and paying for the food, Coleman stated that he left, did not see
Stevens again, and did not know she had been murdered.
Coleman later talked with Vera Strodes about the fact that people on the street
were saying that he shot Stevens. At first, Coleman denied shooting Stevens, but
later admitted to Vera that he “did take the bitch out.” While in jail awaiting trial,
Coleman described the murder to fellow inmate Antwan Warren, revealing that
while he was walking out of the restaurant with Stevens, he “slowed down his
step and shot her.”
Dr. Robert Stewart, a forensic pathologist, concluded that Stevens died as a result
of two gunshot wounds, one to the back of her head and one to the base of her
neck. The first bullet stopped at the front-left side of her brain. The second bullet
shattered the first vertebra and severed her spinal cord, traveled upward into the
sinus cavity, and lodged just under the cheek skin.
Because the weather stayed cold until mid-January, ice and snow remained on the
ground, hampering efforts to secure physical evidence at the murder scene. One
officer estimated that on January 3, there were two inches of ice and four inches
of closely packed snow in the alley. Eventually, on January 17, police officers
found two spent .380 caliber shell casings near a bloodstain remaining in the
alley.
A forensic expert identified the two bullets removed from Stevens’s body as .380
caliber bullets fired from an automatic or semiautomatic firearm, particularly
either a Colt government model or a Davis P-380. The Davis P-380 comes in
either steel or chrome models. Gunpowder residue on Stevens’s clothing
indicated that she had been shot from less than four feet away.
In May 1996, Coleman shared a prison cell with Steven L. Kasler, an inmate at an
Ohio correctional center. Coleman told Kasler that he was awaiting trial for
killing a drug informant named Melinda Stevens, and that he thought “if he killed
her * * * he could beat his drug charges.” Coleman said he shot Stevens twice in
the back of the head using a Davis P-380. He also told Kasler that he shot her in

Appendix A
Appx-0004

Case: 15-3442

Document: 51-2

No. 15-3442

Filed: 09/04/2020

Coleman v. Bradshaw

Page: 5
Page 5

an alley under “pretty severe, blizzard conditions” because he thought the weather
would hamper the investigation. He then disclosed to Kasler that he had gotten
rid of his gun and hidden his clothes in a doghouse in Fayette’s back yard. In
fact, police never found the murder weapon, but did recover from the Strodeses’
doghouse a tennis shoe and a flannel shirt identified as clothing that Coleman
wore on January 2.
Coleman, 707 N.E.2d at 480–82.
Following his direct appeal, Coleman unsuccessfully pursued postconviction relief in
state court. See State v. Coleman, 707 N.E.2d 476, 491 (Ohio 1999) (affirming convictions and
sentence on direct appeal); State v. Coleman, No. 2001-CA-42, 2002 WL 31242241, at *15
(Ohio Ct. App. Oct. 4, 2002) (affirming state trial court’s judgment that denied petitionerappellant’s petition for post-conviction relief), appeal denied, 784 N.E.2d 711 (Ohio Mar. 12,
2003) (table decision). While Coleman’s first petition for postconviction relief was pending
before the Ohio appellate court, he returned to the Ohio trial court and, on January 24, 2002,
filed a motion for relief from judgment, a motion for a new trial, and a successive petition for
postconviction relief, all raising the same two claims: (1) he was actually innocent, and (2) the
State withheld exculpatory evidence in violation of Brady v. Maryland, 373 U.S. 83 (1963). The
trial court overruled the motions and dismissed the petition without a hearing, State v. Coleman,
Nos. 95-CR-0484/96-CR-0142 (Ohio C.P. July 21, 2004), and the Ohio appellate court affirmed,
State v. Coleman, Nos. 04CA43/44, 2005 WL 1797040, at *8 (Ohio Ct. App. July 29, 2005),
appeal denied, 840 N.E.2d 203 (Ohio 2005) (table decision).
On August 22, 2003, Coleman filed his federal habeas petition, raising eight claims. The
magistrate judge issued an initial report, Coleman v. Bradshaw, No. 3:03-cv-299, 2012 WL
6002469, at *72 (S.D. Ohio Nov. 30, 2012), and a supplemental report, Coleman v. Bradshaw,
No. 3:03-cv-299, 2013 WL 3367092, at *16 (S.D. Ohio July 5, 2013), recommending in both
that Coleman’s petition be dismissed.

The district court adopted the magistrate judge’s

recommendation and denied the petition. Coleman v. Bradshaw, No. 3:03-cv-299, 2015 WL
1468279, at *4 (S.D. Ohio Mar 30, 2015). The district court granted a certificate of appealability
(COA) on two issues: (1) whether the prosecution withheld exculpatory evidence in violation of
Brady, and (2) whether Coleman’s trial counsel rendered ineffective assistance during the
penalty phase of the trial. Coleman timely appealed and moved this court to expand the COA,

Appendix A
Appx-0005

Case: 15-3442
No. 15-3442

Document: 51-2

Filed: 09/04/2020

Page: 6

Coleman v. Bradshaw

Page 6

but we denied his motion. Our review is therefore limited to Coleman’s Brady claim and his
ineffective-assistance-of-counsel claim.
II.
Because Coleman filed his federal petition in 2003,1 we apply the Antiterrorism and
Effective Death Penalty Act of 1996 (AEDPA), Pub. L. No. 104-132, 110 Stat. 1214, codified at
28 U.S.C. § 2254, et seq.; see Lindh v. Murphy, 521 U.S. 320, 326–27 (1997).

Claims

adjudicated on the merits in state court are barred in federal habeas proceedings unless the statecourt decision meets one of the exceptions outlined in 28 U.S.C. § 2254(d). Harrington v.
Richter, 562 U.S. 86, 98 (2011). Habeas relief may be granted if the state court judgment
(1) “was contrary to, or involved an unreasonable application of, clearly established [f]ederal
law, as determined by the Supreme Court of the United States” or (2) “was based on an
unreasonable determination of the facts in light of the evidence presented in the [s]tate court
proceeding.” 28 U.S.C § 2254(d).
In analyzing whether a state-court decision is contrary to or an unreasonable application
of federal law, we look only to clearly established Supreme Court precedent that existed when
the state court rendered its decision. Greene v. Fisher, 565 U.S. 34, 38 (2011). A state-court
decision is contrary to that precedent if the state court’s reasoning or result contradicts that
precedent. Early v. Packer, 537 U.S. 3, 8 (2002). And the state court unreasonably applies
clearly established law when it correctly identifies the governing legal rule but applies it
unreasonably to the facts. White v. Woodall, 572 U.S. 415, 426 (2014). The application must
have been “objectively unreasonable” such that the state court’s ruling “was so lacking in
justification that there was an error well understood and comprehended in existing law beyond
any possibility for fairminded disagreement.” Id. at 419–420 (quoting Harrington, 562 U.S. at
103).

1Coleman

filed his federal habeas corpus petition five months after he finished his first round of state
postconviction proceedings but while the second round was still pending in the Ohio trial court. The district court
did not issue a decision on Coleman’s petition until March 30, 2015, long after Coleman exhausted his second round
of state postconviction proceedings.

Appendix A
Appx-0006

Case: 15-3442
No. 15-3442

Document: 51-2

Filed: 09/04/2020

Page: 7

Coleman v. Bradshaw

Page 7

A.
Coleman’s Brady claim is based on evidence that William Sapp, a death row inmate,
confessed to killing Melinda Stevens. In April 1997, a month after Coleman was sentenced to
death for the murder of Stevens, police officers questioned Sapp about the unrelated murders of
two girls. Coleman, 2012 WL 6002469, at *19.2 Sapp later claimed that, during the interview
with the officers, he had confessed to killing Stevens. Id.
In July 1998—about a year after the interview—Sapp sent a letter to Uma Timmons
(“Sapp Letter”) while he was serving a sentence for feloniously assaulting, kidnapping, and
attempting to rape Timmons. Id. at *13. In his letter, Sapp threatened Timmons for testifying
against him and reminded her that he had killed her friend “over off of Pleasant.” Id.
In July 2001, while Coleman’s first petition for postconviction relief was pending before
the Ohio appellate court, he received a letter from an attorney not otherwise involved in
Coleman’s case. The attorney wrote: “I was told, by a person in a position to know, that another
prisoner on death row wishes to confess publicly to the murder for which you have been
convicted.” R. 231-16, PageID: 6049. One month later, Coleman’s attorney prepared for Sapp
an affidavit (“Sapp Affidavit”) in which Sapp swore (1) that he had killed Stevens and (2) that he
had confessed to the murder to police officers in April 1997.
Coleman relied on the Sapp Affidavit and the Sapp Letter to file a motion for relief from
judgment, a motion for a new trial, and a second petition for postconviction relief. The motions
and the petition raised the same two claims: (1) he was innocent based upon newly discovered
evidence showing that Sapp had confessed to murdering Stevens, and (2) the state violated Brady
when it failed to disclose evidence indicating Sapp was responsible for Stevens’s murder.
The Ohio trial court overruled the motions and dismissed the petition without a hearing,
State v. Coleman, Nos. 95-CR-0484/96-CR-0142 (Ohio C.P. July 21, 2004), and the Ohio court

2Sapp was convicted of and sentenced to death for the murders. See generally State v. Sapp, 822 N.E.2d
1239 (Ohio 2004).

Appendix A
Appx-0007

Case: 15-3442
No. 15-3442

Document: 51-2

Filed: 09/04/2020

Coleman v. Bradshaw

Page: 8
Page 8

of appeals affirmed, Coleman, 2005 WL 1797040, at *8 (Ohio Ct. App. July 29, 2005).3 The
Ohio appellate court first considered the Sapp Affidavit in the context of Coleman’s actualinnocence claim:
The trial court held that [Coleman’s] claim of actual innocence is wholly without
merit because it is founded upon Sapp’s affidavit, which lacks any credibility.
We find that in so holding the trial court did not abuse its discretion, as that term
is defined by law, in rejecting Sapp’s affidavit for lack of credibility. The court
noted that Sapp is a convicted double murderer who is under a sentence of death
and has nothing to lose by claiming responsibility for another murder. The timing
of Sapp’s affidavit also renders its validity suspicious, because it was prepared
and notarized by [Coleman’s] own attorney just two months after the trial court
had denied [Coleman’s] first post-conviction petition. The psychological report
on Sapp prepared by [a clinical psychologist] for use in his double murder case
mentions Sapp’s “chronic lying.”
Coleman, 2005 WL 1797040, at *5 (internal citation omitted).
The Ohio appellate court explained that the Sapp Affidavit was contradicted by the
overwhelming evidence of Coleman’s guilt that was presented at trial:
Sapp’s claim that he was with Melinda Stevens minutes before he killed her is
contradicted not only by [Coleman] himself, who admitted to police that he was
with Stevens at Riddles Ribs moments before she was shot, but also by the
testimony of Christopher Holtz, who saw [Coleman] and Stevens leave Riddles
Ribs together and walk into the alley behind Riddles Ribs. Moments later, Holtz
heard gunshots. Furthermore, no less than seven witnesses testified at
[Coleman’s] trial, his friends and jail buddies, about how [Coleman] bragged that
he was going to kill Stevens for her role in his being arrested and charged with
drug offenses, and then, after the fact, about how he had killed Stevens.
Id. at *6. Finally, the Ohio appellate court held that “the trial court could reasonably reject
Sapp’s affidavit for lack of credibility, as it did, because while the evidence at trial shows that
[Coleman] had ample motive and opportunity to kill Stevens, Sapp’s affidavit fails to believably
portray either.” Id.

3Coleman

argues that the Ohio trial court’s failure to conduct a hearing resulted in a decision that was
based on an unreasonable determination of the facts, see 28 U.S.C. § 2254(d)(2), and AEDPA deference should not
apply. But an evidentiary hearing is not required for AEPDA deference to apply. Rather § 2254(d) “applies to
factual determinations made by state courts, whether the court be a trial court or an appellate court.” Sumner v.
Mata, 449 U.S. 539, 547 (1981). We therefore afford AEDPA deference to the Ohio appellate court’s decision.

Appendix A
Appx-0008

Case: 15-3442
No. 15-3442

Document: 51-2

Filed: 09/04/2020

Page: 9

Coleman v. Bradshaw

Page 9

The Ohio appellate court then reached Coleman’s Brady claim and dealt with the Sapp
Affidavit in a single sentence: “As we previously discussed, the trial court properly rejected
Sapp’s affidavit because it lacks any credibility.” Id. at *7. The court found that the Sapp Letter
did not constitute Brady material because the letter failed to identify the victim, so the jury
would have to speculate whether Sapp was referring to Stevens’s murder.

Id. The Ohio

appellate court therefore held that the Sapp Letter was “simply too indefinite in its nature to be
material to [Coleman’s] guilt or innocence with respect to the killing of Melinda Stevens.” Id.
We agree with the district court that the decision of the Ohio court of appeals neither
contravened nor unreasonably applied clearly established Supreme Court precedent.

See

Coleman, 2015 WL 1468279, at *4; Coleman, 2012 WL 6002469, at *24. The state must
disclose evidence that is favorable to the accused and material to guilt or punishment. See
Brady, 373 U.S. at 87. Evidence is favorable if it is either exculpatory or impeaching. See
Strickler v. Greene, 527 U.S. 263, 281–82 (1999). “The evidence is material only if there is a
reasonable probability that, had the evidence been disclosed to the defense, the result of the
proceeding would have been different. A ‘reasonable probability’ is a probability sufficient to
undermine confidence in the outcome.” United States v. Bagley, 473 U.S. 667, 682 (1985). In
other words, evidence is material if the state’s failure to reveal exculpatory evidence was
prejudicial to the defendant. See Strickler, 527 U.S. at 289, 296. The defendant thus bears the
burden of proving that “(1) the withheld evidence was favorable to the petitioner, (2) the
evidence was suppressed by the government, and (3) the petitioner suffered prejudice.” Jells v.
Mitchell, 538 F.3d 478, 501 (6th Cir. 2008) (citing Strickler, 527 U.S. at 281–82.).
The Warden argues that Brady does not apply to Sapp’s April 1997 confession or to
Sapp’s July 1998 letter because both came into existence after Coleman was sentenced in
February 1997. The Warden points to the lack of any clearly established Supreme Court
precedent in 1997 that extended Brady’s obligations to postconviction settings. Indeed, in
District Attorney’s Office v. Osborne, 557 U.S. 52, 67–69 (2009), the Supreme Court rejected a
petitioner’s claim to a due process right to DNA testing in postconviction proceedings. The
Supreme Court explained “that nothing in our precedents suggest[] that [Brady’s] disclosure
obligation continue[s] after the defendant [is] convicted and the case [is] closed.” Id. at 68. The

Appendix A
Appx-0009

Case: 15-3442
No. 15-3442

Document: 51-2

Filed: 09/04/2020

Coleman v. Bradshaw

Page: 10
Page 10

Warden therefore argues that “the state courts would have been entitled to reject Coleman’s
Brady claim on purely legal grounds.” Resp’t’s Br. at 73.
But the Ohio courts did apply Brady, see Coleman, 2005 WL 1797040, at *1, *7;
Coleman, Nos. 95-CR-0484/96-CR-0142 (Ohio C.P. July 21, 2004), and AEDPA requires this
court to review the actual grounds on which the state court relied, see Wilson v. Sellers, 138 S.
Ct. 1188, 1192 (2018). And the Ohio courts’ application of Brady was neither contrary to nor an
unreasonable application of, clearly established Supreme Court precedent. In 2005, some federal
courts extended Brady’s disclosure obligation to the postconviction setting. See, e.g., Leka v.
Portuondo, 257 F.3d 89, 100 (2d Cir. 2001); Smith v. Roberts, 115 F.3d 818, 820 (10th Cir.
1997).

And Osborne, does not forbid a state court’s application of Brady to posttrial

proceedings.
Nonetheless, Coleman’s Brady claim fails to overcome the AEDPA bar. The Ohio
appellate court reasonably determined that the Sapp Letter was not material. As the Ohio court
explained, the Sapp Letter failed to identify a victim; jurors would necessarily have had to
speculate about whether the letter referred to Stevens. Hence, Coleman failed to establish a
reasonable probability that, had the Sapp Letter been promptly disclosed to the defense in July
1998, a different jury would have reached a different result.
Coleman does not contend that the state should have disclosed the Sapp Affidavit. After
all, it was not the state but Coleman’s attorney who obtained the affidavit from Sapp in August
2001. The affidavit itself is therefore not Brady evidence: It is evidence of alleged Brady
evidence (i.e., evidence of Sapp’s April 1997 confession). The Ohio appellate court determined
that the Sapp Affidavit lacked any credibility; the necessary implication is that Coleman failed to
establish that Sapp’s April 1997 confession ever occurred. Because Coleman failed to establish
that there was any Brady evidence, he necessarily failed to establish that the state suppressed
such evidence.
The state court reasonably rejected Coleman’s Brady claim.

The holding neither

contradicted or unreasonably applied clearly established Supreme Court precedent nor was it

Appendix A
Appx-0010

Case: 15-3442
No. 15-3442

Document: 51-2

Filed: 09/04/2020

Coleman v. Bradshaw

Page: 11
Page 11

based on an unreasonable determination of the facts. Coleman’s Brady claim is barred from
federal review.
B.
We turn to Coleman’s claim that his counsel was ineffective in the penalty phase of his
trial (“IAC-mitigation claim”). Under Strickland v. Washington, 466 U.S. 668, 687 (1984),
Coleman had to show both that his counsel’s performance was constitutionally deficient and that
this deficiency prejudiced him. “The combined effect of Strickland and [AEDPA] is ‘doubly
deferential’ review.” Foust v. Houk, 655 F.3d 524, 533 (6th Cir. 2011) (quoting Cullen v.
Pinholster, 563 U.S. 170, 190 (2011)).

“The question is whether there is any reasonable

argument that counsel satisfied Strickland’s deferential standard.” Harrington, 562 U.S. at 105.
The Ohio state courts considered Coleman’s IAC-mitigation claim on the merits. The
Ohio Supreme Court held this claim meritless on direct appeal, summarizing the mitigation
testimony this way:
In mitigation, Coleman presented the testimony of his father, who stated that
[Coleman] was “pretty much like any other kid.” He testified that Coleman had
been active in Boy Scouts and in sports, was generally obedient but somewhat
“hardheaded” at times. [Coleman] had a normal childhood, and nothing in his
father's testimony suggests strong mitigating factors as to [Coleman’s] history,
character, and background. The defense presented no other evidence, and
Coleman neither testified nor made an unsworn statement.
Coleman, 707 N.E.2d at 490 (paragraph break omitted).
Coleman raised the claim again in his first round of postconviction proceedings,
submitting affidavits from several witnesses. See Coleman, 2002 WL 31242241, at *7–11. The
Ohio trial court denied the claim solely on Strickland’s prejudice prong. Coleman, 96-CR-0142;
see Strickland, 466 U.S. at 697 (“[A] court need not determine whether counsel’s performance
was deficient before examining the prejudice suffered by the defendant as a result of the alleged
deficiencies.”). The Ohio appellate court fully reviewed the trial court’s decision and affirmed.
Coleman, 2002 WL 31242241, at *7–10.

Appendix A
Appx-0011

Case: 15-3442
No. 15-3442

Document: 51-2

Filed: 09/04/2020

Coleman v. Bradshaw

Page: 12
Page 12

We afford double deference to the Ohio appellate court’s decision, the last reasoned state
court decision on the issue, see Shimel v. Warren, 838 F.3d 685, 696 (6th Cir. 2016), and ask
whether trial counsel’s performance prejudiced Coleman in the sentencing phase of his trial.4
We ask whether the state court evaluated the totality of the available mitigation evidence—both
that adduced at trial and the evidence adduced in the post-conviction-relief proceeding—and reweighed it against the evidence in aggravation, Williams v. Taylor, 529 U.S. 362, 397–98 (2000),
to determine whether there was “a reasonable probability that, but for counsel’s unprofessional
errors, the result of the proceeding would have been different,” Strickland, 466 U.S. at 694.
“The likelihood of a different result must be substantial, not just conceivable.” Harrington,
562 U.S. at 112.5
Coleman makes several subclaims to support his IAC-mitigation argument. Specifically,
Coleman argues that he was prejudiced by counsel’s failure to adequately prepare the only
mitigation witness to testify at trial and by counsel’s failure to present testimony from certain
family members and his girlfriends. He goes on to argue that competent counsel would have
presented evidence of his good behavior and his employment, as well as testimony from cultural

4Coleman

argues that he is entitled to a presumption of prejudice because his counsel’s performance was so
deficient that counsel was “effectively absent during mitigation.” Pet’r’s Br. at 64. To be sure, a petitioner might be
entitled to such a presumption if “counsel entirely fails to subject the prosecution’s case to meaningful adversarial
testing.” Bell v. Cone, 535 U.S. 685, 696 (2002) (quoting United States v. Cronic, 466 U.S. 648, 659 (1984)).
But the presumption of prejudice applies only when there is a complete denial of counsel, Cronic, 466 U.S. at 659,
or when counsel entirely fails to subject the prosecution’s case to adversarial testing, Bell, 535 U.S. at 696.
A petitioner is not entitled to a presumption of prejudice because his counsel was deficient “at specific points” of the
proceeding. Id. at 697. Here, Coleman’s father testified at the penalty phase of the trial. Coleman is therefore not
entitled to a presumption of prejudice because he was not completely denied counsel during the mitigation phase.
Nor did his counsel fail to oppose the prosecution throughout the sentencing proceeding.
magistrate judge’s reports and recommendations, see Coleman, 2012 WL 6002469, at *55–57,
supplemented, 2013 WL 3367092, at *5, and the district court’s opinion and order, see Coleman, 2015 WL 1468279,
at *1–4, conduct an independent inquiry into whether Coleman showed ineffective assistance under Strickland’s
two-prong test and therefore step outside of AEDPA’s deferential standard of review. See Schriro v. Landrigan, 550
U.S. 465, 473 (2007) (“The question under AEDPA is not whether a federal court believes the state court’s
determination was incorrect but whether that determination was unreasonable . . . .”). We therefore give no weight to
the district court’s determination that Coleman’s trial counsel was constitutionally deficient, see Coleman, 2015 WL
1468279, at *1–4; Coleman, 2012 WL 6002469, at *56–57, because the state court reasonably denied Coleman’s
IAC-mitigation claim solely on Strickland’s prejudice prong.
5The

Appendix A
Appx-0012

Case: 15-3442
No. 15-3442

Document: 51-2

Filed: 09/04/2020

Coleman v. Bradshaw

Page: 13
Page 13

and psychological experts. Finally, Coleman asserts that counsel was constitutionally ineffective
by failing to deliver a cogent closing argument.6
Failure to prepare the only mitigation witness: Coleman argues that his counsel was
constitutionally deficient in failing to prepare Coleman’s father, the mitigation witness, for his
testimony at the penalty phase. See Hamblin v. Mitchell, 354 F.3d 482, 491–94 (6th Cir. 2003).
Coleman fails to assert what his father would have testified to had he been better prepared and
thus fails to establish how he might have been prejudiced by any lack of preparation. We find
this subclaim meritless.
Testimony from Coleman’s mother, sister, and girlfriends: Coleman argues that his trial
counsel should have presented the testimony of his mother, his sister, and his girlfriends (i.e., the
three mothers of his five children). He says that his mother would have testified that he “was a
loving son and that he had suffered from dyslexia as a child, which in turn affected his
academics.” R. 170, PageID: 1966. Coleman’s trial counsel asked Coleman’s father about his
son’s mother at the penalty phase. Coleman’s father said the mother was present but that she
was too upset to testify. The Ohio appellate court held that counsel “can hardly be faulted for
not calling [Coleman’s mother] to the stand after she indicated she was too upset to testify.”
Coleman, 2002 WL 31242241, at *8.
Coleman says that his sister would have testified that he was a loving and protective older
brother. The Ohio court held that the sister’s testimony “was merely cumulative to that of her
father’s and there was no likelihood that the outcome of the sentencing hearing would have been
different if counsel had presented her testimony.” Id.

6Coleman

also argues that his trial counsel exhibited racial animus toward him and was merely going
through the motions of his trial. He presented this argument to prove that he was denied effective assistance of
counsel in the guilt phase of his trial, as well as the penalty phase. The magistrate judge analyzed this evidence only
in the context of Coleman’s IAC claim in the guilt phase. See Coleman, 2012 WL 6002469, at *41. The district
court addressed the argument in the context of the penalty phase but ultimately dismissed Coleman’s claim. See
Coleman, 2015 WL 1468279, at *2. Coleman failed to develop the argument on appeal, making only passing
reference to it in his brief. We therefore decline to address this argument further. See McPherson v. Kelsey,
125 F.3d 989, 995 (6th Cir. 1997) (explaining that “[i]ssues adverted to in a perfunctory manner, unaccompanied by
some effort at developed argumentation, are deemed waived.”).

Appendix A
Appx-0013

Case: 15-3442
No. 15-3442

Document: 51-2

Filed: 09/04/2020

Page: 14

Coleman v. Bradshaw

Page 14

Coleman also argues that his trial counsel should have presented the testimony of his five
children’s three mothers who would have testified that he was a responsible, loving father. The
Ohio appellate court determined that the trial court properly rejected this subclaim:
[T]rial counsel may not have wished to diminish the poignant testimony of
Coleman’s father with the testimony of the women who Coleman had
impregnated but never married. [T]o show prejudice from counsel’s failure to
present mitigating evidence there must be a reasonable probability that the
evidence would have swayed the jury to impose a life sentence. State v. Keith,
[684 N.E. 47, 65 (Ohio 1997) (citing Strickland, 466 U.S. at 687))].
Id. at *7.7
The state court reasonably determined that Coleman was not prejudiced by the lack of
testimony from his mother, sister, and his children’s mothers. We agree with the district court’s
conclusion that
[t]he majority of the information contained within the affidavits offered during
postconviction was either cumulative (that he was a loving person) or did not rise
to the level that a reasonable jurist would have found that it outweighed the
aggravating circumstance. While [Coleman] may have been a responsible and
loving father to his children (although one doubts a jury would have found him
responsible in having five children by three different women), he was found
guilty of killing a mother of five. Likewise, testimony of a learning disorder in
school would not likely have weighed strongly on the jury in balancing mitigation
and the aggravating circumstances.
Coleman, 2012 WL 6002469, at *58; see also Hill v. Mitchell, 400 F.3d 308, 319 (6th Cir. 2005)
(“[I]n order to establish prejudice, the new evidence that a habeas petitioner presents must differ
in a substantial way—in strength and subject matter—from the evidence actually presented at
sentencing.”).
Evidence of Coleman’s good behavior while incarcerated: Coleman argues his trial
counsel failed to present evidence of his good behavior while incarcerated. See Skipper v. South
Carolina, 476 U.S. 1, 4–5 (1986). He contends that one of the deputy sheriffs who transported
Coleman from his jail cell to the courtroom during his trial would have testified that: “At no time
7One

of the three mothers who submitted an affidavit was Dana Strodes. In 1992, Strodes told police that
Coleman had shot her. Coleman, 2002 WL 31242241, at *7. As the state court pointed out, the prosecution could
have presented this evidence if Coleman’s counsel had called Strodes to testify. Id.

Appendix A
Appx-0014

Case: 15-3442
No. 15-3442

Document: 51-2

Filed: 09/04/2020

Page: 15

Coleman v. Bradshaw

Page 15

during the six day trial did I observe Mr. Coleman misbehave or present any kind of resistance
while under my supervision,” and that “no special security [was] required for Mr. Coleman
during this time.” R. 231-10, PageID: 4969.
The state court reasonably held that even if counsel had presented the testimony of the
deputy sheriff, “there is no reasonable probability that the jury’s sentence would have been
different.”

Coleman, 2002 WL 31242241, at *10. We agree with the magistrate judge’s

explanation that “six days of good behavior while on trial for one’s life is hardly very persuasive
mitigation evidence,” see Coleman, 2013 WL 3367092, at *6, and note the district court’s
observation that presenting such testimony might have reminded jurors that, while incarcerated
for his drug-trafficking charges, Coleman recruited a fellow inmate to help “take care” of
Melinda Stevens, Coleman, 2012 WL 6002469, at *1, *63; see Coleman, 2015 WL 1468279, at
*3. It is therefore not reasonably probable that introduction of this evidence would have changed
the result of Coleman’s trial.
Evidence of Coleman’s employment: Coleman submitted employment records indicating
that he worked in a factory for almost three months, from November 13, 1995 until February 5,
1996. He contends that these employment records would have shown jurors that he “was a good
worker and was making an attempt to lead a crime-free life.” R. 9, PageID: 22. The Ohio
appellate court affirmed the trial court’s finding that “nothing in the claim . . . suggested a
reasonable possibility that the sentence imposed upon Coleman would have been different had
this mitigation evidence been presented.” Coleman, 2002 WL 31242241, at *10.
The state court’s holding was reasonable. Coleman’s employment records “reflect an
employment period of three months and contain mediocre reviews, absenteeism, and tardiness.”
Coleman, 2012 WL 6002469, at *59. Coleman therefore cannot show prejudice based on the
employment records.
Evidence from a cultural expert: Coleman faults his trial counsel for failing to present a
cultural expert. In his federal habeas petition, Coleman explained that:
[e]vidence from a cultural expert . . . would have helped the jury understand why
[Coleman] turned to a life of drug dealing, despite the fact that he had a stable

Appendix A
Appx-0015

Case: 15-3442

Document: 51-2

Filed: 09/04/2020

Page: 16

Coleman v. Bradshaw

No. 15-3442

Page 16

family life, due to the myriad of problems and unique cultural pressures facing
young black males in urban environments.
R. 9, PageID: 22. Coleman supported this subclaim, not with affidavits from cultural experts,
but with affidavits from his mother and father.

The Ohio appellate court held that such

testimony would neither mitigate the fact that Coleman executed the mother of five children nor
overcome the aggravating circumstances presented by the prosecution. Coleman, 2002 WL
31242241, at *10.

The district court likewise determined that the subclaim was “purely

speculative,” Coleman, 2013 WL 3367092, at *6, because Coleman “fails to offer any support as
to what this expert may have testified to,” Coleman, 2012 WL 6002469, at *59.
In this appeal, Coleman significantly expands the cultural-expert subclaim. Coleman
argues that a cultural expert could have explained that a hatred of “snitching” is “seared in the
culture” of drug-trafficking communities and that young African-American males living in such
communities are pressured to “facilitate [the community’s] secrecy, and, especially, not snitch.”
Pet’r’s Br. at 54–56. Rather than relying on his mother’s and father’s affidavits, Coleman’s
appellate brief cites to various scholarly articles for support. See id. at 56–57. We decline to
consider the merits of Coleman’s expanded argument because it was not raised in Coleman’s
federal habeas petition and was not included in the COA. See Coley v. Bagley, 706 F.3d 741,
755 (6th Cir. 2013). We agree with the district court’s conclusion that Coleman’s cultural-expert
subclaim is speculative and cannot show prejudice.
Evidence from psychological experts: Coleman argues that his counsel was ineffective
because he failed to present expert psychological testimony. Trial counsel retained a clinical
psychologist—Dr. Erhard O. Eimer—to evaluate Coleman but did not present his testimony. See
Coleman, 2002 WL 31242241, at *8–9. In his postconviction proceedings, Coleman presented
Dr. Eimer’s affidavit, which gives the findings Dr. Eimer made at the time of Coleman’s trial.
Dr. Eimer found that Coleman “tends to be rigid and moralistic” and that “[w]hen he feels
threatened, he may react with self-righteous indignation and complain that he has been wronged.
He typically does not assume responsibility for his problems, and he tends to blame others or to
rationalize his faults.”

R. 231-10, PageID: 5044.

Dr. Eimer diagnosed Coleman with

Compulsive Personality Disorder but noted that “[t]he diagnostic indicators emerging from Mr.

Appendix A
Appx-0016

Case: 15-3442
No. 15-3442

Document: 51-2

Filed: 09/04/2020

Coleman v. Bradshaw

Page: 17
Page 17

Coleman’s tests counterindicate any other personality disorder, particularly those associated with
a tendency to engage in violent crimes.” Id. at 5047. Dr. Eimer concluded that Coleman’s
“exceptionally clear profile definition obtained on his personality inventories . . . allows the very
definitive conclusion that Mr. Coleman does not have a propensity toward violent crime, and that
he is not a person who would have committed such a crime.” Id.8
The Ohio appellate court found that it was reasonable for counsel not to put Dr. Eimer on
the stand because “his opinion was not admissible”9 and, further, his testimony “would have
alienated the jury given the doctor’s opinion that Coleman’s personality was inconsistent with
violent conduct.” Coleman, 2002 WL 31242241, at *9. The state court also explained that
because of “Dr. Eimer’s views that Coleman typically blames others for his conduct it is doubtful
Dr. Eimer’s testimony would have been helpful.” Id.
The district court focused on the aspects of Dr. Eimer’s report that would have been
“detrimental to the defense,” pointing to the same language that the state court relied on:
“[W]hen . . . [Coleman] feels threatened, he may react with self-righteous indignation and
complain that he has been wronged.

He typically does not assume responsibility for his

problems and tends to blame others or to rationalize his faults.” Coleman, 2012 WL 6002469, at
*59 (third alteration in original).10 The district court explained that “[t]his line falls squarely into
the [s]tate’s theory of motive, that Coleman murdered Stevens in an attempt to prevent her from
testifying at his drug trafficking trial, as she ‘snitched’ on him, and he could not do that much

8Coleman

also included an affidavit from licensed psychologist, Dr. Franklin D. Hurt. Dr. Hurt examined
Coleman in October 1997 and reached a similar, albeit less definite, conclusion: “While it is certainly impossible to
predict what a human being is capable of doing in the past or in the future it would seem very unlikely an individual
with Mr. Coleman’s personal history, and psychological ‘make-up’ would be able to kill somebody in an ‘execution
style’ slaying.” R. 231-10, PageID: 5062.
9Under

Ohio case law, an expert witness’s opinion regarding the “credibility and veracity of witnesses” is
inadmissible. See State v. Moreland, 552 N.E.2d 894, 899 (Ohio 1990); State v. Boston, 545 N.E.2d 1220, 1240
(Ohio 1989), overruled on other grounds by State v. Dever, 596 N.E.2d 436 (Ohio 1992). Therefore, Dr. Eimer’s
opinion that “[Coleman] is not a person who would have committed [a violent] crime,” R. 231-10, PageID: 5047,
was most likely inadmissible as an improper expert opinion.
10The

district court pointed to other negative aspects of the report, which indicated that Coleman was
psychologically maladjusted; “overly sensitive to criticism”; “highly suspicious of other people”; “constantly on
guard to prevent being taken advantage of”; and “argumentative.” Coleman, 2012 WL 6002469, at *59.

Appendix A
Appx-0017

Case: 15-3442

Document: 51-2

No. 15-3442

Filed: 09/04/2020

Page: 18

Coleman v. Bradshaw

Page 18

time.” Id. The district court therefore concluded that the state court’s finding of no prejudice
was entitled to deference. See id.
Coleman’s briefing before the district court emphasized Dr. Eimer’s conclusion that
Coleman “lacked the psychological propensity to commit the charged capital crime.” R. 9,
PageID: 23; R. 170, PageID: 1970–71, 1982. On appeal, Coleman highlights the portion of Dr.
Eimer’s report that explained that Coleman was plagued “by an anxious conformity to the
expectations of others” and that he defended against “feelings of personal inadequacy and
insecurity” with “excessive conformity.” Pet’r’s Br. at 58. Coleman then points to Ohio Rev.
Code § 2929.04(B)(2), which provides that juries should consider as a mitigating factor
“[w]hether it is unlikely that the offense would have been committed, but for the fact that the
offender was under duress, coercion, or strong provocation[.]” Coleman argues that Dr. Eimer’s
excessive-conformity testimony supports the claim that Coleman was under “duress” or “strong
provocation,” see Ohio Rev. Code § 2929.04(B)(2), because of the hatred of “snitching” within
his drug-trafficking community. Pet’r’s Br. at 54–56. In other words, Coleman argues that the
jury could have “compassionately view[ed]” him as a “characteristically non-violent person”
who “excessively conform[ed]” to cultural pressure to loathe snitches and that he was strongly
provoked by “the victim’s own audacious behavior in secretly betraying [Coleman].” Pet’r’s Br.
58–59.
Although Coleman’s trial counsel relied on § 2929.04(B)(2)’s mitigating factor during his
closing argument, Coleman did not present his snitching-as-provocation argument to the district
court. As we have explained, Coleman “may not argue here what he did not argue there.” See
Coley, 706 F.3d at 755. Further, we agree with the district court’s conclusion that Coleman
failed to show prejudice from the exclusion of Dr. Eimer’s testimony at Coleman’s trial.
Closing argument: In his final subclaim, Coleman argues that his trial counsel was
ineffective in failing to present a cogent and appropriate closing argument at the sentencing
phase. The Ohio appellate court found that even if it were true that Coleman’s counsel failed to
present an adequate closing argument, it “did not suggest a probability that the outcome of
Coleman’s trial would be different had counsel acted as Coleman claimed they should have.”
Coleman, 2002 WL 31242241, at *11.

Appendix A
Appx-0018

Case: 15-3442

Document: 51-2

No. 15-3442

Filed: 09/04/2020

Page: 19

Coleman v. Bradshaw

Page 19

In his federal habeas petition, Coleman argues that the closing argument was deficient
because counsel “utterly failed to present any mitigating evidence.” R. 170, PageID: 1973.
However, Coleman failed to give specifics as to what arguments his trial counsel should have
made. On appeal, Coleman suggests several arguments, but they were not presented to the
district court and we decline to consider them here. See Coley, 706 F.3d at 755. We also note
the district court’s finding that counsel asked the jury to consider Coleman’s state of mind and to
consider mercy in the sentencing decision. Coleman, 2012 WL 6002469, at *62. Accordingly,
we find this subclaim meritless.11
The state court evaluated the totality of the mitigation evidence and reweighed it against
the evidence in aggravation to reasonably conclude that Coleman experienced no prejudice from
his counsel’s conduct. This claim is therefore barred from federal review.
III.
For the forgoing reasons, we AFFIRM the judgment of the district court.

Coleman rightly points out that the prejudicial impact of counsel’s alleged errors must be reviewed in
the aggregate. See Williams v. Taylor, 529 U.S. 362, 397–98 (20000. However, the proposed mitigating evidence
that Coleman has both preserved and shown to have been available for presentation in state court—his sister’s and
his children’s mother’s testimony; evidence of his good behavior while incarcerated for six days; and employment
records containing mediocre reviews, absenteeism, and tardiness—convince us that there is a reasonable argument
that counsel satisfied Strickland’s deferential standard.
11

Appendix A
Appx-0019

Case: 15-3442

Document: 55-1

Filed: 10/21/2020

Page: 1

No. 15-3442
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

TIMOTHY L. COLEMAN,

FILED

Oct 21, 2020
DEBORAH S. HUNT, Clerk

)
)
)
)
)
)
)
)
)
)
)
)

Petitioner-Appellant,
v.
MARGARET BRADSHAW, WARDEN,
Respondent-Appellee.

ORDER

BEFORE: BATCHELDER, GRIFFIN, and BUSH, Circuit Judges.

The court received a petition for rehearing en banc. The original panel has reviewed the
petition for rehearing and concludes that the issues raised in the petition were fully considered
upon the original submission and decision of the case. The petition then was circulated to the full
court. No judge has requested a vote on the suggestion for rehearing en banc.
Therefore, the petition is denied.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

Appendix B
Appx-0020

Coleman v. Bradshaw
United States District Court for the Southern District of Ohio, Eastern Division
March 30, 2015, Decided; March 30, 2015, Filed
CASE NO. 3:03-CV-299
Reporter
2015 U.S. Dist. LEXIS 41324 *; 2015 WL 1468279

TIMOTHY L. COLEMAN, PETITIONER, v. MARGARET BRADSHAW, WARDEN, RESPONDENT.

Subsequent History: Request denied by Coleman v. Bradshaw, 2018 U.S. App. LEXIS 28518 (6th Cir.,
Oct. 9, 2018)
Motion denied by Coleman v. Bradshaw, 2019 U.S. App. LEXIS 11847 (6th Cir., Apr. 22, 2019)
Affirmed by Coleman v. Bradshaw, 974 F.3d 710, 2020 U.S. App. LEXIS 28243 (6th Cir. Ohio, Sept. 4,
2020)
Stay granted by Coleman v. Bradshaw, 2020 U.S. App. LEXIS 34132 (6th Cir., Oct. 28, 2020)

Prior History: Coleman v. Bradshaw, 2013 U.S. Dist. LEXIS 94269 (S.D. Ohio, July 5, 2013)

Counsel: [*1] For Timothy L Coleman, Petitioner: John Patrick Parker, Timothy F Sweeney, LEAD
ATTORNEYS, Cleveland, OH.
For Warden Margaret Bradshaw, Respondent: Stephen E. Maher, LEAD ATTORNEY, Thomas E
Madden, Office of the Ohio Attorney General, Columbus, OH.
For BCI Records Custodian, Material Witness: Maura O'Neill Jaite, LEAD ATTORNEY, Ohio Attorney
General's Office, Columbus, OH.

Judges: EDMUND A. SARGUS, JR., CHIEF UNITED STATES DISTRICT JUDGE. MAGISTRATE
JUDGE MICHAEL R. MERZ.

Appendix C
Appx-0021

Page 2 of 6
2015 U.S. Dist. LEXIS 41324, *1

Opinion by: EDMUND A. SARGUS, JR.

Opinion

OPINION AND ORDER
The undersigned has carefully reviewed the Report and Recommendation together with the Supplemental
Report and Recommendation issued by the Magistrate Judge. This Court ADOPTS as its Opinion and
Order these two Reports and Recommendations. While reaching the same conclusions contained in these
two documents, the Court adds the following analysis.

I.
The Magistrate Judge found that Petitioner's trial counsel was constitutionally deficient in the
investigation and presentation of mitigating evidence in the second phase of the trial. (Report and
Recommendation, p. 76-101.) Nonetheless, the Magistrate Judge concluded that the error was harmless,
thereby denying Petitioner any right to relief from [*2] this Court.
The Government's case centered upon the theory that the victim, Melinda Stevens, was killed by
Petitioner ("Coleman") to prevent her from testifying against him in a substantial drug trafficking case.
While obvious, the mitigation phase of the case began after the jury first concluded that Petitioner had
killed a mother of five to silence her testimony against him.
The Magistrate Judge first found that trial counsel was deficient in failing to conduct a thorough
investigation into mitigation evidence. The defense did not present a mental health professional, did not
call the defendant's mother, sister or three mothers of his five children. The defense did not call as a
witness a deputy sheriff, who would have testified that Petitioner was on good behavior while awaiting
trial. Nor did a retained expert investigate potential alibi defenses or explore other suspects. Finally,
another client of the defense counsel averred that the attorney referred to the Petitioner as "a typical stupid
nigger" and the counsel 'just went through the motions" in presenting the case. Nonetheless, the
Magistrate Judge concluded that the Petitioner, having proven ineffective assistance of counsel, [*3] had
failed to establish harm.

II.
In Strickland v. Washington, 466 U.S. 668, 687, 104 S. Ct. 2052, 80 L. Ed. 2d 674 (1984), the Supreme
Court set forth the controlling law in this case:
A convicted defendant's claim that counsel's assistance was so defective as to require reversal of a
conviction or death sentence has two components. First, the defendant must show that counsel's
performance was deficient. This requires showing that counsel was not functioning as the "counsel"
guaranteed the defendant by the Sixth Amendment. Second, the defendant must show that the

Appendix C
Appx-0022

Page 3 of 6
2015 U.S. Dist. LEXIS 41324, *3

deficient performance prejudiced the defense. This requires showing that counsel's errors were so
serious as to deprive the defendant of a fair trial, a trial whose result is reliable. Unless a defendant
makes both showings, it cannot be said that the conviction or death sentence resulted from a
breakdown in the adversary process that renders the result unreliable.
466 U.S. at 687.
To establish ineffective assistance of counsel, Strickland also directs:
Judicial scrutiny of counsel's performance must be highly deferential . . . . A fair assessment of
attorney performance requires that every effort be made to eliminate the distorting effects of
hindsight, to reconstruct the circumstances of counsel's challenged conduct, and to evaluate the
conduct [*4] from counsel's perspective at the time. Because of the difficulties inherent in making the
evaluation, a court must indulge a strong presumption that counsel's conduct falls within a wide range
of reasonable professional assistance; that is, the defendant must overcome the presumption that,
under the circumstances, the challenged action "might be considered sound trial strategy."
466 U.S. at 689.
Finally, the Supreme Court reasoned:
The defendant must show that there is a reasonable probability that, but for counsel's unprofessional
errors, the result of the proceeding would have been different. A reasonable probability is a
probability sufficient to overcome confidence in the outcome.
466 U.S. at 694.

III.
This Court first looks to each singular claim of ineffective assistance of counsel and then considers the
entirety of all claims to determine if counsel was constitutionally ineffective, and, if so, whether such
conduct prejudiced the Petitioner.
The Court begins with the claim that defense counsel referred to Coleman as "a typical stupid nigger" and
stated that the attorney was merely going through the motions of trial. The sole source of this claim is the
affidavit of a John Stojetz, himself a client of the same [*5] attorney. State of Ohio v. Coleman, 2002Ohio-5377, 2002 WL 31242241, p. 7 (Ohio App. 2 Dist. 2002) Coleman Apx., Vol. 20, page 181. At the
time the affidavit of Stojetz was made, Stojetz was himself on death row. Further, defense counsel
"emphatically denied all of Stojetz's allegations." Id. The state trial court noted that defense counsel
averred that he worked between three hundred fifty to four hundred hours on the case. Id. In a ruling
affirmed by the state court of appeals, the trial court, having observed the conduct of the case, refused to
credit Stojetz's affidavit, concluding that he was on death row, had the same attorney, and had a motive to
further his interests in making the affidavit. Id. The Magistrate Judge noted that the decision of the state
courts was "neither contrary to law nor an unreasonable application of Strickland." (Report and
Recommendation, p. 68.) This Court agrees.
In mitigation, the defense presented no testimony from a mental health care expert. The record is clear,
however, that a Doctor Earhard Eimer, a clinical psychologist, was retained prior to trial. (Record Volume
8, p. 67-71.) Dr. Eimer interviewed Coleman on four separate occasions and conducted three clinical tests.

Appendix C
Appx-0023

Page 4 of 6
2015 U.S. Dist. LEXIS 41324, *5

His report described the fact [*6] that Coleman grew up in an intact family. Dr. Eimer diagnosed a
Compulsive Personality Disorder and noted that Coleman blames others for his conduct. Id. He also
concluded that, "Mr. Coleman does not have a propensity toward violent crime, and that he is not a person
who would have committed such a crime."
At trial, the defense counsel declined the opportunity to call Dr. Eimer. The trial court queried Coleman's
attorney, after noting that the state court had authorized payment to Eimer. (Transcript, Vol. 8, p. 1297.)
The trial court later found that decision not to call Dr. Eimer was professionally reasonable. Dr. Eimer's
view that Coleman would not have committed such a crime was diametrically opposed to the first verdict
of the jury that Coleman had killed the victim to prevent her from testifying.1 The report also described
Coleman as casting blame on others, a finding consistent with blaming and killing a witness about to
testify against him. Finally, the report described Coleman's traditional family upbringing, at least
moderate intelligence and, other than the diagnosis of Compulsive Personality Disorder, no significant
mental health issues. The Magistrate Judge concluded that [*7] defense counsel was professionally
reasonable in not calling Dr. Eimer to testify. The Court agrees.
The Petitioner also claims that counsel was deficient in not calling Coleman's mother and sister to testify.
Coleman's father testified in mitigation. (Tr. Vol. 8, page 1290-1295.) While the testimony was quite
brief, Coleman's father described him as "pretty much like other kids" growing up, that he loved his
family, he would give a friend his heart, he would never provoke violence, and he was extremely kind. Id.
Coleman's father also told the jury that his mother was too distraught to testify. Id. Coleman points to no
additional evidence which could have been elicited from his mother or sister. Coleman's father explained
the reasons that Coleman's mother did not testify. Coleman's sister could have given additional
information, but only in a manner cumulative to the testimony of Coleman's father.
Coleman also contends that his counsel should have [*8] called the three mothers of his five children.
The witnesses would have testified that he was a loving father. One of the three witnesses, Dana Strodes
had previously reported to the police that Coleman had shot her in 1992. State of Ohio v. Coleman, 2002Ohio-5377, 2002 WL 31242241, *8 (Ohio Ct. App. 2002). While this Court agrees with the Magistrate
Judge that defense counsel was deficient in the investigation of mitigation evidence, the record shows no
prejudice to defendant from his counsel's failure to call the three mothers to testify.
Defense counsel did not call a deputy sheriff who would have testified that Coleman was on good
behavior while in custody. The Magistrate Judge concluded that the failure to present such testimony
would have emphasized Coleman's recruitment of a fellow inmate to kill the same victim. This Court
again agrees with the assessment of the Magistrate Judge.
Finally, the record indicates that defense counsel hired an investigator, either at the start of the trial, or
very close in time to the proceedings. Coleman contends that the untimely hire of an investigator
demonstrated a failure to investigate. The Magistrate Judge viewed defense counsel as deficient in such a
late hiring, which is the same view as the undersigned. As will be discussed [*9] further, the Petitioner
can point to no event that a more timely investigation would have produced.

1 Under

Ohio case law, Dr. Eimer's opinion that Coleman could not have committed the crime was most likely inadmissible as an improper
opinion essentially advising the jury as to resolution of the disputed facts. State of Ohio v. Boston, 46 Ohio St. 3d 108, 128-29, 545 N.E.2d
1220 (Ohio 1989) overruled on other grounds by State of Ohio v. Dever, 64 Ohio St. 3d 401, 1992 Ohio 41, 596 N.E.2d 436 ( 1992).

Appendix C
Appx-0024

Page 5 of 6
2015 U.S. Dist. LEXIS 41324, *9

IV.
For several reasons, this Court writes separately, after adopting the Magistrate Judge's recommendation.
The first is the obvious — this is a death penalty case. Second, recognizing the state of the law following
Strickland, this Court is most reluctant to find constitutional error, and then deem such deficiency to be
harmless. Yet, that is what the record in this case compels.
The failure of defense counsel to investigate matters germane to the mitigation phase is well documented
by the Magistrate Judge. Notwithstanding this serious shortcoming, the record is devoid of any
information which, had a proper investigation been conducted, would have had any reasonable probability
of influencing the jury's verdict. Further, as the record in this case demonstrates, the Petitioner has had
ample opportunity to discover and offer any evidence indicating that he was prejudiced by his counsel's
deficiencies.
Two decisions from the Sixth Circuit illustrate the issue before this Court. In Combs v. Coyle, 205 F.3d
269, 289 (6th Cir. 2000) the petitioner first demonstrated ineffective assistance of counsel for failing to
investigate. The defense [*10] strategy was to show that he was highly intoxicated and lacked the
requisite specific intent to murder. Id. Had the Defendant's counsel thoroughly investigated the factual
circumstances, they would have learned from the defendant's mother that the petitioner's car was full of
beer cans and wine coolers, all corroborative of the defense strategy. Id.
The Court also found counsel constitutionally deficient in failing to properly investigative by calling an
expert who testified before the jury that the petitioner, although intoxicated, acted purposely and
intentionally, all in opposition to the defense theory of the case. Combs could point to specific material
facts which would have been discovered had a sufficient investigation been undertaken.
In contrast, the petitioner in Morales v. Mitchell, 507 F.3d 916, 938-39 (6th Cir. 2008) contended that his
counsel was constitutionally ineffective by failing to investigate the Defendant's neurological
impairments. The court held that even if counsel were deficit in failing to investigate:
. . . Morale's new evidence, which at best indicates that he might suffer from some unidentified and
unproven organic brain dysfunction, is insufficient to demonstrate that his trial counsel's allegedly
deficient performance [*11] prejudiced his case. Id.
See also Carter v. Mitchell, 443 F.3d 517, 529 (6th Cir. 2006).
In this case, Coleman cannot point to any significant mitigation evidence that "at least one juror hearing
that evidence would have been persuaded to impose a life, rather than a death, sentence." Morales, 507
F.3d at 936. Reluctantly, this Court agrees that counsel was constitutionally deficient, but finds such error
to be harmless.

V.
Based upon the foregoing, the Report and Recommendation, together with the Supplemental Report and
Recommendation, is ADOPTED as the Order of this Court. The Petition is DISMISSED WITH
PREJUDICE. For the reasons explained by the Magistrate Judge, this Court also issues a Certificate of
Appealability as to Grounds Two and Five.

Appendix C
Appx-0025

Page 6 of 6
2015 U.S. Dist. LEXIS 41324, *11

IT IS SO ORDERED.
3-30-2015
DATE
/s/ Edmund A. Sargus, Jr.
EDMUND A. SARGUS, JR.
CHIEF UNITED STATES DISTRICT JUDGE
End of Document

Appendix C
Appx-0026

Coleman v. Bradshaw
United States District Court for the Southern District of Ohio, Western Division
July 5, 2013, Decided; July 5, 2013, Filed
Case No. 3:03-cv-299
Reporter
2013 U.S. Dist. LEXIS 94269 *; 2013 WL 3367092

TIMOTHY L. COLEMAN, Petitioner, -vs- MARGARET BRADSHAW, Warden, Respondent.

Subsequent History: Adopted by, Writ of habeas corpus denied, Certificate of appealability granted, in
part Coleman v. Bradshaw, 2015 U.S. Dist. LEXIS 41324 (S.D. Ohio, Mar. 30, 2015)

Prior History: Coleman v. Bradshaw, 2012 U.S. Dist. LEXIS 170609 (S.D. Ohio, Nov. 28, 2012)

Counsel: [*1] For Timothy L Coleman, Petitioner: Robert K Lowe, LEAD ATTORNEY, Ohio Public
Defender's Office - 2, Columbus, OH; Timothy F Sweeney, Cleveland, OH.
For Warden Margaret Bradshaw, Respondent: Stephen E. Maher, LEAD ATTORNEY, Thomas E
Madden, Office of the Ohio Attorney General, Criminal Justice Section, Capital Crimes Unit, Columbus,
OH.
For BCI Records Custodian, Material Witness: Maura O'Neill Jaite, LEAD ATTORNEY, Ohio Attorney
General's Office, Criminal Justice Section, Columbus, OH.

Judges: Michael R. Merz, United States Magistrate Judge. District Judge Edmund A. Sargus, Jr.

Opinion by: Michael R. Merz

Opinion

Appendix D
Appx-0027

Page 2 of 15
2013 U.S. Dist. LEXIS 94269, *1

SUPPLEMENTAL REPORT AND RECOMMENDATIONS
This capital habeas corpus case is before the Court on Petitioner's Objections (Doc. No. 201) to the
Magistrate Judge's Report and Recommendations (the "Report," Doc. No. 198). The Warden has filed a
Response to the Objections (Doc. No. 204) and Judge Sargus has recommitted the matter to the Magistrate
Judge for reconsideration in light of the Objections (Doc. No. 202).

Introductory Objections re Cullen v. Pinholster
Discovery in this case predated Cullen v. Pinholster, 563 U.S. , 131 S.Ct. 1388, 179 L. Ed. 2d 557
(2011), where the Supreme Court held that a federal court's review of a [*2] state court decision under 28
U.S.C. § 2254(d)(1) is strictly limited to "review of the state court record," and that evidence acquired
through use of an evidentiary hearing may not be considered. Id. at 1399. After Pinholster was decided,
the Magistrate Judge denied Petitioner's Motion for Evidentiary Hearing on the grounds such a hearing
was precluded by Pinholster at least until and unless the Court decided under 28 U.S.C. § 2254(d)(1) that
the Ohio courts' decisions in this case were objectively unreasonable applications of clearly established
Supreme Court precedent (Decision and Order, Doc. No. 197). That Decision was filed July 1, 2011, and
Petitioner did not file any objections, thereby forfeiting any he may have had.
Petitioner now proffers three objections to the exclusion of evidence under Pinholster. First he says that,
unlike Pinholster, he was diligent in attempting to present evidence in the state courts (Objections, Doc.
No. 201, PageID 2425). Second, he claims he has now satisfied § 2254(d)(1) on the basis of the state court
record alone. Third, he asserts he has now shown "by clear and convincing evidence . . . that subsidiary
state-court factual findings are clearly [*3] erroneous." Id. at PageID 2426.
For reasons given below as to each of the relevant Grounds for Relief, the Magistrate Judge has concluded
that Coleman has not met either the 2254(d)(1) or the 2254(d)(2) standard. Coleman's second and third
objections, premised on a hypothetical contrary finding, need not be discussed further.
Coleman's first objection is that Pinholster is inapplicable because, unlike Pinholster, he was diligent in
attempting to gather and present evidence in the state courts. That objection is untimely as it was fully
available to Coleman when the Magistrate Judge decided to the contrary in July, 2011, and Coleman
failed to file any objection.

First Ground for Relief: Actual Innocence
In his First Ground for Relief, Coleman asserts he is actually innocent of the murder of Melinda Stevens
and that it would therefore be unconstitutional to execute him for that crime. The Report notes that the
constitutional right not to be executed for a crime one has not committed — a so-called free standing
claim of actual innocence -- has not yet been clearly established by the United States Supreme Court
(Doc. No. 198, 2301-2302). However, the Second District Court of Appeals assumed [*4] there was such
a right and decided the claim on the merits in Coleman's second post-conviction relief appeal. The Report
recommended denying this Ground for Relief on the basis that the court of appeals' decision was not an
objectively unreasonable application of United States Supreme Court precedent relevant to the issue,
particularly Herrera v Collins, 506 U.S. 390, 417, 113 S. Ct. 853, 122 L. Ed. 2d 203 (1993); House v.

Appendix D
Appx-0028

Page 3 of 15
2013 U.S. Dist. LEXIS 94269, *4

Bell, 547 U.S. 518, 126 S. Ct. 2064, 165 L. Ed. 2d 1 (2006); and Schlup v. Delo, 513 U.S. 298, 115 S. Ct.
851, 130 L. Ed. 2d 808 (1995)(Report, Doc. No. 198, PageID 2306).
The principal foundation for Coleman's claim of actual innocence is an affidavit of William Sapp, another
Ohio death-row inmate who claims that he killed Melinda Stevens. The trial court judge rejected the
affidavit without a hearing, concluding that it lacked "any credibility." After analysis, the court of appeals
reached the same conclusion: "when viewed in the context of the overwhelming evidence of Defendant's
guilt, Sapp's declaration that he is responsible for killing Stevens is so improbable as to constitute no
credible evidence." State v. Coleman, 2005 Ohio 3874, 2005 Ohio App. LEXIS 3583 ¶ 32 (2nd Dist.
2005).
In his Objections, Coleman asserts that the state courts' rejection of the Sapp [*5] Affidavit is "an
unreasonable determination of the facts in light of the record before the state court." (Doc. No. 201,
PageID 2440). Coleman notes that the trial judge in this case never heard live testimony from Sapp and
argues this mean the trial judge's own finding "lacked credibility." Id. at 2441-2442.
Lack of observation of the demeanor of a witness does not make findings about his or her credibility
"incredible." Great deference is due to state court credibility determinations. Storey v. Vasbinder, 657 F.3d
372, 380 (6th Cir. 2011), cert. denied, U.S. , 132 S.Ct. 1760, 182 L. Ed. 2d 545 (2012), citing Felkner
v. Jackson, U.S. , ,131 S. Ct. 1305, 1307, 179 L. Ed. 2d 374 (2011) "For a federal habeas court to
overturn a state court's credibility judgments, the state court's error must be stark and clear." Otte v. Houk,
654 F.3d 594 (6th Cir. 2011), quoting Larry v. Branker, 552 F.3d 356, 370 (4th Cir. 2009).
Coleman lists the factors relied on by the state courts for finding Sapp's affidavit to be incredible. These
include that he had nothing to lose because he himself was already sentenced to death for other murders,
the suspicious timing of the affidavit, psychological testimony that Sapp is a chronic [*6] liar, and the
overwhelming other evidence of Coleman's guilt. State v. Coleman, 2005 Ohio 3874, 2005 Ohio App.
LEXIS 3583 ¶¶ 29- 32 (2nd Dist. 2005). Coleman spends five pages arguing why these reasons are not
conclusive. But the fact that any one of these reasons, or all of them together, were not conclusive on the
question of Sapp's credibility does not show it was unreasonable to rely on them. They are not irrational
bases on which to rely for a credibility determination. Coleman offers no reason to suggest Sapp would
have been more believable in person than by affidavit.
The most critical point in the Report on Sapp's credibility is that he recanted his affidavit. Assuming the
Supreme Court would recognize a free-standing actual innocence claim, a petitioner cannot succeed on
that claim "unless he persuades the district court that, in light of the new evidence, no juror, acting
reasonably, would have voted to find him guilty beyond a reasonable doubt." Schlup, 513 U.S., at 329. A
recanted affidavit by a convicted murderer does not meet that standard and the Ohio courts did not
unreasonably apply Schlup in finding that Sapp's Affidavit is insufficient proof.

Second Ground for Relief: [*7] Brady v. Maryland
In his Second Ground for Relief, Coleman asserts that the State withheld information to which he was
entitled under Brady v. Maryland, 373 U.S. 83, 83 S. Ct. 1194, 10 L. Ed. 2d 215 (1963), to wit,
information "identifying William Sapp as the perpetrator of the crime for which Petitioner was convicted
and sentenced to death." (Petition, Doc. No. 9, PageID 10.) Specifically, Coleman references a letter
written by Sapp to one of his victims, Uma Appendix
Gail Timmons,Din which he confesses to murdering someone

Appx-0029

Page 4 of 15
2013 U.S. Dist. LEXIS 94269, *7

"off of Pleasant" and an alleged oral confession of Stevens' murder to Springfield law enforcement. Id. at
PageID 10-11. The oral confession allegedly occurred April 2 or 3, 1997, and the letter is dated July,
1998, both well after Coleman's conviction and sentence on February 21, 1997.
This claim was raised in Coleman's second application for post-conviction relief and rejected on the
grounds that the oral confession did not happen and the only link between what was in the letter to
Timmons and the Stevens' murder was Coleman's allegation that Stevens was the victim referenced in the
letter (Decision and Judgment Entry, Return of Writ, Doc. No. 167, Apx. Vol 15 (amended) as quoted in
Report at 2312-2313). [*8] The court of appeals affirmed the conclusion that there was no Brady
violation by repeating its finding that the Sapp affidavit is incredible and agreeing that the reference in the
Timmons' letter is vague and indefinite. State v. Coleman, 2005 Ohio 3874, 2005 Ohio App. LEXIS 3583
¶¶ 34-36 (2nd Dist. 2005). The Report recommended granting AEDPA deference to these state court
findings and dismissing the Second Ground with Prejudice (Doc. No. 198, PageID 2319).
Sapp's purported confession to Springfield police occurred in April, 1997, after Coleman was convicted at
trial in February, 1997. The Una Timmons letter is undated, but the record contains evidence by way of a
newspaper article that its contents were known to the Clark County Prosecutor as of July 14, 1998.
Coleman objects that "[t]he Brady duty is ongoing and continues even after the trial." (Objections, Doc.
No. 201, PageID 2448, citing Smith v. Roberts, 115 F.3d 818, 820 (10th Cir. 1997), which in turn cites
Pennsylvania v. Ritchie, 480 U.S. 39, 60, 107 S. Ct. 989, 94 L. Ed. 2d 40 (1987). Coleman asserts that his
"investigation, had he received the letter, would have led him to all of the following additional evidence . .
." (Objections, Doc. No. 201, PageID [*9] 2449). But the letter did not come into existence or into the
prosecutor's hands until seventeen months after trial. Coleman's defense attorneys could not have done
any pre-trial investigation on the basis of the contents of the Timmons letter when it did not even exist at
the time of trial, so far as the record shows. Conversely, Coleman's counsel had the letter by the time it
was material to his case, to wit, at the time of litigation of his second post-conviction petition. In his
Objections, Coleman points to no evidence in the record that the State had the Timmons letter before
Coleman's trial.
Coleman's first specific objection is that the appellate court applied the wrong materiality standard
(Objections, Doc. No. 201, PageID 2452). But the question of materiality arises only after a court decides
that the item in question is Brady material at all, i.e., that it is exculpatory. The appellate court decided
that this letter was not exculpatory because the reference to who was killed (someone off Pleasant Street)
was vague and indefinite. Coleman asserts the proper standard is whether "disclosure of the suppressed
evidence to competent counsel would have made a different result reasonably [*10] probable."
(Objections, Doc. No. 201, PageID 2452, citing Third Circuit precedent.) That is the correct standard.
"Evidence is material only if there is a reasonable probability that, had the evidence been disclosed to the
defense, the result of the proceeding would have been different. A 'reasonable probability' is a probability
sufficient to undermine confidence in the outcome." United States v. Bagley, 473 U.S. 667, 683, 105 S.
Ct. 3375, 87 L. Ed. 2d 481 (1985). But the question is, which outcome? The letter could not have been
disclosed before trial because it did not exist at that time. The letter was already in Coleman's possession
at the time of the proceeding that counts, the successive post-conviction relief proceeding. As to the letter,
the Common Pleas Court found:
Following his conviction and sentence [in September 1996], Sapp wrote to Timmons and made many
disturbing threats to her physical harm. In the same letter, Sapp also directed a number of threats

Appendix D
Appx-0030

Page 5 of 15
2013 U.S. Dist. LEXIS 94269, *10

against the Clark County prosecutor, evidently for his role in securing a conviction of Sapp for the
crimes against Timmons.
Coleman has also submitted a news story about the Timmons letter, published just after Timmons
notified the authorities she had received [*11] it. The date of this news article is July 14, 1998, which
was the time when Sapp was awaiting trial in his death penalty case before Judge O'Neill. While the
letter the Timmons does not bear a date, it stands to reason that the letter was written just before the
news article was published. Thus, the Timmons letter was written more than a year after Coleman's
conviction and death sentence, and more than 2 1/2 years before the filing of his successor
postconviction petition.
Coleman does not explain either how or when he became aware of the Timmons letter and the news
article about it. Moreover it is evident that Coleman secured a copy of the Timmons letter from a
source other than the Clark County prosecutor. This circumstance is itself noteworthy, where a copy
of the Timmons letter was presumably secured by either the newspaper or, more likely, Sapp's
defense team. Either way, Coleman had his own copy of the Timmons letter, however and whenever
he came to possess it. Consequently, Coleman's real contention is not that the prosecutor's office
concealed the Timmons letter, but rather that the prosecutor's office should have delivered a copy to
him, before he secured a copy by his own [*12] devices.
(Decision and Entry of July 21, 2004, copy at Return of Writ, Appx Vol. 15 (amended) pages 173-174.) In
sum, even assuming the Timmons letter is exculpatory, it was only material to the successor postconviction proceeding and Coleman had his own copy of the letter for that proceeding.
Coleman's second specific objection raises the same claims he made in the First Ground for Relief about
why the Sapp Affidavit is not incredible. No further analysis is needed on that point. On the premise that
he has shown the state court decision was unreasonable under 28 U.S.C. § 2254(d), Coleman discusses
evidence in the expanded record (Objections, Doc. No. 201, PageID 2456-2458). Because the premise is
unsound, the evidence in the expanded record remains excluded under Cullen v. Pinholster, 563 U.S. ,
131 S.Ct. 1388, 179 L. Ed. 2d 557 (2011).

Third Ground for Relief: Ineffective Assistance of Counsel at the Guilt Phase
In his Third Ground for Relief, Coleman alleges he received ineffective assistance of trial counsel during
the guilt phase of his trial. The Report deals with this claim in detail over thirty-seven pages (Doc. No.
198, PageID 2319-2356). Having reviewed the Objections on this Ground for Relief [*13] (Doc. No. 201,
PageID 2462-2488), the Magistrate Judge again concludes the state court decisions on this claim are not
objectively unreasonable applications of Strickland v. Washington and its progeny. Prior the Stevens'
murder, Coleman told a number of people of his plans to kill her to eliminate her as a witness in his drug
trial. After he killed her, he told many more people that he had done so. Witnesses to these statements,
like the victim, Coleman, and Sapp, came from Springfield's drug culture, but Coleman has failed to show
that tougher impeachment of the witnesses would have overcome the overwhelming proof of his guilt
which came from his own mouth. No further analysis is warranted on the Third Ground for Relief.

Fourth Ground for Relief: Ineffective Assistance of Counsel at the Penalty Phase

Appendix D
Appx-0031

Page 6 of 15
2013 U.S. Dist. LEXIS 94269, *13

In his Fourth Ground for Relief, Coleman asserts he received ineffective assistance of trial counsel at the
penalty phase of his trial.
Coleman raised portions of this claim on direct appeal to the Ohio Supreme Court. As to counsels' failure
to object to admission in the penalty phase of guilt phase evidence, the court noted that almost all of that
evidence would have been admissible under [*14] the capital sentencing statute. State v. Coleman, 85
Ohio St. 3d 129, 137-39, 1999 Ohio 258, 707 N.E.2d 476 (1999). It found Coleman's claim that additional
mitigating evidence could have been found was completely speculative. Id..
Coleman offered additional documentary support of this claim in post-conviction. He asserted Dana
Strodes, Athea Martin, and Susan Smith, each of whom had a child by Coleman, would have testified he
was good to his children and never violent towards the women. The state offered a counter affidavit from
Detective Flores that Dana Strodes had told him that Coleman shot her. The court of appeals noted that it
was reasonable strategy not to "diminish the poignant testimony of Coleman's father with testimony of the
women Coleman had impregnated but never married." Coleman claimed in post-conviction his mother
should have been called, but the record, quoted by the court of appeals, establishes she was too upset to
testify. Coleman's sister Sonja was not called, but the Ohio courts found her proffered testimony in postconviction would have been cumulative of Coleman's father's testimony.
Coleman claimed further in post-conviction that the opinion of examining psychologist Earhard Eimer
should [*15] have been presented. Dr. Eimer had examined Coleman pre-trial at defense counsels'
instance. The Ohio courts concluded his testimony was not so favorable to Coleman as to make failure to
present it unreasonable. Trial counsel also failed to present the testimony of transporting deputy sheriff
Williams that Coleman had not misbehaved during transport on the six days of the trial. While this would
have been admissible evidence under Skipper v. South Carolina, 476 U.S. 1, 106 S. Ct. 1669, 90 L. Ed. 2d
1 (1986), six days of good behavior while on trial for one's life is hardly very persuasive mitigation
evidence.
Coleman also claimed in post-conviction that a "cultural expert" should have been presented to show why
a person from a stable family would turn to drug dealing, The trial court found this would not have
persuasively mitigated the execution-style murder of a witness who was the mother of five children.
Coleman had evidence he had worked for three months before the shooting which the Ohio courts also
found was not likely to have been persuasive. The Ohio courts also rejected a "cumulative ineffective
assistance of trial counsel" claim because no individual claim of ineffective assistance of trial counsel had
been [*16] found persuasive.
The Report concluded that trial counsel had fallen below professional standards in waiting too long to
begin investigation and in the lack of thoroughness of that investigation (Doc. No. 198, PageID 2372).
However, the Report concluded that the Ohio courts had applied the correct legal standards under
Strickland and that their finding of lack of prejudice was entitled to deference. For example, the claim
about what a cultural expert would have offered was purely speculative. The employment records were
only for three months, showed mediocre reviews, and reflected absenteeism and tardiness. There were
certainly negative aspects to Dr. Eimer's report which would have come out had he testified.
In the Objections, counsel largely re-argue the mitigation evidence and substantially overstate it. For
example, they assert "[h]had counsel conducted a reasonable investigation and presentation, the jury
would have learned that Coleman was a responsible father, loving, caring, generous, and non-violent."

Appendix D
Appx-0032

Page 7 of 15
2013 U.S. Dist. LEXIS 94269, *16

(Doc. No. 201, PageID 2491, repeated verbatim at PageID 2519). Ordinary jurors are not likely to find
responsible fatherhood in a 27-year old man who has five children by three [*17] different women, none
of whom he has married. As to "non-violent," the jury had already found Coleman had committed an
execution-style murder of a mother of five and, if Dana Strode had testified, would also have learned he
shot her. While the jury may have heard witnesses say words like "responsible father" or "non-violent,"
they would not likely have "learned" in the sense of believing that that was Coleman's character.
Coleman objects that "[n]o state court properly considered, in assessing prejudice under Strickland, the
cumulative effect of all of trial counsel's errors and omissions and all of the omitted evidence."
(Objections, Doc. No. 201, PageID 2502.) Counsel are correct that prejudice must be weighed
cumulatively, but the Magistrate Judge is not persuaded the Ohio courts failed to do that. Those courts
discussed at length each of the varieties of evidence that Coleman claims should have been presented, but
nothing demonstrates they considered them in isolation.
The Magistrate Judge again respectfully recommends that the Fourth Ground for Relief be dismissed
because the state court's decision of these claims is not an objectively unreasonable application of
Strickland. However, [*18] because there are many varied opinions among reasonable jurists about the
investigation and presentation of mitigation evidence in capital cases, a certificate of appealability should
be issued on this claim.

Fifth Ground for Relief: Batson Claim
In his fifth Ground for Relief, Coleman claims his constitutional rights were violated when the State used
a peremptory challenge to exclude prospective juror Blackmon. This claim was raised on direct appeal
and rejected by the Ohio Supreme Court on the merits. State v. Coleman, 85 Ohio St. 3d 129, 142-43,
1999 Ohio 258, 707 N.E.2d 476 (1999). In the Report, the Magistrate Judge recited the governing law on
Batson claims (Doc. No. 198, PageID 2383-84). The Report then quotes at length the record as to the
exercise of this peremptory challenge and concludes the Ohio Supreme Court's decision was entitled to
AEDPA deference. It was recognized at trial that Mrs. Blackmon was African-American. The prosecutor
stated a completely race-neutral reason for excusing her: she had a son in prison for drug trafficking who
had been prosecuted in Clark County. The response of defense counsel to this statement was mere ipse
dixit: "We believe the reason the prosecutor is — is exercising the [*19] preempt [sic] on Mrs. Blackmon
is quite simply because she's a black woman." (Quoted at Report, Doc. No. 198, PageID 2387.) The
explanation is race neutral and Judge Lorig made a finding that the asserted reason was not pretextual. On
that basis, the Ohio Supreme Court's decision on this claim was neither contrary to nor an unreasonable
application of Batson, Purkett v. Elem, 514 U.S. 765, 115 S. Ct. 1769, 131 L. Ed. 2d 834 (1995), or
Hernandez v. New York, 500 U.S. 352, 111 S. Ct. 1859, 114 L. Ed. 2d 395 (1991).
Coleman argues "[t]he record of Ms. Blackmon's impartiality is clear." (Objections, Doc. No. 201.) What
is clear from the record is that she stated she could be fair and put aside any bias from the fact that this
Prosecutor's Office had put her son in prison for drug dealing which she claimed did not happen. The
prosecutor could not have exercised a challenge for cause based on her statements, but Coleman does not
deny the existence of the underlying race-neutral facts and the prosecutor was not required to take Ms.
Blackmon's statement that she could disregard them at face value.

Appendix D
Appx-0033

Page 8 of 15
2013 U.S. Dist. LEXIS 94269, *19

Ground Six: Admission of Inaudible Tape Recordings
In his Sixth Ground for Relief, Coleman claims his due process rights were violated by the trial court's
admission into [*20] evidence of audiotapes which were so inaudible "as to create a danger of unfair
prejudice substantially outweighing any probative value. . ." (Petition, Doc. No. 9, PageID 27.)
The Report noted that Judge Sargus had dismissed this claim as procedurally defaulted (Doc. No. 198,
PageID 2390). Coleman agrees this is an accurate statement of the status of this claim, but objects to the
Magistrate Judge's recommendation that no certificate of appealability issue on this claim, citing his
argument against the Motion to Dismiss (Objections, Doc. No. 201, PageID 2529, referencing Doc. No.
19 at 12).
Coleman's entire argument against procedural default in 2005 was:
Counsel made no contemporaneous objection to these tape recordings. (See Motion at p. 12). Counsel
did object, however, to the tape recordings' relevance. (See Jury Trial Vol. 5, p. 1150). Counsel also
noted the intelligible nature of the tapes during trial. (See Jury Trial Vol. 4, p. 814). And, Coleman
can excuse this procedural bar by establishing "cause and prejudice" based on the ineffective
assistance of trial counsel. (See Joint Apx. Vol. 4, p. 1031
(Response to Motion to Dismiss, Doc. No. 19, PageID 270.)
Judge Sargus found this claim procedurally defaulted on the following extensive analysis:
The first part of the Maupin test requires the Court to determine whether a procedural rule was
applicable to petitioner's claim and, if so, whether he violated it. Under Ohio's contemporaneous
objection rule, the failure to object contemporaneously to admissibility of evidence waives all but
plain error on appeal. State v. Jones, 91 Ohio St. 3d 335, 343, 2001 Ohio 57, 744 N.E.2d 1163 (2001);
State v. Self, 56 Ohio St. 3d 73, 81, 564 N.E.2d 446 (1990); State v. Carrion, 84 Ohio App. 3d 27, 2930, 616 N.E.2d 261 (Ohio App. 9 Dist. 1992). To satisfy the contemporaneous objection rule, an
objection must be not only specific, Crim. R. 30(A); State v. Lane, 49 Ohio St. 2d 77, 84, 358 N.E.2d
1081 (1976), vacated on other grounds, 438 U.S. 911, 98 S. Ct. 3148, 57 L. Ed. 2d 1155 (1978), but
also contemporaneous so as to give the trial court an opportunity to correct any error in a timely
fashion and before any prejudice ensues. See State v. Williams, 51 Ohio St. 2d 112, 364 N.E.2d 1364,
paragraph one of the syllabus (1977), vacated in part on other grounds, 438 U.S. 911, 98 S. Ct. 3137,
57 L. Ed. 2d 1156 (1978). Plain error review, in turn, is to be exercised with "utmost caution," and
invoked only to prevent [*22] a clear miscarriage of justice. State v. Underwood, 3 Ohio St. 3d 12,
14, 3 Ohio B. 360, 444 N.E.2d 1332 (1983). An alleged error "does not constitute plain error or defect
under Crim.R. 52(B) unless, but for the error, the outcome of the trial clearly would have been
otherwise." State v. Long, 53 Ohio St. 2d 91, 372 N.E.2d 804, paragraph two of the syllabus (1978).
In the instant case, review of the record confirms petitioner's concession that defense counsel
neglected to object to the admission of the drug buy tapes on the ground that they were inaudible, but
belies petitioner's assertion that counsel did object to the admission of State's exhibit R on the ground
that it was inaudible. At the conclusion of the prosecution's case, when the State's exhibits were
formally admitted into evidence, trial counsel objected "for the record" to the admission of State's

1 No

Appendix D
Appx-0034

argument about ineffective [*21] assistance of trial counsel appears at Apx. Vol. 4, p. 103.

Page 9 of 15
2013 U.S. Dist. LEXIS 94269, *21

exhibit R, failing to state any specific grounds for the objection. (Tr. Vol. 6, at 1162). Earlier, when
State's exhibit R was introduced and played in open court, trial counsel did not object on any grounds.
(Tr. Vol. 6, at 969). Thus, trial counsel's objection to the admission of State's exhibit R was neither
specific nor contemporaneous. That being so, the objection was [*23] insufficient to comply with
Ohio's contemporaneous objection rule. The Court concludes, therefore, that petitioner violated Ohio's
contemporaneous objection rule as to the drug buy tapes and State's exhibit R, and that the first part of
the Maupin test has been satisfied.
Under the second part of the Maupin test, violation of a state procedural rule will not preclude habeas
corpus review unless the state courts actually enforced the procedural rule. Harris v. Reed, 489 U.S.
255, 261-62, 109 S. Ct. 1038, 103 L. Ed. 2d 308 (1989). In order to determine whether the state courts
clearly and expressly relied on a state procedural default, this Court must look to the last state court
disposition providing reasons for its decision. See McBee v. Abramajtys, 929 F.2d 264, 267 (6th Cir.
1991). In McBee, it appears that the state appeals court expressly applied the procedural default rule,
and proceeded to only a limited review of the merits in order to determine whether the fundamental
miscarriage of justice exception was applicable. Id. at 266. The Sixth Circuit enforced the state court
procedural default, holding that the state courts had clearly and expressly relied upon two alternative
grounds, procedural default or substantive [*24] lack of merit, in rejecting the petitioner's federal
claim. Id. at 267.
In the instant case, the last state court to address petitioner's argument that the tapes were admitted in
violation of his due process rights was the Supreme Court of Ohio on direct appeal. The Supreme
Court of Ohio resolved petitioner's allegations as follows:
In his fifth proposition of law, appellant argues that the trial court abused its discretion in
admitting four tape recordings into evidence because the tapes were partly inaudible. Three of
these tape recordings were of the separate drug transactions in which appellant sold crack cocaine
to Stevens. The fourth tape recording was of appellant's statement to police the day after the
murder. However, Coleman failed to object at trial on this ground and thus waived all but plain
error. State v. Campbell (1994), 69 Ohio St.3d 38, 1994 Ohio 492, 630 N.E.2d 339. Plain error is
error of such magnitude that "but for the error, the outcome of the trial clearly would have been
otherwise." State v. Underwood (1983), 3 Ohio St.3d 12, 3 OBR 360, 444 N.E.2d 1332, syllabus.
To be admissible, a tape recording must be '"authentic, accurate and trustworthy." State v. Rogan
(1994), 94 Ohio App.3d 140, 148, 640 N.E.2d 535, 540. [*25] Whether to admit "tape recordings
containing inaudible portions is a matter within the sound discretion of the trial court." State v.
Gotsis (1984), 13 Ohio App. 3d 282, 283, 13 Ohio B. 346, 347-348, 469 N.E.2d 548, 551, citing
United States v. Williams (C.A. 8, 1977), 548 F.2d 228.
In this case, uncontested testimony by police officers present at the transactions established the
accuracy, authenticity, and trustworthiness of the tapes. The three tapes of Coleman's drug
transactions with Stevens are filled with background noises, muffled sounds, and muttered
conversations, which make the tapes impossible to understand at times except for scattered
phrases. However, recorded tapes of actual events, such as street drug sales, should be admissible
despite audibility problems, background noises, or the lack of crystal clear conversations, since
they directly portray what happened. See, e.g., State v. Rodriquez (1990), 66 Ohio App. 3d 5, 583
N.E.2d 384.

Appendix D
Appx-0035

Page 10 of 15
2013 U.S. Dist. LEXIS 94269, *25

Given their authenticity, the trial court did not abuse its discretion in admitting the street tapes
despite audibility problems. Officers at the scene who directly heard the radio transmissions
testified at trial in order to make the recordings [*26] more understandable. Coleman had ample
opportunity to cross-examine these officers, "thereby clarifying any problems caused by poor
quality,*** as well as the opportunity to offer his version of the inaudible portions[.]" Rogan, 94
Ohio App.3d at 149, 640 N.E.2d at 541. An authenticated tape is "much more likely to be free
from error than the words of a witness testifying from memory." State v. James (1974), 70 Ohio
Op. 2d 456, 457, 41 Ohio App. 2d 248, 250, 325 N.E.2d 267, 269.
In contrast, the fourth tape, Coleman's taped interview with the police, was understandable
despite low voices, pauses, and inaudible phrases at times, and was authenticated by the detective
who took Coleman's statement on January 3. Defendant cross-examined the detective regarding
the contents of the taped statement. Appellant cannot demonstrate that the tapes are not accurate,
authentic, or trustworthy. Tape recordings are the best evidence of their content, not transcripts
prepared from them. Rogan, 94 Ohio App.3d at 148, 640 N.E.2d at 540. Moreover, Coleman's
exculpatory conversation with police in which he denied killing Stevens directly supported
Coleman's trial strategy without the need for his testimony. Coleman [*27] can demonstrate
neither prejudice nor plain error, therefore, his fifth proposition of law is overruled.
Coleman, supra, 85 Ohio St. 3d at 141-42. Since the Ohio Supreme Court clearly and expressly relied
on a state procedural default in rejecting petitioner's claim, the second part of the Maupin test has
been met. Petitioner does not argue otherwise.
The Court further finds that the procedural rule is adequate and independent under the third part of the
Maupin test. Ohio's contemporaneous objection rule is clearly stated and regularly enforced. See, e.g.,
State v. Underwood, 3 Ohio St. 3d 12, 3 Ohio B. 360, 444 N.E.2d 1332, syllabus (1983)("The failure
to object to a jury instruction constitutes a waiver of any claim of error thereto .... "); State v. Durkin,,
66 Ohio St. 2d 158, 161, 420 N.E.2d 124 (1981)(failure to object to jury instruction improperly
allocating burden of proof is waiver). Ohio's contemporaneous objection rule serves important state
interests in judicial economy and minimizing reversible error by enabling a trial judge to deliver jury
instructions that are free of error, and, where possible, agreeable to the parties. Finally, Ohio's
contemporaneous objection rule-- even with the application of plain error review-- [*28] does not
rely on or otherwise implicate federal law. The Sixth Circuit has consistently ruled that Ohio's
contemporaneous objection rule is an adequate and independent procedural rule that bars federal
habeas corpus review absent a demonstration of cause for the waiver and resulting prejudice. See
Hinkle v. Randle, 271 F.3d 239, 244 (6th Cir. 2001); Scott v. Mitchell, 209 F.3d 854, 866-71 (6th Cir.
2000); see also Osborne v. Ohio, 495 U.S. 103, 123, 110 S. Ct. 1691, 109 L. Ed. 2d 98 (1990); Engle
v. Isaac, 456 U.S. 107, 124-25, 102 S. Ct. 1558, 71 L. Ed. 2d 783 (1982).
Once the Court determines that a constitutional claim is subject to procedural default, the Court may
not address the merits of that claim, absent a showing by petitioner that the default can be excused
under either the cause-and-prejudice test or the narrow fundamental miscarriage of justice exception.
The Supreme Court has refrained from establishing firm contours for the cause-and-prejudice
standard that the Court adopted for excusing the default of constitutional claims during state court
proceedings. Amadeo v. Zant, 486 U.S. 214, 221-22, 108 S. Ct. 1771, 100 L. Ed. 2d 249 (1988). As a
general rule, though, "the existence of cause for a procedural default must ordinarily turn on whether
the prisoner can show that some [*29] objective factor external to the defense impeded counsel's

Appendix D
Appx-0036

Page 11 of 15
2013 U.S. Dist. LEXIS 94269, *29

efforts to comply with the state's procedural rule." Murray v. Carrier, 477 U.S. 478, 488, 106 S. Ct.
2639, 91 L. Ed. 2d 397 (1986).
Petitioner offers ineffective assistance of trial counsel as cause, due to trial counsel's failure to object
to the prosecutor's remarks. In order to qualify as cause for a procedural default, counsel
ineffectiveness must rise to the level of an independent constitutional violation under the standard
established in Strickland v. Washington, 466 U.S. 668, 687-89, 104 S. Ct. 2052, 80 L. Ed. 2d 674
(1984). "[T]he mere fact that counsel failed to recognize the factual or legal basis for a claim, or failed
to raise the claim despite recognizing it, does not constitute cause for a procedural default. *** So
long as a defendant is represented by counsel whose performance is not constitutionally ineffective
under the standard established in Strickland v. Washington, supra, we discern no inequity in requiring
him to bear the risk of attorney error that results in a procedural default." Murray v. Carrier, 477 U.S.
478, 486-88, 106 S. Ct. 2639, 91 L. Ed. 2d 397 (1986).
Thus, to establish a claim of ineffective assistance of counsel sufficient to establish cause for the
default of this claim for relief, petitioner [*30] must show both deficient performance on the part of
his appellate attorneys and prejudice from the deficient performance:
First, the defendant must show that counsel's performance was deficient. This requires showing
that counsel made errors so serious that counsel was not functioning as the "counsel" guaranteed
the defendant by the Sixth Amendment. Second, the defendant must show that deficient
performance prejudiced the defense. This requires showing that counsel's errors were so serious
as to deprive the defendant of a fair trial, a trial whose result is reliable.
Strickland v. Washington, 466 U.S. 668, 687, 104 S. Ct. 2052, 80 L. Ed. 2d 674 (1984). With respect
to the first prong of the Strickland test, the Court notes that, "[b]ecause of the difficulties inherent in
making the evaluation, a court must indulge a strong presumption that counsel's conduct falls within
the wide range of reasonable professional assistance." Id. at 689. To establish the second prong of the
Strickland test, i.e., prejudice, a petitioner must demonstrate that there is a reasonable probability that,
but for counsel's errors, the result of the proceedings would have been different. Id. at 694. "A
reasonable probability is a probability sufficient [*31] to undermine confidence in the outcome." Id.
It bears reminding, in conducting a cause and prejudice analysis, that in Edwards v. Carpenter, 529
U.S. 446, 452-53, 120 S. Ct. 1587, 146 L. Ed. 2d 518 (2000), the Supreme Court held that an
ineffective assistance of counsel claim offered as cause for the default of another federal claim could
itself be procedurally defaulted. See also Coleman v. Mitchell, supra, 268 F.3d 417, 432 (6th Cir.
2001). That means, among other things, that, before a district court may consider a claim offered as
"cause" to excuse the procedural default of another federal claim, the district court must first
determine whether that "cause" argument was properly presented to the state courts. Only if it was
properly presented may this Court consider it as "cause" to excuse the default of another constitutional
claim. In the instant case, it does not appear that petitioner ever presented to the state courts a claim of
ineffective assistance of counsel stemming from counsel's failure to object to the admission of the
four inaudible tapes. That being so, this Court is precluded from considering trial counsel
ineffectiveness as "cause" to excuse the default of petitioner's sixth ground for relief.
In any [*32] event, the Court is not persuaded that counsel performed deficiently or to petitioner's
prejudice in failing to object to the admission of the four tapes. At best, the omission was a strategic
decision on the part of trial counsel because in some instances, as with petitioner's taped statement to

Appendix D
Appx-0037

Page 12 of 15
2013 U.S. Dist. LEXIS 94269, *32

the police, the tapes exculpated petitioner, and in other instances, as with the taped transactions of
drug buys between petitioner and Stevens, the tapes were too sketchy to offer anything in the way of
support for the state's case. At worst, the omission was an excusable oversight on counsel's part that
did not fall below the minimum standard of objectively reasonable representation. Moreover, it
simply cannot be said that the outcome of petitioner's trial probably would have been otherwise, had
defense counsel objected to the admission of the tapes. For one thing, as the Ohio Supreme Court
pointed out in its plain error review, the weight of authority militated in favor of admitting the tapes.
Coleman, supra 85 Ohio St. 3d at 141-42, citing State v. Rodriquez, 66 Ohio App. 3d 5, 583 N.E.2d
384 (1990); State v. Rogan, 94 Ohio App. 3d 140, 640 N.E.2d 535 (1994); State v. James, 41 Ohio
App. 2d 248, 325 N.E.2d 267 (1974). Moreover, as to [*33] the admission of the tapes purporting to
depict drug buys by Stevens from petitioner, plenty of other evidence of those drug buys was
presented during trial. Finally, as to State's Exhibit R, the fact remains that large portions of the tape
were audible, thereby making it highly unlikely that the trial court would have sustained any objection
to admissibility of the statement on the ground that the tape was too inaudible. Thus, the Court cannot
find either that counsel performed deficiently or that petitioner was prejudiced.
For the foregoing reasons, the Court concludes that petitioner's sixth ground for relief is procedurally
defaulted and that petitioner cannot establish cause and prejudice sufficient to excuse that default.
Thus, respondent's motion to dismiss petitioner's sixth ground for relief as procedurally defaulted will
be granted.
(Opinion and Order, Doc. No. 32, PageID 462-467.)
To be qualified for a certificate of appealability on Ground Six, Petitioner must show that Judge Sargus'
opinion, just quoted, is debatable among reasonable jurists. Slack v. McDaniel, 529 U.S. 473, 484, 120 S.
Ct. 1595, 146 L. Ed. 2d 542 (2000). To meet that requirement, Coleman merely incorporates the oneparagraph argument he made [*34] in response to the Motion to Dismiss and claims "reasonable jurists
could disagree with the Court's procedural default determination and could find that this claim is adequate
to proceed further." (Objections, Doc. No. 201, PageID 2529).
Incantation of the standard is not an argument that the standard is met. In the eight years since Judge
Sargus decided the Motion to Dismiss, the law on which he relied has been repeatedly affirmed. For
example, the Sixth Circuit has repeatedly held since then, in a number of capital cases, that Ohio's
contemporaneous objection rule is an adequate and independent state ground of decision. Wogenstahl v.
Mitchell, 668 F.3d 307, 334 (6th Cir. 2012)(citing Keith v. Mitchell, 455 F.3d 662, 673 (6th Cir. 2006);
Nields v. Bradshaw, 482 F.3d 442 (6th Cir. 2007); Biros v. Bagley, 422 F.3d 379, 387 (6th Cir. 2005);
Mason v. Mitchell, 320 F.3d 604 (6th Cir. 2003), citing Hinkle v. Randle, 271 F.3d 239, 244 (6th Cir.
2001); Scott v. Mitchell, 209 F.3d 854 (6th Cir. 2000), citing Engle v. Isaac, 456 U.S. 107, 124-29, 102 S.
Ct. 1558, 71 L. Ed. 2d 783 (1982). See also Seymour v. Walker, 224 F.3d 542, 557 (6th Cir. 2000);
Goodwin v. Johnson, 632 F.3d 301, 315 (6th Cir. 2011); Smith v. Bradshaw, 591 F.3d 517, 522 (6th Cir.),
[*35] cert. denied, 131 S. Ct. 185, 178 L. Ed. 2d 111 (2010).
The Magistrate Judge again respectfully recommends that a certificate of appealability be denied on
Ground Six.

Ground Seven: Introducing Evidence from the Drug Case

Appendix D
Appx-0038

Page 13 of 15
2013 U.S. Dist. LEXIS 94269, *35

In his Seventh Ground for Relief, Coleman argues he was denied due process when evidence from his
drug trafficking trial at which Melinda Stevens would have been the principal witness against him was
introduced at his trial for murdering Melinda Stevens to prevent her from testifying.
The Report recommended this Ground for Relief be dismissed because the Ohio Supreme Court decision
that this evidence was relevant to motive was neither contrary to nor an unreasonable application of any
relevant United States Supreme Court precedent.
Coleman first objects that there should be no AEDPA fact deference in this case under 28 U.S.C. §
2254(d)(2) because "[t]he Ohio Supreme Court's findings that all of the evidence was necessary to show
that Ms. Stevens was a key witness against Coleman and was not cumulative, Coleman, 707 N.E. 2d at
487-88 [85 Ohio St. 3d at 140-41], are unreasonable fact findings in light of the record." (Objections, Doc.
No. 201, PageID 2534-2535).
In part, this argument misrepresents [*36] what the Ohio Supreme Court found. It nowhere held that this
evidence was "necessary." Rather, as against Coleman's claim that the evidence was irrelevant (Third
Proposition of Law), it found that the evidence was relevant. State v. Coleman, 85 Ohio St. 3d at 140-41
(holding the evidence in question "tended to prove the essential elements of the specification," which is
the test for relevance under Ohio R. Evid. 401.)
In part this argument fails even to attempt to refute the Ohio Supreme Court's finding that the evidence
was not cumulative. The court held "[n]or do we find that the evidence was cumulative, as each police
witness explained only those events which that witness directly observed." Id. If that holding is an
unreasonable one in light of the record, where are Coleman's record references to show it is incorrect?
None are offered in the Objections (see Doc. No. 201 at PageID 2535).
Coleman also objects that there should be no AEDPA legal deference in this case under 28 U.S.C. §
2254(d)(2) because the conclusion of the Ohio Supreme Court that this evidence was properly admitted is
either contrary to or an unreasonable application of United States Supreme Court precedent (Objections,
[*37] Doc. No. 201, PageID 2535).
In part, Coleman claims there should be no AEDPA legal deference because "[t]he Ohio Supreme Court
did not review this evidence as 'other acts' evidence under the Rule 403 and Due Process Clause standard
for fundamental fairness." (Objections, Doc. No. 201, PageID 2535). In making his argument to the Ohio
Supreme Court in Proposition of Law No. III, Coleman recited that admission of this evidence "denied his
rights to a fair trial, due process of law and a reliable determination of his guilt and sentence. . . ." (Merit
Brief, Apx Vol. 4, p. 36.) As federal authority, he cited only Gardner v. Florida, 430 U.S. 349, 97 S. Ct.
1197, 51 L. Ed. 2d 393 (1977). Id. at p. 37. The Ohio Supreme Court cited neither Ohio R. Evid. 403(A)
nor Gardner in its decision. However, a state court decision can constitute an "adjudication on the merits"
entitled to deference under 28 U.S.C. §2254(d)(1) even if the state court does not explicitly refer to the
federal claim or to relevant federal case law. In Harrington v. Richter, 562 U.S. , 131 S. Ct. 770, 178 L.
Ed. 2d 624 (2011), the Supreme Court held:
By its terms § 2254(d) bars relitigation of any claim "adjudicated on the merits" in state court, subject
only to the exceptions [*38] in §§ 2254(d)(1) and (d)(2). There is no text in the statute requiring a
statement of reasons. The statute refers only to a "decision," which resulted from an "adjudication."
As every Court of Appeals to consider the issue has recognized, determining whether a state court's
decision resulted from an unreasonable legal or factual conclusion does not require that there be an

Appendix D
Appx-0039

Page 14 of 15
2013 U.S. Dist. LEXIS 94269, *38

opinion from the state court explaining the state court's reasoning. See Chadwick v. Janecka, 312 F.3d
597, 605-606 (CA3 2002); Wright v. Moore, 278 F.3d 1245, 1253-1254 (CA11 2002); Sellan v.
Kuhlman, 261 F.3d 303, 311-312 (CA2 2001); Bell v. Jarvis, 236 F.3d 149, 158-162 (CA4 2000) (en
banc); Harris v. Stovall, 212 F.3d 940, 943, n. 1 (CA6 2000); Aycox v. Lytle, 196 F.3d 1174, 11771178 (CA10 1999); James v. Bowersox, 187 F.3d 866, 869 (CA8 1999). And as this Court has
observed, a state court need not cite or even be aware of our cases under § 2254(d). Early v. Packer,
537 U.S. 3, 8, 123 S. Ct. 362, 154 L. Ed. 2d 263 (2002) (per curiam). Where a state court's decision is
unaccompanied by an explanation, the habeas petitioner's burden still must be met by showing there
was no reasonable [*39] basis for the state court to deny relief. This is so whether or not the state
court reveals which of the elements in a multipart claim it found insufficient, for § 2254(d) applies
when a "claim," not a component of one, has been adjudicated.
Id. at 784. "This Court now holds and reconfirms that §2254(d) does not require a state court to give
reasons before its decisions can be deemed to have been 'adjudicated on the merits.'" Id. at 785. "When a
federal claim has been presented to a state court and the state court has denied relief, it may be presumed
that the state court adjudicated the claim on the merits in the absence of any indication or state-law
procedural principles to the contrary." Brown v. Bobby, 656 F.3d 325 (6th Cir. 2011), quoting
Harrington,131 S. Ct. at 784-85. When the state court is silent as to its reasoning in denying a claim, "a
habeas court must determine what arguments or theories supported or ... could have supported the state
court's decision." Walker v. McQuiggan, 656 F.3d 311 (6th Cir. 2011), vacated on other grounds Howes v.
Walker, 132 S. Ct. 2741, 183 L. Ed. 2d 612 (2012), quoting Harrington, 131 S. Ct. at 786. When the state
court gives no explanation of [*40] its decision, "a habeas petitioner may meet his or her burden 'by
showing there was no reasonable basis for the state court to deny relief.'" Carter v. Mitchell, 693 F.3d 555,
562 (6th Cir. 2012), quoting Harrington v. Richter, U.S. , 131 S. Ct. 770, 784, 178 L. Ed. 2d 624
(2011). When a state court rules against a defendant in an opinion that rejects some of the defendant's
claims but does not expressly address a federal claim, a federal habeas court must presume, subject to
rebuttal, that the federal claim was adjudicated on the merits. Johnson v. Williams, 568 U.S. , 133 S. Ct.
1088, 185 L. Ed. 2d 105; 133 S. Ct. 1088, 185 L. Ed. 2d 105 (2013).
In this case, since a federal claim as to this evidence was presented2 to the Ohio Supreme Court is must be
deemed under Harrington to have decided that claim on the merits. And its decision was not an
objectively unreasonable application of any of the Supreme Court precedent cited by Coleman.

2 On

the other hand, if the federal claim was not "fairly presented" to the Ohio Supreme Court and therefore not decided by that Court on the
merits, it would be [*42] procedurally defaulted for Coleman's failure to fairly present it. Williams v. Anderson, 460 F.3d 789, 806 (6th Cir.
2006); Levine v. Torvik, 986 F.2d 1506, 1516 (6th Cir.), cert. denied, 509 U.S. 907, 113 S. Ct. 3001, 125 L. Ed. 2d 694 (1993), overruled in
part on other grounds by Thompson v. Keohane, 516 U.S. 99, 116 S. Ct. 457, 133 L. Ed. 2d 383 (1995); Riggins v. McMackin, 935 F.2d 790,
792 (6th Cir. 1991). The claim must be fairly presented at every stage of the state appellate process. Wagner v. Smith, 581 F.3d 410, 418 (6th
Cir. 2009).
Merely using talismanic constitutional phrases like "fair trial" or "due process of law" does not constitute raising a federal constitutional
issue. Slaughter v. Parker, 450 F.3d 224, 236 (6th Cir. 2006); Franklin v. Rose, 811 F.2d 322, 326 (6th Cir. 1987); McMeans v. Brigano, 228
F.3d 674, 681 (6th Cir. 2000), citing Petrucelli v. Coombe, 735 F.2d 684, 688-89 (2d Cir. 1984). Mere use of the words "due process and a
fair trial by an impartial jury" are insufficient. Slaughter v. Parker, 450 F.3d 224, 236 (6th Cir. 2006); Blackmon v. Booker, 394 F.3d 399,
400 (6th Cir. 2004)(same).

Appendix D
Appx-0040

Given the paucity of federal argument in the Merit Brief, it is at least arguable that this Ground for Relief is procedurally defaulted.

Page 15 of 15
2013 U.S. Dist. LEXIS 94269, *42

• Gardner v. Florida, 430 U.S. 349, 97 S. Ct. 1197, 51 L. Ed. 2d 393 (1977), the only Supreme Court
precedent cited in the Merit Brief, holds that a death sentence cannot be based on information in a
presentence investigation report kept confidential. It does not speak to admission of evidence of prior
crimes which are relevant [*41] to show motive for killing a witness.
• Dowling v. United States, 493 U.S. 342, 110 S. Ct. 668, 107 L. Ed. 2d 708 (1990), held that
collateral estoppel did not prevent admission of identity testimony in a bank robbery trial because
identity had not been an issue in the prior burglary trial. Confronted with a Due Process claim related
to Fed. R. Evid. 404(b), the Court refused to "constitutionalize" its rules about prior bad acts.
• Estelle v. McGuire, 502 U.S. 62, 112 S. Ct. 475, 116 L. Ed. 2d 385 (1991), held in a child abuse case
that evidence of prior injuries to the child was admissible to prove intent over a Due Process
objection. The Court expressly disapproved of constitutionalizing state law regarding prior bad acts.
• Old Chief v. United States, 519 U.S. 172, 117 S. Ct. 644, 136 L. Ed. 2d 574 (1997), interprets Fed.
R. Evid. 403 and 404 on a direct criminal appeal within the federal system; it does not involve any
constitutional decision.
• Kelly v. California, 555 U.S. 1020, 129 S. Ct. 564, 172 L. Ed. 2d 445 (2008), is a denial of a petition
for writ of certiorari. Justice Stevens' dissent deals with the admission of victim impact videos in
capital cases.
Thus [*43] Coleman has not pointed to any holding by the United State Supreme Court that is in point,
much less one that was unreasonably applied by the Ohio Supreme Court. The most that Coleman does is
to cite "death is different" language from the Supreme Court and suggest that means this evidence should
have been excluded (Objections, Doc. No. 201, PageID 2536, citing Gardner, supra; Lockett v. Ohio, 438
U.S. 586, 98 S. Ct. 2954, 57 L. Ed. 2d 973 (1978); and Woodson v. North Carolina, 428 U.S. 280, 96 S.
Ct. 2978, 49 L. Ed. 2d 944 (1976).) "'Clearly established federal law, as determined by the Supreme Court
of the United States" refers to the holdings, as opposed to the dicta, of [the Supreme] Court's decisions as
of the time of the relevant state-court decision." Terry Williams v. Taylor, 529 U.S. 362 at 412, 120 S. Ct.
1495, 146 L. Ed. 2d 389 (2000). But the quite correct observation that capital punishment is different from
all other forms of criminal punishment in its severity and finality has never been thought to mean that
every criminal procedure rule or rule of evidence in a criminal case must, as a matter of constitutional law,
be interpreted as strictly as possible against the State. Admission of the prior drug case evidence to prove
motive did not offend any clearly established constitutional [*44] precedent of the United States Supreme
Court.
The Magistrate Judge therefore again respectfully recommends that this Ground for Relief be denied and a
certificate of appealability be denied.
July 5, 2013.
/s/ Michael R. Merz
United States Magistrate Judge
End of Document

Appendix D
Appx-0041

Coleman v. Bradshaw
United States District Court for the Southern District of Ohio, Western Division
November 28, 2012, Decided; November 30, 2012, Filed
Case No. 3:03-cv-299
Reporter
2012 U.S. Dist. LEXIS 170609 *

TIMOTHY L. COLEMAN, Petitioner, -vs- MARGARET BRADSHAW, Warden, Respondent.

Subsequent History: Supplemental opinion at, Magistrate's recommendation at Coleman v. Bradshaw,
2013 U.S. Dist. LEXIS 94269 (S.D. Ohio, July 5, 2013)

Prior History: Coleman v. Bradshaw, 2009 U.S. Dist. LEXIS 120112 (S.D. Ohio, Dec. 4, 2009)

Counsel: [*1] For Timothy L Coleman, Petitioner: Robert K Lowe, LEAD ATTORNEY, Ohio Public
Defender's Office - 2, Columbus, OH; Timothy F Sweeney, Cleveland, OH.
For Warden Margaret Bradshaw, Respondent: Stephen E. Maher, LEAD ATTORNEY, Thomas E
Madden, Office of the Ohio Attorney General Criminal Justice Section, Columbus, OH.
For BCI Records Custodian, Material Witness: Maura O'Neill Jaite, LEAD ATTORNEY, Ohio Attorney
General's Office Criminal Justice Section, Columbus, OH.

Judges: Michael R. Merz, United States Magistrate Judge. District Judge Edmund A. Sargus, Jr.

Opinion by: Michael R. Merz

Opinion

Appendix E
Appx-0042

Page 2 of 69
2012 U.S. Dist. LEXIS 170609, *1

REPORT AND RECOMMENDATIONS
This is a capital habeas corpus case brought pursuant to 28 U.S.C. § 2254. Petitioner seeks relief from his
convictions for aggravated murder with capital and firearm specifications and having weapons while
under disability. (Petition, Doc. No. 9, ¶ 41 PageID 1)2.

Factual Background
On direct appeal, the Ohio Supreme Court reported the factual background of this case as follows:
On the night of January 2, 1996, Melinda Stevens was shot to death in an alley behind Riddle's Ribs
in Springfield, Ohio. Timothy Coleman, appellant, was convicted of her aggravated murder and
sentenced to death.
During the previous summer, Stevens had worked as a confidential informant for the Springfield
police and made controlled purchases of drugs from suspected drug dealers. On three separate
occasions, Stevens made purchases of crack cocaine from Coleman, which were observed and
recorded by the police.
As a result of these sales, a grand jury indicted Coleman in September 1995 for aggravated trafficking
in cocaine and associated possession offenses. Stevens was a material witness to these offenses, but
her identity was not listed in the indictment. Colement pled not guilty to these charges.
While in jail awaiting trial for these charges, Coleman told his cellmate, James R. White, that he had
discovered that Stevens was the [*3] one that "got him busted" and that "if he [Coleman] got out on
bond, he was going to take care of her." According to White, Coleman stated that he had a newborn
baby, was facing fifteen to forty-five years on the pending drug charges, and "couldn't * * * do that
much time in the joint." Coleman had known White for years and asked him to "take care" of Stevens
if White got bailed out first. However, Coleman was released first on October 12. Another inmate,
Donovan Hayes, testified that he heard Coleman tell White "That if it was her [Stevens] that was
responsible for him being here, he would have to do something to her."
White was released from jail in mid-November and testified that Coleman again asked him to help
"take care" of Stevens. They talked about burning down Stevens's house or the possibility of White
shooting her. Early on January 2, 1996, Coleman saw White twice and told White he would pick him
up that evening to take care of Stevens, but Coleman never showed up. On January 3, after Stevens
had been killed, Coleman told White that "he took care of his business."
Christopher Holtz testified that he saw Stevens and Coleman on the evening of January 2, 1996
around 7:00 or 8:00 [*4] p.m. at Riddle's Ribs, apparently buying takeout food. Holtz recalled that
Coleman was wearing a flannel-type shirt and that Stevens and Coleman left Riddle's together around
the same time Holtz did. Holtz last saw the two alone in a nearby alley. The weather that evening was
cold, windy, and snowing. As Holtz was walking home, he heard shots.

1 The

Petition also lists convictions for aggravated trafficking in drugs and possession of criminal tools, but those are from the Drug case and
he does not seek relief from that conviction in this case.
2 The

PageID number is applied automatically by the Court's electronic filing system and numbers in order each page of the docket. Although
there [*2] were eight filings prior to the Petition, it is the first document filed after the CM/ECF system was adopted and hence its first page
is PageID 1.

Appendix E
Appx-0043

Page 3 of 69
2012 U.S. Dist. LEXIS 170609, *2

Around 7:25 p.m., police and paramedics responded to the alley behind West Pleasant Street near
Riddle's Ribs, the scene of a shots-fired report. They found Stevens lying face up with no pulse or
respiration and only minimal heart activity. Although the paramedics took Stevens to the hospital, the
coroner later concluded that Stevens had died at 7:20 p.m. on January 2, 1996. Icy rain had fallen that
evening, followed by heavy snow and strong winds, thereby hampering investigative efforts.
Coleman frequently visited the house of Fayette Strodes in Springfield. Strodes's granddaughter,
Dana, had a child by Coleman, and Fayette's son, James Strodes, was Coleman's friend. Prior to
January 2, 1996, Coleman told Fayette several times that "he was going to kill [a] black bitch" to
whom he had sold drugs because she was a "drug informant." Vera L. Strodes, [*5] Fayette's
daughter, also recalled Coleman discussing his legal problems, saying, "he was going to kill her."
Hope Strodes, Fayette's granddaughter, recalled that Coleman visited the Strodeses' house early on the
evening of January 2, and asked her for some bullets. Hope told him that there was a box of bullets on
a shelf. Coleman took some bullets, showed Hope a silver gun with a clip, and said, "I'm going to go
take care of a bitch that set me up."
Around 7:30 p.m. that same evening, Coleman stopped in for a few minutes to see Gaskins and told
her, "I took care of my business." When asked what he meant, Coleman replied, "Bloop, bloop, two to
the back of the head * * *. The bitch fell like a rock," while demonstrating at the same time what
happened by physically falling to the floor. After January 3, Coleman again talked with Gaskins and
disclosed to her that the murder occurred in an alley behind Riddle's Ribs and that he had slowed
down while walking in order to shoot Stevens from behind.
After Coleman left Gaskins's house that night, he went back to the Strodeses' residence. Hope, Vera,
and Fayette all testified that Coleman did not look normal and was nervous. Vera testified that
[*6] he was wearing a flannel shirt that had cockleburs on it. Coleman told Fayette that he "had took
care of it." When she asked what, he said "Melinda" and "twice in the head" because he "couldn't do
that many years."
On January 3, 1996, police interviewed Coleman after advising him of his rights. Coleman asserted to
police that sometime after 7:00 p.m. on January 2, Stevens came to the house of Coleman's daughter,
next to Riddle's Ribs, and asked him for money to buy food for her children. Coleman told her he was
not going to give her money, but that he would walk over there and pay it for her. After going to
Riddle's and paying for the food, Coleman stated that he left, did not see Stevens again, and did not
know she had been murdered.
Coleman later talked with Vera Strodes about the fact that people on the street were saying that he
shot Stevens. At first, Coleman denied shooting Stevens, but later admitted to Vera that he "did take
the bitch out." While in jail awaiting trial, Coleman described the murder to fellow inmate Antwan
Warren, revealing that while he was walking out of the restaurant with Stevens, he "slowed down his
step and shot her."
Dr. Robert Stewart, a forensic pathologist, [*7] concluded that Stevens died as a result of two
gunshot wounds, one to the back of her head and one to the base of her neck. The first bullet stopped
at the front-left side of her brain. The second bullet shattered the first vertebra and severed her spinal
cord, traveled upward into the sinus cavity, and lodged just under the cheek skin.
Because the weather stayed cold until mid-January, ice and snow remained on the ground, hampering
efforts to secure physical evidence at the murder scene. One officer estimated that on January 3, there

Appendix E
Appx-0044

Page 4 of 69
2012 U.S. Dist. LEXIS 170609, *7

were two inches of ice and four inches of closely packed snow in the alley. Eventually, on January 17,
police officers found two spent .380 caliber shell casings near a bloodstain remaining in the alley.
A forensic expert identified the two bullets removed from Stevens's body as either .380 caliber bullets
fired from an automatic or semiautomatic firearm, particularly either a Colt government model or a
Davis P-380. The Davis P-380 comes either in steel or chrome models. Gunpowder residue on
Stevens's clothing indicated that she had been shot from less than four feet away.
In May 1996, Coleman shared a prison cell with Steven L. Kasler, an inmate at an Ohio
[*8] correctional center. Coleman told Kasler that he was awaiting trial for killing a drug informant
named Melinda Stevens, and that he thought "if he killed her * * * he could beat his drug charges."
Coleman said he shot Stevens twice in the back of the head using a Davis P-380. He also told Kasler
that he shot her in an alley under "pretty severe, blizzard conditions" because he thought the weather
would hamper the investigation. He then disclosed to Kasler that he had gotten rid of his gun and
hidden his clothes in a doghouse in Fayette's back yard. In fact, police never found the murder
weapon, but did recover from the Strodeses' doghouse a tennis shoe and a flannel shirt identified as
clothing that Coleman wore on January 2.
Coleman was indicted in March 1996 for the aggravated murder of Melinda Stevens with prior
calculation and design. Count I of the indictment contained a death specification that Coleman
murdered Stevens, a witness to an offense, to prevent her from testifying in a criminal proceeding in
violation of R.C. 2929.04(A)(8). Count I of the indictment also contained a firearm specification in
violation of R.C. 2929.71. Furthermore, the grand jury indicted Coleman for [*9] possession of a
firearm while under a disability.
The trial jury found Coleman guilty on all charges. Following the penalty phase hearing, the jury
recommended the death penalty, and the trial court sentenced Coleman to death.
State v. Coleman, 85 Ohio St.3d 129, 129-132, 1999 Ohio 258, 707 N.E.2d 476 (1999).

History of the Case
On September 11, 1995, Petitioner Timothy Coleman was indicted by the Clark County Grand Jury for
aggravated trafficking in narcotics and possessing criminal tools (Case No. 95-CR-0484; the "Drug
Case"). On January 2, 1996, Melinda Stevens, the confidential drug informant in that case, was shot to
death in an alley in Springfield, Ohio.
On March 18, 1996, the Clark County Grand Jury indicted Petitioner under Ohio Revised Code §
2903.01(A) for the aggravated murder of Stevens with a capital specification under Ohio Revised Code §
2929.04(A)(8) that the victim was a witness to an offense who was purposely killed to prevent her
testimony in a criminal proceeding and the aggravated murder was not committed during the commission,
attempted commission, or flight immediately after the commission or attempted commission of the
offense to which the victim was a witness and with a firearm specification [*10] under Ohio Revised
Code § 2929.71. Coleman was charged in Count Two with having a weapon while under a disability in
violation of Ohio Revised Code § 2923.13. (Case No. 96-CR-0142; the "Murder Case.")
The Drug Case was tried to a jury in April, 1996. Coleman was found guilty of all charges and took no
appeal from the conviction (Petition, Doc. No. 9, ¶ 8(e)(2).) In February, 1997, a jury convicted Coleman
of all charges in the Murder Case and he wasAppendix
sentenced toEdeath. Because the murder had occurred after

Appx-0045

Page 5 of 69
2012 U.S. Dist. LEXIS 170609, *10

January 1, 1995, Coleman's direct appeal was to the Ohio Supreme Court. He pled the following
propositions of law:
Proposition of Law I
When defense uses trial strategies that are harmful to their client and fails to object to obvious
constitutional errors during trial, a capital defendant is deprived of the right to the effective assistance
of counsel that is guaranteed by the Sixth, Eighth, and Fourteenth Amendments to the United States
Constitution and §Article I, § 9, 10 and 16 of the Ohio Constitution.
Proposition of Law II
When the State fails to introduce sufficient evidence of aggravated murder, a resulting conviction
deprives a capital defendant of substantive and procedural [*11] due process as guaranteed by the
Eighth, Ninth and Fourteenth Amendments to the United States Constitution, as well as Article I,
sections 1, 16 and 20 of the Ohio Constitution.
Proposition of Law III
A capital defendant is denied his rights to a fair trial, due process of law and a reliable determination
of his guilt and sentence as guaranteed by the Fifth, Sixth, Eighth, Ninth and Fourteenth Amendments
to the United States Constitution and Article I, Sections 10 and 16 of the Ohio Constitution when
irrelevant and cumulative testimony and other physical exhibits from a prior trial are admitted into
evidence when their prejudicial effect outweighs their probative value.
Proposition of Law IV
The defendant is entitled to a new trial when the State uses its peremptory challenge in a racially
discriminatory manner in violation of the equal protection clause of the Fourteenth Amendment to the
United States Constitution and Article I, § 2 of the Ohio Constitution.
Proposition of Law V
A conviction based on the admission of tape recordings which are so inaudible as to create a danger of
unfair prejudice substantially outweighing any probative value violates the Fifth, Eighth and
Fourteenth Amendments to the U.S. Constitution [*12] as well as Article I, §§ 2, 10 and 16 of the
Ohio Constitution.
Proposition of Law VI
When a capital defendant is detained in a county other that [sic] that in which he is charged for a
capital crime, he is denied the rights to confer with counsel, assist in the preparation of his defense,
and the assistance of counsel as guaranteed by the Sixth and Fourteenth Amendments to the United
States Constitution and Article I, Sections 2, 9, 10, and 16 of the Ohio Constitution.

Appendix E
Appx-0046

Page 6 of 69
2012 U.S. Dist. LEXIS 170609, *12

Proposition of Law VII
Ohio's capital sentencing scheme is unconstitutional as applied because it results in sentences which
are inconsistent, inappropriate and disproportionate to the penalty imposed in similar cases in
violation of the Eighth and Fourteenth Amendments to the United States Constitution, and Ohio
Revised Code § 2929.05 (A).
Proposition of Law VIII
Ohio Rev. Code Ann. § 2929.04(A)(8) is unconstitutionally vague therefore, a death sentence
predicated on the (A)(8) aggravating circumstance violates the Eighth and Fourteenth Amendments to
the United States Constitution and Article I, § 9 of the Ohio Constitution.
Proposition of Law IX
Sentencing an individual to death in violation of treaties to which the United [*13] States of America
is a signatory violates the Supremacy Clause of the United States Constitution.
Proposition of Law X
The death penalty authorized by the Ohio Revised Code deprives capitally charged defendants of their
lives without due process of law, denies equal protection and imposes cruel and unusual punishment
in violation of the Ohio and United States Constitutions.
(Return of Writ, Doc. No. 167, Apx. Vol. 4 at 30.) The Ohio Supreme Court affirmed the conviction and
sentence. State v. Coleman, 85 Ohio St. 3d 129, 1999 Ohio 258, 707 N.E.2d 476 (1999).
On November 3, 1997, Coleman filed a Petition for Post-Conviction Relief under Ohio Revised Code §
2953.21 pleading the following claims for relief:
First Ground for Relief
The judgment and sentence against Timothy Coleman are void or voidable because the recent
amendments to the Ohio postconviction process violate his constitutional rights to due process which
the Ohio and United States Constitutions afford him.
The amendments by the Ohio Legislature to Rule 35 of Criminal Procedure, which became effective
on July 1, 1997, curtail the post-conviction process, rendering it practically devoid of any meaning.
(Exhibit 27). Rule 35(A) now demands that each ground for [*14] relief contained in a postconviction petition not exceed three pages. The Staff Notes to the amendment state that the purpose of
this change is to "introduce some uniformity in post-conviction relief proceedings and aid in the
administration of justice." (Exhibit 27).
Second Ground for Relief
The judgment and sentence against Timothy Coleman are void or voidable because the trial court
erred in overruling defense counsel's motion to view grand jury proceedings. This error deprived Mr.
Coleman of possible exculpatory information, thus violating his right to a fair trial.

Appendix E
Appx-0047

Page 7 of 69
2012 U.S. Dist. LEXIS 170609, *14

Third Ground for Relief
The judgment and sentence against Timothy Coleman are void or voidable because he did not receive
the effective assistance of counsel during the trial phase of his capital trial. Counsel fell far below a
minimum standard or reasonable legal representation in that they failed to conduct a reasonable
investigation and failed to show a particularized need for grand jury transcripts which could have
revealed prosecutorial misconduct.
Fourth Ground for Relief
Timothy Coleman was denied his right to a fair trial due to his counsel's failure to conduct adequate
voir dire. Because of defense counsel's ineffectiveness, [*15] a juror, who had disclosed in his
questionnaire that he was "related to or a close friend of" the "county prosecutor or his staff" was
allowed to sit on the jury which eventually found Mr. Coleman guilty of all charges and sentenced
him to death.
Fifth Ground for Relief
The judgment and sentence against Timothy L. Coleman are void or voidable because he did not
receive the effective assistance of counsel during all phases of his capital trial. Counsel fell far below
a minimum standard of reasonable legal representation when they failed to meet with previous trial
counsel who had conducted an investigation of Mr. Coleman's murder charges. Counsel also failed to
conduct follow-up investigation of witnesses and information contained within the previous counsel's
investigation. As a result of this failure, Mr. Coleman was prejudiced in the first phase of his trial.
Sixth Ground for Relief
The judgment and sentence against Timothy Coleman are void or voidable because he did not receive
the effective assistance of counsel during the guilt phase of his trial. Counsel fell far below a
minimum standard of legal representation by not presenting alibi testimony which was available for
discovery during [*16] trial.
Seventh Ground for Relief
The judgment and sentence against Timothy L. Coleman are void or voidable because he did not
receive the effective assistance of counsel during the first phase of his trial. Counsel fell far below a
minimum standard of legal representation when they failed to introduce testimonial evidence of
improper police influence in the arrest of Timothy Coleman for the murder of Melinda Stevens.
Eighth Ground for Relief
The judgment and sentence against Timothy L. Coleman are void or voidable because he did not
receive the effective assistance of counsel during his trial. Counsel fell far below a minimum standard
of reasonable legal representation when counsel admitted that they did not give careful attention to
Mr. Coleman's case so they could "hurry up" to work on another case.

Appendix E
Appx-0048

Page 8 of 69
2012 U.S. Dist. LEXIS 170609, *16

Ninth Ground for Relief
The judgment and sentence against Timothy Coleman are void or voidable because he did not receive
the effective assistance of counsel during the sentencing phase of his trial. Counsel fell far below a
minimum standard of legal representation in conducting the first phase of the trial, by not introducing
residual doubt arguments to the jury.
Tenth Ground for Relief
The [*17] judgment and sentence against Timothy Coleman are void or voidable because he did not
receive the effective assistance of counsel during the sentencing phase of his trial. Defense counsel's
failure to conduct an adequate investigation into Mr. Coleman's background for mitigating evidence,
resulted in a violation of his constitutional rights as guaranteed by the United States Constitution and
the Ohio Constitution.
Eleventh Ground for Relief
The judgment and sentence against Timothy Coleman are void or voidable because of the ineffective
assistance of his court-appointed counsel during the sentencing phase of his trial. Counsel fell far
below a minimum standard of reasonable legal representation by numerous actions and failures to act,
thus violating the guaranteed [sic] by the United States Constitution and the Ohio Constitution.
Twelfth Ground for Relief
The judgment and sentence against Timothy Coleman are void or voidable because he did not receive
the effective assistance of counsel during the mitigation phase of his capital trial. Counsel fell far
below a minimum standard of reasonable legal representation in their failure to present the testimony
of an expert psychologist. Because [*18] of counsel's error, no psychological evidence was presented
by the defense at the mitigation phase.
Thirteenth Ground for Relief
The judgment and sentence against Timothy Coleman are void or voidable because he did not receive
the effective assistance of counsel during the sentencing phase of his trial. Counsel fell far below a
minimum standard of reasonable legal representation in their failure to present the testimony of an
expert psychologist. Because of counsel's error, no psychological evidence was presented by the
defense at the mitigation phase. The mitigation phase was likely to be the stage of the proceedings
where Tim's counsel could have done the most good. Glenn v. Tate, 71 F.3d 1204, 1206 (1995), citing
Kubat v. Thieret, 867 F.2d 351, 369 (7th Cir.), cert. denied, 493 U.S. 874, 110 S. Ct. 206, 107 L. Ed.
2d 159 (1989). Trial counsel committed a crucial error during the mitigation phase: they failed to
conduct an adequate investigation into Tim's background. Had they done so, they could have
presented mitigating testimony from Steven Williams, a Deputy Sheriff at the Clark County Jail.

Appendix E
Appx-0049

Page 9 of 69
2012 U.S. Dist. LEXIS 170609, *18

Fourteenth Ground for Relief
The judgment and sentence against Timothy Coleman are void and or voidable because his defense
[*19] counsel failed to retain the services of a cultural expert. As a result, Mr. Coleman was denied
the effective assistance of counsel guaranteed to him by the Sixth Amendment to the United States
Constitution, and similar provisions of the Ohio Constitution.
Fifteenth Ground for Relief
The judgment and sentence against Timothy Coleman are void or voidable because he did not receive
the effective assistance of counsel during the sentencing phase of his capital trial. Defense counsel
delivered a closing argument that not only omitted all the mitigating evidence that was presented, but
also turned possible mitigating factors into aggravating circumstances. As a result, Mr. Coleman was
denied the effective assistance of counsel that is guaranteed to him by the Sixth Amendment to the
United States Constitution, and similar provisions in the Ohio Constitution.
Sixteenth Ground for Relief
The judgment and sentence against Timothy Coleman are void or voidable because he did not receive
the effective assistance of counsel during all phases of his capital trial. Counsel fell far below a
minimum standard of reasonable legal representation. The cumulative impact of the litany of errors
that occurred [*20] during Timothy Coleman's trial, rendered his capital proceedings
unconstitutional.
Seventeenth Ground for Relief
The judgment and sentence against Timothy Coleman are void or voidable because he did not receive
the effective assistance of counsel during all phases of his capital trial. Counsel fell far below a
minimum standard of reasonable legal representation with the failure to impeach witness Christopher
Holtz's testimony with a prior statement made to the police. (Exh. 45).
Eighteenth Ground for Relief
The judgment and sentence against Timothy Coleman are void or voidable because he did not receive
the effective assistance of counsel during all phases of his capital trial. Counsel fell far below a
minimum standard of reasonable legal representation with the failure to impeach witness Lynnda
Gaskins' testimony with a prior statement she made to the police on 4/5/96. (Exh. 46).
Nineteenth Ground for Relief
The judgment and sentence against Timothy Coleman are void or voidable because he did not receive
the effective assistance of counsel during all phases of his capital trial. Counsel fell far below a
minimum standard of legal representation with the failure to impeach witness Steve Kasler's
[*21] testimony with a prior statement he made to the police on 6/20/96. (Exh 47).

Appendix E
Appx-0050

Page 10 of 69
2012 U.S. Dist. LEXIS 170609, *21

Twentieth Ground for Relief
The judgment and sentence against Timothy Coleman are void or voidable because he did not receive
the effective assistance of counsel during all phases of his capital trial. Counsel fell far below a
minimum standard of legal representation with the failure to impeach James White's testimony with a
prior statement offered at Timothy Coleman's aggravated drug trafficking trial (Case No. 95-CR0484). (Exh. 48).
Twenty-First Ground for Relief
The judgment and sentence against Timothy Coleman are void or voidable because he did not receive
the effective assistance of counsel during all phases of his capital trial. Counsel fell below a minimum
standard of reasonable legal representation with the failure to investigate other plausible leads as to
the identity of the killer.
Twenty-Second Ground for Relief
The judgment and sentence of Petitioner are void or voidable because the death penalty as
administered by electrocution in the State of Ohio violates his constitutional rights to protection from
cruel and unusual punishment and to due process of law. U.S. Const. Amends. VIII, IX, XIV; Ohio
Const. Art. I §§ 9, [*22] 10, 16; Ohio Adult Parole Authority v. Woodard, 523 U.S. 272, 118 S. Ct.
1244, 140 L. Ed. 2d 387 (1998)(five justices holding that the Due Process Clause protects the "life"
interest at issue in capital cases).
Twenty-Third Ground for Relief
The judgment and sentence against Petitioner are void or voidable because the death penalty as
administered by lethal injection in the State of Ohio violates his constitutional rights to protection
from cruel and unusual punishment and to due process of law. U.S. Const. amends. VIII, XI, XIV;
Ohio Const. art. I §§ 9, 10, 16; Ohio Adult Parole Authority v. Woodard, 523 U.S. 272, 118 S. Ct.
1244, 140 L. Ed. 2d 387 (1998)(five justices holding that the Due Process Clause protects the "life"
interest at issue in capital cases).
("First Amended Post-Conviction Petition," Return of Writ, Doc. No. 167, Apx. Vol. 10 at 1.) The trial
court denied relief on June 1, 2001 (Return of Writ, Doc. No. 167, Apx. Vol. 10 at 160-175). Coleman
appealed to the Ohio Second District Court of Appeals on June 27, 2001, raising only one assignment of
error:
Assignment of Error No. I: The trial court erred in dismissing appellant's post-conviction petition
where he presented sufficient operative facts to merit [*23] an evidentiary hearing and discovery.
Issues Presented for Review and Argument:
1) Is dismissal appropriate where Appellant's postconviction petition raises substantive grounds for
relief, relies upon evidence outside the record containing sufficient operative facts, and raises
constitutional violations?
2) When a post-conviction petition sets forth meritorious claims, is dismissal appropriate without first
granting an evidentiary hearing and discovery?
(Return of Writ, Doc. No. 167, Apx. Vol, 11, at 71).

Appendix E
Appx-0051

Page 11 of 69
2012 U.S. Dist. LEXIS 170609, *23

About a month later on July 21, 2001, Attorney Staughton Lynd, identifying himself as an attorney
involved with a number of death row inmates, wrote to Coleman as follows:
Yesterday I was told something that is potentially of great importance to you. I was told, by a person
in a position to know, that another prisoner on death row wishes to confess publicly to the murder for
which you have been convicted.
(Return of Writ, Doc. No. 167, Apx. Vol. 14 at 56.) Coleman was at the time represented by Ohio Public
Defender David Bodiker; J. Joseph Bodine, his assistant, was one of the counsel of record. On August 3,
2001, Bodine obtained an affidavit from death row inmate William Sapp admitting [*24] to the murder of
Melinda Stevens. The Sapp Affidavit provided details as to a beer bottle at the scene, the clothing worn by
Stevens, the type of weapon used, and the location of her wounds. Id. at 26-27. In addition to the affidavit,
counsel was also able to discover Sapp's involvement in the Springfield drug culture, his history of
violence against women, and a letter he wrote to one of his victims in which he attempted to scare and
threaten her by claiming responsibility for a murder "off of Pleasant [Street]." Id. at 28.
As a result of this newly discovered evidence, Coleman filed several motions in the Common Pleas Court,
including a motion for relief from judgment pursuant to Ohio R. Civ. P. 60(b), a motion for discovery, a
second post-conviction petition3 and a motion for new trial which stated he "did not kill Melinda Stevens.
He has obtained evidence that identifies William Sapp as the actual killer. Further, Coleman has evidence
that this exculpatory evidence was known, but not disclosed, by the Clark County Prosecutor."(Return of
Writ, Doc. No. 167, Apx. Vol. 14 at 19.) In addition, he requested that all the State's physical evidence,
specifically a Colt 45 beer bottle and [*25] the rape evidence collection kit that had been performed on
the victim, be made available for inspection and forensic testing, for discovery, and for preservation. Id. at
58.
Based on these motions. Coleman requested the court of appeals to stay its proceedings. (Return of Writ,
Doc. No. 167, Apx. Vol. 12 at 136.) The stay was granted March 25, 2002. (Decision and Entry, Return of
Writ, Doc. No. 167, Vol. 12 at 143.)
Sapp had claimed he had sex with Melinda Stevens before shooting her and that he had drunk a Colt 45
beer just before the shooting and left the bottle at the scene. Police had a rape test kit collected from Ms.
Stevens body and a Colt 45 bottle. Common Pleas Judge Lorig ordered them tested by the Ohio Bureau of
Criminal Investigation (Entry, Return of Writ, Doc. No. 167, Vol. 14 at 167). At about the same time, in
light of the possible protracted new trial and successive post-conviction proceedings in the
[*26] Common Pleas Court, the court of appeals lifted the stay of its proceedings (Decision and Entry,
Return of Writ, Doc. No. 167, Vol. 12 at 158) and then affirmed denial of the first post-conviction
petition. State v. Coleman, No. 2001-CA-42, 2002-Ohio-5377, 2002 Ohio App. LEXIS 5396 (Ohio App.
2nd Dist. Oct. 4, 2002). On March 12, 2003, the Ohio Supreme Court declined jurisdiction over a further
appeal. State v. Coleman, 98 Ohio St. 3d 1478, 2003 Ohio 974, 784 N.E.2d 711 (2003).
On July 22, 2004, Judge Lorig denied the motion for new trial and the second postconviction petition, as
well as parallel motions filed in the Drug Case (Decision and Judgment Entry, Return of Writ, Doc. No.
167, Vol. 15 (Amended) at 170-180). The Second District Court of Appeals affirmed. State v. Coleman,
2005-Ohio-3874, 2005 Ohio App. LEXIS 3583 (Ohio App. 2nd Dist. July 29, 2005), and the Ohio

3 His

second post-conviction relief petition pled two grounds for relief: actual innocence and a Brady v. Maryland violation (Return of Writ,
Doc. No. 167, Apx. Vol. 14 at 96-99). These form the basis of his First and Second Grounds for Relief in his habeas corpus petition.

Appendix E
Appx-0052

Page 12 of 69
2012 U.S. Dist. LEXIS 170609, *26

Supreme Court again declined to accept an appeal. State v. Coleman, 107 Ohio St. 3d 1697, 2005 Ohio
6763, 840 N.E.2d 203 (2005).
On June 27, 2003, before completion of the state court proceedings, Coleman filed his habeas corpus
petition in this Court, pleading eight grounds for relief:
First Ground for Relief
Petitioner is actually innocent of Melinda Stevens's murder. His convictions [*27] and death sentence
violate the U.S. Constitution. U.S. Const. Amends. VI, VIII, XIV.
Second Ground for Relief
The State of Ohio withheld material exculpatory evidence pointing to a perpetrator other than
Petitioner in violation of Petitioner's due process rights. U.S. Const. Amends. V, XIV.
Third Ground for Relief
Petitioner was denied his right to the effective assistance of counsel at the trial phase of his capital
case as guaranteed by the U.S. Const. Amends. VI and XIV.
Fourth Ground for Relief
Petitioner's Constitutional right to a fair, non-arbitrary and reliable capital sentencing hearing was
violated by his counsel's ineffective assistance at the mitigation phase of his capital trial. U.S. Const.
Amends. V, VI, VIII, XIV.
Fifth Ground for Relief
The State of Ohio's exclusion of a petit juror from Petitioner's capital trial on the basis of the juror's
race rendered a constitutionally infirm conviction and sentence. United States Constitution, Eighth
and Fourteenth Amendments.
Sixth Ground for Relief
Petitioner's conviction was based on the admission of tape recordings, which are so inaudible as to
create a danger of unfair prejudice substantially outweighing any probative value, thereby
[*28] violating Petitioner's due process rights. U.S. Const. Amends. VI, VIII, XIV.
Seventh Ground for Relief
When the prejudicial effect of introducing irrelevant and cumulative testimony and physical exhibits
from a prior trial outweighs any probative value, Petitioner's [sic] is denied due process and a reliable
determination of his guilt and sentence. U.S. Const. Amends. V, VI, VIII, XIV.
Eighth Ground for Relief

Appendix E
Appx-0053

Page 13 of 69
2012 U.S. Dist. LEXIS 170609, *28

Petitioner's convictions and sentences are constitutionally infirm because the evidence was
insufficient to prove Petitioner killed the decedent with prior calculation and design. United States
Constitution, Fifth, Sixth, Eighth and Fourteenth Amendments.
(Petition, Doc. No. 9.)
On June 28, 2004, Respondent moved to dismiss the First Ground as not cognizable in habeas corpus and
unexhausted, the Second Ground as unexhausted, the Third Ground subclaims related to a fingerprint
expert and failure to present testimony from Charles Foster as procedurally defaulted for lack of
presentation in the state courts, and the Sixth Ground as procedurally defaulted for lack of a
contemporaneous objection (Motion to Dismiss, Doc. No. 18, PageID 169). Judge Sargus denied the
Motion without prejudice [*29] as to Grounds One and Two, denied the Motion as to Ground Three, and
granted the Motion as to Ground Six (Opinion and Order, Doc. No. 32). The reference of the case was
transferred to the undersigned October 14, 2009 (Doc. No. 152). The Return of Writ was filed February
23, 2010 (Doc. No. 167) and the Reply on August 24, 2010 (Doc. No. 170). On July 1, 2011, the Court
noted that the case was ripe for decision (Doc. No. 197).

ANALYSIS

First Ground for Relief: Actual Innocence
In his First Ground for Relief, Coleman asserts he is actually innocent of the murder of Melinda Stevens
(Petition, Doc. No. 9, PageID 8).
The Warden's first response was that this claim was unexhausted (Motion to Dismiss, Doc. No. 18). Judge
Sargus declined to find constructive exhaustion (Opinion and Order, Doc. No. 32, PageID 451-458), the
state court proceedings were completed, and the Warden has withdrawn the motion to dismiss on that
basis (Doc. No. 43).
The First Ground for Relief is what has come to be known as a "free standing" claim of actual innocence:
a petitioner asserts that the Constitution directly forbids his execution because he is actually innocent.
Such a claim is contrasted with a "procedural" or [*30] "gateway" actual innocence claim, that is, a claim
that a petitioner's actual innocence excuses his procedural default in presenting some other constitutional
claim in state court. The procedural actual innocence doctrine was recognized by the Supreme Court in
Schlup v. Delo, 513 U.S. 298, 115 S. Ct. 851, 130 L. Ed. 2d 808 (1995), and is summarized by the Sixth
Circuit in Souter v. Jones, 395 F.3d 577 (6th Cir. 2005), as follows:
[I]f a habeas petitioner "presents evidence of innocence so strong that a court cannot have confidence
in the outcome of the trial unless the court is also satisfied that the trial was free of nonharmless
constitutional error, the petitioner should be allowed to pass through the gateway and argue the merits
of his underlying claims."
Id. at 590, quoting Schlup at 513 U.S. at 316.
It is at this point unclear whether a free-standing actual innocence claim is cognizable in habeas corpus. In
re Davis, 565 F.3d 810 (11th Cir. 2009). The leading Supreme Court case, relied on by Petitioner, is

Appendix E
Appx-0054

Page 14 of 69
2012 U.S. Dist. LEXIS 170609, *30

Herrera v. Collins, 506 U.S. 390, 113 S. Ct. 853, 122 L. Ed. 2d 203 (1993). There Chief Justice
Rehnquist, writing for the Court, noted that actual innocence claims based on newly discovered evidence,
"have never been held to state a ground for [*31] federal habeas relief absent an independent
constitutional violation occurring in the underlying state criminal proceeding." Id. at 400. The Herrera
Court left the possibility of a free-standing actual innocence claim open by noting "for the sake of
argument in deciding [the] case, that in a capital case a truly persuasive demonstration of 'actual
innocence' made after trial would render the execution of a defendant unconstitutional, and warrant
federal habeas relief if there were no state avenue open to process such a claim." Id. at 417; see also
House v. Bell, 547 U.S. 518, 126 S. Ct. 2064, 165 L. Ed. 2d 1 (2006); In re Davis, supra. Thus, the
Herrera Court left open the possibility of such a claim of actual innocence; however, it did not go on to
decide the claim, stating that it was "neither necessary nor advisable" to resolve the issue of freestanding
actual innocence claim in this case, where the petitioner was "not innocent." Herrera, 506 U.S. at 419421. The only guidance provided as to the standard for such a claim was that the threshold to show actual
innocence "would necessarily be extraordinarily high" and that the evidence presented by Herrera fell
short of that standard. Id. at 418-419.
The Supreme Court [*32] again declined to resolve the question in House v. Bell, when it determined that
Petitioner failed to satisfy the high burden that a hypothetical actual innocence claim would require. 547
U.S. 518, 126 S. Ct. 2064, 165 L. Ed. 2d 1 (2006). The House Court did however note the sequence of the
decisions in Herrera and Schlup, and stated that "first leaving unresolved the status of freestanding claims
and then establishing the gateway standard implies at the least that Herrera requires more convincing
proof of innocence than Schlup." Id. at 555. The Court then determined that given the closeness of
House's actual innocence claim under Schlup, it necessarily follows that he failed to meet the higher
burden of actual innocence implied under the Herrera decision. Id. This Report uses the standards implied
by Herrera, House, and Schlup to decide Coleman's First Ground for Relief.
When a state court decides on the merits a federal constitutional claim later presented to a federal habeas
court, the federal court must defer to the state court decision unless that decision is contrary to or an
objectively unreasonable application of clearly established precedent of the United States Supreme Court.
28 U.S.C. 2254(d)(1); Harrington v. Richter, 562 U.S. , 131 S. Ct. 770, 785, 178 L. Ed. 2d 624 (2011);
[*33] Brown v. Payton, 544 U.S. 133, 140, 125 S. Ct. 1432, 161 L. Ed. 2d 334 (2005); Bell v. Cone, 535
U.S. 685, 693-94, 122 S. Ct. 1843, 152 L. Ed. 2d 914 (2002); Williams (Terry) v. Taylor, 529 U.S. 362,
379, 120 S. Ct. 1495, 146 L. Ed. 2d 389 (2000).
The last state court to give a reasoned decision on this claim was the Second District Court of Appeals on
appeal from denial of the second post-conviction petition. That court also assumed that a free-standing
claim of actual innocence was cognizable and decided the merits of that claim as presented by Coleman.
Defendant's primary claim for relief is that he is actually innocent of the murder of Melinda Stevens.
Defendant claims that William Sapp, who was convicted and sentenced to death for an unrelated
double murder of two girls in Springfield, is the actual killer of Stevens. Defendant's primary support
for this claim is an affidavit executed by Sapp on August 3, 2001, wherein Sapp admits killing
Melinda Stevens behind Riddle's Ribs near Pleasant Street, in Springfield. Sapp describes what
Stevens was wearing, the type of gun he used, the approximate time of the shooting, and the type of
beer he had finished drinking just before shooting Stevens. Sapp further avers that when he was
arrested and interviewed by Springfield police about the other [*34] murders of two girls in

Appendix E
Appx-0055

Page 15 of 69
2012 U.S. Dist. LEXIS 170609, *34

Springfield, which occurred in April 1997, he told police at that time that he had killed Melinda
Stevens.
As additional support for his claim of actual innocence, Defendant submitted a copy of a letter Sapp
wrote to Una Timmons sometime after Sapp was convicted and sentenced in an unrelated case in
1996 for Kidnapping, Attempted Rape and Felonious Assault offenses in which Timmons was the
victim. The letter was in the possession of the State. The date the letter was written is unknown, but a
newspaper article was published on July 14, 1998 about the letter. In the letter Sapp threatens to harm
Timmons because she testified against him at trial. In an effort to convince Timmons that he was
serious about his threats, Sapp reminded Timmons of some of his other crimes including "killing your
friend over off of Pleasant." Defendant Coleman claims that the reference is reasonably construed to
refer to Melinda Stevens, and that the assertion corroborates Sapp's later claim in his affidavit that he
killed Stevens.
In response to Defendant's claim of actual innocence, the State filed transcripts of a recorded
interview between Springfield police and William Sapp which [*35] took place on June 18, 2002,
after the underlying actions were filed. During that interview, Sapp completely recanted the
statements in his previous affidavit and he denied that he killed Melinda Stevens or ever told police
that he had done so. According to Sapp, Defendant Coleman's attorney wrote out the affidavit and he
simply signed it. Sapp also indicated in that interview that his reference in the Timmons letter to
someone he killed "over off of Pleasant" was meant to indicate Gloria White, not Melinda Stevens.
***
We now turn to the merits of Defendant's claim of actual innocence. A persuasive demonstration of
actual innocence made after trial would render the execution of a defendant unconstitutional. Herrera
v. Collins (1993), 506 U.S. 390, 418, 122 L.Ed. 2d 203, 113 S. Ct. 853. Defendant's claim of actual
innocence in this case is founded on the statements in Sapp's affidavit, which the trial court found
lacks any credibility.
In reviewing petitions for post-conviction relief, a trial court may, in the exercise of its sound
discretion, weigh the credibility of affidavits submitted in support of the petition in determining
whether to accept the affidavits as true statements [*36] of fact. State v. Calhoun, 86 Ohio St. 3d 279,
1999 Ohio 102, 714 N.E.2d 905. That same doctrine also comfortably applies to affidavits submitted
in support of a motion for a new trial based upon newly discovered evidence that is material to the
defense. In assessing the credibility of affidavits, the trial court should consider all relevant factors,
including:
(1) whether the judge reviewing the post-conviction relief petition also presided at the trial, (2)
whether multiple affidavits contain nearly identical language, or otherwise appear to have been
drafted by the same person, (3) whether the affidavits contain or rely on hearsay, (4) whether the
affiants are relatives of the petitioner, or otherwise interested in the success of the petitioner's
efforts, and (5) whether the affidavits contradict evidence proffered by the defense at trial.
Moreover, a trial court may find sworn testimony in an affidavit to be contradicted by evidence in
the record by the same witness, or to be internally inconsistent, thereby weakening the credibility
of that testimony.
Calhoun, supra, at 285.

Appendix E
Appx-0056

Page 16 of 69
2012 U.S. Dist. LEXIS 170609, *36

One or more of the Calhoun factors, to the extent that any of them apply, may be sufficient to justify a
conclusion [*37] that an affidavit asserting information outside the record lacks credibility. Id.
The trial court's decision dismissing Defendant's successive postconviction petition without a hearing
was, in effect, a grant of summary judgment to the State contemplated by R.C. 2953.21(D). Although,
ordinarily, in summary judgment proceedings the trial court cannot weigh and consider the credibility
of evidentiary material such as affidavits, pursuant to Calhoun the trial court is permitted in postconviction proceedings to weigh the credibility of affidavits submitted in support of a post-conviction
petition, to a limited extent.
The trial court held that Defendant's claim of actual innocence is wholly without merit because it is
founded upon Sapp's affidavit, which lacks any credibility. We find that in so holding the trial court
did not abuse its discretion, as that term is defined by law, in rejecting Sapp's affidavit for lack of
credibility. See, State v. Adams (1980), 62 Ohio St. 2d 151, 404 N.E. 2d 144. The court noted that
Sapp is a convicted double murderer who is under a sentence of death and has nothing to lose by
claiming responsibility for another murder. The timing of Sapp's affidavit [*38] also renders its
validity suspicious, because it was prepared and notarized by Defendant's own attorney just two
months after the trial court had denied Defendant's first post-conviction petition. The psychological
report on Sapp prepared by Dr. Schmidtgoessling for use in his double murder case mentions Sapp's
"chronic lying."
The Calhoun factors pertain to weaknesses or inconsistencies on the face of affidavits or the way in
which they were procured, and permit the court to refer to the prior trial record to compare the
averments in affidavits against the evidence that was offered. It is another matter to reject affidavits
on the basis of information obtained after a petition or motion is filed. Therefore, we believe that
Sapp's affidavit may not be rejected because he recanted its allegations in a subsequent interview with
police officers on June 18, 2001. Such conflicts merit a hearing if a choice between competing
versions is made. Nevertheless, the court had other, sound grounds to reject Sapp's affidavit.
Sapp's affidavit is inconsistent with the facts of Melinda Stevens' murder and contradicted by the
overwhelming evidence of Defendant's guilt presented at trial. Sapp's claim [*39] that he was with
Melinda Stevens minutes before he killed her is contradicted not only by Defendant himself, who
admitted to police that he was with Stevens at Riddles Ribs moments before she was shot, but also by
the testimony of Christopher Holtz, who saw Defendant and Stevens leave Riddles Ribs together and
walk into the alley behind Riddles Ribs. Moments later, Holtz heard gunshots. Furthermore, no less
than seven witnesses testified at Defendant's trial, his friends and jail buddies, about how Defendant
bragged that he was going to kill Stevens for her role in his being arrested and charged with drug
offenses, and then, after the fact, about how he had killed Stevens. Finally, in affirming Defendant's
conviction and death sentence, the Ohio Supreme Court observed that nothing in the record suggests
any killer other than Coleman, and such a claim is baseless. Coleman, supra, 85 Ohio St. 3d at 134.
Importantly, the same judge that rejected Defendant's successive post-conviction claim of actual
innocence also presided over Defendant's trial and was therefore very familiar with the evidence
against him. Calhoun, supra. Based upon hearing all of the evidence at trial, and in accordance
[*40] with Calhoun, the trial court could reasonably reject Sapp's affidavit for lack of credibility, as it
did, because while the evidence at trial shows that Defendant had ample motive and opportunity to
kill Stevens, Sapp's affidavit fails to believably portray either. In other words, when viewed in the

Appendix E
Appx-0057

Page 17 of 69
2012 U.S. Dist. LEXIS 170609, *40

context of the overwhelming evidence of Defendant's guilt, Sapp's declaration that he is responsible
for killing Stevens is so improbable as to constitute no credible evidence.
Defendant has failed to submit evidentiary documents containing sufficient operative facts to
demonstrate substantive grounds for relief on his claim of actual innocence, regardless of whether the
claim is presented as a successive post-conviction petition, motion for a new trial, or motion for relief
from judgment. The trial court did not abuse its discretion when it dismissed Defendant's successive
post-conviction petition, motion for a new trial and motion for relief from judgment asserting an
actual innocence claim without a hearing.
State v. Coleman, 2005 Ohio 3874, 2005 Ohio App LEXIS 3583, ¶¶ 18-33 (2nd Dist. 2005).
Assuming that the Supreme Court would recognize4 a free-standing actual innocence claim, Coleman has
not shown [*41] that the court of appeals' decision is contrary to or an objectively unreasonable
application of the standards for proving such a claim announced in Herrera, Schlup, and House.
In support of his claim, Coleman presents the following as new evidence of his innocence: that another
death row inmate, William Sapp, confessed to killing Stevens, and described the crime in detail, both
identifying the murder weapon and the location of the crime scene, as well as giving a description of the
victim and the gunshot wounds. (Petition, Doc. No. 9, PageID 8); (Traverse, Doc. No. 170, PageID 1899);
(Return of Writ, Doc. No. 167, Apx. Vol. 14 at 26-27.) He further argues that additional evidence lends
itself to Sapp's being the probable killer; specifically that Sapp was known to have victimized several
women in Ohio, killing at least three and injuring others, and that Sapp was an active and violent predator
in the Springfield area at the time of Stevens' death. (Traverse, Doc. No. 170, PageID 1899); (Return of
Writ, Doc. No. 167, Apx. Vol. 14 at 31-33, 39, 41.) Further, Petitioner asserts that the State's theory
[*42] for motive was that Stevens' death was prompted by her involvement as an undercover drug
informant. Sapp was also involved in the drug trade as both a user and dealer. Id.
The information contained within the Sapp affidavit describes what Stevens was wearing on the night of
the murder, the type of gun used, the approximate time of the shooting, and the brand of beer Sapp had
finished drinking just prior to shooting Stevens. Sapp further stated that when he was arrested and
interviewed by Springfield police in relation to the murders of two Springfield girls, which occurred in
April 1997, he told police that he had killed Melinda Stevens. (Return of Writ, Doc. No. 167, Apx. Vol.
14 at 26-27.) Coleman argues that Sapp's involvement as the killer is further supported by a letter that
Sapp wrote to one of his surviving victims, Una Timmons. In this letter he threatens the victim and
reminds her that he is dangerous and is responsible for a murder "off of Pleasant Street." Id. at 28-30.
Stevens' murder occurred in the same general geographical location, in an alley behind Riddle's Ribs off
of Pleasant Street.
As the court of appeals noted, in an interview with police on April 3, 2002, Sapp [*43] completely
repudiated his affidavit, denying that he killed Melinda Stevens or that he had ever told police he had
done so. (Return of Writ, Doc. No. 167, Apx. Vol. 15 at 64, 71-79.) According to Sapp, Coleman's
attorney wrote out the affidavit and he simply signed it. Id. at 77-79. Sapp also indicated in that interview
that the woman referred to in the Una Timmons letter that he killed "over off of Pleasant," was Gloria
White, not Melinda Stevens. Id. at 83. Although the court of appeals could not consider Sapp's recantation
on appeal from a grant of summary judgment to the State (See State v. Coleman, 2005 Ohio 3874, 2005

4 This

Appendix E
Appx-0058

analysis put to one side the question whether such recognition would be retroactive.

Page 18 of 69
2012 U.S. Dist. LEXIS 170609, *43

Ohio app. LEXIS 3583, ¶ 30 (Ohio App. 2nd Dist. July 29, 2009)), this Court is not under that constraint
in assessing Sapp's credibility and his recantation makes his initial affidavit all that much less credible.
Additionally, the evidence presented at trial was very damaging to Petitioner. Christopher Holtz testified
that he saw Coleman leave Riddle's Ribs with Stevens and go into the alley. (Trial Tr. Vol. 5 at 848.)
Moments later he heard gunshots come from the direction of the alley. Id. at 849, 853. James White
testified that not only was he aware of the murder [*44] plans prior to the act, but that Coleman had
enlisted him to help with the murder and that they had discussed it on several occasions. (Trial Tr. Vol. 5
at 720-749.) Some of the conversations concerned the method of murder, the possibilities of which
included setting Stevens' home on fire, or hiding in the bushes to shoot her. Id. at 724. White saw
Coleman on the day of the murder at which time he was informed that Coleman planned to "take care of it
that night." Id. at 728. Another inmate, Donovan Hayes, testified that he overheard some of these
conversations between Coleman and White while they were all incarcerated. Id. at 741. Further, Fayette
Strodes5 testified that prior to the murder, Coleman told her that he could not serve time for the drug
trafficking charge so he planned on killing the informant, Stevens. (Trial Tr. Vol. 5 at 918-941). Lynda
Gaskins also testified that Coleman was upset when he discovered that Stevens had been an informant and
had threatened to harm or kill her. (Trial Tr. Vol. 6 at 1123, 1125.) Hope Strodes testified that the night of
the murder Coleman came to her home, showed her a silver gun with a clip, asked for bullets, and stated
that he was going [*45] to take care of the "bitch that set me up." (Trial Tr. Vol. 6 at 949-951.) Hope
Strodes stated that Coleman returned later that night looking for a police scanner. Id. at 952. Fayette
Strodes stated that Coleman had admitted to her that he had shot Stevens twice in the head, that he had
"taken care of it." (Trial Tr. Vol. 5 at 918-941.) Vera Strodes testified that Coleman came to the house that
night, that he was jittery and nervous and looking for a police scanner. (Trial Tr. Vol. 6 at 1013.) She had
previously heard him reference the drug charges, saying it was nothing and he was not going to do the
time. Id. at 1017. Antwan Warren, who was in jail with Petitioner, stated that Coleman described the
murder to him, both in terms of how it happened and the weapon used. Id. at 1095-1096.
Likewise, inmate Steve Kasler, testified that Coleman had told him about the drug trafficking charges,
about Stevens' being an informant, and about killing her to prevent her testimony. Id. at 1103-1107.
Kasler presented specific details including how Coleman and [*46] Stevens met that night, the location
and number of wounds, the type of gun used in the murder, the weather conditions on the night of the
murder, the fact that Coleman had gotten rid of the gun, and possible plans to kill others, including
Fayette and Vera Strodes, as they were willing to testify against him in the murder trial. Id. Kasler further
stated that not only did Coleman tell him how he shot Stevens, but he demonstrated how and where he
shot her. Id. at 1110. Lynda Gaskins also testified that Coleman told her of his plans prior to the murder
and also that he came to her house that night, described the details of the actual murder, and demonstrated
how Stevens fell once she had been shot. Id. at 1129-1130, 1133-1136.
Given all of this testimony and his own recantation, Sapp's claim that he murdered Melinda Stevens is
completely incredible. Coleman's First Ground for Relief is therefore without merit and the Second
District Court of Appeals decision to that effect is not an objectively unreasonable application of Herrera,
House, and Schlup. The First Ground for Relief should therefore be dismissed with prejudice.

5 Fayette

Strodes was deceased by the time the Murder Case was tried. Her testimony from the Drug Case was offered in lieu of live
testimony.

Appendix E
Appx-0059

Page 19 of 69
2012 U.S. Dist. LEXIS 170609, *46

Under Rule 11 of the Rules Governing § 2254 Cases, a court "must [*47] issue or deny a certificate of
appealability when it enters a final order adverse to the applicant." To obtain a certificate of appealability,
a petitioner must show at least that "jurists of reason would find it debatable whether the petition states a
valid claim of denial of a constitutional right." Slack v. McDaniel, 529 U.S. 473, 484, 120 S. Ct. 1595, 146
L. Ed. 2d 542 (2000). That is, it must find that reasonable jurists would find the district court's assessment
of the petitioner's constitutional claims debatable or wrong or because they warrant encouragement to
proceed further. Banks v. Dretke, 540 U.S. 668, 705, 124 S. Ct. 1256, 157 L. Ed. 2d 1166 (2004); MillerEl v. Cockrell, 537 U.S. 322, 336, 123 S. Ct. 1029, 154 L. Ed. 2d 931 (2003). If the district court
dismisses the petition on procedural grounds without reaching the constitutional questions, the petitioner
must also show that jurists of reason would find it debatable whether the district court was correct in its
procedural ruling. Slack, 529 U.S. at 484. The procedural issue should be decided first so as to avoid
unnecessary constitutional rulings. Slack, 529 U.S. at 485, citing Ashwander v. TVA, 297 U.S. 288, 347,
56 S. Ct. 466, 80 L. Ed. 688 (1936)(Brandeis, J., concurring). The first part of this test is equivalent to
making a substantial showing of [*48] the denial of a constitutional right, including showing that
reasonable jurists could debate whether the petition should have been resolved in a different manner or
that the issues presented were adequate to deserve encouragement to proceed further, Slack v. McDaniel,
529 U.S. 473 at 484, 120 S. Ct. 1595, 146 L. Ed. 2d 542 (2000), quoting Barefoot v. Estelle, 463 U.S. 880,
893, 103 S. Ct. 3383, 77 L. Ed. 2d 1090 (1983). The relevant holding in Slack is as follows:
[W]hen the district court denies a habeas petition on procedural grounds without reaching the
prisoner's underlying constitutional claim, a COA should issue (and an appeal of the district court's
order may be taken) if the prisoner shows, at least, that jurists of reason would find it debatable
whether the petition states a valid claim of the denial of a constitutional right, and that jurists of
reason would find it debatable whether the district court was correct in its procedural ruling.
529 U.S. at 478.
The standard is higher than the absence of frivolity required to permit an appeal to proceed in forma
pauperis. Id. at 893.
Obviously the petitioner need not show that he should prevail on the merits... Rather, he must
demonstrate that the issues are debatable among jurists of reason; that a court [*49] could resolve the
issues [in a different manner]; or that the questions are 'adequate to deserve encouragement to proceed
further.'
Id. n.4. Accord, Miller-El v. Cockrell, 537 U.S. 322, 123 S. Ct. 1029, 154 L. Ed. 2d 931 (2003). A
certificate of appealability is not to be issued pro forma or as a matter of course. Id. at 1040. Rather, the
district and appellate courts must differentiate between those appeals deserving attention and those which
plainly do not. Id. A blanket certificate of appealability for all claims is improper, even in a capital case.
Frazier v. Huffman, 348 F.3d 174 (6th Cir. 2003), citing Porterfield v. Bell, 258 F.3d 484 (6th Cir. 2001).
Reasonable jurists would not disagree with the Magistrate Judge's proposed disposition of the First
Ground for Relief and therefore Coleman should not be granted a certificate of appealability on this
ground.

Second Ground for Relief: Violation of Brady v. Maryland

Appendix E
Appx-0060

Page 20 of 69
2012 U.S. Dist. LEXIS 170609, *49

In his Second Ground for Relief, Coleman argues the State withheld exculpatory evidence in violation of
its duty under Brady v. Maryland, 373 U.S. 83, 83 S. Ct. 1194, 10 L. Ed. 2d 215 (1963). As with the First
Ground, the Warden originally claimed this Ground for Relief was unexhausted, but has withdrawn that
claim in light of the final state [*50] court decision in the second post-conviction relief proceeding.
To understand the basis for Coleman's Brady claims, a short chronology is helpful. Melinda Stevens was
found murdered on January 2, 1996. Coleman stood trial for the murder and was sentenced on February
21, 1997. Shortly thereafter, William Sapp was questioned by the police on April 2 and 3, 1997, on the
unrelated murders of two young Springfield girls. In his later obtained affidavit, Sapp claimed during that
interview he informed the officers that he was responsible for the murder of Stevens. (Return of Writ,
Doc. No. 167, Apx. Vol. 14 at 26.) In July of 1998, Sapp sent a letter to one of his victims, Uma
Timmons, claiming responsibility for the murder of a woman in the Springfield area, though he did not
describe or name the victim. Id. at 28. It was not until July 21, 2001, when contacted by an attorney
alerting him to Sapp's claims, that Coleman had any indication someone else was claiming responsibility
for the murder. On August 3, 2001, Petitioner's attorney obtained a sworn affidavit from Sapp confessing
to the murder. Id. at 26.
Petitioner then filed motions for; leave to file a motion for a new trial, motions for [*51] relief from
judgment, and a successive petition for post-conviction relief. Judge Lorig, a trial court judge in the Clark
County Court of Common Pleas, reviewed the actual innocence claim, which was based primarily on the
new evidence of Sapp's affidavit, newspaper articles recounting Sapp's violent past, Sapp's psychological
profile, and the letter from Attorney Lynd alerting Coleman to Sapp's confession. (" Decision and
Judgment Entry," Return of Writ, Doc. No. 167, Apx. Vol. 15 (Amended) at 170-171.) Judge Lorig
further noted Coleman's Brady claims in support of his actual innocence, specifically, the allegation
contained in Sapp's affidavit that he had confessed to Stevens' murder to the police and the
police/prosecutor withheld this confession, and that a second confession was made in a letter purportedly
written by Sapp to one of his victims, Uma Timmons. Id. at 172-175.
Judge Lorig held that this evidence was insufficient for the relief Coleman was seeking. Specifically he
held that Coleman failed to offer any other evidentiary submission to support the alleged confession
contained in the affidavit. He further held:
Coleman's claim of actual innocence is wholly without merit. [*52] It is founded on the affidavit of a
confessed double murderer under a sentence of death, who thus has little to lose in claiming another
murder. Moreover, the psychological report on Sapp by Dr. Schmidtgoessling provides a myriad of
reasons why Sapp's word, sworn or otherwise, lacks reliability. The timing of the affidavit also causes
skepticism of its contents, where it was written and notarized by Coleman's own attorney just two
months after this Court denied Coleman's fist post-conviction petition. In addition, Sapp disavowed
the affidavit during his interview with detective Moody.
Id. at 177. The court also found that Detective Moody, through an affidavit, denied that Sapp had
confessed to killing Stevens. This is supported through a transcript of Moody's interview with Sapp, in
which Sapp denied killing Stevens or confessing to the murder and stated that the affidavit was written by
Coleman's counsel. Id. at 175. The trial judge also held that in regard to the Timmons' letter that there was
no reason to believe that the letter was exculpatory as the only link between the confession in this letter
and the murder of Stevens is Coleman's allegation. Coleman failed to provide any evidence [*53] to
support this link. Id. at 174. Without more, the threat of carrying out violence against Timmons like he did

Appendix E
Appx-0061

Page 21 of 69
2012 U.S. Dist. LEXIS 170609, *53

to "your friend off of Pleasant" was not enough to show that he was referring to Melinda Stevens. Id. at
175.
The Judge also memorialized the agreement between the parties for scientific testing on a beer bottle
found at the crime scene, as well as on the rape kit performed on the victim. Id. at 176. At the time of the
original testing "the results showed no genetic material on the beer bottle, and insufficient genetic material
from the rape kit for DNA identification. Consequently, the outcome of this testing lent no support to
Coleman's claim of innocence." Id. Given the strength of evidence against Coleman, and based on all the
evidence, Judge Lorig overruled the motions and dismissed the successive petition for post-conviction. Id.
at 180.
Coleman then appealed to the Second District Court of Appeals, the last state court to give a reasoned
decision on this ground, which held:
We now turn to the merits of Defendant's claim that the State committed a violation of the
requirements of Brady v. Maryland (1963), 373 U.S. 83, 10 L. Ed. 2d 215, 83 S. Ct. 1194, when it
failed to [*54] disclose to Defendant's counsel exculpatory evidence that Sapp, and not Coleman,
killed Melinda Stevens. That claim is supported by Sapp's affidavit, wherein Sapp claims that when
Springfield police interviewed him in connection with the murder of two Springfield girls, which
occurred on April 2 and 3, 1997, he told police at that time that he had killed Melinda Stevens. As
further support for this claim, Defendant also relies on the letter Sapp wrote to Una Timmons, which
was in the possession of the State and never turned over to defense counsel, wherein Sapp refers to
killing someone "over off Pleasant." Defendant claims that this is a reference to Melinda Stevens, and
it corroborates Sapp's claim in his affidavit that he killed Melinda Stevens.
As we previously discussed, the trial court properly rejected Sapp's affidavit because it lacks any
credibility. As for the Timmon's letter, it makes no specific reference to the murder of Melinda
Stevens. It refers only to the killing of someone "over off Pleasant."
In order to constitute a violation of due process, the evidence withheld from Defendant must be (1)
favorable to the defendant and (2) material to guilt or innocence. Brady, supra. [*55] Defendant's
bare allegation that Sapp's reference in the Timmons letter to someone "over off Pleasant" means
Melinda Stevens is not evidence that supports that proposition. While the letter is certainly favorable
to Defendant to the extent that it suggests Sapp was the perpetrator, given the vague, indefinite
reference in the Timmons letter to someone Sapp had killed "over off Pleasant," the jury would
necessarily have had to speculate as to whether Sapp was referring to Melinda Stevens. Therefore, the
letter is simply too indefinite in its nature to be material to Defendant's guilt or innocence with respect
to the killing of Melinda Stevens. No Brady violation is demonstrated.
State v. Coleman, 2005 Ohio 3874, 2005 Ohio App. LEXIS 3583, *18-19 (2nd Dist. 2005).
The State has a duty to produce exculpatory evidence in a criminal case. If it withholds material evidence,
the conviction must be reversed. Brady v. Maryland, 373 U.S. 83, 83 S. Ct. 1194, 10 L. Ed. 2d 215
(1963). The materiality of the favorable evidence "must be evaluated in the context of the entire record."
United States v. Agurs, 427 U.S. 97, 112-113, 96 S. Ct. 2392, 49 L. Ed. 2d 342 (1976). "Evidence is
material only if there is a reasonable probability that, had the evidence been disclosed to the defense,
[*56] the result of the proceeding would have been different. A 'reasonable probability' is a probability

Appendix E
Appx-0062

Page 22 of 69
2012 U.S. Dist. LEXIS 170609, *56

sufficient to undermine confidence in the outcome." United States v. Bagley, 473 U.S. 667, 683, 105 S.
Ct. 3375, 87 L. Ed. 2d 481 (1985).
There are three essential components of a true Brady violation: the evidence at issue must be favorable to
the accused, either because it is exculpatory, or because it is impeaching; the evidence must have been
suppressed by the State, either willfully or inadvertently; and prejudice must have ensued. Strickler v.
Greene, 527 U.S. 263, 119 S. Ct. 1936, 144 L. Ed. 2d 286 (1999):
In Brady, this Court held "that the suppression by the prosecution of evidence favorable to an accused
upon request violates due process where the evidence is material either to guilt or to punishment,
irrespective of the good faith or bad faith of the prosecution." 373 U.S., at 87, 83 S.Ct. 1194. We have
since held that the duty to disclose such evidence is applicable even though there has been no request
by the accused, United States v. Agurs, 427 U.S. 97, 107, 96 S.Ct. 2392, 49 L.Ed.2d 342 (1976), and
that the duty encompasses impeachment evidence as well as exculpatory evidence, United States v.
Bagley, 473 U.S. 667, 676, 105 S.Ct. 3375, 87 L.Ed.2d 481 (1985). [*57] Such evidence is material
"if there is a reasonable probability that, had the evidence been disclosed to the defense, the result of
the proceeding would have been different." Id., at 682, 105 S.Ct. 3375; see also Kyles v. Whitley, 514
U.S. 419, 433-434, 115 S.Ct. 1555, 131 L.Ed.2d 490 (1995). Moreover, the rule encompasses
evidence "known only to police investigators and not to the prosecutor." Id., at 438, 115 S.Ct. 1555.
In order to comply with Brady, therefore, "the individual prosecutor has a duty to learn of any
favorable evidence known to the others acting on the government's behalf in this case, including the
police." Kyles, 514 U.S., at 437, 115 S.Ct. 1555.
Id. at 280.
The Sixth Circuit has explained habeas corpus review of a state court decision on a Brady claim as
follows:
Under Brady v. Maryland, 373 U.S. 83, 83 S. Ct. 1194, 10 L. Ed. 2d 215 (1963), the prosecution must
disclose all material, exculpatory evidence to a defendant, irrespective of whether the failure to
disclose was done in good or bad faith. To assert a successful Brady claim, a habeas petitioner must
show that (1) the withheld evidence was favorable to the petitioner, (2) the evidence was suppressed
by the government, and (3) the petitioner [*58] suffered prejudice. Strickler v. Greene, 527 U.S. 263,
281-82, 119 S. Ct. 1936, 144 L. Ed. 2d 286 (1999). The Brady rule encompasses both exculpatory and
impeachment evidence when such evidence is material. United States v. Bagley, 473 U.S. 667, 676,
105 S. Ct. 3375, 87 L. Ed. 2d 481 (1985). This Court explained in United States v. Bencs that
"[m]ateriality pertains to the issue of guilt or innocence, and not to the defendant's ability to prepare
for trial." 28 F.3d 555, 560 (6th Cir. 1994) (citing United States v. Agurs, 427 U.S. 97, 112 n.20, 96 S.
Ct. 2392, 49 L. Ed. 2d 342 (1976)). Evidence is material under Brady if a reasonable probability
exists that, had the evidence been disclosed to the defense, the result of the proceeding would have
been different. Bagley, 473 U.S. at 682. A reasonable probability is one that sufficiently undermines
confidence in the outcome of the trial. Id. "The question is not whether the defendant would more
likely than not have received a different verdict with the evidence, but whether in its absence he
received a fair trial, understood as a trial resulting in a verdict worthy of confidence." Kyles v.
Whitley, 514 U.S. 419, 434, 115 S. Ct. 1555, 131 L. Ed. 2d 490 (1995). When determining whether
the withheld information was material and therefore prejudicial, we consider it in light of [*59] the

Appendix E
Appx-0063

Page 23 of 69
2012 U.S. Dist. LEXIS 170609, *59

evidence available for trial that supports the petitioner's conviction. See Towns v. Smith, 395 F.3d
251, 260 (6th Cir. 2005); Clinkscale v. Carter, 375 F.3d 430, 445 (6th Cir. 2004).
Jells v. Mitchell, 538 F.3d 478, 501-02 (6th Cir. 2008).
Petitioner alleges that the State violated Brady when it failed to provide Coleman with the information
identifying Sapp as the perpetrator of this crime. (Petition, Doc. No. 9, PageID 10.) Specifically,
Petitioner cites to a letter written by Sapp to one of his victims, Una Timmons, as well as his confession to
law enforcement. Id.
To meet Brady criteria the evidence at issue must be favorable to the accused, either because it is
exculpatory, or because it is impeaching; the evidence must have been suppressed by the State, either
willfully or inadvertently; and prejudice must have ensued. Strickler v. Greene, 527 U.S. 263, 119 S. Ct.
1936, 144 L. Ed. 2d 286 (1999). Certainly, if true, the various confessions by Sapp in the form of the letter
and the confession (supported by an affidavit) would be favorable to Coleman. However, to succeed in
this claim, he must show prejudice ensued from this suppressed evidence.
For reasons set forth in the analysis of Ground One, the Sapp affidavit [*60] is not credible evidence. The
letter written by Sapp to his victim, Timmons, does in fact reference a murder off of Pleasant. Coleman
argues that, "[w]hile [Detective] Moody believes White is the person whom Sapp is referring to in his
letter to Timmons, the fact that Sapp has never been charged with White's murder leaves open the very
real possibility that Sapp's reference was to Stevens' murder." (Traverse, Doc. No. 170, PageID 19111912.) The letter, however, fails to offer specifics, so the idea that it references Stevens is merely
speculative. Furthermore, the Court notes that the letter suffers from the same credibility issues as the
affidavit. Just because the letter was purportedly been written by Sapp, it does not necessarily follow that
the information contained therein is the absolute truth, especially given his noted propensity for "chronic
lying." The Court also observes that during the police interview in which he recants the affidavit, the
detective noted that in the past Sapp had claimed responsibility for crimes he did not commit.
Petitioner supports this Brady claim with the DNA testing performed on a beer bottle found in the alley
behind Riddle's Ribs. (Traverse, [*61] Doc. No. 170, PageID 1912.) He argues that there is genetic
evidence on the bottle that Stevens shared a beer with an unidentified person in the alley prior to her
murder. Id. He further asserts that this supports Sapp's statement in the affidavit that he shared a beer with
Stevens. Id. Petitioner sought and was granted DNA testing by the state court. Forensic testing was done
on both the beer bottle and the rape kit performed on Stevens. The report from BCI stated that the DNA
profile from the rape kit slides was consistent with the victim, Melinda Stevens. No DNA was detected on
the beer bottle. (Doc. No. 121, Ex. 14, PageID 1070.) Bode Technology Group also tested the evidence
and discovered only a partial female profile. Id. at 1071.
Coleman motioned this Court for additional testing or retesting of the above items, in addition to Stevens'
underwear and shorts which had never been tested. (Motion for Funds for Expert Assistance, Doc. No.
45.) He based this request on the newly discovered confession of Sapp, in which he stated he had shared a
beer with Stevens and had engaged in intercourse with her prior to killing her. Id. at PageID 557. The
requested retesting could be used to [*62] determine whether Coleman or Sapp was the source of the
biological evidence. In addition Coleman cited to allegations of error-ridden testing practices by Bode
Technology Group. Id. The motion was granted and DNA testing was performed again. Upon completion,
Coleman filed a motion to expand or supplement the record. (Doc. No. 121.) After further forensic

Appendix E
Appx-0064

Page 24 of 69
2012 U.S. Dist. LEXIS 170609, *62

analysis, it was determined that both Coleman and Sapp were eliminated as contributors to the DNA
found in the rape collection kit and that there was not enough genetic information found on the beer bottle
to make a determination.1 (Doc. No. 121, Ex. 15-16.) The results do not support Coleman's contention that
Sapp was the actual perpetrator. Regardless of the results, this Court notes that we cannot consider this
evidence under Cullen v. Pinholster as those results were not before the state courts. Cullen v. Pinholster,
131 S. Ct. 1388, 179 L. Ed. 2d 557 (2011). The Pinholster Court ruled that "review under § 2254(d)(1) is
limited to the record that was before the state court that adjudicated the claim on the merits." Id. at 1398.
It supported this holding by stating that "[i]t would be strange to ask federal courts to analyze whether
[*63] a state court's adjudication resulted in a decision that was unreasonably applied federal law to facts
not before the state court." Id. at 1399. The court continued to clarify that evidence introduced in federal
court has no bearing in 2254(d)(1) review. If a claim has been adjudicated on the merits by a state court, a
federal habeas petitioner must overcome the limitation of § 2254 (d)(1) on the record that was before the
state court.
In viewing the above evidence in context of the entire record, there is not a reasonable probability that the
result of the proceeding would have been different, even given the Sapp affidavit. The affidavit lacked
credibility and as outlined in the First Ground for Relief, the evidence against Petitioner was
overwhelming. Admission of the information contained in the affidavit would not have undermined the
confidence in the outcome. The decision of the state court was neither contrary to, nor an unreasonable
application of Supreme Court law.
In this case, the Magistrate Judge concludes reasonable jurists could disagree with his conclusion that
[*64] the Second Claim for Relief should be dismissed with prejudice. If the District Court does dismiss
the Claim as recommended, the Magistrate Judge also recommends that a certificate of appealability be
issued on this claim.

Third Ground for Relief: Ineffective Assistance at Trial
In his Third Ground for Relief, Coleman asserts he was denied the effective assistance of counsel at trial
during the guilt phase (Petition, Doc. No. 9, PageID 12); (Traverse, Doc. No. 170, PageID 1922).
Respondent asserts this claim should be summarily denied for failure to plead the claim appropriately
(Return of Writ, Doc. No. 167, PageID 1847). As with Ground One, the Court concludes that the pleading
of this claim satisfies Rule 2(c) of the Rules Governing § 2254 Cases.
Petitioner presented an ineffective assistance of trial counsel claim on direct appeal. State v. Coleman, 85
Ohio St. 3d 129, 133-135, 1999 Ohio 258, 707 N.E.2d 476 (1999). He raised this claim again, with
supporting evidentiary documentation, in his first post-conviction relief petition. The trial court denied
relief and upon review, the court of appeals affirmed, State v. Coleman, 2002 Ohio 5377, 2002 Ohio App.
LEXIS 5396 (2nd Dist. Ohio 2002), and the Ohio Supreme Court [*65] declined further review. State v.
Coleman, 98 Ohio St. 3d 1478, 2003 Ohio 974, 784 N.E.2d 711 (2003).
The governing standard for ineffective assistance of counsel is found in Strickland v. Washington, 466
U.S. 668, 104 S. Ct. 2052, 80 L. Ed. 2d 674 (1984):

1 All

Appendix E
Appx-0065

but one of the alleles found on the small sample collected from the beer bottle were compatible with Stevens.

Page 25 of 69
2012 U.S. Dist. LEXIS 170609, *65

A convicted defendant's claim that counsel's assistance was so defective as to require reversal of a
conviction or death sentence has two components. First, the defendant must show that counsel's
performance was deficient. This requires showing that counsel was not functioning as the "counsel"
guaranteed the defendant by the Sixth Amendment. Second, the defendant must show that the
deficient performance prejudiced the defense. This requires showing that counsel's errors were so
serious as to deprive the defendant of a fair trial, a trial whose result is reliable. Unless a defendant
makes both showings, it cannot be said that the conviction or death sentence resulted from a
breakdown in the adversary process that renders the result unreliable.
466 U.S. at 687. In other words, to establish ineffective assistance, a defendant must show both deficient
performance and prejudice. Berghuis v. Thompkins, U.S. , , 130 S.Ct. 2250, 2255, 176 L. Ed. 2d
1098 (2010), citing Knowles v. Mirzayance, 556 U.S. 111, 129 S. Ct. 1411, 173 L. Ed. 2d 251 (2009).
With [*66] respect to the first prong of the Strickland test, the Supreme Court has commanded:
Judicial scrutiny of counsel's performance must be highly deferential. . . . A fair assessment of
attorney performance requires that every effort be made to eliminate the distorting effects of
hindsight, to reconstruct the circumstances of counsel's challenged conduct, and to evaluate the
conduct from counsel's perspective at the time. Because of the difficulties inherent in making the
evaluation, a court must indulge a strong presumption that counsel's conduct falls within a wide range
of reasonable professional assistance; that is, the defendant must overcome the presumption that,
under the circumstances, the challenged action "might be considered sound trial strategy."
466 U.S. at 689.
As to the second prong, the Supreme Court held:
The defendant must show that there is a reasonable probability that, but for counsel's unprofessional
errors, the result of the proceeding would have been different. A reasonable probability is a
probability sufficient to overcome confidence in the outcome.
466 U.S. at 694. See also Darden v. Wainwright, 477 U.S. 168, 184, 106 S. Ct. 2464, 91 L. Ed. 2d 144
(1986), citing, Strickland, supra.; Wong v. Money, 142 F.3d 313, 319 (6th Cir. 1998), [*67] citing,
Strickland, supra; Blackburn v. Foltz, 828 F.2d 1177, 1180 (6th Cir. 1987) quoting Strickland, 466 U.S. at
687. "The likelihood of a different result must be substantial, not just conceivable." Storey v. Vasbinder,
657 F.3d 372, 379 (6th Cir. 2011), cert. denied, U.S. , 132 S.Ct. 1760, 182 L. Ed. 2d 545 (2012),
quoting Harrington v. Richter, 562 U.S. , , 131 S. Ct. 770, 792, 178 L. Ed. 2d 624 (2011).
As to the prejudice prong, the test is whether counsel's errors have likely undermined the reliability of, or
confidence in, the result. West v. Seabold, 73 F.3d 81, 84 (6th Cir. 1996), citing Lockhart v. Fretwell, 506
U.S. 364, 113 S. Ct. 838, 122 L. Ed. 2d 180 (1993). "Counsel is constitutionally ineffective only if [his or
her] performance below professional standards caused the defendant to lose what he otherwise probably
would have won." United States v. Morrow, 977 F.2d 222 (6th Cir. 1992). Defects in assistance that have
no probable effect on the trial's outcome do not establish a constitutional violation. Mickens v. Taylor, 535
U.S. 162, 166, 122 S. Ct. 1237, 152 L. Ed. 2d 291 (2002). To show prejudice the new evidence that a
habeas petitioner presents must differ in a substantial way — in strength and subject matter — from the
evidence actually presented. Hill v. Mitchell, 400 F.3d 308 (6th Cir. 2005).

Appendix E
Appx-0066

Page 26 of 69
2012 U.S. Dist. LEXIS 170609, *67

As [*68] with other constitutional claims, where the state courts have decided a claim of ineffective
assistance of trial counsel on the merits, that decision is entitled to deference unless the petitioner can
show that it was contrary to or an objectively unreasonable application of Supreme Court precedent.
Petitioner makes the general assertion of ineffectiveness of counsel based on their failure to investigate.
(Traverse, Doc. No. 170, PageID 1924.) He argues that counsel failed to do the very basics, such as
having read the discovery provided by the State. Id. He also specifically states that no DNA evidence
linked him to the murder, yet defense counsel did nothing to challenge the evidence offered by the State,
such as the pair of shoes and flannel shirt. (Petition, Doc. No. 9, PageID 12); (Traverse, Doc. No. 170,
PageID 1924.) Counsel failed to question the size, the condition, and the existence of fingerprints or DNA
on these items. Id. He presented this sub-claim of insufficiency of the evidence/lack of physical evidence
in both direct appeal and in post-conviction relief. On direct appeal, the state supreme court applied the
Strickland standard in its analysis and held:
In his first [*69] proposition of law, appellant contends that his trial counsel rendered ineffective
assistance. Reversal of convictions on ineffective assistance requires that the defendant show, first,
"that counsel's performance was deficient" and, second, "that the deficient performance prejudiced the
defense * * * [so as] to deprive the defendant of a fair trial." Strickland v. Washington (1984), 466
U.S. 668, 687, 104 S. Ct. 2052, 2064, 80 L. Ed. 2d 674, 693. Accord State v. Bradley (1989), 42 Ohio
St. 3d 136, 538 N.E. 2d 373, paragraph two of the syllabus.
A. Failure to Challenge Insufficiency of Evidence
Coleman contends that his counsel failed to "adequately illustrate the insufficiency of the State's case"
against him. He asserts that no physical evidence linked him to the crime scene, that testimony against
him was inconsistent, and that a substantial number of leads pointed to a killer other than Coleman.
Yet, despite Coleman's claims, his counsel's tactical choices did not fall below "an objective standard
of reasonable representation." Bradley, 42 Ohio St. 3d 136, 538 N.E. 2d 373, paragraph two of the
syllabus.
Coleman cites materials and documents that he claims his counsel did not fully [*70] exploit, and that
reflect witness bias, grounds for impeachment, and asserted inconsistencies between trial testimony
and pretrial statements or former testimony. However, Coleman largely cites and relies upon materials
released by the state in open pretrial discovery, as well as transcripts from other cases. Yet these
materials were not in evidence before the trial court and are not in the record before this court.
Because "[a] reviewing court cannot add matter to the record before it, which was not a part of the
trial court's proceedings," Coleman's attempt to have this court consider this material must fail. State
v. Ishmail (1978), 54 Ohio St. 2d 402, 8 Ohio Op. 3d 405, 377 N.E.2d 500, paragraph one of the
syllabus. Any allegations of ineffectiveness based on facts not appearing in the record should be
reviewed through the postconviction remedies of R.C. 2953.21. State v. Cooperrider (1983), 4 Ohio
St. 3d 226, 228, 4 Ohio B. Rep. 580, 582, 448 N.E.2d 452, 454.
Next, Coleman contends that no physical evidence linked him to the crime scene. However, Coleman
admitted to police the day after the murder that he was with Stevens at Riddle's Ribs, near the murder
scene, and that he left [*71] with her near the time of the murder. Additionally, Christopher Holtz, an

Appendix E
Appx-0067

Page 27 of 69
2012 U.S. Dist. LEXIS 170609, *71

unimpeached eyewitness, saw both Stevens and Coleman at Riddle's and in the alley outside, shortly
before Holtz heard shots and the murder occurred.
Nor was it even necessary for the physical evidence to prove Coleman's identity as the killer. Over the
course of several months, Coleman repeatedly told eyewitnesses that he intended to kill Stevens and
why he intended to do so. On the day of the murder, he told Hope Strodes that he intended to shoot
"the bitch" that day; also that day, he told James White that he was "going to take care of it [the
murder]." Immediately after the murder, Coleman separately told Fayette Strodes and Lynnda
Gaskins what he had done, demonstrating to Gaskins how "the bitch fell like a rock." Later, he also
admitted to White, Vera Strodes, and Gaskins that he had shot Stevens. Months later, Coleman
admitted to inmate Kasler how and why he had shot Stevens and furnished details the killer would
have known.
In any event, there was physical evidence and other testimony that reinforced Coleman's admissions
that he had killed Stevens. Inmate Donovan Hayes corroborated White's testimony. Fayette,
[*72] Gaskins, and White all testified to Coleman's obsession to get Stevens. Several witnesses
testified that Coleman wore a flannel shirt that evening, with cockleburs stuck on it. Police later found
a flannel shirt replete with cockleburs, identified as what Coleman wore that day, abandoned in a
doghouse at the Strodeses' residence.
Dr. Stewart, the pathologist, confirmed descriptions given by Coleman to Gaskins and Kasler as to
where and how Coleman shot Stevens, i.e., two bullets to the back of the head. Also, the severed
vertebrae corroborated Coleman's description that Stevens "dropped like a rock" when she was shot.
Furthermore, shells of .380 caliber bullets were found at the scene, and a forensic expert verified that
the .380 caliber bullets were likely fired from a Davis P-380, the same type of gun that Coleman told
Kasler he used to shoot Stevens. Additionally, Davis P-380 automatics come in chrome models and
Hope Strodes saw Coleman with a silver, semi-automatic gun less than an hour before the murder.
Given the strength of this evidence, Coleman's claim that a substantial number of leads point to
another killer other than Coleman is baseless. Nothing in the record suggests any [*73] other killer.
Coleman's counsel presented credible and competent representation by attempting to challenge his
identity as the killer, an enormous task given Coleman's propensity to talk about how he was going to
kill Stevens and, after the deed, how he had done so. Counsel examined witnesses about their asserted
bias or impeached their character, where appropriate. "[A] court must indulge a strong presumption
that counsel's conduct falls within the wide range of reasonable professional assistance[.]" Strickland,
466 U.S. at 689. 104 S. Ct. at 2065, 80 L.Ed. 2d at 694. Here, no deficient performance of duty
occurred.
Additionally, Coleman fails to establish that any prejudice arose from his counsel's tactical decisions.
To show prejudice, "the defendant must prove that there exists a reasonable probability that, were it
not for counsel's errors, the result of the trial would have been different." State v. Bradley, 42 Ohio St.
3d 136, 538 N.E. 2d 373, paragraph three of the syllabus. In view of the compelling evidence of
Coleman's guilt, different tactical choices would have made no difference.
State v. Coleman, 85 Ohio St. 3d 129, 133-135, 1999 Ohio 258, 707 N.E.2d 476 (1999).

Appendix E
Appx-0068

Page 28 of 69
2012 U.S. Dist. LEXIS 170609, *73

Coleman supplied additional evidence outside [*74] the record and presented this claim again on postconviction relief. The court of appeals again determined the claim lacked merit based upon the following
reasoning:
Coleman contends counsels' failure to pursue the investigation was particularly egregious given the
lack of physical evidence tying him to Stevens' homicide. The Ohio Supreme Court, however,
addressed this claim that there was a lack of physical evidence linking Coleman to the crime.
In any event, there was physical evidence and other testimony that reinforced Coleman's admissions
that he had killed Stevens. Inmate Donovan Hayes corroborated White's testimony. Fayette, Gaskins,
and White all testified to Coleman's obsession to get Stevens. Several witnesses testified that Coleman
wore a flannel shirt that evening, with cockleburs stuck on it. Police later found a flannel shirt replete
with cockleburs, identified as what Coleman wore that day, abandoned in a doghouse at the Strodeses'
residence.
Dr. Stewart, the pathologist, confirmed descriptions given by Coleman to Gaskins and Kasler as to
where and how Coleman shot Stevens, i.e., two bullets to the back of the head. Also, the severed
vertebrae corroborated Coleman's description [*75] that Stevens "dropped like a rock" when she was
shot. Furthermore, shells of .380 caliber bullets were likely fired from a Davis P-380, the same type of
gun that Coleman told Kasler he used to shoot Stevens. Additionally, Davis P-380 automatics come in
chrome models and Hope Strodes saw Coleman with a silver, semi-automatic gun less than an hour
before the murder. Given the strength of this evidence, Coleman's claim that a substantial number of
leads point to another killer other than Coleman is baseless. Nothing in the record suggests any other
killer.
The court also noted that Coleman's trial counsel faced an enormous task in representing Coleman
given his propensity to talk to others about how he was going to kill Stevens, and then after the crime
how he had in fact done so. Coleman, 85 Ohio St. 3d at 135.
The evidentiary material does indicate that Stevens made drug buys for the police from other
individuals in the Springfield area. These other individuals however did not brag to their friends that
they had "taken care of" Melinda Stevens. Also we have examined Ms. Almon's statement (Def. Ex.
17) and nowhere does Ms. Almon state that Melinda's daughter saw her mother shot. Ms. Almon
[*76] said Rosa told her Lindsay was in Riddle's with her mother before her mother was killed. (Ex.
17, p. 3).
We agree with the trial court's finding that an evidentiary hearing was not necessary to resolve this
claim. The evidentiary material does not provide evidence that Coleman was prejudiced by his
counsel's conduct. The material does not suggest the reasonable probability that had counsel
investigated these "leads" a different trial result would have occurred. The trial court properly
overruled the twenty-first claim.
State v. Coleman, 2002 Ohio 5377 at ¶¶ 102-107 (2nd Dist. Ohio 2002).
Petitioner asserts that counsel failed to highlight the lack of physical evidence. (Traverse, Doc. No. 170 at
PageID 1924.) He notes police never located a murder weapon, nor did the State provide any DNA
evidence. Id. He argues that shoes introduced at trial were found three months after the murder, but were
not weather beaten and seemed fairly new, so they could not have been at that location for a long period
of time. He further argues that he was not asked to try on the shoes nor the flannel shirt. Id. This sub-claim
is without merit as Petitioner fails to show the state courts' finding of a lack [*77] of prejudice is an

Appendix E
Appx-0069

Page 29 of 69
2012 U.S. Dist. LEXIS 170609, *77

objectively unreasonable application of Strickland. Even had counsel argued the lack of physical
evidence, there is ample testimony in the record regarding the flannel shirt worn by Petitioner and
cockleburs found on the shirt. (Trial Tr. Vol. 5 at 849-850, 888); (Trial Tr. Vol. 6 at 1015-1016, 1131.)
Additionally. fellow inmate Steven Kasler testified that Coleman had told him that some of the clothing
was left in the Strodeses' doghouse, the location in which the flannel shirt and a shoe were located by
police. (Trial Tr. Vol. 5 at 886); (Trial Tr. Vol. 6 at 1107.) Furthermore, Coleman himself, as well as a
witness, placed him at Riddle's Ribs with the victim around the time of murder. Additional testimony
related to Petitioner's plan to murder Stevens, as well as his statements after the murder that he had "taken
care of business."
Next, Petitioner agues ineffectiveness in that an investigator was not hired until just before the start of
trial. (Traverse, Doc. No. 170, PageID 1926.) The investigator, Belcher, did not begin work on Coleman's
case until February 10, 1997, which was the first day of voir dire and two days prior to opening
statements. Id. Once hired, [*78] Belcher allegedly lacked direction from counsel and did little by way of
aiding in the mitigation phase, focusing primarily on finding an alibi for Coleman. Id. at PageID 1926.
Specifically, Belcher attempted to contact and interview three witnesses. Two of these witness, Charles
Foster and James Strodes, would have served as alternative suspects; however, they both refused to speak
with him. The third witness, Lynnda Gaskins, proved to be an inculpatory rather than an exculpatory
witness. Id. Assuming that the lack of time for a proper investigation fell below the standard of
reasonableness under prevailing professional norms, Petitioner fails to show prejudice. He does not show
what evidence could have been discovered had Belcher had additional time to investigate and interview
additional witnesses/suspects. His theory that Belcher could have uncovered information for the
alternative suspect defense is purely speculative. The state courts' finding of a lack of prejudice is not an
objectively unreasonable application of Strickland.
Next Petitioner argues that his counsel were ineffective because they failed to question key witnesses on
inconsistencies in their testimony. (Traverse, [*79] Doc. No. 170, PageID 1928.) This failure allegedly
resulted in a violation of his Sixth Amendment right to confront witnesses, and encompassed within this
right, the right to cross-examination and ability to present a complete defense. Id., citing Davis v. Alaska,
415 U.S. 308, 315, 94 S. Ct. 1105, 39 L. Ed. 2d 347 (1974); Olden v. Kentucky, 488 U.S. 227, 231, 109 S.
Ct. 480, 102 L. Ed. 2d 513 (1988); Douglas v. Alabama, 380 U.S. 415, 418, 85 S. Ct. 1074, 13 L. Ed. 2d
934 (1965). Petitioner asserts that there were multiple occasions when trial counsel failed to impeach the
State's witnesses with prior statements and/or prior testimony, including: inconsistent descriptions of
clothing worn by Petitioner on the evening of the murder; that a witness told police that he knew Coleman
but he failed to identify him as the man he saw with the victim, instead describing a man both taller and
lighter than Petitioner; inconsistent testimony as to the description, actions, and inquiries of Petitioner
regarding the gun on the evening of the murder; testimony as to how Coleman discovered that Stevens
was the informant in his case; inconsistent descriptions of the language used after he allegedly committed
the murder and described the event; inaccurate details given in police statements; and inconsistencies
[*80] in testimony from the Petitioner's drug trafficking trial and Petitioner's capital trial. (Traverse, Doc.
No. 170, PageID 1929-1931.)
In the first category Petitioner specifically alleges counsel's ineffectiveness in their failure to challenge
witnesses as to their inconsistent description of Coleman. (Traverse, Doc. No. 170, PageID 1929.)
Additionally, he notes the fact that not one of these witnesses recollected seeing the sling he was wearing

Appendix E
Appx-0070

Page 30 of 69
2012 U.S. Dist. LEXIS 170609, *80

for a six-week time period following a shoulder surgery on December 12, 1995. Id. On post-conviction
relief, the state court of appeals held that:
In his seventeenth claim, Coleman contends his counsel was ineffective in not effectively impeaching
Christopher Holtz who placed him in the alley with Ms. Stevens just prior to her death. In support of
that claim, Coleman offered Defendant's Exhibit 45 which purports to be a statement given by Holtz
to police. It is not clear who prepared the handwritten statement. It appears to have been prepared by
someone other than Holtz. It starts "Chris saw a man..." Holtz apparently described the man with
Melinda Stevens as being 6 foot or better and 200-230 lbs. Coleman contends he is shorter and
heavier than [*81] that and his counsel should have impeached him [Holtz] on this discrepancy. He
also says counsel should have brought out on cross-examination that Holtz did not identify him
though he knew him. Coleman refers us to page 847 of the transcript. The following testimony was
given by Holtz at trial:
"Q: And can you tell the Jurors how you knew Miss Stevens?
"A: How I knew her?
"Q: Yeah. How long had you known her?
"A: Oh, not very long. I just see her wandering around a couple times through an alley.
"Q: Okay. Do you know an individual by the name of Tim Coleman?
"A: Not closely.
"Q: Okay. Do you know who he was?
"A: Yeah.
"Q: Okay. Now, when you were in the vicinity of Riddle's Ribs, did you have occasion to see either of
those individuals?
"A: In Riddle's."
The trial court overruled this claim finding there was no evidence that counsel's actions prejudiced
Coleman. We have reviewed the record and we agree with the court's resolution of this claim as well.
There is no evidence that Exhibit 45 is Holtz's statement to police. There is no evidence that
Coleman's height or weight differs significantly from that allegedly given by Holtz to police. The trial
testimony does not plainly indicate that Holtz [*82] knew Coleman or Stevens by name. It does
suggest Holtz knew them from seeing them in the vicinity of Riddle's. Coleman failed to demonstrate
that counsel was ineffective in not properly impeaching Holtz such that an evidentiary hearing was
necessary.
State v. Coleman, 2002 Ohio 5377 at ¶¶ 72-83, 2002 Ohio App. LEXIS 5396 (2nd Dist. Ohio 2002).
In regard to the identification, counsel were not ineffective in their failure to cross-examine on the minor
inconsistencies in the description of the clothing. In the police statements, as well as trial testimony, the
witnesses all testified to a dark colored flannel shirt. (Return of Writ, Doc. No. 167, Apx. Vol. 8 at 57);
(Return of Writ, Doc. No. 137, Apx. Vol. 9 at 186);(Trial Tr. Vol. V at 849-850); (Trial Tr. Vol. 6 at
1131.) Nor were counsel ineffective in their failure to further question witness Christopher Holtz on his
identification of Coleman. While his police statement did originally identify Petitioner as being taller and
weighing less, he identified Petitioner in court. Furthermore, he testified to the fact that he did not know
the Petitioner well, but rather had seen him around, which could account for why he did not identify
Coleman [*83] by name in his statement to the police.

Appendix E
Appx-0071

Page 31 of 69
2012 U.S. Dist. LEXIS 170609, *83

Similarly, during trial Vera Strodes, testified to the fact that Petitioner had been wearing a flannel shirt.
(Trial Tr. Vol. 6 at 1015-1016.) She further recollected that he was wearing black pants, black shoes, a
pair of gloves, and that the flannel shirt had cockleburs stuck all over it. She then identified a shirt as
shown to her in court as the flannel shirt Petitioner had been wearing on the night of the murder. Here
defense counsel did in fact challenge Strodes with inconsistencies from the prior description she had given
to police:
Q: Do you remember what you told the police about his shirt?
A: Yeah, that it had cobwebs or cockleburs on them.
Q: Cockleburs. Now, do you remember what color you told them it was?
A: It was blue with checks on it.
Q: You think you told them it was blue with checks on it?
A: Yeah. It has checks in it. It's one of these flannel shirts.
Q: This is a copy of your statement, one page, first page.
A: Okay.
Q: Okay. And here they ask you the question, "He had on this black and white checkered flannel
shirt." Do you remember telling that to the police?
A: I may have.
Q: Okay. Do you think this is closer to the truth, black and [*84] the white shirt?
****
Q: Okay. So that you're saying black and white shirt wasn't correct?
A: No.
Q: I mean, that's obviously not a black and white shirt.
A: No, it's not.
Q: Why would you have told them black and white?
Mr. Collins: Objection. It's been asked and answered.
The Court: Well, she indicated- - well, I'll let her answer the question. If you said that, you may
answer it.
A: Uh-huh. Because that - - at that time I was thinking black and white. I mess with so many clothes
during the day that it just - -something may stick there.
(Trial Tr. Vol. 6 at 1023-1025.)
Defense counsel clearly challenged Strodes on her prior statement. The information was before the jury
and became a question of witness credibility to be determined by the finders of fact. Petitioner has not
shown prejudice from his trial counsel's failure to further examine Vera Strodes on this matter.
As for Coleman's assertion that no witness described seeing his arm in a sling, it does not appear that this
issue was addressed by the state courts. This Court notes that there is information present in the record
that Petitioner had had shoulder surgery and as part of recovery was to wear a sling. However, there is no
evidence [*85] of the fact that Petitioner did in fact wear the sling for the prescribed amount of time, or
for that matter for any duration of time post-surgery. As such Petitioner cannot show prejudice or that
there is a reasonable probability the outcome of trial would have been different had counsel questioned the
witnesses on this matter.
In the second sub-set of inconsistencies, Petitioner alleges additional inconsistencies in Gaskins
testimony. (Petition, Doc. No. 9, PageID 14.) The first discrepancy was when she testified that Coleman
had discovered through a discovery motion that Stevens was the informant in his case, whereas she had

Appendix E
Appx-0072

Page 32 of 69
2012 U.S. Dist. LEXIS 170609, *85

previously told the police that Coleman refused to tell her how he had obtained that information. Id. In her
statement to police she claimed, "I might have asked him a million times but I never did get to find out
how he got this information. But come to find out his information was correct." (Return of Writ, Doc. No.
167, Apx. Vol. 9 at 189.) She later testified at trial that Coleman told her that Stevens was on his
indictment and that he was now facing three counts of trafficking. She additionally went on to testify that
he had brought his papers over to her [*86] house and that she had read them. (Trial Tr. Vol. 6 at 1124.)
Additionally, he points to inconsistencies in the circumstances surrounding his visit to Gaskin's home.
(Petition, Doc. No. 9, PageID 14); (Traverse, Doc. No. 170, PageID 1930.) He contends there was a
discrepancy in Gaskin's recounting of the conversation she and Coleman had had after he returned to her
house after the murder. In both her interview with the police and her trial testimony she said that he had
taken care of business with the girl, but in her statement to the police, she said he said, "pow pow, to the
back of the head, and then he did like this boom and actually fell over on the floor. Made a loud noise.
Said that is how that b*tch fell. That b*tch fell hard." (Return of Writ, Doc. No. 137, Apx. Vol. 9 at 198.)
She told the police that the weapon had been a "nine." During the trial, her testimony changed to
Coleman's saying, "I took care of my business." "Bloop. Bloop, two to the back of the head." "The b*tch
fell like a rock. Bloop." and then he fell on her floor to demonstrate. (Trial Tr. Vol. 9 at 1130.) She
indicated at this time that the murder weapon had been a .380.
He raised these sub-claims on post-conviction [*87] relief and the court held:
In his eighteenth claim, Coleman contends his trial counsel were ineffective in not impeaching the
trial testimony of Lynda Gaskins. Ms. Gaskins testified at the trial that she had known Coleman for
about 8 or 9 years prior to the trial and saw him almost daily. Ms. Gaskins said Coleman told her
while he was in jail on the drug charges he learned through the discovery process that the confidential
informant who he had sold the drugs to was Melinda Stevens. (Tr. 1120). Ms. Gaskins testified that
when Coleman got out on bond he told her that he was going to kill Melinda Stevens because he was
facing too much time on the aggravated trafficking charges. (Tr. 1123, 1124). Ms. Gaskins said
Coleman came to her house on the night of the homicide at about 7:30 p.m. and told her that he "took
care of my business." (Tr. 1129). She testified as follows:
"A: Excuse me. He - -he said - -he said, 'I took care of my business.' He said, 'Bloop, bloop, two to the
back of the head.' He said, 'The bitch fell like a rock. Bloop' Then he fell in the middle of my floor.
"Q: Wait a minute now. He said, 'Bloop, bloop." Then he said, 'The bitch' - "A: 'Two to the back of the head.' [*88] And then he fell in the - - then he just fell over in the floor,
said, 'She fell like a rock.'
"Q: Said she fell like a rock, and he actually physically fell to the floor?
"A: Yes."
Gaskins testified that Coleman told her he shot Stevens twice in the back of the head in the alley
behind Riddle's. (Tr. 1136).
In aide [sic] of his petition, Coleman filed a copy of Gaskins' statement to the police on April 5, 1996.
In her statement she said Coleman told her Stevens was the informant who bought the drugs from him
but "I never did get to find out how he got this information." In her lengthy statement Gaskins told
police that Coleman explained he took care of his business, "Pow, pow. Twice to the back of the head
with a nine.
Coleman contends his trial counsel were ineffective in not impeaching Gaskins with the statement she
gave to the police in April 1996. The trial court overruled this claim finding that the claimed

Appendix E
Appx-0073

Page 33 of 69
2012 U.S. Dist. LEXIS 170609, *88

inconsistencies were insubstantial and in any event there was no reasonable probability that the
outcome of Coleman's trial would have would have been different had counsel pursued this line of
impeachment in cross-examination.
It is clear that Gaskins' trial testimony that Coleman [*89] said he learned of Stevens' identity through
the discovery process in his drug case was not consistent with her police statement. Gaskins' trial
testimony of how Coleman described the killing of Stevens was substantially consistent with her
police statement. We doubt whether the single inconsistency in Gaskins' testimony would have had
any significant impact on the jury's evaluation of her testimony. The trial court properly overruled this
claim as well.
State v. Coleman, 2002 Ohio 5377 at ¶¶ 72-83, 2002 Ohio App. LEXIS 5396 (2nd Dist. Ohio 2002).
Counsel could have cross-examined Gaskin on the points concerning how and when Coleman found out
that Stevens was an informant on his drug case and on the type of gun used. However, given the evidence
against Petitioner and the corroboration of Gaskins' statement by other witnesses, Petitioner cannot show
prejudice from this failure. While this may have slightly affected her credibility with the jury, other
witnesses testified that Coleman had told them of the murder, and testified to the type of gun that was
used. Additionally, the pathologist testified that he recovered the bullets from the victim's body and that
the placement of the wounds [*90] would support the version of the events in which Stevens' spinal cord
was severed and she fell to the ground. (Trial Tr. Vol. 4 at 691.) A forensic examiner testified that the
recovered bullets were from a .380 caliber weapon. (Trial Tr. Vol. 6 at 1053.) As this other evidence
supported Gaskins' testimony, Petitioner cannot show that there is a reasonable probability the outcome of
trial would have been different had counsel questioned her on these inconsistencies.
Next Petitioner claims counsel were ineffective in their failure to impeach Steven Kasler with his prior
inconsistencies, specifically, in that Kasler had told the police that the victim, Stevens, was white, that she
had been shot a second time after she hit the ground, and that Coleman's nephew would serve as his alibi.
(Traverse, Doc. No. 170, PageID 1930-1931); (Return of Writ, Doc. No. 167, Apx Vol. 9 at 212.) On
post-conviction relief, the court of appeals held:
In his nineteenth claim, Coleman contends his trial counsel were ineffective in failing to impeach
Steve Kasler with a prior statement he gave to police. Kasler testified at the trial that he was a cell
mate of Coleman at the Columbus Reception Center for a day. [*91] He testified that Coleman told
him he shot Melinda Stevens twice in the back of the head with a Davis P-380. (Tr. 1106). He denied
he was receiving any consideration from the State of Ohio for his testimony.
In a statement given by Kasler to police on June 20, 1996, Kasler said the informant was white.
Coleman contends counsel should have impeached Kasler with this statement since Melinda Stevens
was an African-American. Coleman says counsel should have impeached Kasler with his statement
that Coleman told him he talked to Edward Tilley before and after the killing since he did not mention
this in his trial testimony. Coleman says counsel should have impeached Kasler with his statement
that Coleman told him his nephew was to be his alibi since Coleman's nephew did not testify at trial.
We agree with the trial court's resolution of this claim as well. This claim is difficult to comprehend.
While counsel might have impeached Kasler with his prior statement that Coleman told him the
victim was white, we fail to see how counsel could have impeached Kasler with other aspects of his
statement. In any event, there is not substantial probability that had counsel pursued this single line of

Appendix E
Appx-0074

Page 34 of 69
2012 U.S. Dist. LEXIS 170609, *91

impeachment [*92] of Kasler the trial outcome would have been different. Strickland v. Washington,
supra.
State v. Coleman, 2002 Ohio 5377 at ¶¶ 94-96 (2nd Dist. Ohio 2002).
While these issues would have gone to Kasler's credibility with the jury, the majority of his testimony was
corroborated by many witnesses. Coleman has not shown that there is a reasonable probability that, but
for counsel's failure to cross-examine on these inconsistencies, the result of the proceeding would have
been different. The decision by the state court was neither contrary to, nor an unreasonable application of,
Supreme Court law.
Next, Coleman cites to contradictions in James White's testimony, specifically inconsistencies as to when
Coleman approached him about helping to kill Stevens. (Traverse, Doc. No. 170, PageID 1931-32.) White
testified during the drug trial that he and Coleman had discussed multiple ways of killing Stevens.
However, in the murder trial, White testified that they had only discussed two methods. Additionally,
during the murder trial, White provided specifics as to these murder plans which he had not testified to
during the drug trial. Also, during the murder trial, White omitted mention of Coleman's [*93] nephew
providing a potential alibi as he had previously testified to in the drug trial. Id.
This ground was presented to the state courts during post-conviction relief. The court of appeals held:
In his twentieth claim, Coleman contends his trial counsel were ineffective in not effectively
impeaching the testimony of James White. During the trial, White testified that Coleman approached
him while they were in jail and offered to help get him out on bond if White would help him take care
of Ms. Stevens. (Tr. 722). White testified that when he and Coleman got out of jail he and Coleman
discussed plans of killing Stevens but he never had any intention of carrying out the plan. (Tr. 725727). He said Coleman gave him crack cocaine on several occasions during the discussions. (Tr. 725).
White said he saw Coleman on the night of the homicide and Coleman said he "took care of his
business." (Tr. 730).
Coleman argues that his counsel should have impeached White with his testimony given at Coleman's
trafficking trial because at that trial White's recollection was so poor that he was unable to recall how
many times he and Coleman talked about "getting rid" of Ms. Stevens. (95-CR-0484-Tr. p. 326).
[*94] Coleman notes that at his murder trial White was able to remember that the shooting was to
occur on Wiley Avenue. (Tr. 724).
We fail to see how trial counsel was ineffective in impeaching the testimony of White. White testified
at the drug trial and at the murder trial that he couldn't remember how many times he and Coleman
talked about the plan to kill Stevens. He said "I didn't keep count." (Tr. 735). We fail to see how
White's remembering the planned location of the planned killing (Wiley Street) was inconsistent with
his inability to remember how many times they had discussed the plan. The trial court properly
overruled this claim as well.
State v. Coleman, 2002 Ohio 5377 at ¶¶ 97-99 (2nd Dist. Ohio 2002).
In the drug trial White testified that he and Coleman had been housed together in the jail while Coleman
was being held on charges of trafficking. Coleman confided to White that he thought he knew who had
"busted" him. (Drug Trial Tr. Vol. 3 at 322-323.) He further told White that once he (Coleman) was
released from jail he planned to take care of his business with Melinda Stevens because he had young
children and could not serve a lengthy sentence as they would be grown by the [*95] time he was

Appendix E
Appx-0075

Page 35 of 69
2012 U.S. Dist. LEXIS 170609, *95

released. Id. at 324. White claimed that after they were out of jail, Petitioner approached him to seek help
in killing Stevens. Id. at 324, 331. In exchange Coleman would pay White in drugs and in assistance
leaving town. Id. at 324. The men discussed a few different methods of killing, including throwing a fire
bomb into her home and the possibility of someone hiding in the bushes and then shooting her as she
came by. Id. at 325-326, 334. The plans were discussed on several occasions, though White did not think
Coleman was serious about the plan. Id. at 325-326. On the day of the murder Coleman told White that he
was going to take care of it. White did not see him again until after the murder had been committed. Id. at
326-327.
During the murder trial, White testified that the initial conversations regarding Stevens took place in jail.
(Trial Tr. Vol. 5 at 722.) Coleman told him that he believed that Stevens was the one who had "busted
him" and that because he had a newborn, he could not do that much time. Id. He offered that if he were
released from jail first, he would help with White's release, on the condition that White help him take care
of Stevens. Id. At the time [*96] there were no further conversations as to the specifics. Id. Once they
were both out on bond, Coleman again asked White to help him with Stevens. Id. at 723-724. Again he
testified that they discussed setting the house on fire or hiding in bushes and shooting her. Id. at 724-726.
He stated he only continued discussions with the plan because he was given drugs. Id. at 725, 727, 735.
He saw Coleman on the day the murder took place, but did not participate in the murder. Id. at 728-731.
In comparing the two versions of trial testimony, the Court finds very little discrepancy. Counsel could
have cross-examined White as to the timing of the first conversation. However, in both cases White
testified that any specifics as to the plan were discussed outside of jail. Even if the jurors had been made
aware of this inconsistency, it does not seem likely, given the strength of the evidence presented, that the
outcome would have been different. Counsel were not ineffective for failing to follow this line of
questioning and the state courts were not objectively unreasonably applying Strickland when they reached
that conclusion.
Next Coleman argues that counsel were ineffective in that they should [*97] have challenged the
inconsistencies in Hope Strodes' testimony concerning the gun. (Traverse, Doc. No. 170, PageID 1929),
specifically, that in her police statement, Strodes said that Coleman was cleaning a gun which looked like
a silver 9mm. semi automatic. (Return of Writ, Doc. No.167, Apx. Vol V at 34.) During trial however, she
did not testify that Coleman was cleaning a weapon, but rather stated that he came into her kitchen and
was looking for bullets. She told him there was a box of bullets on the top shelf. (Trial Tr. Vol. 6 at 949.)
She recalled the gun as being silver in color with a clip. Id. at 950-951. On cross-examination, defense
counsel asked Strodes if she had told the police all of this when she talked to them and gave her statement.
When she answered in the affirmative, counsel continued cross by saying "you did? . . . you didn't tell him
about he was looking for bullets. He just came to your house and asked for bullets- - came to your
grandmother's house and asked for bullets; is that right?" "[Y]ou didn't want to tell them nothing. You told
them most things, but you didn't tell them about the bullets; is that right?" Id. at 954-956. The State then
attempted to [*98] rehabilitate this witness by asking her why she did not want to tell the police about
this, to which she replied that she did not want to be involved. Id. at 956. Defense counsel did not re-cross
on this point.
Counsel effectively questioned this witness on her inconsistent statements regarding Coleman's actions
with the gun. This exchange was before the jury and the question of credibility was to be determined by
the jury. As for the type of gun, Petitioner cannot establish prejudice. While counsel could have asked

Appendix E
Appx-0076

Page 36 of 69
2012 U.S. Dist. LEXIS 170609, *98

about this discrepancy, her description of the gun remained similar, a small silver gun. In addition, several
other witnesses testified that a .380 was used in the murder.
Next Petitioner argues that counsel were ineffective in failing to question the possibility of police bias and
deals as inmates who testified may have received lighter sentences. (Traverse, Doc. No. 170, PageID
1933.) In support, he offers an affidavit from Kinsely Crowley stating that police offered to help him with
his time if he would say that he saw Coleman murder Stevens. (Traverse, Doc. 170, PageID 1933-1934,
citing Return of Writ, Doc. No. 167, Apx. 7 at 130, Aff. of Crowley.) Additionally, Petitioner
[*99] asserts that William Love overheard an inmate at the jail, who was going to testify against
Coleman, telling other inmates that their sentences would be reduced if they would testify against
Coleman as police needed two more witnesses. (Traverse, Doc. No. 170, PageID 1933-1934, citing Return
of Writ, Doc. No. 167, Apx. Vol. 8 at 328, Aff. of Love.) He claims that one inmate accepted this offer
and was provided details of the crime so he could testify. (Traverse, Doc. No. 170, PageID1933.) He
further alleges that this sub-claim is supported by the fact that the witnesses in this case were in fact given
relatively light sentences. Id. at PageID 1934. Petitioner additionally points to the fact that during his drug
trial, James White testified that he was getting a reduction in his sentence for coming forward about
Stevens' murder. Coleman notes that if this was the case for White, it is possible that Donovan Hays and
Antwan Warren also got deals. (Traverse, Doc. No. 170, PageID 1934.)
Coleman raised this claim in the state court and it held:
In his seventh claim, Coleman contended that his counsel were ineffective in not investigating
allegations that police improperly influenced Kinsley [*100] Crowley, Larry Terrell, William Love,
and Dana Strodes to lie in order to implicate him in the murder of Melinda Stevens. Coleman
presented the affidavit of Kinsley Crowley, an inmate, who stated in an affidavit dated October 30,
1997, that Detective Smoot told him "he would help me for my time if I said I saw Tim kill Melinda."
(Def. Ex. 10).
In its motion for summary judgment, the State presented the affidavit of Detective Nathaniel Smoot
who swore he never threatened any witness to testify in a certain manner, nor to influence their
testimony by any promises of leniency. The State also presented the typed interview of Crowley
conducted by Detective Smoot and Flores on January 10, 1996. In this interview Crowley stated he
saw Coleman and his cousin Melinda Stevens leave Riddles together about five minutes before Chris
Holtz discovered Melinda's dead body. The State asserted in its motion that no criminal charges were
pending against Crowley at the time he made his statement to the Springfield detectives in January
1996.
****
Coleman presented the affidavit of William Love who stated in an affidavit dated December 22, 1997,
that he was an inmate in the Clark County Jail in 1996 and [*101] was told by an unnamed inmate
that inmates' sentences would be reduced if they testified against Coleman. He stated he heard a
younger inmate agree to help out and later detectives took him out and interviewed him. He stated he
didn't know whether the prosecution or police actually did offer such a deal to anyone.
****
In granting summary judgment on Coleman's seventh claim, the trial court noted that the record failed
to disclose any substantial facts to support this allegation of ineffectiveness on counsel's part. We
agree that the record fails to establish any evidence that police sought to improperly influence any of
the witnesses who offered their affidavit or that the Doughtys were ever aware of any such claim of

Appendix E
Appx-0077

Page 37 of 69
2012 U.S. Dist. LEXIS 170609, *101

misconduct by the police. The trial court properly overruled the seventh claim without an evidentiary
hearing.
State v. Coleman, 2002 Ohio 5377 at ¶¶ 27-33 (2nd Dist. Ohio 2002).
James White testified that in his own case several charges of aggravated trafficking were dismissed as part
of a plea bargain. His plea bargain was conditioned on his cooperation and testimony in Coleman's case.
(Trial Tr. Vol. 5 at 718.) He testified that, aside from that particular plea bargain, [*102] no other deals or
bargains had been made. Id. During trial, Hayes testified that he was not given any consideration or a plea
bargain in his own case in exchange for his testimony against Coleman. (Trial Tr. Vol. 5 at 742-743.)
Counsel did not cross-examine Hayes on this point. Likewise, Warren testified that he was not being
offered a plea bargain or any consideration in his own drug trafficking case in exchange for testifying in
Coleman's case, though he did note that the judge in his case would be aware of that fact that he had
testified in Coleman's case. (Trial Tr. Vol. 6 at 1092.) On cross-examination defense counsel asked
"[d]idn't James Strodes tell you if you wanted time knocked off your sentence . . .to turn on Tim?" Warren
responded negatively to this assertion. Id. at 1099.
Petitioner has not shown any deficient performance or prejudice in the failure of counsel to cross-examine
further on this point. Aside from the offered affidavit, there is no evidence that Hayes or Warren received
a deal in exchange for their testimony. White expressly stated that his testimony was a condition of his
plea bargain. This information, in addition to Hayes' and Warren's denial of receiving [*103] deals, were
all before the jury. Without more to the contrary, counsel were not ineffective in their failure to further
question potential deals. This sub-claim is without merit.
Next, Coleman argues that his counsel were ineffective in their failure to consider and present alternative
suspects as a defense. (Traverse, Doc. No. 170, PageID 1934, 1953.) Even prior to the Sapp affidavit, he
alleges there was evidence pointing to other potential perpetrators. (Traverse, Doc. No. 170, PageID
1934.) Had counsel been thorough in looking through the discovery evidence, they would have discovered
that Stevens was working as an informant and buying from multiple sellers, including: Shawn Cunigan,1
Juan Bell, Cynthia Lawson, Charles Foster, Gary Cooper, Chippy Vincent West, and Lucretia Dickerson.
(Return of Writ, Doc. No. 167, Apx. Vol. 7 at 126.) Additionally there was information2 that Stevens had
been threatened by Charles Foster only two days prior to her death.
Petitioner raised this claim on direct appeal and the court held:
Coleman attempts to present additional evidence that allegedly points to other suspects and to
inconsistencies in testimony. Yet his claims are speculative at best and reset largely upon evidence
that was not before the trial court and that cannot be considered by this court. State v. Ishmail, 54
Ohio St. 2d 402, 8 Ohio Op. 3d 405, 377 N.E. 2d 500, paragraph one of the syllabus. Viewed in a
light most favorable to the prosecution, the state clearly demonstrated sufficient evidence to convict
the appellant. Thus, we reject appellant's second proposition of law.
State v. Coleman, 85 Ohio St. 3d 129, 140, 1999 Ohio 258, 707 N.E.2d 476 (1999).
1 Throughout

the record this name appears as both "Shaun" and "Shawn." For purposes of this opinion, this Court will use Shawn.

2 This

evidence came from an anonymous phone call to police from someone that overheard the exchange, as [*104] well as through an
extensive police interview of Charles Foster. (Return of Writ, Doc. No. 167, Apx Vol 7 at 97);(Return of Writ, Doc. No. 167, Apx. Vol. 8 at
55.)

Appendix E
Appx-0078

Page 38 of 69
2012 U.S. Dist. LEXIS 170609, *104

Coleman again raised the claim in post conviction and the court of appeals held:
In the direct appeal, Coleman asserted that his counsel was ineffective for not pursuing a substantial
number of leads pointing to another killer. The Supreme Court found this claim to be baseless. State v.
Coleman, supra, at 134. Nothing in the postconviction evidentiary material [*105] suggests counsel
was ineffective in not pursuing other "leads." The trial court properly rejected Coleman's ninth claim
as well.
***
In his twenty-first claim, Coleman contends his trial counsel were ineffective in not investigating
other suspects who had a similar motive as he had for killing Melinda Stevens. Coleman points to the
statement of Charles Foster who was interviewed by Springfield Police shortly after the homicide. In
that statement, Foster admitted he told Melinda Stevens she would wind up dead for snitching for the
police. (Ex. 3 pages 6, 17). Coleman points out that Shaun Cunigan gave a statement to the police also
admitting that he bought drugs from Stevens and he admitted to being in Wiley's alley just prior to the
homicide. Coleman points out that "Corky" and "Fat Dean" also bought drugs from Stevens and both
were in Springfield at the time of her death. He also points out that Monica Roe told police she and
Melinda were riding around with two drug dealers from Dayton on the evening of her death. Coleman
also points out that there were reports to police that Ms. Stevens' eleven year old daughter witnessed
her mother's killing. (Ex. 17, p.4).
The trial court overruled [*106] this claim because the court found there was overwhelming evidence
of Coleman's guilt in the trial record.
State v. Coleman, 2002 Ohio 5377 at ¶¶ 39, 100-101 (2nd Dist. Ohio 2002).
In his Traverse, Coleman lists the following as potential alternative suspects or possible leads:
1. Ms. Stevens bought drugs from Charles Foster. (Apx. Vol. 7, p.126) Foster threatened Ms. Stevens
two days prior to her death. (Id. at 102. Apx Vol. 8, p. 55)
2. Ms. Stevens bought drugs from Shawn Cunnigan (Apx. Vol. 7, p. 126) Cunnigan was in the alley
where Ms. Stevens was killed just prior to her death. (Apx. Vol. 9, p. 232)
3. Both Foster and Cunnigan used the name "Dave." (Apx. Vol. 7, p.126; Apx. Vol. 9, p. 231) During
police questioning of Coleman, Sergeant Graeber indicated "Dave's probably my guy." (Apx. Vol. 5,
p. 14 (Trial Ex. S))
4. Corky and Fat Dean were in the area, two men whom Ms. Stevens informed on. (Apx. Vol. 7,
p.100)
5. Kirkland (Kirky) was in the area looking for Ms. Stevens just prior to her death. (Id. at 109)
6. Monica Roe indicated that she and Ms. Stevens were riding around with two drug dealers from
Dayton on the evening of her death (Apx. Vol. 9, p. 271)
7. Two men from Michigan came [*107] down to kill Ms. Stevens. (Apx. Vol. 1, p. 124)
8. Kent from Dayton told Ms. Almon that Ms. Stevens was going to get killed. (Id. at 152.)
9. Tammi Rowe and Charles Chilton knew how Ms. Stevens was killed. (Apx. Vol. 9, p. 284)
10. Police received several reports that Ms. Stevens' daughter witnessed her murder. (Apx. Vol. 7, p.
149; Apx. Vol. 9, p. 285) There were also reports that two girls ran from the alley. (Apx. Vol. 9, p.
286)

Appendix E
Appx-0079

Page 39 of 69
2012 U.S. Dist. LEXIS 170609, *107

11. Tim Cook hired Mike Harris to shoot Ms. Stevens over some money she owed over drugs. Also,
heard Kinsely or Kneisley was given the gun and money taken from Ms. Stevens and was told to get
rid of it. (Apx. Vol. 8, p.60)
12. James Strodes told police he was not involved in Ms. Stevens' death, but was at his Uncle
Wallace's working with Larry Torrell [sic]. (Apx. Vol. 5, p.70) Larry Terrell indicated by letter to
Petitioner that he was not with Strodes. (See also Apx. Vol. 7, p. 131)
13. Counsel did not challenge the State's assertion that Petitioner did not make a call from the
payphone at the corner of Center and Pleasant. Susan Smith, Petitioner's girlfriend, worked at
Cardinal Retirement. The number of Cardinal Retirement was 399-1216. Review of States Ex.
[*108] U reflect two phone calls made to local 1216 number. (See also Apx. Vol. 7, p. 174)
14. Ms. Stevens owed drug dealer "Smalls" money for drugs. When she failed to hold-up Riddle's,
Smalls shot Stevens in the head. (Id. at 125)
15. Timothy J. Hope was a potential suspect or accomplice. Hope had a gold tooth and left for
Tennessee after the shooting. (Apx. Vol. 8, p. 59)
(Traverse, Doc. No. 170, PageID 1935-1936.)
This sub-claim deals with street rumors and third-hand accounts with no evidence in support. The Court
further notes that police interviewed Foster regarding his comments to Stevens days prior to her murder.
The interview, as well as that of Cunigan, proved to be inculpatory against Coleman. Given the weight of
evidence against Coleman, the alternative suspect evidence upon which he relies is speculative and not
sufficient to demonstrate a reasonably probability that, but for counsel's failure to present this evidence,
the result of the trial would probably have been different.
Next, Petitioner alleges ineffectiveness as counsel failed to challenge the testimony regarding calls made
from a pay phone near Riddle's. (Traverse, Doc. No. 170, PageID 1936.) Coleman's alibi was that after
[*109] leaving Stevens, he went to a pay phone and made a call. Id. The State asserted that the phone call
was never made, defense counsel challenged this assertion, but failed to present any evidence
corroborating this position. Id. Specifically, it is alleged counsel could have shown that Petitioner called
his girlfriend at her place of employment. Id. Petitioner offered his own affidavit, as well as one from
Susan Smith, both of which stated that Coleman called Smith at her place of employment around 7:30 on
the night of the murder to ask her to "play the numbers" for him. (Return of Writ, Doc. No. 167, Apx. Vol.
7 at 159-160, 174.) Petitioner stated that he made this call from the pay phone at Center and Pleasant.
(Return of Writ, Doc. No. 167, Apx. Vol. 7 at 160.) He claims to have made several calls at that time. His
first call was to a woman named Anita but as she was not home, he left a message with her mother. Id.
Next he called Richard McWhorter and then Susan Smith. Id. However, at trial, Roger Engle, an
employee at Ameritech, testified that two phone calls were made from the pay phone on South Central
Street. (Trial Tr. Vol. 6 at 1079-1083.) The calls were made a few minutes before [*110] 7:00 p.m., one
of which went to the personal residence of Laura McNeil and the second was a self-automated call back to
Ameritech to report how much money was in the phone money box. Id. McNeil testified that on the
evening of January 2, 1996, she received a call from her babysitter to let her know that the babysitter was
stuck in the snow storm on or near Pleasant Street. Id. at 1085-1088.
Even if counsel had presented evidence of Coleman's claim that he had called Susan Smith, he cannot
show prejudice. The records from the phone only indicate two outgoing phone calls from the relevant
phone on the evening of January 2, conflicting with Coleman's claim. Given the weight of evidence

Appendix E
Appx-0080

Page 40 of 69
2012 U.S. Dist. LEXIS 170609, *110

against Coleman, the ineffective assistance claim relating to the phone call to Susan Smith was not
sufficient to demonstrate that but for counsel's failure to present this evidence, there was a reasonable
probability that the result of the trial would have been different.
Next, Petitioner alleges counsel's ineffectiveness in their failure to keep promises to the jury, specifically
in telling the jurors during opening statements that they were going to hear from Charles Foster.
(Traverse, Doc. No. 170, PageID [*111] 1937.) Foster was a local drug dealer and had threatened Stevens
just days prior to her death. Id. Counsel further told the jurors that police had received an anonymous tip
implicating Foster in the murder. (Trial Tr. Vol. 4 at 659.) Counsel did not follow up on this promise but
rather failed to offer any evidence during trial to support this assertion. (Traverse, Doc. No. 170, PageID
1937.) Coleman blames this oversight on a lack of preparation, specifically in the delay of hiring an
investigator. (Traverse, Doc. No. 170, PageID 1938.) In an earlier Opinion and Order, this Court held:
The [*112] facts and evidence before the Court suggest that petitioner has at least some basis to
question counsel's performance in connection with the culpability phase. For example, promising
during opening statements to offer compelling alternative suspects, i.e., Charles Foster, and then
failing to deliver on those promises calls counsel's decision-making and preparation into question.
The record does not indicated whether counsel's decision and omissions in connection with their
pretrial investigation and trial performance were calculated and reasonable, or, as petitioner suggests,
neglectful and unreasonable.
(Opinion and Order, Doc. 54 at 26.)
However, Petitioner is unable to establish prejudice. Based on the police statement, Foster would have
testified that "Tim" had told him that he was the one who had killed Stevens. (Return of Writ, Doc. No.
167, Apx. Vol. 7 at 97.) He further stated that "Tim" told him that he killed her because "she told on him"
so he "he took care of business." Id. at 98, 104-106. Given this, it is highly unlikely that but for counsel's
failure to deliver on the promise of Foster's testimony, the result of the trial would have been different.
Next, Petitioner argues [*113] that trial counsel exhibited racial animus toward him. (Traverse, Doc. No.
170, PageID 1939.) He alleges that counsel referred to him as "a typical stupid nigger" while improperly
discussing his case with another client. Id., see also Return of Writ, Doc. No. 167, Apx. Vol. 7 at 141-142,
Apx. Vol. 8 at 79-80. He further alleges that counsel only went through the motions in his case so that
they could begin to work on another capital case. Id. This claim was raised in post-conviction relief and
the court held:
In his eighth claim Coleman contends his trial counsel were ineffective because they admitted to John
Stojetz that they hurried through Coleman's case so they could begin work on his case. In support of
this allegation, Coleman submitted the affidavit of John Stojetz (Def. Ex. 14). In the affidavit Stojetz
stated he was represented by the Doughtys in a capital murder case and during a recess he said he
asked Jon Doughty if he thought he might get the death penalty. Stojetz said Doughty replied, "No,
Coleman was a typical stupid nigger." He said Doughty said Coleman told several people in a bar that
"he killed the bitch, she won't tell on me no more." Stojetz said Doughty said in [*114] light of
Coleman's remarks he "just went through the motions" with the Coleman case. Stojetz said Doughty
told him he wanted the Coleman case finished so he could begin work on his trial. The State
countered with Jon Doughty's affidavit where he stated he spent between 350-400 hours working on
Coleman's case. Doughty emphatically denied all of Stojetz allegations.

Appendix E
Appx-0081

Page 41 of 69
2012 U.S. Dist. LEXIS 170609, *114

In denying the eighth claim, the trial court noted that Stojetz is a convicted felon on death row for the
murder of a prison inmate and the Doughtys were his counsel and he had an obvious reason to further
his position. The court stated that it found Stojetz's statements suspicious and without credibility. The
court fully credited Doughty's affidavit and noted that any inconsistencies in the state's evidence were
identified.
Again State v. Calhoun is a basis for overruling Coleman's claim. The trial court was in the best
position to view the conduct of trial counsel and whether counsel appeared adequately prepared to
address the State's case and to present evidence in Coleman's behalf. The eighth claim was properly
denied without a hearing.
State v. Coleman, 2002 Ohio 5377 at ¶¶ 34-36 (2nd Dist. Ohio 2002).
Coleman fails to establish [*115] either prong of Strickland, to wit, that counsel were ineffective or that
he was prejudiced as a result. The only evidence supporting this assertion is an affidavit from Stojetz.
Trial counsel denied the allegations contained within the affidavit and countered that they had worked for
several hundred hours on Coleman's case. The state court determined the credibility of the affidavit and of
counsel. In considering this claim with the record, there is no evidence of counsel's falling below
reasonable standards or demonstrating a racial animus toward Petitioner. Nor does Coleman attempt to
establish prejudice. The decision of the state courts was neither contrary to nor an unreasonable
application of Strickland.
Next Coleman argues that his trial counsel were deficient in their failure to sever his weapons under
disability charge. (Traverse, Doc. No. 170, PageID 1939-1940.) As a result of this failure, the jury learned
that Coleman was previously convicted of drug trafficking in 1993. Id. This may have resulted in the jury
inferring that Coleman had a propensity to commit drug crimes, making it more likely that he sold drugs
to Stevens and murdered her to keep her from testifying against [*116] him. Id.
Coleman raised this claim on direct appeal and the Ohio Supreme Court held:
Appellant claims that his counsel was ineffective for failing to request severance of Count II of the
indictment, having a weapon under disability.
Under Crim.R. 8(A), joinder of offenses is proper where the offenses are "based on the same act or
transaction." The law favors joining multiple criminal offenses in a single trial. State v. Franklin
(1991), 62 Ohio St. 3d 118, 122, 580 N.E.2d 1, 5. In Coleman's case, joinder was appropriate, since
the weapons under disability charge was based upon the same act as the aggravated murder charge,
that is, appellant shot and killed Stevens with a gun, which he was not permitted to have due to a prior
conviction in 1994 for dealing drugs.
Had counsel requested severance, the trial judge could have properly denied any motion to sever, had
one been made. A defendant must affirmatively establish prejudice and an abuse of discretion where
the trial court refuses to sever multiple charges. State v. Lott (1990), 51 Ohio St. 3d 160, 163, 555
N.E.2d 293, 298; State v. Torres (1981), 66 Ohio St. 2d 340, 20 Ohio Op. 3d 313, 421 N.E.2d 1288,
syllabus. Appellant cannot show [*117] prejudice in this case. The state was required to prove that
appellant sold drugs to Stevens and that he subsequently killed her in order to prevent her from
testifying against him. Given the fact that the jury would hear of appellant's previous drug dealing,
appellant was not prejudiced by proof of an earlier drug conviction. See, e.g., State v. Davis (1988),
38 Ohio St. 3d 361, 528 N.E.2d 925. Moreover, "an accused is not prejudiced by joinder when simple

Appendix E
Appx-0082

Page 42 of 69
2012 U.S. Dist. LEXIS 170609, *117

and direct evidence exists." State v. Franklin, 62 Ohio St. 3d at 122, 580 N.E.2d at 6. In this case,
proof lacks merit, as it fails to establish either deficient performance of duty of prejudice under
Strickland.
State v. Coleman, 85 Ohio St. 3d 129, 137, 1999 Ohio 258, 707 N.E.2d 476 (1999).
Even assuming that counsel had erred in not asking for a severance, Petitioner cannot establish prejudice
as evidence of his drug trafficking in this particular case was already before the court in establishing that
Stevens had been an informant and had purchased drugs from Coleman. Furthermore, in establishing
motive for the murder, the jurors were told of the trafficking charges. The decision of the state court was
not contrary to, nor an unreasonable application of U.S. [*118] Supreme Court law.
Next, Petitioner argues counsel's ineffectiveness during jury selection. (Petition, Doc. No. 9, PageID 19);
(Traverse, Doc. No. 170, PageID 1940-1944.) Coleman alleges that his counsel failed to ensure the
fairness and impartiality of jurors and that "[t]heir inadequate performance makes it impossible to tell
from the record whether Coleman's jurors were fair and impartial." Id. at 1941.
Coleman raised this sub-claim on direct appeal and the court held:
Coleman contends that his counsel failed to adequately voir dire prospective jurors. However,
Coleman fails to demonstrate that counsel's performance fell below "an objective standard of
reasonable representation." State v. Bradley, 42 Ohio St. 3d 136, 538 N.E.2d 373, paragraph two of
the syllabus. As we have noted, "the conduct of voir dire by defense counsel does not have to take a
particular form, nor do specific questions have to be asked." State v. Evans (1992), 63 Ohio St. 3d
231, 247, 586 N.E.2d 1042, 1056. Counsel exercise discretionary judgment when they question jurors
and "need not repeat questions about topics already covered by * * * opposing counsel, or the judge."
State v. Watson (1992), 61 Ohio St. 3d 1, 13, 572 N.E.2d 97, 108. [*119] Here, counsel had the
benefit of questionnaires filled out by each juror. This court "will not second-guess trial strategy
decisions" such as those made in voir dire. State v. Mason (1998), 82 Ohio St. 3d 144, 157, 1998 Ohio
370, 694 N.E.2d 932, 949.
Coleman complains that counsel in voir dire mischaracterized the nature and purpose of mitigation
evidence. However, Coleman mostly cites examples of individual voir dire of venirepersons who
never sat as jurors. Under the circumstances, these asserted misstatements by counsel could not have
affected the verdict. As for the two jurors mentioned by Coleman that were on the jury, Coleman
claims that counsel was deficient because of misstatements made while questioning individual jurors
as to mitigation and the burden of proof. However, the trial court later correctly instructed the jury on
the burden of proof and sentencing procedures, and a jury is presumed to follow the instructions given
to it by the trial judge. State v. Loza (1994), 71 Ohio St. 3d 61, 75, 79, 1994 Ohio 409, 641 N.E.2d
1082, 1100, 1102-1103. Additionally, asking jurors their views on individual mitigating factors "is not
essential to competent representation." State v. Phillips (1995), 74 Ohio St. 3d 72, 86, 1995 Ohio 171,
656 N.E.2d 643, 659. [*120] See, also, State v. Goff (1998), 82 Ohio St. 3d 123, 140, 1998 Ohio 369,
694 N.E.2d 916, 929. Counsel also exercised discretion as to questioning a prospective juror who
never sat on the jury about a relationship with an unrelated murder victim. "Trial counsel stands in the
better position to determine which members of the venire merit in-depth examination." State v.
Phillips, 74 Ohio St. 3d at 85-86, 656 N.E.2d at 659. Accord State v. McGuire (1997), 80 Ohio St. 3d
390, 398, 1997 Ohio 335, 686 N.E.2d 1112, 1119.

Appendix E
Appx-0083

Page 43 of 69
2012 U.S. Dist. LEXIS 170609, *120

Coleman claims that his counsel did not ensure the fairness of jurors or inquire as to their views on
the death penalty. Again, Coleman generally cites only examples of alternates or prospective jurors
who never sat on the jury. Logically, individual voir dire of venirepersons who never sat on the jury
cannot affect a verdict. Coleman fails to establish prejudice. Bradley, supra.
In fact, the record shows that counsel generally did question those individuals who sat on the jury
about their death-penalty views. Thus, Coleman's complaints "mostly amount to hindsight views
about how current counsel might have voir dired the jury differently." State v. Mason, 82 Ohio St. 3d
at 157, 694 N.E.2d 949.
State v. Coleman, 85 Ohio St. 3d 129, 135-136, 1999 Ohio 258, 707 N.E.2d 476 (1999.) [*121]
Petitioner specifically cites to the following example, that potential juror Roush indicated that she knew
Phree Marrow, a young girl that had been murdered. (Traverse, Doc. No. 170, PageID 1941.) Petitioner
cannot show prejudice as Ms. Roush did not serve as a juror in this case.
Petitioner next asserts that his counsel were ineffective in their failure to properly voir dire Juror
Wilkerson regarding his response on his jury questionnaire. (Traverse, Doc. No. 170, PageID 1941.)
In his fourth ground for relief, Coleman argues that his appointed trial counsel Jon and James
Doughty were constitutionally ineffective for permitting a juror to sit on his case who had disclosed in
his questionnaire that he was "related to or a close friend of" the county prosecutor or his staff. In
support of this claim, Coleman submitted a copy of the questionnaire. (Defendant's Exhibit 13.) The
juror, Jesse A. Wilkerson disclosed that he was 21 years old and was of the African American race.
Wilkerson answered yes to the question of whether he was related to or was a close friend of the
County Prosecutor or a member of his staff.
The State argues that Coleman failed to make out a claim for ineffectiveness [*122] on this claim
because Wilkerson consistently stated he would be fair and impartial and that counsel may have
wished to keep him on the jury because he was a young, African-American male like Coleman. The
State noted that Coleman's counsel objected to the State's use of peremptory challenges to some black
jurors leaving Wilkerson as the only black juror.
The trial court denied Coleman's fourth claim because there was no evidence that Wilkerson would be
anything but fair and impartial and counsel may have wished to have a young black man serve on the
jury. We agree with the trial court that it is certainly within the range of reasonable representation for
Coleman's counsel to have concluded that Wilkerson's relationship with the prosecutor's office was
outweighed by the desire of having at least one black juror on the jury. (The record indicates Coleman
was a 26 year old black male at the time of his arrest.) The Supreme Court has noted that it will not
second guess strategies employed during voir dire. State v. Coleman, supra at 133. The trial court
properly overruled this claim without a hearing.
State v. Coleman, 2002 Ohio 5377 at ¶¶ 10-12 (2nd Dist. Ohio 2002).
Wilkerson's response [*123] indicated that he was related to, or was a close friend of, the county
prosecutor or one of his staff members. Id. at PageID 1942, citing Return of Writ, Doc. No. 167, Apx.
Vol. 7 at 139. Coleman argues that counsel had a duty to further inquire into this response to determine if
this relationship would have prevented or impaired Wilkerson from performing his duties as an impartial
juror. The record shows that at the beginning of this juror's voir dire, counsel did not have a copy of the

Appendix E
Appx-0084

Page 44 of 69
2012 U.S. Dist. LEXIS 170609, *123

questionnaire. (Trial Tr. Vol. 2 at 69.) The court supplied counsel with copies. Id. at 72-73. Still, despite
the delay in reviewing the questionnaire, this may have been trial strategy, as Wilkerson was one of the
remaining African-Americans on the venire panel. In addition, Wilkerson responded affirmatively that he
could follow the law as given by the judge and that he could be a fair juror to both the defendant and the
State of Ohio. (Trial Tr. Vol. 4 at 553, 563.) Counsel were not ineffective in regard to the questioning of
this juror and the state courts did not unreasonably apply Strickland in deciding so.
Next, Petitioner challenges the effectiveness of his counsel based on their voir dire of [*124] venire
member Gibson. (Traverse, Doc. No. 170, PageID 1942.) He argues that this potential juror stated
multiple times that she would only consider a life sentence if there was no chance that Coleman would
ever be released. Id. At the time of his trial, life without parole was not an option, and therefore, this juror
would not have been able to follow the law as given by the court. Id. The trial judge questioned Ms.
Gibson and during this exchange, the court explained the three possible options and clarified that
Petitioner would in fact have to serve either twenty or thirty years before even being considered for the
possibility of parole. (Trial Tr. Vol. 3 at 462-463.) Gibson indicated that, after the clarification, she
understood and would be willing to consider all penalties, depending on the findings as to the facts in the
case. Id. at 463. As this potential juror was rehabilitated and indicated that she could follow the law as
given, Petitioner cannot establish that he was prejudiced from counsel's failure to further question Ms.
Gibson. Additionally, this Court notes that Gibson did not serve on the jury in this case.
Next, Petitioner argues counsel were ineffective during voir [*125] dire in their misstatement to potential
jurors as to the purpose of the mitigation phase. (Traverse, Doc. No. 170, PageID 1942.) Specifically, he
cites to the following examples:
"And the second trial is the - - to determine the penalty after weighing what the prosecutor's telling
you, weighing the goods and the bads and arriving at the penalty."
(Trial Tr. Vol. 3 at 273.)
"Okay. Now, the second phase of the trial, that phase of the trial is when you hear the evidence on the
part of the defendant that's supposed to excuse him, not - -not find him not guilty, but just make the
sentence less severe. Then you'll hear evidence from the prosecution that asks you to make it more
severe"
(Trial Tr. Vol. 3 at 315-316.)
"Now, assuming those same facts - -and, then, of course, you're given information from the defense
that should take the sting out of it, and you're given information from the State's side that puts the
sting back in it."
(Trial Tr. Vol. 3 at 372.)
"Now, would that apply to the second phase of the trial where you hear the aggravation, mitigation,
some good and some bad[.]"
(Trial Tr. Vol. 3 at 381.)
"Second phase is what are we going to do to him because he did it? And then that's the [*126] phase
where they bring in - - the State will introduce some facts that make it look a little worse. The other
side would introduce what makes it look a little lighter."
(Trial Tr. Vol. 3 at 399.)
"And if it satisfied you that you should give him a break, you would do that?"
(Trial Tr. Vol. 3 at 459.)

Appendix E
Appx-0085

Page 45 of 69
2012 U.S. Dist. LEXIS 170609, *126

The potential jurors were told that the court would instruct them on the law. (Trial Tr. Vol. 4 at 528.)
Jurors are presumed to follow the instructions as given by the court. Richardson v. Marsh, 481 U.S. 200,
211, 107 S. Ct. 1702, 95 L. Ed. 2d 176 (1987); Washington v. Hofbauer, 228 F.3d 689, 706 (6th Cir.
2000). Also, in the majority of the instances cited by Petitioner, the potential juror was not selected to
serve on the jury, so therefore was not prejudiced by the alleged misstatement. (Trial Tr. Vol. 3 at 273)
(this person knew the victim and was excused); (Trial Tr. Vol. 3 at 315-316) (was excused as she was in
high school and had classes); (Trial Tr. Vol. 3 at 361) (this person was excused for views on death
penalty); (Trial Tr. Vol. 3 at 372) (this person did not serve); (Trial Tr. Vol. 3 at 381) (was a security
guard at London Orient, was excused); (Trial Tr. Vol. 3 at 399) (did not serve); (Trial Tr. Vol. 3 at 459)
[*127] (did not serve).1
Next, Petitioner argues counsel's ineffectiveness in their failure to properly argue the standard of proof.
(Petition, Doc. No. 9, PageID 20); (Traverse, Doc. No. 170, PageID 1943-1944.) He specifically cites to
the following example, "[b]ut now the reverse, if we show evidence beyond a reasonable doubt that he's
not guilty, would you have any hesitation at all of signing the verdict if it's not guilty?" (Trial Tr. Vol. 3 at
416.) This is clearly not a correct statement of any burden of proof on a defendant. The jurors, however,
were instructed by the trial judge that the court was the authority on the law as to be applied in this case.
(Trial Tr. Vol. 4 at 528.) During voir dire, the judge instructed that the State of Ohio has the burden of
proof on every element of the offense and that the defendant carries no burden of proof and is presumed
innocent. (Trial Tr. Vol. 4 at 525.) Jurors are presumed to follow instructions as given to them by the
court. [*128] Richardson v. Marsh, 481 U.S. 200, 211, 107 S. Ct. 1702, 95 L. Ed. 2d 176 (1987);
Washington v. Hofbauer, 228 F.3d 689, 706 (6th Cir. 2000).
Petitioner has not been able to show ineffective assistance of counsel in the guilt phase under Strickland.
The decision by the state courts was neither contrary to nor an unreasonable application of Supreme Court
law. This ground for relief is without merit and should be denied on the merits. Because reasonable jurists
would not disagree with this conclusion, Coleman should also be denied a certificate of appealability on
this Ground for Relief.

Fourth Ground for Relief: Ineffective Assistance in Mitigation
In his Fourth Ground for Relief, Coleman asserts he received ineffective assistance of trial counsel in the
mitigation phase of his trial in that his counsel, he asserts, failed to fully investigate and present available
mitigating evidence (Petition, Doc. No. 9, PageID 21; Traverse, Doc. No. 170, PageID 1961, 1964). He
alleges that they waited to hire an investigator until trial had commenced, leaving insufficient time to
interview witnesses, to perform a proper investigation, and to request and review records relating to
Coleman's personal history. (Traverse, Doc. No. 170, PageID [*129] 1961-1964.)
As with the Third Ground for Relief, Respondent argues it is not properly pled, but the Magistrate Judge
finds the Petition satisfies Rule 2(c) of the Rules Governing § 2254 Cases.
Coleman raised this claim on direct appeal where the Ohio Supreme Court held:

1 The

jurors in this case were Carolyn Weber, David Fout, James Kuntz, Cynthia White, Joycelyn Kastle, Diana Miller, Dave Carpenter,
Michael Combs, Jesse Wilkerson, Stephen Griffith, Elizabeth Callison, Jessica Williams.

Appendix E
Appx-0086

Page 46 of 69
2012 U.S. Dist. LEXIS 170609, *129

E. Failure to Object to Trial-Phase Evidence
Coleman complains that his counsel failed to object to the state's introduction of the trial-phase
exhibits at the penalty hearing. However, counsel did not perform deficiently by failing to object.
Almost all the trial-phase evidence was ultimately admissible in the sentencing phase, since it related
to the nature and circumstances of the offense, to Coleman's history, character and background, to the
R.C. 2929.04(A)(8) aggravating circumstance, or to the R.C. 2929.04(B)(2) or (B)(7) mitigating
factors that Coleman specifically raised. In State v. DePew (1988), 38 Ohio St. 3d 275, 283, 528
N.E.2d 542, 552, we recognize that R.C. 2929.03(D)(1) permits "repetition of much or all that
occurred during the guilt stage," by way of introduction of trial exhibits that are relevant to the
aggravated circumstances the offender was found guilty of committing. Accord State v. Woodard
(1993), 68 Ohio St. 3d 70, 78, 1993 Ohio 241, 623 N.E.2d 75, 81. [*130] In this case, evidence of
Coleman's drug sales to Stevens, including the crack cocaine, tape recordings, and officer testimony,
related directly to the R.C. 2929.04(A)(8) aggravating circumstance.
Appellant argues that evidence of Coleman's 1994 drug-trafficking conviction was not relevant in the
penalty phase, since its admissibility was based upon the weapons under disability charge. However,
this evidence was harmless. See Woodard, 68 Ohio St. 3d 80, 623 N.E.2d at 82-83 (Sherck, J.,
concurring). A myriad of other evidence at trial demonstrated that Coleman was a drug dealer, and the
indictment for the sales to Stevens, which was directly relevant to the aggravating circumstance, also
referred to the 1994 drug trafficking conviction. Thus, appellant has failed to establish either deficient
performance or prejudice.
F. Failure to Present Additional Mitigation Evidence
Coleman argues that his counsel failed to investigate his background or present available mitigation
evidence. However, "failure to present mitigating evidence * * * does not in itself constitute proof of
ineffective assistance[.]" State v. Hamblin (1988), 37 Ohio St. 3d 153, 157, 524 N.E. 2d 476, 480.
Accord Burger v. Kemp (1987), 483 U.S. 776, 107 S. Ct. 3114, 97 L. Ed. 2d 638; [*131] State v.
Keith (1997), 79 Ohio St. 3d 514, 1997 Ohio 367, 684 N.E.2d 47.
The record does not support Coleman's speculation that further investigation would have produced
significant mitigating evidence. For example, Coleman argues that he had children, a potential
mitigating factor. However, Coleman may or may not have taken care of or supported his children
and, without such evidence, the fact that he fathered several children is hardly mitigating. Coleman
argues that his friends cared about him, but the record suggests that his friends were drug dealers or
users. Such evidence is not mitigating. Nor do we know that other family members had useful
mitigating evidence to offer, and his father's testimony does not support that claim. Nor does it appear
that Coleman was gainfully employed in a lawful occupation. Finally, counsel deliberately chose not
to call the examining psychologist or have Coleman testify or make a statement. Examining the
record, the lack of mitigation evidence does not indicate that counsel were ineffective. "'It may be * *
* that counsel conducted a diligent investigation, but [were] unable to find [more] substantial
mitigation evidence.'" State v. Otte (1996), 74 Ohio St. 3d 555, 566, 1996 Ohio 108, 660 N.E. 2d 711,
722. [*132] Such would seem to apply in appellant's case.
In summation, the record does not support Coleman's claim that his counsel failed to adequately
investigate or present available mitigation.
Coleman Ehas not shown prejudice. "To do so would
Appendix

Appx-0087

Page 47 of 69
2012 U.S. Dist. LEXIS 170609, *132

require * * * a reasonable probability that the evidence would have swayed the jury to impose a life
sentence." State v. Keith, 79 Ohio St. 3d at 536, 684 N.E. 2d at 67. Thus, Coleman's first proposition
of law claiming ineffectiveness of counsel lacks merit.
State v. Coleman, 85 Ohio St. 3d 129 137-139, 1999 Ohio 258, 707 N.E.2d 476 (1999).
Petitioner again raised this claim, with additional documentary support, in his first postconviction relief
proceeding. The court of appeals held:
In his tenth claim, Coleman argues his counsel were ineffective in not conducting an adequate
investigation into Coleman's background for mitigating evidence.
In support of this claim, Coleman submitted the affidavit of Dana Strodes. (Def. Ex. 19). In her
affidavit she said that had the Doughtys talked to her, she would have been willing to testify that
Coleman loved and cared for his son and that he was never violent towards her. She would also have
said he was a good father. Coleman argued that Athea Martin [*133] and Susan Smith, both who had
a child by Coleman, would have provided similar testimony. Coleman argued that the testimony if
offered in the mitigating phase of the trial was crucial given the fact there was residual doubt whether
he committed the crime.
In opposition, the State presented the affidavit of Detective Jeffrey Flores who stated that Dana
Strodes told him that Coleman shot her in 1992.
In overruling the tenth claim, the trial court found that the record did not support Coleman's claim that
further investigation by counsel would have produced any more mitigating evidence than the
testimony of Coleman's father.
In State v. McGuire (1997), 80 Ohio St.3d 390, 1997 Ohio 335, 686 N.E.2d 1112, the Supreme Court
held that residual doubt is no longer a mitigating factor. In any event, the court held the overwhelming
evidence of Coleman's guilt precluded the presence of residual doubt. The court also held that the trial
record did not support Coleman's speculation that further investigation would have produced
significant mitigating evidence. The court noted the fact that Coleman fathered several children from
different women without marrying them was hardly mitigating. The court noted that the "failure
[*134] to present mitigating evidence . . . does not in itself constitute proof of ineffective assistance."
State v. Coleman, 85 Ohio St. 3d 129, 138, 1999 Ohio 258, 707 N.E. 2d 476, citing its previous case
of State v. Hamblin (1988), 37 Ohio St. 3d 153, 157, 524 N.E.2d 476. In this case trial counsel may
not have wished to diminish the poignant testimony of Coleman's father with testimony of the women
who Coleman had impregnated but never married. Finally, to show prejudice from counsel's failure to
present mitigating evidence there must be a reasonable probability that the evidence would have
swayed the jury to impose a life sentence. State v. Keith (1997), 79 Ohio St. 3d 514, 1997 Ohio 367,
684 N.E.2d 47. Assuming Dana Strodes, Athea Martin, and Susan Smith all testified that Coleman
was a good father and was never violent toward them, it is highly improbable the jury would have
been swayed to impose a life sentence in light of the jury's finding that Coleman had virtually
executed Melinda Stevens in retaliation for her informant activities. The tenth claim was properly
rejected by the trial court.
In his eleventh claim, Coleman contends his counsel were ineffective in the mitigation phase by not
calling his mother [*135] and sister to testify in his behalf. In support of this claim Coleman
presented affidavits of Sonja Coleman, his sister, and Eula Coleman, his mother.

Appendix E
Appx-0088

Page 48 of 69
2012 U.S. Dist. LEXIS 170609, *135

In her affidavit, Sonja Coleman said her brother's behavior began to worsen around his eighteenth
birthday and he moved out of their family home on several occasions. She said her brother was
working at the time of his arrest for the murder and appeared to be financially supporting his children.
She said she was never contacted by her brother's attorneys. Eula Coleman said her son was a happy
and friendly child. She said her son had difficulty in school because of a learning disability. She said
her son became rebellious when he was 17 or 18 years of age. She said she met with Jon Doughty at
his office to speak with Dr. Erhard Eimer, a psychologist. She said she did not meet with the
Doughtys prior to trial to discuss her son's case.
The trial court overruled this claim noting that the record at trial established that Eula Coleman could
not testify at the mitigation hearing because she was too upset. The court noted that Sonja's testimony
was merely cumulative to that of her father's and there was no likelihood that the outcome of the
[*136] sentencing hearing would have been different if counsel had presented her testimony. We
agree with the trial court's resolution of this claim as well. Counsel can hardly be faulted for not
calling Eula Coleman to the stand after the indicated she was too upset to testify. The following
occurred at the trial:
"Q: Now, Mrs. Coleman is here?
"A: Yes, she is.
"Q: Your wife, is that true?
"A: Yes.
"Q: And she's sitting out in the hall, but I understand she doesn't want to testify. Would you tell the
jury why.
"A: My wife - -Timothy and his mother, are very, very close. And being a mother, a caring mother,
she have taken this - - this situation very seriously and have upset her. I would probably say her blood
pressure is a little high at the moment. She's having a hard time sleeping. She's having a hard time
trying to cope with this.
"Never - -she's never would have imagine that he would have - - anything like this would have ever
happened, you know. So that's why she don't want to testify, in fear that she may lose control or break
down or, you know, or upset Tim or, you know, whatever.
"Mr: James Doughty: Thank you. Do you have any questions?
"Mr. Schumaker: State would have no questions for Mr. [*137] Coleman, Your Honor.
"The Court: Thank you, Mr. Coleman."
The trial court properly overruled Coleman's eleventh claim without providing him an evidentiary
hearing.
In his twelfth claim, Coleman argues that his trial counsel were ineffective in not presenting the
testimony of Dr. Earhard Eimer, a clinical psychologist during the mitigation phase of the trial. In his
affidavit, Dr. Eimer stated he was retained in January 1997 by the Doughtys to evaluate Tim
Coleman. Dr. Eimer said he interviewed Coleman on four separate occasions for a total of some 8.25
hours. Dr. Eimer said he conducted three clinical tests and determined that Coleman had a
Compulsive Personality Disorder. Dr. Eimer said Coleman obtained remarkably low scores for
personality disorders that would be typical of persons likely to engage in violent crimes against
persons. He said that the diagnostic indications emerging from Coleman's tests counter-indicate any
other personality disorder, particularly those associated with a tendency to engage in violent crimes.

Appendix E
Appx-0089

Page 49 of 69
2012 U.S. Dist. LEXIS 170609, *137

Further Dr. Eimer said there were three factors which speak against the notion that Tim Coleman
might have engaged in a violent crime: (1) his upbringing in a morally [*138] well-integrated family,
(2) no indication of impulsiveness or aggressiveness on Coleman's part even when acutely challenged,
and (3) tendencies to worry and be fearful and not to be manipulative consistent with a personality
that is not of a violent nature.
The State argues that it was professionally reasonable for the Doughtys not to have put Dr. Eimer on
the stand in the mitigation phase of trial because his opinion was not admissible and in any event
would have alienated the jury given the doctor's opinion that Coleman's personality was inconsistent
with violent conduct. Also the State argued that Eimer's findings that Coleman typically does not
assume responsibility for his problems and tends to blame others were consistent with Coleman
blaming Melinda Stevens for his problems with the law which was the motive for the killing.
The trial court overruled this claim adopting the State's position in every respect and we agree with
the trial court's disposition of this claim as well. In light of Dr. Eimer's views that Coleman typically
blames others for his conduct, it is doubtful Dr. Eimer's testimony would have been helpful. In any
event, trial counsel must be accorded substantial deference [*139] in making these judgments even in
death penalty cases. There also seems little likelihood Dr. Eimer's testimony would have provided
substantial mitigation to the crime committed by Coleman. The trial court properly overruled
Coleman's twelfth claim.
In his thirteenth claim, Coleman contended the Doughtys were ineffective in not having Deputy
Steven Williams testify in the mitigation hearing. Williams stated in his affidavit that he transported
Coleman to and from jail during the capital trial and "at no time during the six day trial, did I observe
Mr. Coleman misbehave or present any kind of resistance while under my supervision." (Ex. 25). In
support of his claim Coleman refers us to the United States Supreme Court case of Skipper v. South
Carolina (1986), 476 U.S. 1, 90 L.Ed. 2d 1, 106 S. Ct. 1669, wherein the court held that it was error
to exclude evidence in the sentencing hearing of two jailers and a "regular" visitor that the defendant
had made a "good adjustment" during the 7 1/2 months he had spent in jail between arrest and trial.
Justice White wrote the following on behalf of the court:
Finally, the State seems to suggest that exclusion of the proffered testimony was proper
[*140] because the testimony was merely cumulative of the testimony of petitioner and his
former wife that petitioner's behavior in jail waiting trial was satisfactory, and of petitioner's
testimony that, if sentenced to prison rather than to death, he would attempt to use his time
productively and would not cause trouble. We think, however, that characterizing the excluded
evidence as cumulative and its exclusion as harmless is implausible on the facts before us. The
evidence petitioner was allowed to present on the issue of his conduct in jail was the sort of
evidence that a jury naturally would tend to discount as self-serving. The testimony of more
disinterested witnesses - -and, in particular, of jailers who would have had no particular reason to
be favorably predisposed toward one of their charges - - would quite naturally be given much
greater weight by the jury. Nor can we confidently conclude that credible evidence that petitioner
was a good prisoner would have had no effect upon the jury deliberations. The prosecutor
himself, in closing argument, made much of the dangers petitioner would pose if sentenced to
prison, and went so far as to assert that petitioner could be expected [*141] to rape other inmates.
Under these circumstances, it appears reasonably likely that the exclusion of evidence bearing
upon petitioner's behavior in jail (and hence, upon his likely future behavior in prison) may have

Appendix E
Appx-0090

Page 50 of 69
2012 U.S. Dist. LEXIS 170609, *141

affected the jury's decision to impose the death sentence. Thus, under any standard, the exclusion
of the evidence was sufficiently prejudicial to constitute reversible error. (Emphasis added).
In this case the prosecutor gave a very brief argument in support of the death penalty. The prosecutor
argued the specification of the aggravated murder of a witness outweighed any mitigating evidence
presented by the defendant. We agree with the State's position that even if counsel had presented the
testimony of Deputy Williams, there is no reasonable probability that the jury's sentence would have
been different. Strickland v. Washington, 466 U.S. 668, 104 S. Ct. 2052, 80 L. Ed. 2d 674. The trial
court properly overruled Coleman's thirteenth claim.
In his fourteenth claim, Coleman contends the Doughtys were ineffective in not presenting a cultural
expert who could have helped the jury understand why he turned to a life of drug dealing despite the
fact that he had a stable family [*142] life. In overruling this claim, the trial court stated that such
testimony would not mitigate the fact that Coleman executed the mother of five children and in any
event, even if mitigating, would not have overcome the aggravated circumstances presented by the
State. We agree that such testimony would not present a reasonable probability of a different sentence
than that imposed by the jury. The trial court properly overruled the fourteenth claim without an
evidentiary hearing.
In his fifteenth claim, Coleman contends the Doughtys were ineffective in the sentencing phase of the
trial by not presenting the mitigating testimony of his mother, his sister, his girlfriends, a deputy
sheriff, and the psychologist who evaluated him. He also argues his counsel were ineffective in not
introducing employment records that he was gainfully employed at Fox Lite, Inc. days before the
crime occurred. Also he argues counsel gave a woefully weak closing argument in the mitigation
phase of trial.
In support of this claim, Coleman submitted Exhibit 33 which were Fox-Lite employment records
indicating that Coleman worked as an assembler from November 12, 1995 until February 5, 1996
when he was laid off [*143] for lack of work. The trial court overruled this claim again finding
nothing in the claim that suggested a reasonable possibility that the sentence imposed upon Coleman
would have been different had this mitigation evidence been presented.
The Doughtys could hardly be faulted for failing to call Mrs. Coleman to the stand when the record
disclosed she was too distraught to testify. The claim that counsel's final argument was weak was a
claim properly asserted in the direct appeal not in a post-conviction proceedings. The only additional
argument raised herein was counsel's failure to introduce Coleman's employment records which
indicate he was working for three months prior to the homicide. The trial court properly denied this
claim without an evidentiary hearing because there is no reasonable probability that the jury would
have found this additional mitigating evidence would have outweighed the aggravated circumstance.
In his sixteenth claim, Coleman contended that the cumulative impact of the litany of counsel's errors
rendered Coleman's capital proceedings unconstitutional. Coleman noted that his counsel failed to
form a meaningful relationship with him, failed to properly investigate [*144] his innocence claims,
failed to properly prepare to cross-examine the State's witnesses, failed to adequately conduct voir
dire, failed to properly obtain grand jury transcripts, failed to properly present mitigating evidence,
and failed to present a cogent closing argument in his behalf.
The State argued below and in this court that since none of the claims had individual merit, they can
have no strength in the aggregate. The trial court found that State's argument persuasive and we do
also. The trial court found many of Coleman's claims to be based on incredible testimony and applied

Appendix E
Appx-0091

Page 51 of 69
2012 U.S. Dist. LEXIS 170609, *144

the Calhoun case to its disposition of the claim. Other claims challenged tactical decisions by counsel
and other claims, even if accepted as true, did not suggest a probability that the outcome of Coleman's
trial would be different had counsel acted as Coleman claimed they should have. The trial court
properly overruled Coleman's sixteenth claim as well.
State v. Coleman, 2002 Ohio 5377 at ¶¶ 40-71 (2nd Dist. Ohio 2002).
This Ground for Relief, like the Third, is governed by Strickland v. Washington, supra. In evaluating
whether or not the representation of counsel was ineffective, it must be evaluated [*145] for
"reasonableness under prevailing professional norms." Id. When analyzing an ineffectiveness claim for
failure to investigate, the court must consider the claim by assessing the reasonableness of the decision
and by giving heavy deference to counsel's judgment. Id. at 691; but see Glenn v. Tate, 71 F.3d 1204,
1207 (6th Cir. 1995); see also Austin v. Bell, 126 F.3d 843, 848 (6th Cir. 1997); see further Skaggs v.
Parker, 235 F.3d 261, 269, 271 (6th Cir. 2000). There is a constitutional duty on the part of counsel to
investigate, as effective assistance requires making professional decisions and informed legal choices,
which can only be rendered after investigation. Strickland, 466 U.S. at 680; Carter v. Bell, 218 F.3d 581,
596 (6th Cir. 2000) (Counsel must make some effort at independent investigation in order to make a
reasoned, informed decision as to [the utility of mitigating factors offered by defendant]".)
Furthermore, as established in Strickland and reiterated in Wiggins, "strategic choices made after less than
complete investigation are reasonable precisely to the extent that reasonable professional judgments
support the limitations on investigation." Strickland v. Washington, 466 U.S. 668, 690-691, 104 S. Ct.
2052, 80 L. Ed. 2d 674; [*146] Wiggins v. Smith, 539 U.S. 510, 528, 123 S. Ct. 2527, 156 L. Ed. 2d 471
(2003). The investigation does not need to be exhaustive, but must be reasonably substantial in examining
the facts, circumstances, pleadings and the laws involved. Strickland, 466 U.S. at 680.
The American Bar Association has adopted Guidelines for the Appointment and Performance of Counsel
in Death Penalty Cases (1989 and 2003). The Supreme Court of the United States has held that these
guidelines "provide the guiding rules and standards to be used in defining the 'prevailing professional
norms.'" Wiggins v. Smith, 539 U.S. 510, 123 S. Ct. 2527, 156 L. Ed. 2d 471 (2003) (reinforcing rulings in
Glenn v. Tate, 71 F.3d 1204, 1206-08 (6th Cir. 1995)); Austin v. Bell, 126 F.3d 843, 847-48 (6th Cir.
1997); Coleman v. Mitchell, 268 F.3d 417, 449-52 (6th Cir. 2001)).
The Guidelines provide that:
Investigations into mitigating evidence "should comprise efforts to discover all reasonably available
mitigating evidence and evidence to rebut any aggravating evidence that may be introduced by the
prosecutor." ABA Guidelines for the Appointment and Performance of Counsel in Death Penalty
Cases 11.4.1 (C), p 93 (1989) . . . .
[T]hat among the topics counsel should consider presenting are medical history, [*147] educational
history, employment and training history, family and social history, prior adult and juvenile
correctional experience, and religious and cultural influences. ABA Guidelines for the Appointment
and Performance of Counsel in Death Penalty Cases 11.8.6, p 133
Wiggins, 539 U.S. 510, 123 S. Ct. 2527, 156 L. Ed. 2d 471 (2003)(Emphasis in original). However, the
1989 and 2003 ABA Guidelines are not "inexorable commands"; rather, they are "only guides for what
reasonableness means, not its definition." Post v. Bradshaw, 621 F.3d 406; (6th Cir. 2010), quoting Bobby
v. Van Hook, 558 U.S. 4, 130 S. Ct. 13, 17, 175 L. Ed. 2d 255 (2009).

Appendix E
Appx-0092

Page 52 of 69
2012 U.S. Dist. LEXIS 170609, *147

In its decision to impose the death penalty, the trial court wrote:
Although the defendant did not testify in either the first or second phase of this trial the testimony of
the State's witnesses was that the defendant had stated that he couldn't afford to do the prison time that
he faced from his pending Aggravated Trafficking charges. The defense argued in the mitigation
phase of the case that the defendant was thus under a great deal of stress at the time of this offense
from the prospect of going back to prison.
However, the defendant offered no evidence that it would be unlikely that this offense would
[*148] have been committed but for this "duress." Two of the State's witnesses testified that after the
killing the defendant appeared to be nervous, but one of these witnesses testified that the defendant
did not appear nervous before the killing took place. In addition, the testimony at trial indicated that
after the shooting the defendant went looking for a police scanner, disposed of a shirt-jacket and shoes
that he was wearing and bragged about "taking care of his business", even demonstrating to one
witness how the victim fell after he shot her. The defendant has a history of criminal misconduct. To
logically adopt the defendant's reasoning to this mitigating factor would require this Court to condone
a criminal act each time the defendant were placed in a stressful situation. The Court therefore finds
that the evidence does not support this mitigating factor.
The Court also considered any other factors to the issue of whether or not the offender should be
sentenced to death. The father of the defendant, Willie Coleman, testified in mitigation. Mr. Coleman
testified that the defendant was "like any other kid" growing up. The defendant was involved in Boy
Scouts and school functions and [*149] activities as a youth. He was also active in sports, most
notably football. The defendant was described as a very obedient child that "would give you his
heart." The defendant's father also stated that Timothy Coleman was never a violent man. Willie
Coleman stated that his wife, the defendant's mother, was present in the hallway outside of the
courtroom but that she was too emotional to testify.
It was apparent to the Court that the defendant's father loved his son and that the defendant's
background did not contribute to his becoming a violent criminal. It was the defendant's decision to
set his own standard of acceptable behavior. The Court therefore finds that these factors should be
given minimal weight.
This Court recognizes that the death penalty is the most severe penalty that can be imposed by man
against man and that is should only be imposed after a most careful and meticulous review of the facts
and law has taken place. The Court believes that such an evaluation of the facts and the law in this
case has been undertaken by the Court in reaching its decision. The Court has searched for any other
factors which might have been overlooked by the jury and can find none.
After carefully [*150] reviewing all of the mitigating factors set forth in the statute or called to the
Court's attention by the defendant and after considering the aggravating circumstance which has been
proven beyond a reasonable doubt, it is the opinion of the Court that the Aggravating Circumstance
outweighs all the mitigating factors beyond a reasonable doubt as required by Ohio Revised Code
Section 2929.03(D)(3).
(Opinion, Return of Writ, Doc. No. 167, Apx. Vol. 2 at 160-162.)
Petitioner argues that because of his counsel's failure to investigate, and the abbreviated nature of what
little investigation they did perform, they failed to fully present Petitioner's background, character, and
development. (Petition, Doc. No. 9 at 21); (Traverse, Doc. No. 170, PageID 1961.) He further states that
the failure to interview people who could have provided mitigation evidence, such as his family members,

Appendix E
Appx-0093

Page 53 of 69
2012 U.S. Dist. LEXIS 170609, *150

was in direct opposition to the standards for mitigation set forth by United States Supreme Court law, the
Sixth Circuit Court of Appeals, and the American Bar Association recommendations. (Traverse, Doc. No.
170, PageID 1965); citing Williams v. Taylor, 529 U.S. 362, 373, 120 S. Ct. 1495, 146 L. Ed. 2d 389
(2000); Johnson v. Bagley, 544 F.3d 592, 600 (6th Cir. 2008); [*151] Mason v. Mitchell, 543 F.3d 766,
780 (6th Cir. 2008); A.B.A. Guidelines § 11.4.1 (D)(3)(B). This allegedly resulted in grossly inadequate
mitigation evidence. (Traverse, Doc. No. 170, PageID 1965.) Specifically, had counsel been effective they
would have uncovered and been able to present the following mitigation evidence:
A) Petitioner's history as a caring father to his five children. Dana Strodes, Athea Martin, and Susan
Smith, the three mothers of Petitioner's children, would have been willing to testify that Petitioner was
a responsible loving father. (P.C. Exs. 19, 23, 24).
B) Evidence of Petitioner's non-violent nature. (P.C. Exs. 19, 23, 24, 26, 40, 43).
C) Evidence from Petitioner's sister, Sonya Coleman, who would have testified that Petitioner was a
loving brother, and a responsible loving father. (P.C. Ex. 21).
D) Evidence from Deputy Steven Williams of the Clark County Jail, who observed Petitioner's good
behavior while incarcerated. (P.C. Ex. 25).
E) Evidence from a cultural expert, which would have helped the jury understand why Petitioner
turned to a life of drug dealing, despite the fact that he had a stable family life, due to the myriad of
problems and unique cultural [*152] pressures facing young black males in urban environments.
(P.C. Exs. 20, 22).
F) Evidence of Petitioner's gainful employment at Fox Lite, Inc., which would have supported
testimony that Petitioner was a good worker and was making an attempt to lead a crime-free life.
(P.C. Ex. 35).
(Petition, Doc. No. 9 at 16.)
In addition the following evidence was uncovered during post-conviction investigations:
A) Inmate John Stojetz, a client of trial counsel at the time of Petitioner's trial, reported he was told by
Jon Doughty that Petitioner did not have "good mitigation." Doughty reportedly told Stojetz that no
mitigation was prepared for Petitioner, because there was no need for mitigation since "Petitioner had
shot a girl with five kids." Doughty had also previously referred to Petitioner as "a typical stupid
nigger." (P.C. Ex. 14).
B) Petitioner's father, Willie Coleman, revealed that counsel did not adequately prepare him for
testifying at the mitigation phase. Counsel prepared Willie Coleman to testify by telling him that,
"there wouldn't be any questions, just a brief background on Tim." (P.C. Ex. 20).
C) Petitioner's sister, Sonya Coleman, revealed that defense counsel never contacted her, [*153] or
asked her to testify at the mitigation phase. (P.C. Ex. 21).
D) Trial counsel hired the services of Dr. Earhard Eimer, PhD., but did not present his testimony at
Petitioner's trial. In his post-conviction affidavit, Dr. Eimer indicated he was willing to testify that, in
his professional opinion and given Petitioner's psychological profile, Petitioner lacked the
psychological propensity to commit the charged capital crime. (P.C. Ex. 40). Dr. Franklin Hurt, Jr.
PhD. conducted psychological testing on Petitioner for purposes of post-conviction, and reached the
same conclusion as Dr. Eimer, despite the fact that he performed his evaluation over a year after Dr.
Eimer's evaluation. (P.C. Exs. 26, 43.)
(Petition, Doc. No. 9 at 17.)

Appendix E
Appx-0094

Page 54 of 69
2012 U.S. Dist. LEXIS 170609, *153

In the course of preparing for mitigation, counsel met briefly with Petitioner's father, Willie Coleman.
(Traverse, Doc. No. 170, PageID 1965.) He was the only witness called during the mitigation phase to
testify on Petitioner's behalf. Id. The testimony given by Mr. Coleman was both general in nature and very
concise, comprising only six pages of transcript. Id. An affidavit from Mr. Coleman, presented during
post-conviction relief proceedings, stated that he [*154] had had very limited interaction with defense
counsel and was not given any preparation as to what he would be asked to testify to during the mitigation
phase. He further stated he was not made aware of what type of evidence may have been relevant to the
mitigation portion of the trial, but rather, was only told it would be a brief background on his son. (Return
of Writ, Doc. No. 167, Apx Vol. 7 at 166, Aff. of Willie Coleman ¶ 21-22.) Additional affidavits from
various friends and family members show that they would have been willing to testify had they been
asked to do so, but that they were never contacted by defense counsel. (Traverse, Doc. No. 170, PageID
1966); (Return of Writ, Doc. No. 167, Apx. Vol. 7 at 163, Aff. of Dana Strodes ¶ 17); (Return of Writ,
Doc. No. 167, Apx. Vol. 7 at 169, Aff. of Sonya Coleman ¶¶ 9-11 ); (Return of Writ, Doc. No. 167, Apx.
Vol. 7 at 174, Aff. of Susan Smith ¶ 9); (Return of Writ, Doc. No. 167, Apx. Vol. 7 at 176, Aff. of Athea
Martin ¶ 9.) Coleman asserts that the affidavits show that additional mitigation testimony was available
and could have been presented to both give the jury a better understanding of his personal history and
humanize him [*155] in their eyes. (Traverse, Doc. No. 170, PageID 1967.) This information included:
1. That he was a loving person. (Return of Writ, Doc. No. 167, Apx. Vol.7 at 166, Aff. of Willie
Coleman ¶ 5); (Return of Writ, Doc. No. 167, Apx. Vol. 7 at 169, Aff. of Sonya Coleman ¶¶ 2, 8);
(Return of Writ, Doc. No. 167, Apx. Vol. 7 at 171, Aff. of Eula Coleman ¶ 5.)
2. That he suffered from a learning disability/dyslexia. (Return of Writ, Doc. No. 167, Apx. Vol. 7 at
166, Aff. of Willie Coleman ¶ 6); (Return of Writ, Doc. No. 167, Apx. Vol. 7 at 171, Aff. of Eula
Coleman ¶¶ 6-7.)
3. That he was a loving and responsible father to his children. (Return of Writ, Doc. No. 167, Apx.
Vol. 7 at 166, Aff. of Willie Coleman ¶¶ 13-14); (Return of Writ, Doc. No. 167, Apx. Vol. 7 at 169,
Aff. of Sonya Coleman ¶ 7); (Return of Writ, Doc. No. 167, Apx. Vol. 7 at 174, Aff. of Susan Smith
¶¶ 3-4); (Return of Writ, Doc. No. 167, Apx. Vol. 7 at 176, Aff. of Athea Martin ¶ 8.)
4. That he was a non-violent person. (Return of Writ, Doc. No. 167, Apx. Vol. 7 at 163, Aff. of Dana
Strodes ¶ 14); (Return of Writ, Doc. No. 167, Apx. Vol. 7 at 174, Aff. of Susan Smith ¶ 5); (Return of
Writ, Doc. No. 167, Apx. Vol. 7 at 176, Aff. [*156] of Athea Martin ¶ 6); (Return of Writ, Doc. No.
167, Apx. Vol. 8 at 81, Aff. of Dana Strodes ¶ 2.)
For an ineffective assistance of counsel claim to succeed, counsel must have performed deficiently, and
that performance must have prejudiced the defendant. There is a constitutional duty on the part of counsel
to investigate, as effective assistance requires making professional decisions and informed legal choices,
which can only be rendered after investigation. Strickland, 466 U.S. at 680; Carter v. Bell, 218 F.3d 581,
596 (6th Cir. 2000)(Counsel must make some effort at independent investigation in order to make a
reasoned, informed decision as to [the utility of mitigating factors offered by defendant]"); Wiggins v.
Smith, 539 U.S. 510, 524, 123 S. Ct. 2527, 156 L. Ed. 2d 471 (2003) (deprived of representation when
counsel 'abandoned their investigation of [his] background after having acquired only rudimentary
knowledge of his history from a narrow set of sources.') The investigation does not need to be exhaustive,
but must be reasonably substantial in examining the facts, circumstances, pleadings and the laws involved.
Strickland, 466 U.S. at 680. Here, counsel failed to make an adequate investigation. They met with
[*157] a small number of potential witnesses, specifically Petitioner's father, however they failed to speak

Appendix E
Appx-0095

Page 55 of 69
2012 U.S. Dist. LEXIS 170609, *157

with other family members and close friends that would have been willing to testify on Coleman's behalf.
Furthermore, counsel failed to explain the mitigation process and prepare the one witness they did present.
Additionally, counsel were deficient in their late hiring of an investigator. As a result of this delay,
investigation did not begin until the day before the start of voir dire. The investigator did not have
direction from counsel, but rather simply unsuccessfully attempted to interview two other possible
suspects and conducted a brief interview with Gaskins who proved to be an inculpatory witness rather
than exculpatory. There is no evidence that counsel or the investigator looked into Coleman's medical,
educational, employment, or additional family and social history, or looked into his prior adult
correctional experience, religious or cultural influences. Even in applying deference, counsel did not
undertake enough investigation to make reasonable decisions. If no investigation is conducted, counsel
cannot know if additional mitigation evidence would be counterproductive [*158] or fruitless. They fell
below the standard of "reasonableness under prevailing professional norms."
The Court now turns to the prejudice prong of Strickland. The Petitioner directs this Court to Morales v.
Mitchell, 507 F.3d 916 (6th Cir. 2007). In Morales, the court determined that counsel failed to discover
and present mitigation evidence to the jury including "many specific details about his tumultuous life,
continued and uncontrolled alcohol and drug abuse, dysfunctional family history, potential mental health
problems, and a detailed cultural background. Morales v. Mitchell, 507 F.3d at 935-936. The court of
appeals concluded that had counsel performed even the most basic of investigations, they would have
discovered defendant's deprived childhood; that his father was an alcoholic; his mom was neglectful; his
half-sister, who was responsible for his care, had emotional issues and committed suicide; and his brother,
to whom he was a protector, was mentally disabled and as a result of violent outbursts needed to be placed
in a psychiatric hospital on multiple occasions. Id. at 931-934. Morales' environment was unstable and as
a result of this instability and feeling like a social [*159] outcast, he ended up dropping out of high
school. Additionally, counsel in the Morales case could have presented evidence that defendant began
using drugs and alcohol at age nine at the prodding of the elders, that in the Native American community
it is seen as "unmanly" not to drink, that as a result of his drinking he was often violent and suffered from
blackouts, that defendant's parents, aunts, uncles, and grandparents drank, and that some of these family
members had died as a result of cirrhosis. The court held that this evidence was "significant and not
cumulative of the evidence actually presented during the guilt and penalty phases." Id. "Because the net
effect of the undiscovered and unpresented evidence, viewed cumulatively and in light of the totality of
the circumstances, demonstrates the existence of significant mitigating evidence that favored Morales, it is
reasonably probable that at least one juror hearing that evidence would have been persuaded to impose a
life, rather than a death, sentence." Id. at 936.
In comparing this case, the Court finds that Petitioner is unable to show such prejudice. After a review of
the mitigation phase transcript, this Court concludes [*160] that the following mitigation evidence was
presented: Coleman had a good childhood and grew up in a loving family. (Trial Tr. Vol. 8 at 1291.) He
was an energetic and normal child. Id. For the most part he was eager, energetic, and obedient, but
occasionally he would become hardheaded and disobedient. Id. His overall disposition was kind and
loving, never violent. Id. at 1292.
The majority of the information contained within the affidavits offered during postconviction was either
cumulative (that he was a loving person) or did not rise to the level that a reasonable jurist would have
found that it outweighed the aggravating circumstance. While Petitioner may have been a responsible and
loving father to his children (although one doubts a jury would have found him responsible in having five

Appendix E
Appx-0096

Page 56 of 69
2012 U.S. Dist. LEXIS 170609, *160

children by three different women), he was found guilty of killing a mother of five. Likewise, testimony
of a learning disorder in school would not likely have weighed strongly on the jury in balancing
mitigation and the aggravating circumstances.
Additionally, Petitioner argues that counsel were ineffective in failing to present his employment records
from Fox-Lite. (Traverse, Doc. No. 170, PageID [*161] 1965.) He asserts that these records would have
shown the jurors that he was a good worker, responsible, had employable skills, and was attempting to
lead a crime-free life. Id. While the records could have been presented, this Court does not find that they
would have been persuasive. The records reflect an employment period of three months and contain
mediocre reviews, absenteeism, and tardiness.
Next he argues that counsel were ineffective in their failure to hire a cultural expert to provide testimony
regarding the unique social and cultural factors that face African-American men. (Traverse, Doc. No. 170,
PageID 1969-1970.) He argues that had this type of expert been presented, he could have provided insight
to the jury as to how someone like Coleman, raised in a stable and loving family, could turn to a life of
dealing drugs. Id., citing Morales, 507 F.3d 931. Coleman asserts that had counsel presented evidence of
this kind, it is reasonably probable that at least one juror would have voted to impose a sentence of life,
rather than death. Id. at 1970. Petitioner fails to offer any support as to what this expert may have testified
to, other than a reference of "the problems and pressures [*162] facing young African-American males in
urban environments and the role that drugs play in their lives." Id. Even assuming an expert on this matter
had been presented, this presumes that the cultural expert's testimony would have been deemed reliable
after undergoing a Daubert analysis and that the testimony would have been relevant to Coleman's case.
Daubert v. Merrell Dow Pharmaceuticals, Inc., 509 U.S. 579, 113 S. Ct. 2786, 125 L. Ed. 2d 469 (1993).
Coleman has failed to show counsel was ineffective. "The decision of what mitigating evidence to present
during the penalty phase of a capital case is generally a matter of trial strategy." Hill v. Mitchell, 400 F.3d
308, 331 (6th Cir. 2005). "[T]he existence of alternative or additional mitigation theories generally does
not establish ineffective assistance of counsel." Phillips v. Bradshaw, 607 F.3d 199, 207 (6th Cir. 2010).
Attorneys are not expected to present every potential mitigation theory. Fears v. Bagley, 462 Fed. Appx.
565, 576 (6th Cir. 2012). It is speculative that testimony from a cultural expert would have resulted in a
life sentence, rather than a sentence of death. Petitioner does not show that there was a reasonable
probability that, but for the absence [*163] of a cultural expert, the jury would have reached a different
conclusion.
Next, Petitioner asserts that his counsel were ineffective in failing to call a psychologist to testify on his
behalf. (Traverse, Doc . No. 170, PageID 1970.) Prior to the mitigation phase, counsel hired an expert
psychologist, Dr. Erhard Eimer, but then decided not to call him to testify. Id. Had Dr. Eimer testified, he
would have stated that in his professional opinion, given Coleman's psychological profile, it was highly
unlikely Coleman committed the crime for which he was convicted. Id., citing Return of Writ, Doc. No.
167, Apx Vol. 8 at 71. While Dr. Eimer's report does state that he believed that Coleman was incapable of
such crime and noted characteristics such as "eager to please," shy, insecure, fear, confusion, and anxious
conformity to expectations of others, other aspects of the report would have been detrimental to the
defense. For instance the report begins in that it "suggests a chronic psychological maladjustment. He is
overly sensitive to criticism. He is highly suspicious of other people and constantly on guard to prevent
being taken advantage of. This touchiness often makes him argumentative." [*164] (Return of Writ, Doc.
No. 167, Apx. 8 at 68.) In addition, it labels Coleman as being suspicious, rigid, moralistic, has a lack of
trust, and an inability to compromise and negotiate making it impossible for him to develop a close

Appendix E
Appx-0097

Page 57 of 69
2012 U.S. Dist. LEXIS 170609, *164

relationship. Id. It also specifically states that "[w]hen he[Coleman] feels threatened, he may react with
self-righteous indignation and complain that he has been wronged. He typically does not assume
responsibility for his problems and tends to blame others or to rationalize his faults." Id. This line falls
squarely into the State's theory of motive, that Coleman murdered Stevens in an attempt to prevent her
from testifying at his drug trafficking trial, as she "snitched" on him, and he could not do that much time.
Next, Petitioner argues that his counsel were ineffective in their failure to object to the reintroduction of
all the trial phase testimony at the mitigation phase. (Traverse, Doc. No. 170, PageID 1971.) This
permitted the introduction of all evidence and testimony from the guilt phase to be reintroduced during the
guilt phase for the jury's consideration, including unrelated and prejudicial evidence, such as the drug buy
tapes, testimony from [*165] the officers regarding the drug deals, and information relating to Coleman's
drug trafficking case. (Traverse, Doc. No. 170, PageID 1971.) Petitioner argues that it was essential for
counsel to review the exhibits and testimony and lodge objections where appropriate. Id. If counsel had
objected and prevented the admission of prejudicial information, he argues, then the jury may have been
swayed to give life instead. Id. Instead, this evidence served merely to inflame the jurors passions and put
their focus on the underlying crimes rather than the aggravating circumstance itself. Id. at 1972.
"[I]t is not the province of a federal habeas court to reexamine state-court determinations on state-law
questions." Estelle v. McGuire, 502 U.S. 62, 67-68, 112 S. Ct. 475, 116 L. Ed. 2d 385 (1991). As a result,
"errors in application of state law, especially with regard to the admissibility of evidence, are usually not
cognizable in federal habeas corpus." Walker v. Engle, 703 F.2d 959, 962 (6th Cir. 1983); see Coleman v.
Mitchell, 244 F.3d 533, 542 (6th Cir. 2001). Otherwise stated, a state court's violation of its own
evidentiary law does not, ipso facto, provide a basis upon which a federal court may grant habeas relief.
Bugh v. Mitchell, 329 F.3d 496, 512 (6th Cir. 2003). [*166] The Northern District of Ohio addressed a
similar issue in Cowans v. Bagley, holding:
In light of the foregoing, trial courts have considerable discretion in determining what evidence is
relevant to the penalty phase and reviewing courts are loath to interfere with the exercise of that
discretion. Cf., State v. Hancock, 108 Ohio St. 3d 57, 76, 2006 Ohio 160, 840 N.E.2d 1032 (2006)
(noting that trial judges are "clothed with a broad discretion" in determining the relevancy of trial
phase evidence to the penalty phase); see also State v. Jackson, 107 Ohio St. 3d 53, 71-72, 836 N.E.2d
1173, 2005 Ohio 5981 (2005) (finding no error in readmission of guilt phase testimony from
surviving victims because testimony was relevant to course-of-conduct aggravating circumstance);
State v. Ahmed, 103 Ohio St. 3d 27, 43, 2004 Ohio 4190, 813 N.E.2d 637 (2002) (finding no error in
readmission of seven crime-scene photographs because the evidence assisted in demonstrating
aggravating circumstances); State v. LaMar, 95 Ohio St. 3d 181, 203-204, 2002 Ohio 2128, 767
N.E.2d 166 (2002) (finding no error in readmission of photographs or demonstrative exhibits
demonstrating the weapons used because evidence "bore [*167] some relevance to" the nature and
circumstances of the course-of-conduct aggravating circumstance); State v. Fears, 86 Ohio St.3d 329,
345-45, 1999 Ohio 111, 715 N.E.2d 136 (1999) (holding that even though a trial court should exclude
evidence irrelevant to the penalty phase, the trial court in this case was not required to exclude the
evidence of the killings, including gruesome photographs, because § 2929.03 (D)(1) requires the trial
court to consider the nature and circumstances of the offense and permits repetition of much or all that
occurred during the guilty stage (citing DePew, 38 Ohio St.3d at 282-83)).
The Ohio Supreme Court has clarified, however, that even though R.C. § 2929.03(D)(1) and (2)
permit repetition of much or all of what happened during the culpability phase, trial courts are not

Appendix E
Appx-0098

Page 58 of 69
2012 U.S. Dist. LEXIS 170609, *167

relieved [of] their duty to determine which culpability phase evidence is relevant to sentencing issues,
See State v. Getsy, 84 Ohio St.3d 180, 201, 1998 Ohio 533, 702 N.E.2d 866 (1998) (holding that State
v. Gumm, 73 Ohio St. 3d 413, 1995 Ohio 24, 653 N.E.2d 253, syllabus (1994) "appears to require the
trial court to determine what evidence is relevant"); see also State v. Lindsey, 87 Ohio St.3d 479, 48485, 2000 Ohio 465, 721 N.E.2d 995 (2000) [*168] (holding that it was error for trial court to readmit
guilt-phase evidence in toto without determining which evidence was relevant to penalty phase
issues).
Although this latter line of cases appears to militate in petitioner's favor, the Court takes notice of the
fact that even in Getsy, where the Ohio Supreme Court held that a trial court was required to
determine what culpability phase evidence was relevant in the penalty phase and that the trial court in
that case had admitted evidence that was not relevant, the Ohio Supreme Court nonetheless held in
conclusory fashion that the admission of that irrelevant evidence had not prejudiced the outcome of
the appellant's case. Getsy, 84 Ohio St. 3d at 201, 1998 Ohio 533, 702 N.E. 2d 866. Similarly, the
Ohio Supreme Court concluded in Lindsey that the trial court's error in readmitting all of the
culpability phase evidence without making a determination as to which evidence was relevant to the
penalty phase issues did not prejudice the outcome of petitioner's sentencing hearing because
evidence of bloody photographs of the victim, bloodstains in the appellant's vehicle, and bloodstains
at a bar was relevant to the element of serious physical [*169] harm to the victim in the aggravated
robbery death specification. Lindsey, 87 Ohio St. 3d at 485. See also State v. LaMar, 95 Ohio St. 3d at
203 (deeming harmless the trial court's readmission of the victim's walker, even though that evidence
had tenuous connection, if any, to the aggravating circumstances). Thus, even assuming in the instant
case that the trial court erred as a matter of state law in not determining the relevancy of culpability
phase evidence before readmitting it in the mitigation phase, it does not stand to follow, and in fact
seems highly unlikely, that such error would warrant reversal under state law.
Beyond that, this Court is also aware of at least two district court cases holding that any possible error
in readmitting culpability phase evidence in the penalty phase, assuming it is error, was insufficient to
warrant habeas corpus relief. Davis v. Mitchell, 110 F. Supp. 2d 607, 626 (N.D. Ohio 2000)(finding
no violation of clearly established federal law in the trial court readmitting in the penalty phase all
evidence from the culpability phase), rev'd on other grounds, 318 F.3d 682 (6th Cir. 2003); Morales v.
Coyle, 98 F. Supp. 2d 849, 885 (N.D. Ohio 2000) (holding [*170] that any possible violation of state
law in admitting into evidence at the penalty phase all exhibits from the culpability phase was
inefficient to warrant habeas corpus relief.)
Cowans v. Bagley, 624 F. Supp. 2d 709, 811-13 (S.D. Ohio 2008); see also Hand v. Houk, 2011 U.S. Dist.
LEXIS 69001 (S.D. Ohio 2011).
In this case the trial court readmitted all of the culpability phase evidence, without objection, into
evidence during the sentencing phase. The evidence included: the drug buy tapes, testimony from the
officers regarding the drug deals, and information relating to Coleman's drug trafficking case. "A review
of relevant Ohio law demonstrates to this Court that the categories of culpability phase evidence that
prosecutors are permitted to reintroduce is broad and the discretion that trial courts have in determining
what culpability phase evidence in relevant is wide." Cowans, 624 F. Supp. 2d at 813 (S.D. Ohio 2008).
This evidence went to the nature and circumstances of the aggravating circumstance. Petitioner has not
shown prejudicial error in the readmission of the guilt phase evidence and thus it is unlikely that an

Appendix E
Appx-0099

Page 59 of 69
2012 U.S. Dist. LEXIS 170609, *170

objection to this evidence would have been sustained. As such, [*171] counsel cannot be held to have
been ineffective in their failure to object to this readmission.
Next, Petitioner argues counsel's ineffectiveness in their failure to present a cogent and appropriate
closing argument at the sentencing phase. (Traverse, Doc. No. 170, PageID 1972), citing Hall v.
Washington, 106 F.3d 742 (1997). Counsel's closing argument failed to point to anything mitigating,
however it did mention the victim and her children. Id. at 1973. This allegedly prompted the jury to focus
on aggravating circumstances rather than mitigating factors.
This Court disagrees. In the closing argument of the penalty phase, defense counsel asked the jurors to
consider mercy, "to ask you and to plead from you that if you find a way to give my client some mercy,
that you do it." (Trial Tr. Vol. 8 at 1311.) Counsel explained that the jurors should consider Coleman's
state of mind during the offense and consider mercy in their sentencing:
First thing, we accept, Jon Doughty, myself, we accept your verdict. And the mitigation all I have to
talk to you about is - - I'll read it to you, whether it is unlikely that the offense would have been
committed but for the fact that the offender was under [*172] duress, coercion, or strong provocation.
Now, you heard the testimony of Mr. Coleman peddling drugs to people and then the street talk was
that there was a snitch on the street; and it was this tragic young lady with five children who was
reporting back to the Police Department. You heard the detectives testify here. He didn't know
anything about it. He thought she had maybe two children.
****
Now, the - -the relevance in that is that the state of mind to the defendant was not normal. I don't
mean he was mentally ill or anything; but based on the testimony that I heard, he was almost semi
hysterical at times because of the picture he was facing as a result of this trial.
And that led to her death. I don't mean to imply in any way that you should forgive him for this.
You've already given your verdict.
And I'll read the law to you on this. This- - what he did does not justify or excuse the offense, but
because of the state of mind may in fairness and mercy be considered by you in order to reduce the
degree of defendant's punishment to 30 or 20 years.
(Trial Tr. Vol. 8 at 1312-1313.) This sub-claim is without merit.
Next, he argues counsel's ineffectiveness in failing to investigate Skipper [*173] evidence. (Traverse,
Doc. No. 170, PageID 1974.) Skipper v. South Carolina held that the sentencer should consider evidence
of a defendant's good behavior and peaceful adjustment while imprisoned. 476 U.S. 1, 106 S. Ct. 1669, 90
L. Ed. 2d 1 (1986). Steven Williams, a deputy sheriff at the Clark County Jail, would have been able to
testify that while transporting Coleman back and forth from the jail to his trial proceedings, "at no time
during the six-day trial, did I observe Mr. Coleman misbehave or present any kind of resistance while
under my supervision." (Traverse, Doc. No. 170, PageID 1974, citing Return of Writ, Doc. No. 167, Apx.
Vol. 7 at 178, Aff. of Steven Williams.) Petitioner argues that this testimony would have been relevant
and potentially persuasive to the jury as it would have shown that if sentenced to prison he would be able
to adjust peacefully.
While this evidence could have been presented, Petitioner was not prejudiced by this omission. Deputy
Williams would have testified that he observed Coleman's good behavior over a significantly short
amount of time, while transferring Coleman to and from the jail for his trial. Based on these short
interactions, it is unlikely that a juror would assign this [*174] mitigating factor much weight. Testimony

Appendix E
Appx-0100

Page 60 of 69
2012 U.S. Dist. LEXIS 170609, *174

about Coleman's time in jail would also likely have drawn the jury's attention to his having recruited
White to assist in the murder while he was in jail.
As Petitioner has not been able to meet the prejudice prong of Strickland, the decision by the state courts
was neither contrary to nor an unreasonable application of Supreme Court law. This Fourth Ground for
Relief is without merit. However, reasonable jurists could disagree with his conclusion, given that there is
wide divergence among federal courts in evaluating the proper extent of mitigation investigation and what
evidence seems likely to be mitigating. If the District Court does dismiss the Fourth Ground as
recommended, the Magistrate Judge also recommends that a certificate of appealability be issued on this
claim.

Fifth Ground for Relief: Exclusion of a Juror on Racial Grounds
In his Fifth Ground for Relief, Petitioner asserts that his constitutional rights were violated by the State's
peremptory excuse of prospective juror Blackmon. (Petition, Doc. No. 9 at 18); (Traverse, Doc. No. 170,
PageID 1987.)
As with Grounds One and Two, Respondent asserts this claim is not properly pled because
[*175] Petitioner has only reiterated the claim as he made it before the Ohio Supreme Court. (Return of
Writ, Doc. No. 167, PageID 1850.) The Magistrate Judge concludes the claim is adequately pled within
Habeas Rule 2(c).
The Ohio Supreme Court rejected this claim on direct appeal, writing as follows:
In his fourth proposition of law, appellant argues that prosecutors exercised a peremptory challenge in
a racially discriminatory manner. Batson v. Kentucky (1986), 476 U.S. 79, 106 S. Ct. 1712, 90 L. Ed.
2d 69, held that the Equal Protection Clause precludes "purposeful discrimination by the state in the
exercise of its peremptory challenges so as to exclude members of minority groups from service on
petit juries." State v. Hernandez (1992), 63 Ohio St. 3d 577, 581, 589 N.E.2d 1310, 1313. In order to
make a prima facie case of purposeful discrimination, an accused must demonstrate (a) that members
of a cognizable racial group were peremptorily challenged, and (b) the "facts and any other relevant
circumstances raise an inference that the prosecutor" used the peremptory challenges to exclude jurors
"on account of their race." Id. at 582, 589 N.E.2d at 1313.
Prospective juror Sandra Blackmon, an [*176] African-American, disclosed during voir dire that her
son was in prison for drug trafficking. The prosecutor explained his peremptory challenge by noting
that when his office prosecuted Blackmon's son for selling drugs to an undercover informant,
Blackmon expressed "an attitude * * * that her son could do no wrong and that everybody was lying
about her son[.]" Since Coleman's case involved murder of a drug informant by a drug trafficker, and
Blackmon's son was then in prison for drug trafficking, the prosecutor could reasonably decide not to
have her on the jury.
The trial court did not abuse its discretion in accepting the prosecutor's explanation, which was raceneutral on its face. Courts have accepted prior involvement with drugs by family members of
prospective jurors as a race-neutral explanation after a Batson challenge. See, e.g., United States v.
Fisher (C.A.5, 1994), 22 F.3d 574, 577; United States v. Hughes (C.A. 7, 1992), 970 F.2d 227, 230.
Nothing in the record suggests a racial motivation, and "'unless a discriminatory intent is inherent in

Appendix E
Appx-0101

Page 61 of 69
2012 U.S. Dist. LEXIS 170609, *176

the prosecutor's explanation, the reason offered will be deemed race neutral.'" Purkett v. Elem (1995),
514 U.S. 765, 768, 115 S. Ct. 1769, 1771, 131 L. Ed. 2d 834, 839. [*177] Finally, a trial court's
finding of no discriminatory intent will not be reversed "absent a determination that it was clearly
erroneous." State v. Hernandez, 63 Ohio St. 3d at 583, 589 N.E.2d at 1314. The prosecutor's raceneutral explanation was credible and supported by the record; hence, it was not "clearly erroneous."
Thus, we reject appellant's fourth proposition of law.
State v. Coleman, 85 Ohio St. 3d 129, 142-143, 1999 Ohio 258, 707 N.E.2d 476 (1999).
It is clearly established United States Supreme Court law that the State may not exercise its [peremptory]
challenges in a criminal case in violation of the Equal Protection Clause. It is impermissible to use the
challenges to exclude from the jury minorities "for reasons wholly unrelated to the outcome of the
particular case on trial" or to deny "the same right and opportunity to participate in the administration of
justice enjoyed by the white population." Batson v. Kentucky, 476 U.S. 79, 91, 106 S. Ct. 1712, 90 L. Ed.
2d 69 (1986), quoting Swain v. Alabama, 380 U.S. 202, 224, 85 S. Ct. 824, 13 L. Ed. 2d 759 (1965). As
with any equal protection claim, the defendant who alleges the discrimination has the burden of
establishing "the existence of purposeful discrimination." Id.; Whitus v. Georgia, 385 U.S. 545, 550, 87 S.
Ct. 643, 17 L. Ed. 2d 599 (1967), citing [*178] Tarrance v. Florida, 188 U.S. 519, 23 S. Ct. 402, 47 L.
Ed. 572 (1903). A state criminal defendant can establish a prima facie case of purposeful racial
discrimination in the selection of jurors solely by proof of peremptory challenges to exclude members of
the defendant's race. Batson v. Kentucky, 476 U.S. 79, 106 S. Ct. 1712, 90 L. Ed. 2d 69 (1986). A trial
court must use a three-step process to evaluate a Batson claim. First, the opponent must make a prima
facie showing that the proponent of the strike has exercised a peremptory challenge on the basis of race.
The burden then shifts to the proponent to articulate a race-neutral reason for the challenge. Finally, the
trial court must determine if the opponent has carried his burden of proving purposeful discrimination.
Purkett v. Elem, 514 U.S. 765, 768, 115 S. Ct. 1769, 131 L. Ed. 2d 834 (1995); Hernandez v. New York,
500 U.S. 352, 111 S. Ct. 1859, 114 L. Ed. 2d 395 (1991).
To make a prima facie showing, a defendant must show that he is a member of a cognizable racial group,
that a challenge has been exercised to remove a venireperson of the same race,6 and any additional facts
and circumstances from which an inference could be drawn that the prosecutor had used the peremptory
challenge in a race-based manner. Batson, 476 U.S. at 79. The defendant is entitled to [*179] rely on the
fact that the peremptory challenge process is one in which those who are of a mind to discriminate on the
basis of race are able to do so. Id. A trial judge's conclusion that the challenge was race-neutral must be
upheld unless it is clearly erroneous. Hernandez; supra; United States v. Tucker, 90 F.3d 1135, 1142 (6th
Cir. 1996); United States v. Peete, 919 F.2d 1168, 1179 (6th Cir. 1990).
Specifically, Coleman alleges that Ms. Blackmon, an African-American woman, was denied a position on
the jury when the State exercised its second peremptory challenge. (Trial Tr. Vol. 4 at 593.) During voir
dire the following exchanges took place:
Mr. Schumaker: Okay. Now- - and I'm sorry, I don't mean to pry; but have any of you as far as family
members, close friends, do any of you have any very close associations with those who have
experienced drug problems?
Juror No. 8: (Indicating.)
6 The

Court later determined that a defendant need not be of the same race as the excluded prospective juror to raise a Batson claim. Powers
v. Ohio, 499 U.S. 400, 111 S. Ct. 1364, 113 L. Ed. 2d 411 (1991).

Appendix E
Appx-0102

Page 62 of 69
2012 U.S. Dist. LEXIS 170609, *179

Mr. Schumaker: Mrs. Blackmon.
Juror No. 8: Uh-huh.
Mr. Schumaker: Once again, I don't mean to pry. I know it can be a sensitive area, but [*180] can you
tell us just a little bit about that?
Juror No. 8: Well, my son, he's in prison now for drugs.
Mr. Schumaker: Okay. Now, the fact that - - that that has occurred and that we are going to be talking
about a - -a killing that is alleged to have occurred around drug trafficking, do you believe that that
would affect your- -your deliberations and - - and enter into this?
Juror No. 8: No.
Mr. Schumaker: Okay. Thank you very much. Anybody else?
(Trial Tr. Vol. 4 at 542-543.)
Mr. Schumaker: Okay. Mrs. Blackmon, I'm sorry to have to inquire about this, but you indicated your
son - -was this that a drug trafficking charge?
Juror No. 8: Yes.
Mr. Schumaker: Okay. Did - - an individual buy drugs from your son? Do you know?
Juror No. 8: I don't know.
Mr. Schumaker: Okay. And I'll rely on your judgment. Given that experience and given the issues that
I've just discussed with this jury, do you believe that - - that you can still be fair and impartial and
give the defendant and the people of the State of Ohio a fair shake here?
Juror No. 8: Yeah, I think so.
Mr. Schumaker: Okay. Would you harbor any ill will toward Miss Stevens as a result of what's
occurred with your son?
Juror No. 8: Oh, no, no.
(Trial [*181] Tr. Vol. 4 at 547-548.)
Mr. James Doughty: Now, Mrs. Blackmon, I've heard about your unfortunate problem in your family;
but could that in any way, any way at all, even microscopic way, could that interfere with your fair - and deliberations in this case?
Juror No. 8: I don't think so.
Mr. James Doughty: No. It would not, would it?
Juror No. 8: Hu-huh
(Trial Tr. Vol. 4 at 570.)
After the State exercised its peremptory objection on Ms. Blackmon, defense counsel immediately
objected based on Batson v. Kentucky. Id. The judge then held a sidebar with counsel for both parties
where they were permitted to both argue the objection and justify this peremptory challenge. Id.
Mr. Jon Doughty: Yeah. I think Steve needs to put something on record as to why he's excusing this
black.
Mr. Schumaker: Yes, Your Honor. In the course of the voir dire, Mrs. Blackmon indicated that her
son was in prison on a trafficking case.
We - - I was able to locate that case at the break. It's my understanding it's a case that my office
prosecuted that originated in the Juvenile Court or that my office had also had contact. If that wasn't
the particular case, we had contact with her son in Juvenile Court, and we prosecuted [*182] that
case.

Appendix E
Appx-0103

Page 63 of 69
2012 U.S. Dist. LEXIS 170609, *182

It's my understanding from conferring with personnel that Mrs. Blackmon had expressed an attitude
basically at that point that her son could do no wrong and that everybody was lying about her son in
those cases in Juvenile Court and that given the fact that she had indicated that in the case where her
son is in the penitentiary that there was an individual that brought - - bought drugs from her son and
that we're dealing with Melinda Stevens' death who was doing that exact same thing for the
Springfield Police Department, we felt that despite her best efforts, she simply couldn't put those
experiences behind her.
Mr. Jon Doughty: Well, Your Honor, I think the record should reflect that Mrs. Blackmon is a black
lady and that she indicated in direct questioning that none of that incident would affect her
performance as a Juror in this case.
We believe the reason the prosecutor is - -is exercising the preempt on Mrs. Blackmon is quite simply
because she's a black woman.
The Court: Well, there's an independent reason stated by the prosecutor and stated and articulated to
the Court. The Court indicates is not based on race. It's based on the drug experience with her son and
the prosecution [*183] by his office of her son.
And, therefore, it's not related to race; and with that independent and valid reason, the peremptory
challenge is going to be allowed.
Mr. James Doughty: Your Honor, I would like to interject too that what he's saying is her questions
that were directed sitting in that chair there were that there was nothing about that case that would
bother her.
Now, he's coming in here with a bunch of hearsay stuff about she's supposedly said certain things to
the contrary to her answers here.
Now, if he can document that, then maybe we got a real question for the Court; but simply on what
she's supposed to have said to somebody does certainly not arise to that point where you can
discharge this woman as a Juror. Her answers are contrary to anything - Mr. Schumaker: I would simply indicate it's not due to race. It's due to the reasons that we indicated.
The Court: Well, the State's articulated an independent reason why peremptory challenge should be
exercised not related to race, and the Court will allow the independent peremptory challenge.
(Trial Tr. Vol. 4 at 594-596.)
The Court: One other thing - -and the Jurors are still in the jury room. There was a peremptory
challenge [*184] by the State as to the Juror, Mrs. Blackmon; and I think there are some other
statements that counsel wants to put on record in regard to this peremptory challenge,
Prosecutor Schumaker: Yes. Mr. Bachman will speak to that, Your Honor.
Mr. Bachman: Your Honor, I believe that the - - the panel as it is presently constituted does have one
member of African American heritage, and I would note that this morning there were three black
individuals who had a possibility of being on the jury.
One was excused by the State on a peremptory challenge not based on race whatsoever, but based
upon her statements made about her son being in prison and so forth; and I believe the State put that
into the record already. And the other individual who did not make it on the panel indicated to the
Court that she knew too much about the case and knew the victim and so forth, and she didn't feel that
she could fairly sit here and judge this particular case.
And at her request and without objection from either side, she was excused for cause. That was Miss
Trollinger.

Appendix E
Appx-0104

Page 64 of 69
2012 U.S. Dist. LEXIS 170609, *184

So I would point out to the Court for the record that there is one black member on the panel at this
point.
The Court: Thank you. The - -in regard [*185] to that peremptory challenge, Miss Trollinger was
excused. She was a black lady, but that was for a reason she indicated having some knowledge - outside knowledge of the case under consideration before the Court, and that that would influence her.
There was also Mr. Wilkerson, of course, who is a black man and a member of this jury panel
acceptable to both parties.
The Court did not find a racial motivation in excusing Juror Sandra Blackmon. She indicated that her
son had been prosecuted for a drug offense, and the prosecutor raised that question in peremptory
challenge.
So the reason for exercising this peremptory challenge was not based on race but on the fact that her
son had been prosecuted by his office, and there was some bitterness according to the statements that
Mr. Schumaker did make on the record.
Further, that was put on the record that there are other members of the jury panel of African descent,
referring to Jesse Wilkerson, and also that the victim in this case is a black woman, Melinda Stevens,
a black woman, and that the case is not a racial case. It's a - - it doesn't involve a - -a race question in
regard to the issues being presented here at all.
I think there was [*186] a valid reason for a peremptory challenge and not related to race; and
independent of that issue whatsoever, the State did have a legitimate reason for using a peremptory
challenge so I'll find that it was not racially motivated.
(Trial Tr. Vol. 4 at 645-647.)
Petitioner has not established a Batson violation. Based on the similar circumstances between Mrs.
Blackmon's son and the defendant concerning drug trafficking, it seems appropriate counsel would have
challenged this juror. (Trial Tr. Vol. 4 at 543, 547-548.) While her answers indicated that she thought she
could be fair and impartial, she did also indicate that she had a son in prison for drug trafficking. Id. This
is the same offense for which Petitioner was to be tried when Melinda Stevens was murdered in an effort
to prevent her testimony. Additionally, Ms. Blackmon's son was convicted through the efforts of the same
prosecutor's office which was trying this case. The State's neutral explanation for the excusal "need not
rise to the level justifying exercise of a challenge for cause." Batson, 476 U.S. at 97. The State offered
evidence sufficient to show that the challenge was not based on race and Judge Lorig concluded twice
[*187] that the challenge was race neutral. (Trial Tr. Vol. 4 at 594-596.) The race neutral explanation is
both credible and supported by the record. Petitioner has failed to show facts to the contrary that give rise
to the inference that the Prosecutor's use of this peremptory challenge was racially based. To the contrary,
there were very valid reasons for excusing Ms. Blackmon. The decision of the state court that Judge
Lorig's determination was not clearly erroneous is neither contrary to nor an unreasonable application of
clearly established United States Supreme Court law. The Fifth Ground for Relief should be dismissed
with prejudice. Because reasonable jurists would not disagree with this conclusion, the Court should not
grant a certificate of appealability on it.

Ground Six: Admission of Inaudible Tape Recordings

Appendix E
Appx-0105

Page 65 of 69
2012 U.S. Dist. LEXIS 170609, *187

Judge Sargus has already ruled that this Ground for Relief was procedurally defaulted. Final judgment
dismissing it with prejudice should be entered and no certificate of appealability should be issued because
reasonable jurists would not disagree with his conclusion.

Ground Seven: Introducing Evidence from the Drug Case
In his Seventh Ground for Relief, Coleman argues the State [*188] deprived him of due process in the
Murder Case by introducing evidence from the Drug case which was neither material nor relevant to the
elements of aggravated murder. (Petition, Doc. No. 9, PageID 33); (Traverse, Doc. No. 170, PageID
1999.) His position is that, to prove the capital specification, all the State needed to do was introduce a
certified copy of the Indictment in the Drug Case and brief testimony establishing that the victim, Melinda
Stevens, would have been a witness in that trial; everything else was cumulative and prejudicial (Petition,
Doc. No. 9, PageID 33-34).
On direct appeal, the Ohio Supreme Court decided this claim as follows:
Appellant argues in his third proposition of law that he was prejudiced by the state's introduction of
irrelevant and cumulative testimony and other physical exhibits from his prior conviction for
aggravated drug trafficking. The state introduced evidence of Coleman's three drug sales to Stevens
from July to August 1995. Witnesses testified to the details of these sales, and the state admitted
several exhibits including crack cocaine. Appellant argues that to prove the R.C. 2929.04 (A)(8) death
specification, the state should have been limited [*189] to introducing two pieces of evidence: a copy
of the indictment charging Coleman with an offense and brief testimony by the state that Stevens
would have testified against Coleman at trial.
However, we believe that the trial court properly admitted evidence of Coleman's drug sales to
Stevens. The admission of the underlying facts regarding the three separate drug sales tended to prove
motive, and evidence was introduced to demonstrate that Stevens was the key witness against
appellant and that her murder would hinder the state's case against him by preventing her testimony,
which explained appellant's motive and deep obsession with killing Stevens. Thus, the drug sales are
not considered "other acts" evidence limited by Evid. R. 404(B); rather, they were introduced to prove
the R.C. 2929.04 (A)(8) death-penalty specification. In State v. Frazier (1995), 73 Ohio St. 3d 323,
338-339, 1995 Ohio 235, 652 N.E. 2d 1000, 1013-1014, we held that evidence that the accused
previously raped the murder victim was "inextricably linked" to the murder when the victim was
killed to silence her as a rape witness. Accord, State v. Keene (1998), 81 Ohio St. 3d 646, 661, 1998
Ohio 342, 693 N.E.2d 246, 260.
As in Frazier, the state has [*190] proven in this case that Coleman purposefully killed his victim
with prior calculation and design, that he did so because she was a witness to a crime, and that she
was killed to prevent her testimony. As appellant himself stated to Gaskins, "if they don't have a
witness, they don't have a case." These were not "wholly independent" crimes; hence, the state could
reasonably prove not only that Stevens was a witness, but also precisely what crimes she witnessed
and that she was a key witness. Frazier, 73 Ohio St. 3d at 339, 652 N.E.2d at 1014. Nor do we find
that the evidence was cumulative, as each police witness explained only those events which that
witness directly observed. Thus, we find that appellant's third proposition of law lacks merit.
State v. Coleman, 85 Ohio St. 3d 129, 140-141,
1999 Ohio 258,
Appendix
E 707 N.E.2d 476 (1999).

Appx-0106

Page 66 of 69
2012 U.S. Dist. LEXIS 170609, *190

"In conducting habeas review, a federal court is limited to deciding whether a conviction violated the
Constitution, laws, or treaties of the United States." Estelle v. McGuire, 502 U.S. 62, 112 S. Ct. 475, 116
L. Ed. 2d 385 (1991). "[I]t is not the province of a federal habeas court to reexamine state-court
determinations on state-law questions." Id. at 67-68. "[E]rrors in application of state law, especially with
regard to [*191] the admissibility of evidence, are usually not cognizable in federal habeas corpus."
Walker v. Engle, 703 F.2d 959, 962 (6th Cir. 1983); see Coleman v. Mitchell, 244 F.3d 533, 542 (6th Cir.
2001).
Respondent directs the Court's attention to Bey v. Bagley, 500 F.3d 514, 520 (6th Cir. 2007). (Return of
Writ, Doc. No. 167, PageID 1862.) In that case the petitioner challenged the admission of certain evidence
on direct appeal as both a state-law evidentiary error and a violation of due process. In determining the
standard of review, the Sixth Circuit held:
In Maldonado [v. Wilson, 416 F.3d 470, 474 (6th Cir. 2005)], the petitioner had challenged the
admission of certain evidence on direct appeal, as both a state-law evidentiary error and a violation of
due process. Id. at 475. The state appellate court affirmed the admission "solely on the basis of state
evidentiary laws," finding the evidence non-prejudicial. Id. Maldonado sought habeas relief on the
theory that admission of the evidence violated due process, i.e., his fundamental right to a fair trial. Id.
at 474. "We explained that, although the state had not addressed the due process claim expressly, "the
[state] court's [state-law] [*192] prejudice inquiry bore some similarity to a determination, under the
Due Process Clauses of the Fifth and Fourteenth Amendments, of whether the admission of the
challenged evidence rendered the trial fundamentally unfair." Id. at 476 (emphasis added). Therefore,
we concluded that a "modified AEDPA deference is appropriate." The present case is virtually
identical to Maldonado. The Ohio Supreme Court conducted a prejudice inquiry and, in ruling that the
trial court complied with Ohio R. Evid. 404 (B), found that the Mihas evidence's probative value
outweighed any unfair prejudicial impact that it might also have had. See Bey, 709 N.E. 2d at 491.
Because the Ohio Supreme Court's prejudice inquiry into Bey's state-law claim bears at least "some
similarity" to a determination of his current due process claim, we review this claim under
Maldonado's modified AEDPA standard, which "requires [us] to conduct a careful review of the
record and applicable law, but nonetheless bars [us] from reversing unless the state court's decision is
contrary to or an unreasonable application of federal law [i.e., Supreme Court precedent]."
Maldonado, 416 F.3d at 476; see also Filiaggi v. Bagley, 445 F.3d 851, 854 (6th Cir. 2006).
[*193] Furthermore, because the Ohio Supreme Court's prejudice inquiry relied entirely on Ohio law
without any reference to federal law, see Bey, 709 N.E.2d at 491, we need not consider whether that
decision resulted in an unreasonable application of federal law. We need only look to the question of
whether the Ohio Supreme Court's decision is contrary to federal law.
Before delving further into Bey's argument, we should note that Bey has not presented, nor have we
discovered, any Supreme Court precedent indicating that a state court violates a criminal defendant's
due process rights when it properly admits evidence of the defendant's other bad acts. We recognized
as much in Bugh v. Mitchell, where we held that the state court's admission of "other acts" evidence
was not contrary to clearly established Supreme Court precedent, inasmuch as "[t]here is no clearly
established Supreme Court precedent which holds that a state violates due process by permitting
propensity evidence in the form of other bad acts evidence." Bugh, 329 F.3d at 512 (emphasis added).
Therefore, under this circuit's precedent, the Ohio Supreme Court's decision that admission of this

Appendix E
Appx-0107

Page 67 of 69
2012 U.S. Dist. LEXIS 170609, *193

evidence was proper - - combined with [*194] our ordinary inability to reconsider a state court's
state-law-based decisions - - would appear to defeat Bey's claim.
Thus, Bey is left to argue that regardless of its compliance with state law, the state's action may
nonetheless violate due process, and thus be contrary to Supreme Court precedent. This theory offers
two possibilities: either the state law (rule) itself contradicts Supreme Court precedent, or the state's
application of the law (rule) under the particular circumstances does.
Bey v. Bagley, 500 F.3d 514, 520-521 (6th Cir. 2007), quoting Maldonado v. Wilson, 416 F.3d 470, 474
(6th Cir. 2005). This standard of deference is, if anything, strengthened by the later decision of the
Supreme Court in Harrington v. Richter, 562 U.S. , , 131 S. Ct. 770, 792, 178 L. Ed. 2d 624 (2011).
In Coleman's trial, the State presented multiple witnesses to testify to the use of Stevens as an confidential
informant in Coleman's drug case, the various procedures used in controlled drug buys, and that Stevens
did in fact make controlled purchases of crack cocaine from Coleman. (Traverse, Doc. No. 170, PageID
2001.) In addition they offered physical evidence of crack cocaine from one of the sales. Id. Under
[*195] Ohio law, evidence of other crimes, wrongs, or acts is not admissible to prove the character of a
person or to show that he acted in conformity with the prior conduct. "It may, however, be admissible for
other purposes, such as proof of motive, opportunity, intent, preparation, plan, knowledge, identity, or
absence of mistake or accident." Evid. R. 404(B). The State explained to the trial court who they were
presenting as witnesses and the reason behind the anticipated testimony:
This is to establish a number of things; but primarily as to the drug officers, it's to establish that, in
fact, that a criminal case was developed in which Miss Stevens was a witness and that, in fact, that is
why - - it's to lay the foundation that that's why she was killed because the way that case proceeded is
how Mr. Coleman figured out that she was going to be a witness and ultimately killed her.
(Trial Tr. Vol. 4 at 666.) The Ohio Supreme Court agreed with the State, finding that the evidence went to
establish motive; "[t]he admission of the underlying facts regarding the three separate drug sales tended to
prove motive, and evidence was introduced to demonstrate that Stevens was the key witness against
[*196] appellant and that her murder would hinder the state's case against him by preventing her
testimony, which explained appellant's motive and deep obsession with killing Stevens." State v.
Coleman, 85 Ohio St. 3d 129, 141, 1999 Ohio 258, 707 N.E.2d 476 (1999). Under Sixth Circuit
precedent, combined with an inability to consider a state court's state-law-based decisions, Coleman
cannot show that the Ohio courts admission of this evidence was improper. See Bugh v. Mitchell, 329 F.3d
496, 512 (6th Cir. 2003); Bey v. Bagley, 500 F.3d 514, 520-521 (6th Cir. 2007); Maldonado v. Wilson,
416 F.3d 470, 474 (6th Cir. 2005).
Petitioner can argue, however, that Ohio Evid. R. 404(B) contradicts Supreme Court precedent and
violates a fundamental right and that the evidence admitted in this case was so unfairly prejudicial that "it
offends [a] principle of justice so rooted in the traditions and conscience of our people as to be ranked as
fundamental . . ." for example, the right to a fair trial. (Petition, Doc. No. 9, PageID 33-36.) In addition,
Petitioner argues that the "carry over" effect of the improperly admitted evidence violated the Eighth and
Fourteenth Amendment guarantees that "any decision to impose the death penalty [*197] be, and appear
to be based on reason rather than caprice or emotion." Id., at 36, quoting Gardner v. Florida, 430 U.S.
349, 358, 97 S. Ct. 1197, 51 L. Ed. 2d 393 (1977).
The Supreme Court has "very narrowly" defined the category of infractions that violate fundamental
fairness. Dowling v. United States, 493 U.S. 342, 352, 110 S. Ct. 668, 107 L. Ed. 2d 708 (1990).

Appendix E
Appx-0108

Page 68 of 69
2012 U.S. Dist. LEXIS 170609, *197

Beyond the specific guarantees enumerated in the Bill of Rights, the Due Process Clause has limited
operation. We, therefore, have defined the category of infractions that violate 'fundamental fairness'
very narrowly. As we observed in [United States v.] Lovasco, [431 U.S. 783, 97 S. Ct. 2044, 52 L.
Ed. 2d 752 (1977)]: Judges are not free, in defining 'due process,' to impose on law enforcement
officials their personal and private notions of fairness and to disregard the limits that bind judges in
their judicial function. They are to determine only the limits that bind judges in their judicial function.
They are to determine only whether the action complained of violates those fundamental conceptions
of justice which lie at the base of our civil and political institutions, and which define the community's
sense of fair play and decency.
Id. at 352-53.
The trial court overruled objections to the [*198] testimony. As explained by the State and accepted by
the state courts, the admitted evidence went to establishing motive. (Trial Tr. Vol. 4 at 666); State v.
Coleman, 85 Ohio St. 3d 129, 140-141, 1999 Ohio 258, 707 N.E.2d 476 (1999). The testimony
established that the victim was a confidential informant for the police, that she had made several
controlled buys of crack cocaine from Coleman, and that she was going to testify to this involvement
during his trial for drug trafficking. This is further corroborated by additional witnesses that testified
during the murder trial that Coleman himself had told them he was going to get rid of the Stevens because
if there was not a witness, then they did not have a case against him. This all speaks to motive. Trial
counsel had the opportunity to prepare for, to challenge this evidence, to cross-examine the witnesses, and
to present rebuttal evidence. Petitioner has not made a showing that he was unfairly prejudiced nor has he
demonstrated that his circumstances come under the narrow category of infractions as discussed in
Dowling, supra. A defendant is not entitled to limit the State's case to the bare minimum of evidence
which would show the elements of a crime or specification. [*199] The evidence complained of was
relevant to proving that Stevens was a key witness and thus that Coleman would have had a motive to kill
her even stronger than the usual motive of a defendant to eliminate any witness against him or her. The
Ohio Supreme Court decision on this claim was neither contrary to nor an unreasonable application of
clearly established federal law. Therefore the Seventh Ground for Relief should be dismissed with
prejudice. Because reasonable jurists would not disagree with this conclusion, the Court should therefore
not grant a certificate of appealability on it.

Ground Eight: Insufficient Evidence of Prior Calculation and Design
Petitioner has withdrawn this Ground for Relief (Traverse, Doc. No. 170, PageID 2006).

Conclusion
In accordance with the foregoing analysis, it is respectfully recommended that the Petition be dismissed
with prejudice. The Court should grant a certificate of appealability on Grounds Two and Five, but
otherwise deny a certificate.
November 28, 2012.
/s/ Michael R. Merz

Appendix E
Appx-0109

Page 69 of 69
2012 U.S. Dist. LEXIS 170609, *199

United States Magistrate Judge
End of Document

Appendix E
Appx-0110

State v. Coleman
Court of Appeals of Ohio, Second Appellate District, Clark County
July 29, 2005, Rendered
C.A. CASE NOS. 04CA43, 04CA44
Reporter
2005-Ohio-3874 *; 2005 Ohio App. LEXIS 3583 **

STATE OF OHIO, Plaintiff-Appellee vs. TIMOTHY L. COLEMAN, Defendant-Appellant

Subsequent History: Discretionary appeal not allowed by State v. Coleman, 107 Ohio St. 3d 1697, 2005
Ohio 6763, 840 N.E.2d 203, 2005 Ohio LEXIS 3030 (2005)
Habeas corpus proceeding at, Motion granted by, in part, Motion denied by, in part Coleman v. Bradshaw,
2007 U.S. Dist. LEXIS 18185 (S.D. Ohio, Mar. 15, 2007)

Prior History: [**1] (Criminal Appeal from Common Pleas Court). T.C. CASE NOS. 95CR484,
96CR0142.
State v. Coleman, 85 Ohio St. 3d 129, 1999 Ohio 258, 707 N.E.2d 476, 1999 Ohio LEXIS 809 (1999)

Counsel: Stephen A. Schumaker, Pros. Attorney, Springfield, Ohio, Attorney for Plaintiff-Appellee.
Kelly L. Culshaw; Robert K. Lowe; Wendi Dotson, Asst. State Public Defenders, Columbus, Ohio,
Attorneys for Defendant-Appellant.

Judges: GRADY, J. WOLFF, J. And FAIN, J., concur.

Opinion by: GRADY

Opinion

Appendix F
Appx-0111

Page 2 of 8
2005-Ohio-3874, *2005-Ohio-3874; 2005 Ohio App. LEXIS 3583, **1

GRADY, J.
[*P1] Defendant, Timothy Coleman, appeals from orders dismissing his successive post-conviction
petition, motion for new trial and motion for relief from judgment, all without a hearing. In these actions,
Coleman sought to vacate his death penalty conviction.
[*P2] On the evening of January 2, 1996, Melinda Stevens was shot and killed in an alley behind the
Riddle's Ribs restaurant in Springfield. Following a jury trial in February 1997, Defendant Timothy
Coleman was convicted of aggravated murder and an accompanying death penalty specification. The
common pleas court sentenced Defendant to death. Defendant's conviction and death sentence was
subsequently affirmed on direct appeal. State v. Coleman, 85 Ohio St.3d 129, 1999 Ohio 258, 707 N.E.2d
476; Coleman v. Ohio (1999), 528 U.S. 954, 145 L. Ed. 2d 296, 120 S. Ct. 379. [**2]
[*P3] On November 27, 1997, Defendant filed a petition for post-conviction relief, R.C. 2953.21. The
trial court overruled that petition without a hearing on May 31, 2001. On direct appeal we affirmed the
trial court's dismissal of Defendant's post-conviction petition. State v. Coleman, Clark App. No. 2001-CA42, 2002 Ohio 5377. The Ohio Supreme Court declined jurisdiction. State v. Coleman (2003), 98 Ohio
St.3d 1478, 2003 Ohio 974, 784 N.E.2d 711.
[*P4] On January 24, 2002, Defendant filed a second round of actions including a motion for relief from
judgment, Civ.R. 60(B), a motion for a new trial, Crim.R. 33(A), and a successive petition for postconviction relief, R.C. 2953.23. These requests for relief presented the same two claims: (1) a primary
claim of actual innocence based upon newly discovered evidence showing that another person, William
Sapp, had confessed to murdering Stevens; and, (2) a subordinate claim that the State violated the
requirements of Brady v. Maryland (1963), 373 U.S. 83, 10 L. Ed. 2d 215, 83 S. Ct. 1194, when it failed
to disclose exculpatory [**3] evidence indicating Sapp was responsible for Stevens' murder. The trial
court found that these claims lacked merit, and on July 21, 2004, the court denied the relief requested in
each of Defendant's actions without a hearing.
[*P5] Defendant timely appealed to this court.

FIRST ASSIGNMENT OF ERROR
[*P6] "THE TRIAL COURT ERRED WHEN IT DISMISSED COLEMAN'S SUCCESSOR POSTCONVICTION PETITIONS, NEW TRIAL MOTIONS, AND RULE 60(B) MOTION."

THIRD ASSIGNMENT OF ERROR
[*P7] "THE TRIAL COURT ERRED IN DISMISSING APPELLANT'S POST-CONVICTION
PETITION WHERE HE PRESENTED SUFFICIENT OPERATIVE FACTS TO MERIT AN
EVIDENTIARY HEARING AND DISCOVERY."
[*P8] Initially, Defendant complains that when the trial court reviewed his two claims it did not apply
the proper standards of review applicable to each of his various causes of action. We are not persuaded by
this argument.

Appendix F
Appx-0112

Page 3 of 8
2005-Ohio-3874, *2005-Ohio-3874; 2005 Ohio App. LEXIS 3583, **3

[*P9] With respect to Defendant's successive post-conviction petition, the trial court could not consider
that petition unless Defendant demonstrated that he was unavoidably prevented from discovering the facts
upon which he relies as grounds for his claim for relief, and also demonstrated [**4] by clear and
convincing evidence that, but for constitutional error at trial, no reasonable factfinder would have found
Defendant guilty. R.C. 2953.23(A)(1).
[*P10] With respect to Defendant's motion for a new trial, Crim.R. 33(A)(6) provides that a new trial
may be granted when new evidence material to the defense is discovered which the defendant could not
with reasonable diligence have discovered and produced at the trial, or when the prosecutor commits
misconduct, Crim.R. 33(A)(2). See also R.C. 2945.79(F) and (B). In order to warrant a new trial based
upon newly discovered evidence, Defendant must show a strong probability that the new evidence will
change the result of the trial, that the evidence was discovered since the trial, the evidence could not have
been discovered before trial in the exercise of due diligence, the evidence is material to the issues, the
evidence is not cumulative of former evidence, and the evidence does not merely impeach or contradict
the former evidence. State v. Hawkins (1993), 66 Ohio St.3d 339, 612 N.E.2d 1227.
[*P11] Civ.R. 60(B)(2) [**5] provides that the court may relieve a party from a final judgment when
there is newly discovered evidence which in the exercise of due diligence could not have been discovered
in time for trial. The same relief is available on a showing of misconduct by an adverse party per
Civ.R.60(B)(3). To prevail on his motion for relief from judgment, Defendant Coleman had the burden to
demonstrate that he has a meritorious defense to present, that he is entitled to relief under Civ.R. 60(B)(2)
or (3), and that he made his motion within a reasonable time. GTE Automatic Electric, Inc. V. ARC
Industries (1976), 47 Ohio St.2d 146, 351 N.E.2d 113.
[*P12] In the context of Defendant's primary claim of newly discovered evidence which portrays his
actual innocence, we perceive no material distinctions in the standards applicable to successive postconviction petitions, motions for new trials and motions for relief from judgment. In any event, despite the
different procedural vehicles used or how the claim for relief is styled, if in substance the motion is a
petition for post-conviction relief, it should be treated as such. State v. Talley (January 30, 1998),
Montgomery App. No. 16479, 1998 Ohio App. LEXIS 233. [**6] Despite the various procedural
vehicles used by Defendant, his multiple post-conviction causes of action are all in substance the same; a
successive petition for post-conviction relief based upon a claim of newly discovered evidence of actual
innocence.
[*P13] R.C. 2953.21 governs post conviction relief and provides, in pertinent part:
[*P14] "Any person who has been convicted of a criminal offense * * * and who claims that there was
such a denial or infringement of his rights as to render the judgment void or voidable under the Ohio
Constitution or the Constitution of the United States may file a petition in the court that imposed sentence,
stating the grounds for relief relied upon, and asking the court to vacate or set aside the judgment or
sentence or to grant other appropriate relief. * * *
[*P15] "* * * Before granting a hearing, the court shall determine whether there are substantive grounds
for relief. In making such a determination, the court shall consider, in addition to the petition and
supporting affidavits, all the files and records pertaining to the proceedings against the petitioner[.] * *
[**7] *

Appendix F
Appx-0113

Page 4 of 8
2005-Ohio-3874, *2005-Ohio-3874; 2005 Ohio App. LEXIS 3583, **7

[*P16] "Unless the petition and the files and records of the case show the petitioner is not entitled to
relief, the court shall proceed to a prompt hearing[.] * * *" R.C 2953.21(A)(1), (C), and (E).
[*P17] R.C. 2953.21 confers a conditional right to a hearing. A petitioner has the initial burden to submit
with the petition evidentiary documents containing operative facts sufficient to demonstrate substantive
grounds for relief that merit a hearing. State v. Jackson (1980), 64 Ohio St.2d 107, 111, 413 N.E.2d 819;
State v. Kapper (1983), 5 Ohio St.3d 36, 38, 5 Ohio B. 94, 448 N.E.2d 823; State v. Pankey (1981), 68
Ohio St.2d 58, 59, 428 N.E.2d 413. A hearing is not required unless there is a showing that substantive
grounds for relief exist. State v. Moreland (Jan. 7, 2000), Montgomery App. No. 17557, 2000 Ohio App.
LEXIS 14. Broad conclusory allegations are insufficient, as a matter of law, to require a hearing. Id. A
petitioner is not entitled to a hearing if his claim for relief is belied by the record and is unsupported by
any operative facts other than Defendant's own self-serving affidavit or statements in his petition, which
alone are legally [**8] insufficient to rebut the record on review. Kapper, supra; State v. Vanderpool
(Feb. 12, 1999), Montgomery App. No. 17318, 1999 Ohio App. LEXIS 426.
[*P18] Defendant's primary claim for relief is that he is actually innocent of the murder of Melinda
Stevens. Defendant claims that William Sapp, who was convicted and sentenced to death for an unrelated
double murder of two girls in Springfield, is the actual killer of Stevens. Defendant's primary support for
this claim is an affidavit executed by Sapp on August 3, 2001, wherein Sapp admits killing Melinda
Stevens behind Riddles Ribs near Pleasant Street, in Springfield. Sapp describes what Stevens was
wearing, the type of gun he used, the approximate time of the shooting, and the type of beer he had
finished drinking just before shooting Stevens. Sapp further avers that when he was arrested and
interviewed by Springfield police about the other murders of two girls in Springfield, which occurred in
April 1997, he told police at that time that he had killed Melinda Stevens.
[*P19] As additional support for his claim of actual innocence, Defendant submitted a copy of a letter
Sapp wrote to Una Timmons sometime after Sapp was convicted [**9] and sentenced in an unrelated
case in 1996 for Kidnapping, Attempted Rape and Felonious Assault offenses in which Timmons was the
victim. The letter was in the possession of the State. The date the letter was written is unknown, but a
newspaper article was published on July 14, 1998 about the letter. In the letter Sapp threatens to harm
Timmons because she testified against him at trial. In an effort to convince Timmons that he was serious
about his threats, Sapp reminded Timmons of some of his other crimes including "killing your friend over
off of Pleasant." Defendant Coleman claims that the reference is reasonably construed to refer to Melinda
Stevens, and that the assertion corroborates Sapp's later claim in his affidavit that he killed Stevens.
[*P20] In response to Defendant's claim of actual innocence, the State filed transcripts of a recorded
interview between Springfield police and William Sapp which took place on June 18, 2002, after the
underlying actions were filed. During that interview, Sapp completely recanted the statements in his
previous affidavit and he denied that he killed Melinda Stevens or ever told police that he had done so.
According to Sapp, Defendant [**10] Coleman's attorney wrote out the affidavit and he simply signed it.
Sapp also indicated in that interview that his reference in the Timmons letter to someone he killed "over
off of Pleasant" was meant to indicate Gloria White, not Melinda Stevens.
[*P21] A trial court may not entertain a successive post-conviction petition unless Defendant
demonstrates that he was unavoidably prevented from discovery of the facts upon which he relies to
present his claim for relief. R.C. 2953.23(A)(1)(a). A similar requirement is imposed for obtaining a new
trial based upon newly discovered evidence.Appendix
Crim.R. 33(A)(6).
F On that point, the trial court concluded

Appx-0114

Page 5 of 8
2005-Ohio-3874, *2005-Ohio-3874; 2005 Ohio App. LEXIS 3583, **10

that Defendant failed to demonstrate that with the exercise of due diligence he could not have discovered
this new evidence of actual innocence upon which his claims for relief are based, and that he failed to
demonstrate that he acted diligently in presenting his claim after discovering this new evidence. We
disagree.
[*P22] The record before us demonstrates that Defendant was diligent in investigating and presenting his
claim of actual innocence once he learned William Sapp claimed [**11] responsibility for the murder of
Melinda Stevens. The first indication Defendant had that someone else was claiming responsibility for
killing Stevens was the letter Defendant received from Attorney Staughton Lynd dated July 21, 2001. In
that letter, Lynd indicates that he was told that another prisoner on death row wished to confess publicly
to the murder for which Defendant had been convicted. After receiving this letter, Defendant began his
investigative efforts, which included examining the files and records pertaining to Sapp. That
investigation yielded the letter Sapp wrote to Timmons.
[*P23] Just two weeks after receiving the Lynd letter, Defendant procured the affidavit from Sapp,
wherein Sapp claimed responsibility for the murder of Melinda Stevens. Defendant also sought,
unsuccessfully, to perform polygraph examinations on Sapp and himself, but could not come to terms
with officials of Mansfield Correctional Institute, where both men were held, on the conditions under
which such tests would be administered. Defendant filed his post-conviction causes of action alleging
actual innocence on January 24, 2002, just six months after receiving the Lynd letter and learning [**12]
of Sapp's claim of responsibility. Throughout that time, Defendant was incarcerated. Defendant was
diligent in presenting his current claim of actual innocence.
[*P24] We now turn to the merits of Defendant's claim of actual innocence. A persuasive demonstration
of actual innocence made after trial would render the execution of a defendant unconstitutional. Herrera
v. Collins (1993), 506 U.S. 390, 418, 122 L. Ed. 2d 203, 113 S. Ct. 853. Defendant's claim of actual
innocence in this case is founded on the statements in Sapp's affidavit, which the trial court found lacks
any credibility.
[*P25] In reviewing petitions for post-conviction relief, a trial court may, in the exercise of its sound
discretion, weigh the credibility of affidavits submitted in support of the petition in determining whether
to accept the affidavit as true statements of fact. State v. Calhoun, 86 Ohio St.3d 279, 1999 Ohio 102, 714
N.E.2d 905. That same doctrine also comfortably applies to affidavits submitted in support of a motion for
a new trial based upon newly discovered evidence that is material to the defense. In assessing the
credibility of affidavits, the trial court should consider all relevant factors, including:
[*P26] [**13] "(1) whether the judge reviewing the post-conviction relief petition also presided at the
trial, (2) whether multiple affidavits contain nearly identical language, or otherwise appear to have been
drafted by the same person, (3) whether the affidavits contain or rely on hearsay, (4) whether the affiants
are relatives of the petitioner, or otherwise interested in the success of the petitioner's efforts, and (5)
whether the affidavits contradict evidence proffered by the defense at trial. Moreover, a trial court may
find sworn testimony in an affidavit to be contradicted by evidence in the record by the same witness, or
to be internally inconsistent, thereby weakening the credibility of that testimony." Calhoun, supra, at 285.
[*P27] One or more of the Calhoun factors, to the extent that any of them apply, may be sufficient to
justify a conclusion that an affidavit asserting information outside the record lacks credibility. Id.

Appendix F
Appx-0115

Page 6 of 8
2005-Ohio-3874, *2005-Ohio-3874; 2005 Ohio App. LEXIS 3583, **13

[*P28] The trial court's decision dismissing Defendant's successive post-conviction petition without a
hearing was, in effect, a grant of summary judgment to the State contemplated by R.C.
2953.21(D) [**14] . Although, ordinarily, in summary judgment proceedings the trial court cannot weigh
and consider the credibility of evidentiary material such as affidavits, pursuant to Calhoun the trial court
is permitted in post-conviction proceedings to weigh the credibility of affidavits submitted in support of a
post-conviction petition, to a limited extent.
[*P29] The trial court held that Defendant's claim of actual innocence is wholly without merit because it
is founded upon Sapp's affidavit, which lacks any credibility. We find that in so holding the trial court did
not abuse its discretion, as that term is defined by law, in rejecting Sapp's affidavit for lack of credibility.
See: State v. Adams (1980), 62 Ohio St.2d 151, 404 N.E.2d 144. The court noted that Sapp is a convicted
double murderer who is under a sentence of death and has nothing to lose by claiming responsibility for
another murder. The timing of Sapp's affidavit also renders its validity suspicious, because it was prepared
and notarized by Defendant's own attorney just two months after the trial court had denied Defendant's
first post-conviction petition. The psychological report on Sapp prepared by Dr. Schmidtgoessling [**15]
for use in his double murder case mentions Sapp's "chronic lying."
[*P30] The Calhoun factors pertain to weaknesses or inconsistencies on the face of affidavits or the way
in which they were procured, and permit the court to refer to the prior trial record to compare the
averments in affidavits against the evidence that was offered. It is another matter to reject affidavits on the
basis of information obtained after a petition or motion is filed. Therefore, we believe that Sapp's affidavit
may not be rejected because he recanted its allegations in a subsequent interview with police officers on
June 18, 2001. Such conflicts merit a hearing if a choice between competing versions is made.
Nevertheless, the court had other, sound grounds to reject Sapp's affidavit.
[*P31] Sapp's affidavit is inconsistent with the facts of Melinda Stevens' murder and contradicted by the
overwhelming evidence of Defendant's guilt presented at trial. Sapp's claim that he was with Melinda
Stevens minutes before he killed her is contradicted not only by Defendant himself, who admitted to
police that he was with Stevens at Riddles Ribs moments before she was shot, but also by the testimony
of [**16] Christopher Holtz, who saw Defendant and Stevens leave Riddles Ribs together and walk into
the alley behind Riddles Ribs. Moments later, Holtz heard gunshots. Furthermore, no less than seven
witnesses testified at Defendant's trial, his friends and jail buddies, about how Defendant bragged that he
was going to kill Stevens for her role in his being arrested and charged with drug offenses, and then, after
the fact, about how he had killed Stevens. Finally, in affirming Defendant's conviction and death sentence,
the Ohio Supreme Court observed that nothing in the record suggests any killer other than Coleman, and
such a claim is baseless. Coleman, supra, 85 Ohio St.3d at 134.
[*P32] Importantly, the same judge that rejected Defendant's successive post-conviction claim of actual
innocence also presided over Defendant's trial and was therefore very familiar with the evidence against
him. Calhoun, supra. Based upon hearing all of the evidence at trial, and in accordance with Calhoun, the
trial court could reasonably reject Sapp's affidavit for lack of credibility, as it did, because while the
evidence at trial shows that Defendant had ample motive [**17] and opportunity to kill Stevens, Sapp's
affidavit fails to believably portray either. In other words, when viewed in the context of the
overwhelming evidence of Defendant's guilt, Sapp's declaration that he is responsible for killing Stevens
is so improbable as to constitute no credible evidence.

Appendix F
Appx-0116

Page 7 of 8
2005-Ohio-3874, *2005-Ohio-3874; 2005 Ohio App. LEXIS 3583, **17

[*P33] Defendant has failed to submit evidentiary documents containing sufficient operative facts to
demonstrate substantive grounds for relief on his claim of actual innocence, regardless of whether the
claim is presented as a successive post-conviction petition, motion for new trial or motion for relief from
judgment. The trial court did not abuse its discretion when it dismissed Defendant's successive postconviction petition, motion for a new trial and motion for relief from judgment asserting an actual
innocence claim without a hearing.
[*P34] We now turn to the merits of Defendant's claim that the State committed a violation of the
requirements of, Brady v. Maryland (1963), 373 U.S. 83, 10 L. Ed. 2d 215, 83 S. Ct. 1194, when it failed
to disclose to Defendant's counsel exculpatory evidence that Sapp, and not Coleman, killed Melinda
Stevens. That claim is supported by Sapp's affidavit, wherein [**18] Sapp claims that when Springfield
police interviewed him in connection with the murder of two Springfield girls, which occurred on April 2
and 3, 1997, he told police at that time that he had killed Melinda Stevens. As further support for this
claim, Defendant also relies on the letter Sapp wrote to Una Timmons, which was in the possession of the
State and never turned over to defense counsel, wherein Sapp refers to killing someone "over off of
Pleasant." Defendant claims that this is a reference to Melinda Stevens, and that it corroborates Sapp's
claim in his affidavit that he killed Melinda Stevens.
[*P35] As we previously discussed, the trial court properly rejected Sapp's affidavit because it lacks any
credibility. As for the Timmons letter, it makes no specific reference to the murder of Melinda Stevens. It
refers only to the killing of someone "over off of Pleasant."
[*P36] In order to constitute a violation of due process, the evidence withheld from Defendant must be
(1) favorable to the defendant and (2) material to guilt or innocence. Brady, supra. Defendant's bare
allegation that Sapp's reference in the Timmons letter to someone "over off of Pleasant" [**19] means
Melinda Stevens is not evidence that supports that proposition. While the letter is certainly favorable to
Defendant to the extent that it suggests Sapp was the perpetrator, given the vague, indefinite reference in
the Timmons letter to someone Sapp had killed "over off of Pleasant," the jury would necessarily have
had to speculate as to whether Sapp was referring to Melinda Stevens. Therefore, the letter is simply too
indefinite in its nature to be material to Defendant's guilt or innocence with respect to the killing of
Melinda Stevens. No Brady violation is demonstrated.
[*P37] Defendant has failed to submit evidentiary documents that contain sufficient operative facts to
demonstrate substantive grounds for relief, regardless of whether the claim is viewed as a successive postconviction petition, motion for new trial or motion for relief from judgment. Therefore, the trial court
properly dismissed Defendant's various post-conviction actions without a hearing.
[*P38] The first and third assignments of error are overruled.

SECOND ASSIGNMENT OF ERROR
[*P39] "THE TRIAL COURT ERRS WHEN IT SUMMARILY DISMISSES MERITORIOUS
CLAIMS RAISED IN NEW TRIAL [**20] MOTIONS, SUCCESSOR POST-CONVICTIONS
PETITIONS, AND RULE 60(B) MOTIONS WITHOUT GRANTING DISCOVERY."
[*P40] Defendant argues that Ohio's post-conviction process is inadequate and does not comport with
due process because it does not grant him theAppendix
right to conduct
F discovery he claims is necessary to acquire

Appx-0117

Page 8 of 8
2005-Ohio-3874, *2005-Ohio-3874; 2005 Ohio App. LEXIS 3583, **20

the evidentiary documents needed to support the claims for relief he presented in his petition. We have
previously addressed and rejected this same argument on multiple occasions. State v. Gapen, Montgomery
App.No. 20454, 2005 Ohio 441; State v. Kinley (1999), 136 Ohio App.3d 1, 735 N.E.2d 921; State v.
Chinn (August 21, 1998), Montgomery App. No. 16764, 1998 Ohio App. LEXIS 3857.
[*P41] In State v. Franklin, Montgomery App. No. 19041, 2002 Ohio 2370, we stated:
[*P42] "In his seventeenth claim for relief, Franklin argued that Ohio's post-conviction process is
inadequate. We have held that the statute is not unconstitutional. See State v. Taylor (June 29, 2001),
Greene App. Nos. 2000 CA 77, 2000 CA 103, unreported, 2001 Ohio App. LEXIS 2920.
[*P43] "State post-conviction review is not a constitutional right. State v. Kinley (1999), 136 Ohio
App.3d 1, 7, 735 N.E.2d 921, 926, [**21] dismissed (2000), 88 Ohio St. 3d 1444, 725 N.E.2d 284
(citation omitted). Thus, a petitioner for post-conviction relief receives no more rights than those granted
by the post-conviction relief statute, R.C. 2953.21. Id., citing State v. Calhoun (1999), 86 Ohio St.3d 279,
281, 1999 Ohio 102, 714 N.E.2d 905, 909. Although R.C. 2953.21 does not grant a petitioner the right to
conduct discovery, the statute is not unconstitutional because a defendant has no constitutional right to
state post-conviction relief generally." Id., at P61. See also: State v. Bays, Greene App. No. 2003CA4,
2003 Ohio 3234 at P20. The trial court did not err in failing to allow Defendant to conduct discovery with
respect to his post-conviction proceedings.
[*P44] The second assignment of error is overruled. The judgment of the trial court will be affirmed.
WOLFF, J. And FAIN, J., concur.
End of Document

Appendix F
Appx-0118

State v. Coleman
Court of Appeals of Ohio, Second Appellate District, Clark County
October 4, 2002, Rendered
C.A. Case No.2001-CA-42
Reporter
2002-Ohio-5377 *; 2002 Ohio App. LEXIS 5396 **

STATE OF OHIO, Plaintiff-Appellee vs. TIMOTHY L. COLEMAN, Defendant-Appellant

Subsequent History: Appeal denied by State v. Coleman, 98 Ohio St. 3d 1478, 2003 Ohio 974, 784
N.E.2d 711, 2003 Ohio LEXIS 559 (2003)

Prior History: [**1] (Criminal Appeal from Common Pleas Court). T.C. Case No. 96-CR-0142.
State v. Coleman, 85 Ohio St. 3d 129, 1999 Ohio 258, 707 N.E.2d 476, 1999 Ohio LEXIS 809 (1999)

Disposition: Trial court's judgment was affirmed.

Counsel: STEPHEN C. COLLINS, Assistant Prosecuting Attorney, Springfield, Ohio, Attorney for
Plaintiff-Appellee.
DAVID H. BODIKER, Ohio Public Defender, RICHARD J. VICKERS, Post-Conviction Supervisor,
Death Penalty Division, WENDI L. DOTSON, and ROBERT K. LOWE, Office of the Public Defender,
Columbus, Ohio, Attorneys for Defendant-Appellant.

Judges: BROGAN, J. WOLFF, P.J., and YOUNG, J., concur.

Opinion by: BROGAN

Appendix G
Appx-0119

Page 2 of 15
2002-Ohio-5377, *2002-Ohio-5377; 2002 Ohio App. LEXIS 5396, **1

Opinion
BROGAN, J.
[*P1] Timothy Coleman appeals from the Clark County Common Pleas Court's denial of his postconviction relief petition which sought to vacate his death penalty conviction.
[*P2] Coleman was convicted of the capital murder of Melinda Stevens on February 21, 1997. On
November 2, 1997 Coleman filed his post-conviction petition which he amended three times. The trial
court dismissed his petition on May 31,2001, without an evidentiary hearing. This appeal followed.
[*P3] The facts underlying Coleman's conviction are set out in the Ohio Supreme Court's opinion in
State v. Coleman (1999), 85 Ohio St.3d 129, 707 N.E.2d 476 in which the supreme court affirmed [**2]
his conviction and sentence. The facts need not be repeated here.
[*P4] In his first assignment, Coleman contends the trial court erred in denying him an evidentiary
hearing. In the second assignment, Coleman contends Ohio's post- conviction process violates the due
process and equal protection provisions of the Fourteenth Amendment.
[*P5] Coleman alleged a number of claims that his trial counsel were ineffective in representing him.
(Claims 3-21). In Claim 3, Coleman contends his trial counsel were ineffective in not filing a motion to
review grand jury transcripts to determine if the prosecution presented a murder weapon as evidence to
the Clark County Grand Jury without presenting it as evidence at his trial. In support of this claim,
Coleman submitted his own affidavit in which he stated "I was also told that the prosecutor showed the
grand jury a gun which he stated was the actual weapon used to kill Melinda Stevens. The police,
however, never received the crime weapon."
[*P6] The State presented the affidavit of Prosecuting Attorney Stephen A. Schumaker, who stated that
no weapon was ever presented to the grand jury nor was any weapon ever recovered by law [**3]
enforcement.
[*P7] In overruling this ground for relief, the trial court stated:
[*P8] "Defendant's third ground for relief alleges that trial counsel was ineffective for failing to properly
investigate his need for grand jury transcripts. The substance of the defendant's claim is that a gun, alleged
to be the murder weapon, was presented to the grand jury. However, the State never claimed to have
found the murder weapon nor was a murder weapon ever produced at trial. Defense counsel could not be
expected to examine something that was never found. Unsubstantiated speculation is insufficient to
establish substantial grounds for relief. Defendant's third ground for relief is DENIED."
[*P9] In reviewing a petition for post-conviction relief filed pursuant to R.C. 2953.21, a trial court may,
in the sound exercise of discretion, judge the credibility of the affidavits in determining whether to accept
the affidavits as true statements of fact. State v. Calhoun (1999), 86 Ohio St.3d 279, 714 N.E.2d 905. The
trial court apparently credited the affidavit of the prosecutor that no weapon was ever presented to the
grand jury and apparently [**4] discredited Coleman's claim that his lawyer told him a murder weapon
was presented as evidence at the grand jury. The trial court apparently found it illogical that the State

Appendix G
Appx-0120

Page 3 of 15
2002-Ohio-5377, *2002-Ohio-5377; 2002 Ohio App. LEXIS 5396, **4

would present the alleged murder weapon as evidence at the grand jury but not at trial. We see no error in
the court's resolution of Coleman's third claim for relief.
[*P10] In his fourth ground for relief, Coleman argues that his appointed trial counsel Jon and James
Doughty were constitutionally ineffective for permitting a juror to sit on his case who had disclosed in his
questionnaire that he was "related to or a close friend of" the county prosecutor or his staff. In support of
this claim, Coleman submitted a copy of the questionnaire. (Defendant's Exhibit 13). The juror, Jesse A.
Wilkerson disclosed that he was 21 years old and was of the African American race. Wilkerson answered
yes to the question of whether he was related to or was a close friend of the County Prosecutor or a
member of his staff.
[*P11] The State argued that Coleman failed to make out a claim for ineffectiveness on this claim
because Wilkerson consistently stated he would be fair and impartial and that counsel may have
wished [**5] to keep him on the jury because he was a young, African-American male like Coleman. The
State noted that Coleman's counsel objected to the State's use of peremptory challenges to some black
jurors leaving Wilkerson as the only black juror.
[*P12] The trial court denied Coleman's fourth claim because there was no evidence that Wilkerson
would be anything but fair and impartial and counsel may have wished to have a young black man serve
on the jury. We agree with the trial court that it is certainly within the range of reasonable representation
for Coleman's counsel to have concluded that Wilkerson's relationship with the prosecutor's office was
outweighed by the desire of having at least one black juror on the jury. (The record indicates Coleman
was a 26 year old black male at the time of his arrest). The Supreme Court has noted that it will not
second guess strategies employed during voir dire. State v. Coleman, supra at 133. The trial court
properly overruled this claim without a hearing.
[*P13] In his fifth claim, Coleman asserted that his counsel were ineffective for failing to meet with his
prior counsel who had conducted an investigation of his murder [**6] charge, failed to investigate
information in prior counsel's files, failed to conduct follow up investigations of witnesses, and failed to
adequately interview him. In aid of this claim, Coleman submitted the affidavit of John Juergens. Juergens
was representing Coleman on drug charges when Coleman was charged with the capital murder of
Belinda Stevens. Juergens stated he did some preliminary investigation of the murder charge although he
was not representing Coleman on those charges. Juergens said he turned his investigation file over to the
Doughtys, Coleman's appointed lawyers in the murder case. He said he never heard from the Doughtys.
[*P14] Coleman also alleged that the Doughtys were ineffective because they only called two witnesses
in his defense in the guilt phase of the trial. Coleman also alleged the Doughtys were ineffective in
waiting to hire a private investigator until the eve of trial. He also contended there was no evidence that
the Doughtys interviewed those persons who gave statements to the police who were not called to testify
for the State. Lastly, he contended the Doughtys did not interview him about his defense until the day of
trial.
[*P15] In [**7] response the State submitted the affidavit of Jon Doughty who stated he did not recall
receiving any information from John Juergens regarding the murder investigation. He said he and his
father, James Doughty, spent at least 60 hours with Coleman prior to the trial preparing for the guilt and
mitigation phases of the trial. The trial court overruled this claim because it found that the Doughtys'
failure to meet with Juergens could not have affected the outcome of Coleman's trial.

Appendix G
Appx-0121

Page 4 of 15
2002-Ohio-5377, *2002-Ohio-5377; 2002 Ohio App. LEXIS 5396, **7

[*P16] We agree with the State that the trial court properly overruled Coleman's fifth claim for relief.
Coleman presented no evidence that Juergens had any material from his investigation which may have
been useful in affecting the outcome of Coleman's trial. Jon Doughty stated that he and his father spent
sixty hours with Coleman preparing for the trial. The trial court again apparently simply found Coleman's
claim to be incredible. State v. Calhoun, supra.
[*P17] In his sixth claim, Coleman claimed that the Doughtys were ineffective because they did not
present certain alibi testimony at his trial. Specifically Coleman alleged in his petition that he was with
Dana Strodes at [**8] Fayette Strode's house between 6:30 p.m. and sometime the next day January 3,
1997 and therefore could not have killed Melinda Stevens who was killed near 7:20 p.m. on January 2,
1997.
[*P18] In support of his claim, Coleman submitted the affidavit of Dana Strodes. Ms. Strodes stated that
Coleman was her boyfriend in December and January 1996 and Coleman fathered a child by her. Ms.
Strodes said she met Coleman at her grandmother's house on South Jackson Street in Springfield at about
6:30 p.m. on January 2, the night of the murder. She said she was with Coleman from that time until the
next day. She said she watched television with Fayette Strodes, Gary Strodes and James Strodes at her
grandmother's house. Dana Strodes stated that she was never contacted by any member of the defense
team, but she would have been willing to testify on Coleman's behalf. Coleman also submitted the
handwritten notes made by Detective Jeffrey Flores of an interview Flores had with Dana Strodes on
February 7, 1996. (Def. Ex. 30). In the notes, Flores says Strodes told him that Coleman came to the
Strodes' house when Wheel of Fortune was on television (7:00 p.m.) and she did not know how he got
there. [**9] Coleman also submitted the notes of Detective Sergeant Al Graeber (Def. Ex. 31). In these
notes, Graeber notes on February 7, 1996, Dana Strodes told him that Coleman came to her grandmother's
house during the Wheel of Fortune show.
[*P19] The State submitted the affidavit of Jon Doughty who stated that Coleman never indicated to him
that he had an alibi on the night of the murder. Doughty said Coleman's story to him was consistent with
what he told Detective Graeber on the day following the murder and he never mentioned Dana Strodes as
a possible defense witness. The State noted that Coleman admitted to Detective Graeber that he was with
Melinda Stevens between 7 and 7:15 p.m. on the night of the murder at Riddle's Ribs just shortly before
her body was discovered by EMT personnel.
[*P20] In its motion for summary judgment, the State argued the sixth claim should be overruled
because Coleman never told his lawyers about his potential alibi. More importantly, the State also noted
that Coleman told Graeber that he was with Melinda Stevens between 7 and 7:15 p.m. on the night of the
murder. The State also notes that Coleman admitted that he went to Riddle's and purchased [**10]
chicken wings for Melinda shortly before her body was discovered. (Coleman's affidavit did not indicate
the time he went to Riddle's with Stevens).
[*P21] In overruling Coleman's sixth claim, the trial court stated the following:
[*P22] "Defendant's sixth ground for relief alleges ineffective assistance of counsel for failure to present
alibi testimony. However, the purported alibi conflicts with defendant's own statements made to Detective
Graeber with respect to defendant's location on the evening in question. Defendant's statements to the
officers were consistent with his statements to counsel. Presenting the alleged alibi, which appears untrue

Appendix G
Appx-0122

Page 5 of 15
2002-Ohio-5377, *2002-Ohio-5377; 2002 Ohio App. LEXIS 5396, **10

from the conflicting affidavits and defendant's own statements, could have resulted in more harm than
help.
[*P23] "The alibi is contained in the affidavit of Dana Strodes. Dana Strodes claims the defendant was
with her from 6:30 p.m. on the night in question until the next morning. Defendant's own statements to
Detective Graeber was that he was at Riddle's Ribs at 7:00 p.m. and at a pay phone at 7:30 p.m.,
Defendant's statements contradicts his alibi.
[*P24] "The alibi also conflicts with the statements of the witnesses, [**11] Hope Strodes, Vera
Strodes, Fayette Strodes and Lynnda Gaskins. Therefore, defendant's sixth ground for relief has no
legitimate grounds and is DENIED."
[*P25] The trial court rejected Coleman's sixth claim because it found Dana Strodes' affidavit to be false
in light of other evidence presented at trial. In Calhoun, the Supreme Court stated the court should
consider all relevant factors in assessing the credibility of affidavit testimony in so-called paper hearings.
The court said a factor to consider is whether the judge reviewing the petition also presided at the trial,
whether the affiant is a relative or otherwise interested in the success of the petitioner's efforts, and
whether the affidavits contradict evidence offered at trial by the defense.
[*P26] In this case the same judge presided at trial and over the petition. The affidavit was provided by
Coleman's girlfriend at the time of the murder who certainly was interested in the success of Coleman's
efforts. Also Coleman did not rebut Doughty's affidavit that Coleman did not tell him that Dana Strodes
could provide an alibi for him. Hope Strodes, Vera Strodes, Fayette Strodes, and Lynnda Gaskins all
testified [**12] at the trial that Coleman arrived at the Strodes' house as "Wheel of Fortune" was ending
just before the Ohio Lottery came on at 7:30 p.m. This testimony is consistent with Coleman's taped
statement to Detective Graeber that he was with Melinda Stevens between 7:00 and 7:15 pm. "cause I
didn't get to play my numbers." (Tr. 981). We see no error in the trial court's denial of Coleman's sixth
claim without an evidentiary hearing.
[*P27] In his seventh claim, Coleman contended that his counsel were ineffective in not investigating
allegations that police improperly influenced Kinsley Crowley, Larry Terrell, William Love, and Dana
Strodes to lie in order to implicate him in the murder
[*P28] of Melinda Stevens. Coleman presented the affidavit of Kinsley Crowley, an inmate, who stated
in an affidavit dated October 30, 1997, that Detective Smoot told him "he would help me for my time if I
said I saw Tim kill Melinda." (Def. Ex. 10).
[*P29] In its motion for summary judgment, the State presented the affidavit of Detective Nathaniel
Smoot who swore he never threatened any witness to testify in a certain manner, nor to influence their
testimony by any promises of leniency. [**13] The State also presented the typed interview of Crowley
conducted by Detective Smoot and Flores on January 10, 1996. In the interview Crowley stated he saw
Coleman and his cousin Melinda Stevens leave Riddles together about five minutes before Chris Holtz
discovered Melinda's dead body. The State asserted in its motion that no criminal charges were pending
against Crowley at the time he made his statement to the Springfield detectives in January 1996.
[*P30] Coleman submitted the affidavit of Larry Terrell who was incarcerated with Coleman in the
county jail from January to May 1996. Terrell stated that Detective Smoot asked him if Coleman came by
to pick up James Strodes to help him killAppendix
Melinda Stevens.
G He said he denied any knowledge that

Appx-0123

Page 6 of 15
2002-Ohio-5377, *2002-Ohio-5377; 2002 Ohio App. LEXIS 5396, **13

Coleman was with Strodes the night Melinda was murdered. In its notes, the State notes there was no
claim by Terrell that Smoot tried to improperly influence Terrell to implicate Coleman in the murder.
[*P31] Coleman presented the affidavit of William Love who stated in an affidavit dated December 22,
1997, that he was an inmate in the Clark County Jail in 1996 and was told by an unnamed inmate that
inmates' sentences would be reduced [**14] if they testified against Coleman. He stated he heard a
younger inmate agree to help out and later detectives took him out and interviewed him. He stated he
didn't know whether the prosecution or police actually did offer such a deal to anyone.
[*P32] Coleman offered the affidavit of Dana Strodes dated November 19, 1997. In it Strodes stated she
called the police on a date unspecified for assistance in a domestic argument. She said the police told her
they wanted to get Tim Coleman and asked her to file domestic violence charges against him even though
the charges weren't warranted. The State offered the affidavit of Jon Doughty who stated that no one ever
contacted him with concerns that Detective Smoot or any police officer ever tried to influence their
testimony.
[*P33] In granting summary judgment on Coleman's seventh claim, the trial court noted that the record
failed to disclose any substantial facts to support this allegation of ineffectiveness on counsel's part. We
agree that the record fails to establish any evidence that police sought to improperly influence any of the
witnesses who offered their affidavit or that the Doughtys were ever aware of any such claim [**15] of
misconduct by the police. The trial court properly overruled the seventh claim without an evidentiary
hearing.
[*P34] In his eighth claim Coleman contends his trial counsel were ineffective because they admitted to
John Stojetz that they hurried through Coleman's case so they could begin work on his case. In support of
this allegation, Coleman submitted the affidavit of John Stojetz (Def. Ex. 14). In the affidavit Stojetz
stated he was represented by the Doughtys in a capital murder case and during a recess he said he asked
Jon Doughty if he thought he might get the death penalty. Stojetz said Doughty replied, "No, Coleman
was a typical stupid nigger." He said Doughty said Coleman told several people in a bar that "he killed the
bitch, she won't tell on me no more." Stojetz said Doughty said in light of Coleman's remarks he "just
went through the motions" with the Coleman case. Stojetz said Doughty told him he wanted the Coleman
case finished so he could begin work on his trial. The State countered with Jon Doughty's affidavit
wherein he stated he spent between 350-400 hours working on Coleman's case. Doughty emphatically
denied all of Stojetz's allegations.
[*P35] [**16] In denying the eighth claim, the trial court noted that Stojetz is a convicted felon on
death row for the murder of a prison inmate and the Doughtys were his counsel and he had an obvious
reason to further his position. The court stated that it found Stojetz's statements suspicious and without
credibility. The court fully credited Doughty's affidavit and noted that any inconsistencies in the state's
evidence were identified.
[*P36] Again State v. Calhoun is a basis for overruling Coleman's claim. The trial court was in the best
position to view the conduct of trial counsel and whether counsel appeared adequately prepared to address
the State's case and to present evidence in Coleman's behalf. The eighth claim was properly denied
without a hearing.
[*P37] In his ninth claim, Coleman contended that his trial counsel were ineffective in not arguing
G
residual doubt to the jury in the guilt phase ofAppendix
the trial. Specifically,
Coleman contends his counsel did not

Appx-0124

Page 7 of 15
2002-Ohio-5377, *2002-Ohio-5377; 2002 Ohio App. LEXIS 5396, **16

argue that other people who Melinda Stevens informed the police about had an equal motive to end
Melinda's life, did not point out the lack of fingerprints tests on the K-Swiss shoes allegedly worn by him
and did not [**17] point out lack of DNA evidence or credible physical evidence connecting him to the
crime.
[*P38] The State argues that it would have been ludicrous for counsel to have argued the presence of
"residual doubt" during the guilt phase of the trial because such an argument concedes the lack of
reasonable doubt. Franklin v. Lynaugh (1988), 487 U.S. 164, 188, 101 L. Ed. 2d 155, 108 S. Ct. 2320.
(Residual doubt is a "lingering uncertainty about facts, a state of mind that exists somewhere between
'beyond a reasonable doubt' and 'absolute certainty'").
[*P39] In the direct appeal, Coleman asserted that his counsel was ineffective for not pursuing a
substantial number of leads pointing to another killer. The Supreme Court found this claim to be baseless.
State v. Coleman, supra, at 134. Nothing in the post-conviction evidentiary material suggests counsel was
ineffective in not pursuing other "leads." The trial court properly rejected Coleman's ninth claim as well.
[*P40] In his tenth claim, Coleman argued his counsel were ineffective in not conducting an adequate
investigation into Coleman's background for mitigation evidence.
[*P41] [**18] In support of this claim, Coleman submitted the affidavit of Dana Strodes. (Def. Ex. 19).
In her affidavit she said that had the Doughtys talked to her, she would have been willing to testify that
Coleman loved and cared for his son and that he was never violent towards her. She would also have said
he was a good father. Coleman argued that Athea Martin and Susan Smith, both who had a child by
Coleman, would have provided similar testimony. Coleman argued that the testimony if offered in the
mitigation phase of the trial was crucial given the fact there was residual doubt whether he committed the
crime.
[*P42] In opposition, the State presented the affidavit of Detective Jeffrey Flores who stated that Dana
Strodes told him that Coleman shot her in 1992.
[*P43] In overruling the tenth claim, the trial court found that the record did not support Coleman's
claim that further investigation by counsel would have produced any more mitigating evidence than the
testimony of Coleman's father.
[*P44] In State v. McGuire (1997), 80 Ohio St.3d 390, 686 N.E.2d 1112, the Supreme Court held that
residual doubt is no longer a mitigating factor. In any event, the court [**19] held the overwhelming
evidence of Coleman's guilt precluded the presence of residual doubt. The court also held that the trial
record did not support Coleman's speculation that further investigation would have produced significant
mitigating evidence. The court noted the fact that Coleman fathered several children from different
women without marrying them was hardly mitigating. The court noted that the "failure to present
mitigating evidence . . . does not in itself constitute proof of ineffective assistance." State v. Coleman, 85
Ohio St.3d 129, 138, 707 N.E.2d 476, citing its previous case of State v. Hamblin (1988), 37 Ohio St.3d
153, 524 N.E.2d 476. In this case trial counsel may not have wished to diminish the poignant testimony of
Coleman's father with the testimony of the women who Coleman had impregnated but never married.
Finally, to show prejudice from counsel's failure to present mitigating evidence there must be a reasonable
probability that the evidence would have swayed the jury to impose a life sentence. State v. Keith (1997),
79 Ohio St.3d 514, 684 N.E.2d 47. Assuming Dana Strodes, Athea Martin, and Susan Smith all testified
G toward them, it is highly improbable the
that [**20] Coleman was a good father andAppendix
was never violent

Appx-0125

Page 8 of 15
2002-Ohio-5377, *2002-Ohio-5377; 2002 Ohio App. LEXIS 5396, **20

jury would have been swayed to impose a life sentence in light of the jury's finding that Coleman had
virtually executed Melinda Stevens in retaliation for her informant activities. The tenth claim was
properly rejected by the trial court.
[*P45] In his eleventh claim, Coleman contends his counsel were ineffective in the mitigation phase by
not calling his mother and sister to testify in his behalf. In support of this claim Coleman presented the
affidavits of Sonja Coleman, his sister, and Eula Coleman, his mother.
[*P46] In her affidavit, Sonja Coleman said her brother's behavior began to worsen around his
eighteenth birthday and he moved out of their family home on several occasions. She said her brother was
working at the time of his arrest for the murder and appeared to be financially supporting his children. She
said she was never contacted by her brother's attorneys. Eula Coleman said her son was a happy and
friendly child. She said her son had difficulty in school because of a learning disability. She said her son
became rebellious when he was 17 or 18 years of age. She said [**21] she met with Jon Doughty at his
office to speak with Dr. Erhard Eimer, a psychologist. She said she did not meet with the Doughtys prior
to the trial to discuss her son's case.
[*P47] The trial court overruled this claim noting that the record at trial established that Eula Coleman
could not testify at the mitigation hearing because she was too upset. The court noted that Sonja's
testimony was merely cumulative to that of her father's and there was no likelihood that the outcome of
the sentencing hearing would have been different if counsel had presented her testimony. We agree with
the trial court's resolution of this claim as well. Counsel can hardly be faulted for not calling Eula
Coleman to the stand after she indicated she was too upset to testify. The following occurred at the trial:
[*P48] "Q. Now, Mrs. Coleman is here?
[*P49] "A. Yes, she is.
[*P50] "Q. Your wife, is that true?
[*P51] " A. Yes.
[*P52] " Q. And she's sitting out in the hall, but I understand she doesn't want to testify. Would you tell
the jury why.
[*P53] "A. My wife - - Timothy and his mother, are very, very close. And being a mother, a caring
mother, she have taken [**22] this - - this situation very seriously and have upset her. I would probably
say her blood pressure is a little high at the moment. She's having a hard time sleeping. She's having a
hard time trying to cope with this.
[*P54] "Never - - she never would have imagine that he would have - - anything like this would have
ever happened, you know. So that's why she don't want to testify, in fear that she may lose control or
break down or, you know, or upset Tim or, you know, whatever.
[*P55] "MR. JAMES DOUGHTY: Thank you. Do you have any questions?
[*P56] "MR. SCHUMAKER: State would have no questions for Mr. Coleman, Your Honor.
[*P57] "THE COURT: Thank you, Mr. Coleman."

Appendix G
Appx-0126

Page 9 of 15
2002-Ohio-5377, *2002-Ohio-5377; 2002 Ohio App. LEXIS 5396, **22

[*P58] The trial court properly overruled Coleman's eleventh claim without providing him an
evidentiary hearing.
[*P59] In his twelfth claim, Coleman argues that his trial counsel were ineffective in not presenting the
testimony of Dr. Earhard Eimer, a clinical psychologist during the mitigation phase of the trial. In his
affidavit, Dr. Eimer stated he was retained in January 1997 by the Doughtys to evaluate Tim Coleman. Dr.
Eimer said he interviewed Coleman on four separate occasions for [**23] a total of some 8.25 hours. Dr.
Eimer said he conducted three clinical tests and determined that Coleman had a Compulsive Personality
Disorder. Dr. Eimer said Coleman obtained remarkably low scores for personality disorders that would be
typical of persons likely to engage in violent crimes against persons. He said that the diagnostic
indications emerging from Coleman's tests counter-indicate any other personality disorder, particularly
those associated with a tendency to engage in violent crimes.
[*P60] Further Dr. Eimer said there were three factors which speak against the notion that Tim Coleman
might have engaged in a violent crime: (1) his upbringing in a morally well-integrated family, (2) no
indication of impulsiveness or aggressiveness on Coleman's part even when acutely challenged, and (3)
tendencies to worry and be fearful and not to be manipulative consistent with a personality that is not of a
violent nature.
[*P61] The State argued that it was professionally reasonable for the Doughtys not to have put Dr. Eimer
on the stand in the mitigation phase of the trial because his opinion was not admissible and in any event
would have alienated the jury given the doctor's [**24] opinion that Coleman's personality was
inconsistent with violent conduct. Also the State argued that Eimer's findings that Coleman typically does
not assume responsibility for his problems and tends to blame others were consistent with Coleman
blaming Melinda Stevens for his problems with the law which was the motive for the killing.
[*P62] The trial court overruled this claim adopting the State's position in every respect and we agree
with the trial court's disposition of this claim as well. In light of Dr. Eimer's views that Coleman typically
blames others for his conduct, it is doubtful Dr. Eimer's testimony would have been helpful. In any event,
trial counsel must be accorded substantial deference in making these judgments even in death penalty
cases. There also seems little likelihood Dr. Eimer's testimony would have provided substantial mitigation
to the crime committed by Coleman. The trial court properly overruled Coleman's twelfth claim.
[*P63] In his thirteenth claim, Coleman contended the Doughtys were ineffective in not having Deputy
Steven Williams testify in the mitigation hearing. Williams stated in his affidavit that he transported
Coleman to and from jail [**25] during the capital trial and "at no time during the six day trial, did I
observe Mr. Coleman misbehave or present any kind of resistance while under my supervision." (Ex. 25).
In support of his claim Coleman refers us to the United States Supreme Court case of Skipper v. South
Carolina (1986), 476 U.S. 1, 90 L. Ed. 2d 1, 106 S. Ct. 1669, wherein the court held that it was error to
exclude evidence in the sentencing hearing of two jailers and a "regular" visitor that the defendant had
made a "good adjustment" during the 7 1/2 months he had spent in jail between arrest and trial. Justice
White wrote the following on behalf of the court:
[*P64] "Finally, the State seems to suggest that exclusion of the proffered testimony was proper because
the testimony was merely cumulative of the testimony of petitioner and his former wife that petitioner's
behavior in jail awaiting trial was satisfactory, and of petitioner's testimony that, if sentenced to prison
rather than to death, he would attempt to use his time productively and would not cause trouble. We think,

Appendix G
Appx-0127

Page 10 of 15
2002-Ohio-5377, *2002-Ohio-5377; 2002 Ohio App. LEXIS 5396, **25

however, that characterizing the excluded evidence as cumulative and its exclusion as harmless is
implausible [**26] on the facts before us. The evidence petitioner was allowed to present on the issue of
his conduct in jail was the sort of evidence that a jury naturally would tend to discount as self-serving. The
testimony of more disinterested witnesses--and, in particular, of jailers who would have had no particular
reason to be favorably predisposed toward one of their charges--would quite naturally be given much
greater weight by the jury. Nor can we confidently conclude that credible evidence that petitioner was a
good prisoner would have had no effect upon the jury's deliberations. The prosecutor himself, in closing
argument, made much of the dangers petitioner would pose if sentenced to prison, and went so far as to
assert that petitioner could be expected to rape other inmates. Under these circumstances, it appears
reasonably likely that the exclusion of evidence bearing upon petitioner's behavior in jail (and hence,
upon his likely future behavior in prison) may have affected the jury's decision to impose the death
sentence. Thus, under any standard, the exclusion of the evidence was sufficiently prejudicial to constitute
reversible error." (Emphasis added).
[*P65] In this case [**27] the prosecutor gave a very brief argument in support of the death penalty. The
prosecutor argued the specification of the aggravated murder of a witness outweighed any mitigating
evidence presented by the defendant. We agree with the State's position that even if counsel had presented
the testimony of Deputy Williams, there is no reasonable probability that the jury's sentence would have
been different. Strickland v. Washington, 466 U.S. 668, 104 S. Ct. 2052, 80 L. Ed. 2d 674. The trial court
properly overruled Coleman's thirteenth claim.
[*P66] In his fourteenth claim, Coleman contends the Doughtys were ineffective in not presenting a
cultural expert who could have helped the jury understand why he turned to a life of drug dealing despite
the fact that he had a stable family life. In overruling this claim, the trial court stated that such testimony
would not mitigate the fact that Coleman executed the mother of five children and in any event, even if
mitigating, would not have overcome the aggravated circumstances presented by the State. We agree that
such testimony would not present a reasonable probability of a different sentence than that imposed by the
jury. The trial court properly overruled the fourteenth [**28] claim without an evidentiary hearing.
[*P67] In his fifteenth claim, Coleman contends the Doughtys were ineffective in the sentencing phase
of the trial by not presenting the mitigating testimony of his mother, his sister, his girlfriends, a deputy
sheriff, and the psychologist who evaluated him. He also argues his counsel were ineffective in not
introducing employment records that he was gainfully employed at Fox Lite, Inc. days before the crime
occurred. Also he argues counsel gave a woefully weak closing argument in the mitigation phase of the
trial.
[*P68] In support of this claim, Coleman submitted Exhibit 33 which were Fox- Lite employment
records indicating that Coleman worked as an assembler from November 12, 1995 until February 5, 1996
when he was laid off for lack of work. The trial court overruled this claim again finding nothing in the
claim that suggested a reasonable possibility that the sentence imposed upon Coleman would have been
different had this mitigation evidence been presented.
[*P69] The Doughtys could hardly be faulted for failing to call Mrs. Coleman to the stand when the
record disclosed she was too distraught to testify. The claim that [**29] counsel's final argument was
weak was a claim properly asserted in the direct appeal not in a post-conviction proceeding. The only
additional argument raised herein was counsel's failure to introduce Coleman's employment records which
indicate he was working for three months prior
to the homicide.
Appendix
G The trial court properly denied this claim

Appx-0128

Page 11 of 15
2002-Ohio-5377, *2002-Ohio-5377; 2002 Ohio App. LEXIS 5396, **29

without an evidentiary hearing because there is no reasonable probability that the jury would have found
this additional mitigating evidence would have outweighed the aggravated circumstance.
[*P70] In his sixteenth claim, Coleman contended that the cumulative impact of the litany of counsel's
errors rendered Coleman's capital proceedings unconstitutional. Coleman noted that his counsel failed to
form a meaningful relationship with him, failed to properly investigate his innocence claims, failed to
properly prepare to cross- examine the State's witnesses, failed to adequately conduct voir dire, failed to
properly obtain grand jury transcripts, failed to properly present mitigating evidence, and failed to present
a cogent closing argument in his behalf.
[*P71] The State argued below and in this court that since none of the claims had [**30] individual
merit, they can have no strength in the aggregate. The trial court found the State's argument persuasive
and we do also. The trial court found many of Coleman's claims to be based on incredible testimony and
applied the Calhoun case to its disposition of the claim. Other claims challenged tactical decisions by
counsel and other claims, even if accepted as true, did not suggest a probability that the outcome of
Coleman's trial would be different had counsel acted as Coleman claimed they should have. The trial court
properly overruled Coleman's sixteenth claim as well.
[*P72] In his seventeenth claim, Coleman contends his counsel was ineffective in not effectively
impeaching Christopher Holtz who placed him in the alley with Ms. Stevens just prior to her death. In
support of that claim, Coleman offered Defendant's Exhibit 45 which purports to be a statement given by
Holtz to police. It is not clear who prepared the handwritten statement. It appears to have been prepared
by someone other than Holtz. It starts "Chris saw a man . . . ." Holtz apparently described the man with
Melinda Stevens as being 6 foot or better and 200 - 230 lbs. Coleman contends he is shorter [**31] and
heavier than that and his counsel should have impeached him on this discrepancy. He also says counsel
should have brought out on cross-examination that Holtz did not identify him though he knew him.
Coleman refers us to page 847 of the transcript. The following testimony was given by Holtz at trial:
[*P73] "Q. And can you tell the Jurors how you knew Miss Stevens?
[*P74] "A. How I knew her?
[*P75] "Q. Yeah. How long had you known her?
[*P76] "A. Oh, not very long. I just see her wandering around a couple times through an alley.
[*P77] "Q. Okay. Do you know an individual by the name of Tim Coleman?
[*P78] "A. Not closely.
[*P79] "Q. Okay. Do you know who he was?
[*P80] "A. Yeah.
[*P81] "Q. Okay. Now, when you were in the vicinity of Riddle's Ribs, did you have occasion to see
either of those individuals?
[*P82] "A. In Riddle's."

Appendix G
Appx-0129

Page 12 of 15
2002-Ohio-5377, *2002-Ohio-5377; 2002 Ohio App. LEXIS 5396, **31

[*P83] The trial court overruled this claim finding there was no evidence that counsel's actions
prejudiced Coleman. We have reviewed the record and we agree with the court's resolution of this claim
as well. There is no evidence that Exhibit 45 is Holtz's statement to the police. There is [**32] no
evidence that Coleman's height or weight differs significantly from that allegedly given by Holtz to
police. The trial testimony does not plainly indicate that Holtz knew Coleman or Stevens by name. It does
suggest Holtz knew them from seeing them in the vicinity of Riddle's. Coleman failed to demonstrate that
counsel was ineffective in not properly impeaching Holtz such that an evidentiary hearing was necessary.
[*P84] In his eighteenth claim, Coleman contends his trial counsel were ineffective in not impeaching
the trial testimony of Lynda Gaskins. Ms. Gaskins testified at the trial that she had known Coleman for
about 8 or 9 years prior to the trial and saw him almost daily. Ms. Gaskins said Coleman told her while he
was in jail on the drug charges he learned through the discovery process that the confidential informant
who he had sold the drugs to was Melinda Stevens. (Tr. 1120). Ms. Gaskins testified that when Coleman
got out on bond he told her that he was going to kill Melinda Stevens because he was facing too much
time on the aggravated trafficking charges. (Tr. 1123, 1124). Ms. Gaskins said Coleman came to her
house on the night of the homicide at about 7:30 p.m. [**33] and told her that he "took care of my
business." (Tr. 1129). She testified as follows:
[*P85] "A. Excuse me. He - - he said - - he said, 'I took care of my business.' He said, 'Bloop, bloop, two
to the back of the head.' He said, 'The bitch fell like a rock. Bloop' Then he fell in the middle of my floor.
[*P86] "Q. Wait a minute, now. He said, 'Bloop, bloop.' Then he said, 'The bitch' - [*P87] "A. 'Two to the back of the head.' And then he fell in the - - then he just fell over in the floor,
said, 'She fell like a rock.'
[*P88] "Q. Said she fell like a rock, and he actually physically fell to the floor?
[*P89] "A. Yes."
[*P90] Gaskins testified that Coleman told her he shot Stevens twice in the back of the head in the alley
behind Riddle's. (Tr. 1136).
[*P91] In aid of his petition, Coleman filed a copy of Gaskins' statement to the police on April 5, 1996.
In her statement she said Coleman told her Stevens was the informant who bought the drugs from him but
"I never did get to find out how he got this information." In her lengthy statement Gaskins told police that
Coleman explained he took care of his business, "Pow, pow. Twice to the back [**34] of the head with a
nine."
[*P92] Coleman contends his trial counsel were ineffective in not impeaching Gaskins with the
statement she gave to the police in April 1996. The trial court overruled this claim finding that the claimed
inconsistencies were insubstantial and in any event there was no reasonable probability that the outcome
of Coleman's trial would have been different had counsel pursued this line of impeachment in crossexamination.
[*P93] It is clear that Gaskins' trial testimony that Coleman said he learned of Stevens' identity through
the discovery process in his drug case was not consistent with her police statement. Gaskins' trial
testimony of how Coleman described the killing of Stevens was substantially consistent with her police
Appendix G
statement. We doubt whether the single inconsistency
in Gaskins' testimony would have had any

Appx-0130

Page 13 of 15
2002-Ohio-5377, *2002-Ohio-5377; 2002 Ohio App. LEXIS 5396, **34

significant impact on the jury's evaluation of her testimony. The trial court properly overruled this claim
as well.
[*P94] In his nineteenth claim, Coleman contends his trial counsel were ineffective in failing to impeach
Steve Kasler with a prior statement he gave to police. Kasler testified at the trial that he was a cell
mate [**35] of Coleman at the Columbus Reception Center for a day. He testified that Coleman told him
he shot Melinda Stevens twice in the back of the head with a Davis P-380. (Tr. 1106). He denied he was
receiving any consideration from the State of Ohio for his testimony.
[*P95] In a statement given by Kasler to police on June 20, 1996, Kasler said the informant was white.
Coleman contends counsel should have impeached Kasler with this statement since Melinda Stevens was
an African-American. Coleman says counsel should have impeached Kasler with his statement that
Coleman told him he talked to Edward Tilley before and after the killing since he did not mention this in
his trial testimony. Coleman says counsel should have impeached Kasler with his statement that Coleman
told him his nephew was to be his alibi since Coleman's nephew did not testify at trial.
[*P96] We agree with the trial court's resolution of this claim as well. This claim is difficult to
comprehend. While counsel might have impeached Kasler with his prior statement that Coleman told him
the victim was white, we fail to see how counsel could have impeached Kasler with other aspects of his
statement. In any event, [**36] there is no substantial probability that had counsel pursued this single
line of impeachment of Kasler the trial outcome would have been different. Strickland v. Washington,
supra.
[*P97] In his twentieth claim, Coleman contends his trial counsel were ineffective in not effectively
impeaching the testimony of James White. During the trial, White testified that Coleman approached him
while they were in jail and offered to help get him out on bond if White would help him take care of Ms.
Stevens. (Tr. 722). White testified that when he and Coleman got out of jail he and Coleman discussed
plans of killing Stevens but he never had any intention of carrying out the plan. (Tr. 725-727). He said
Coleman gave him crack cocaine on several occasions during the discussions. (Tr. 725). White said he
saw Coleman on the night of the homicide and Coleman said he "took care of his business." (Tr. 730).
[*P98] Coleman argues that his counsel should have impeached White with his testimony given at
Coleman's trafficking trial because at that trial White's recollection was so poor that he was unable to
recall how many times he and Coleman talked about "getting rid" of Ms. Stevens. (95-CR-0484 [**37] Tr. p. 326). Coleman notes that at his murder trial White was able to remember that the shooting was to
occur on Wiley Avenue. (Tr. 724).
[*P99] We fail to see how trial counsel was ineffective in impeaching the testimony of White. White
testified at the drug trial and at the murder trial that he couldn't remember how many times he and
Coleman talked about the plan to kill Stevens. He said "I didn't keep count." (Tr. 735). We fail to see how
White's remembering the planned location of the planned killing (Wiley Street) was inconsistent with his
inability to remember how many times they had discussed the plan. The trial court properly overruled this
claim as well.
[*P100] In his twenty-first claim, Coleman contends his trial counsel were ineffective in not
investigating other suspects who had a similar motive as he had for killing Melinda Stevens. Coleman
points to the statement of Charles Foster who was interviewed by Springfield Police shortly after the
Appendix
G Stevens she would wind up dead for
homicide. In that statement, Foster admitted
he told Melinda

Appx-0131

Page 14 of 15
2002-Ohio-5377, *2002-Ohio-5377; 2002 Ohio App. LEXIS 5396, **37

snitching for the police. (Ex. 3 pages 6, 17). Coleman points out that Shaun Cunigan gave a statement to
the police also [**38] admitting that he bought drugs from Stevens and he admitted to being in Wiley's
alley just prior to the homicide. Coleman points out that "Corky" and "Fat Dean" also bought drugs from
Stevens and both were in Springfield at the time of her death. He also points out that Monica Roe told
police she and Melinda were riding around with two drug dealers from Dayton on the evening of her
death. Coleman also points out that there were reports to police that Ms. Stevens' eleven year old daughter
witnessed her mother's killing. (Ex. 17, p. 4).
[*P101] The trial court overruled this claim because the court found there was overwhelming evidence
of Coleman's guilt in the trial record.
[*P102] Coleman contends counsels' failure to pursue the investigation was particularly egregious given
the lack of physical evidence tying him to Stevens' homicide. The Ohio Supreme Court, however,
addressed this claim that there was a lack of physical evidence linking Coleman to the crime.
[*P103] In any event, there was physical evidence and other testimony that reinforced Coleman's
admissions that he had killed Stevens. Inmate Donovan Hayes corroborated White's testimony. Fayette,
Gaskins, and [**39] White all testified to Coleman's obsession to get Stevens. Several witnesses testified
that Coleman wore a flannel shirt that evening, with cockleburs stuck on it. Police later found a flannel
shirt replete with cockleburs, identified as what Coleman wore that day, abandoned in a doghouse at the
Strodeses' residence.
[*P104] Dr. Stewart, the pathologist, confirmed descriptions given by Coleman to Gaskins and Kasler as
to where and how Coleman shot Stevens, i.e., two bullets to the back of the head. Also, the severed
vertebrae corroborated Coleman's description that Stevens "dropped like a rock" when she was shot.
Furthermore, shells of .380 caliber bullets were found at the scene, and a forensic expert verified that the
.380 caliber bullets were likely fired from a Davis P-380, the same type of gun that Coleman told Kasler
he used to shoot Stevens. Additionally, Davis P-380 automatics come in chrome models and Hope Strodes
saw Coleman with a silver, semi-automatic gun less than an hour before the murder. Given the strength of
this evidence, Coleman's claim that a substantial number of leads point to another killer other than
Coleman is baseless. Nothing in the record suggests [**40] any other killer.
[*P105] The court also noted that Coleman's trial counsel faced an enormous task in representing
Coleman given his propensity to talk to others about how he was going to kill Stevens, and then after the
crime how he had in fact done so. Coleman, 85 Ohio St. 3d at 135.
[*P106] The evidentiary material does indicate that Stevens made drugs buys for the police from other
individuals in the Springfield area. These other individuals however did not brag to their friends that they
had "taken care of" Melinda Stevens. Also we have examined Ms. Almon's statement (Def. Ex. 17) and
nowhere does Ms. Almon state that Melinda's daughter saw her mother shot. Ms. Almon said Rosa told
her Lindsay was in Riddle's with her mother before her mother was killed. (Ex. 17, p. 3).
[*P107] We agree with the trial court's finding that an evidentiary hearing was not necessary to resolve
this claim. The evidentiary material does not provide evidence that Coleman was prejudiced by his
counsel's conduct. The material does not suggest the reasonable probability that had counsel investigated
these "leads" a different trial result would have occurred. The trial court properly overruled the [**41]
twenty- first claim.

Appendix G
Appx-0132

Page 15 of 15
2002-Ohio-5377, *2002-Ohio-5377; 2002 Ohio App. LEXIS 5396, **41

[*P108] Coleman requested discovery in aid of each of his twenty-one claims. Coleman contended that
discovery was necessary because of the insurmountable burden of collecting evidence in support of valid
claims prior to the filing of his post-conviction petition. Coleman contended in the trial court that Ohio
post-conviction process is rendered meaningless without access to traditional discovery mechanisms. The
trial court overruled Coleman's request.
[*P109] Some courts have held that whether discovery may be had on a post-conviction claim is a matter
committed to the sound discretion of the trial court. State v. Wiles (1998), 126 Ohio App.3d 71, 709
N.E.2d 898; State v. Sherills (Jan. 16, 1992), Cuyahoga App. No. 61882, 1992 Ohio App. LEXIS 173.
Other courts including this court have held that there are no provisions in the post-conviction statute for a
petitioner to obtain discovery. State v. Spirko (1998), 127 Ohio App. 3d 421, 713 N.E.2d 60; State v.
Kinley (1999), 136 Ohio App.3d 1, 735 N.E.2d 921. In State v. Hooks (October 30, 1998), Montgomery
App. Nos. 16978, 17007, 1998 Ohio App. LEXIS 5044, this court held there was no constitutional
or [**42] statutory right to funding of an expert in aid of a post-conviction petition.
[*P110] Coleman contends in his second assignment that Ohio's post- conviction process fails to comply
with the due process and equal protection provisions of the Fourteenth Amendment.
[*P111] Coleman cites three federal circuit cases which he contends supports his position that Ohio's
post-conviction process is inadequate. These cases, however, do not support his argument that discovery
is necessary before petitioner demonstrates a threshold justification for an evidentiary hearing. These
cases simply demonstrate that collateral relief is often unavailable or effective as a state remedy in Ohio
because of the Ohio Supreme Court's application of the doctrine of res judicata to claims which could
have been raised on direct appeal. See, State v. Perry (1967), 10 Ohio St.2d 175, 178, 39 Ohio Op. 2d
189, 226 N.E.2d 104; see Keener v. Ridenour (1979), 594 F.2d 581, 13 Ohio Op. 3d 372.
[*P112] It is fundamental that courts must presume the constitutionality of legislation until the party
attacking it has demonstrated that the statute is unconstitutional beyond a reasonable doubt. Coleman has
simply [**43] failed to demonstrate that to us here. Accordingly, his second assignment must likewise be
overruled. The judgment of the trial court is Affirmed.
WOLFF, P.J., and YOUNG, J., concur.
End of Document

Appendix G
Appx-0133

State v. Coleman
Supreme Court of Ohio
December 15, 1998, Submitted ; March 31, 1999, Decided
No. 97-737
Reporter
85 Ohio St. 3d 129 *; 707 N.E.2d 476 **; 1999 Ohio LEXIS 809 ***; 1999-Ohio-258

THE STATE OF OHIO, APPELLEE, v. COLEMAN, APPELLANT.

Subsequent History: As Corrected September 1, 1999. Certiorari Denied October 18, 1999, Reported
at: 1999 U.S. LEXIS 6982 [***1] .
Reconsideration denied by State v. Coleman, 85 Ohio St. 3d 1481, 709 N.E.2d 851, 1999 Ohio LEXIS
1506 (1999)
Post-conviction relief denied at State v. Coleman, 2002 Ohio 5377, 2002 Ohio App. LEXIS 5396 (Ohio
Ct. App., Clark County, Oct. 4, 2002)
Post-conviction relief dismissed at State v. Coleman, 2005 Ohio 3874, 2005 Ohio App. LEXIS 3583
(Ohio Ct. App., Clark County, July 29, 2005)

Prior History: APPEAL from the Court of Common Pleas of Clark County, No. 96-CR-142.

Disposition: Judgment affirmed.
[*129] On the night of January 2, 1996, Melinda Stevens was shot to death in an alley behind Riddle's
Ribs in Springfield, Ohio. Timothy Coleman, appellant, was convicted of her aggravated murder and
sentenced to death.
During the previous summer, Stevens had worked as a confidential informant for the Springfield police
and made controlled purchases of drugs from suspected drug dealers. On three separate occasions, Stevens
made purchases of crack cocaine from Coleman, which were observed and recorded by the police.
As a result of these sales, a grand jury indicted Coleman in September 1995 for aggravated trafficking in
cocaine and associated possession offenses. Stevens [*130] was a material witness to these offenses, but
her identity was not listed in the indictment. Coleman pled not guilty to these charges.
While in jail awaiting trial for these charges, Coleman told his cellmate, James R. White, that he had
discovered that Stevens was the one that "got him busted" [***2] and that "if he [Coleman] got out on

Appendix H
Appx-0134

Page 2 of 15
85 Ohio St. 3d 129, *130; 707 N.E.2d 476, **476; 1999 Ohio LEXIS 809, ***2

bond, he was going to take care of her." According to White, Coleman stated that he had a newborn baby,
was facing fifteen to forty-five years on the pending drug charges, and "couldn't * * * do that much time
in the joint." Coleman had known White for years and asked him to "take care" of Stevens if White got
bailed out first. However, Coleman was released first on October 12. Another inmate, Donovan Hayes,
testified that he heard Coleman tell White "that if it was her [Stevens] that was responsible for him being
here, he would have to do something to her."
White was released from jail in mid-November and testified that Coleman again asked him to help "take
care" of Stevens. They talked about burning down Stevens's house or the possibility of White shooting
her. Early on January 2, 1996, Coleman saw White twice and told White he would pick him up that
evening to take care of Stevens, but Coleman never showed up. On January 3, after Stevens had been
killed, Coleman told White that "he took care of his business."
Christopher Holtz testified that he saw Stevens and Coleman on the evening of January 2, 1996 around
7:00 or 8:00 p.m. at Riddle's Ribs, [***3] apparently buying takeout food. Holtz recalled that Coleman
was wearing a flannel-type shirt and that Stevens and Coleman left Riddle's together around the same time
Holtz did. Holtz last saw the two alone in a nearby alley. The weather that evening was cold, windy, and
snowing. As Holtz was walking home, he heard shots.
Around 7:25 p.m., police and paramedics responded to the alley behind West Pleasant Street near Riddle's
Ribs, the scene of a shots-fired report. They found Stevens lying face up with no pulse or respiration and
only minimal heart activity. Although the paramedics took Stevens to the hospital, the coroner later
concluded that Stevens had died at 7:20 p.m. on January 2, 1996. Icy rain had fallen that evening,
followed by heavy snow and strong winds, thereby hampering investigative efforts.
Coleman frequently visited the house of Fayette Strodes in Springfield. Strodes's granddaughter, Dana,
had a child by Coleman, and Fayette's son, James Strodes, was Coleman's friend. Prior to January 2, 1996,
Coleman told Fayette several times that "he was going to kill [a] black bitch" to whom he had sold drugs
because she was a "drug informant." Vera L. Strodes, Fayette's daughter, [***4] also recalled Coleman
discussing his legal problems, saying, "he's not going to do any time," and also talking about "popping the
bitch."
Coleman also talked frequently with Lynnda M. Gaskins, who lived across the street from Fayette.
Gaskins testified that Coleman talked constantly about his [*131] legal problems and that he had found
out that Stevens was the confidential informant in the case against him. Gaskins further testified that
Coleman stated, "if they don't have a witness, they don't have a case," and also said, "he was going to kill
her."
Hope Strodes, Fayette's granddaughter, recalled that Coleman visited the Strodeses' house early on the
evening of January 2, and asked her for some bullets. Hope told him that there was a box of bullets on a
shelf. Coleman took some bullets, showed Hope a silver gun with a clip, and said, "I'm going to go take
care of a bitch that set me up."
Around 7:30 p.m. that same evening, Coleman stopped in for a few minutes to see Gaskins and told her, "I
took care of my business." When asked what he meant, Coleman replied, "Bloop, bloop, two to the back
of the head * * * . The bitch fell like a rock," while demonstrating at the same time what happened
by [***5] physically falling to the floor. After January 3, Coleman again talked with Gaskins and

Appendix H
Appx-0135

Page 3 of 15
85 Ohio St. 3d 129, *131; 707 N.E.2d 476, **476; 1999 Ohio LEXIS 809, ***5

disclosed to her that the murder occurred in an alley behind Riddle's Ribs and that he had slowed down
while walking in order to shoot Stevens from behind.
After Coleman left Gaskins's house that night, he went back to the Strodeses' residence. Hope, Vera, and
Fayette all testified that Coleman did not look normal and was nervous. Vera testified that he was wearing
a flannel shirt that had cockleburs on it. Coleman told Fayette that he "had took care of it." When she
asked what, he said "Melinda" and "twice in the head" because he "couldn't do that many years."
On January 3, 1996, police interviewed Coleman after advising him of his rights. Coleman asserted to
police that sometime after 7:00 p.m. on January 2, Stevens came to the house of Coleman's daughter, next
to Riddle's Ribs, and asked him for money to buy food for her children. Coleman told her he was not
going to give her money, but that he would walk over there and pay it for her. After going to Riddle's and
paying for the food, Coleman stated that he left, did not see Stevens again, and did not know she had been
murdered.
Coleman later talked [***6] with Vera Strodes about the fact that people on the street were saying that he
shot Stevens. At first, Coleman denied shooting Stevens, but later admitted to Vera that he "did take the
bitch out." While in jail awaiting trial, Coleman described the murder to fellow inmate Antwan Warren,
revealing that while he was walking out of the restaurant with Stevens, he "slowed down his step and shot
her."
Dr. Robert Stewart, a forensic pathologist, concluded that Stevens died as a result of two gunshot wounds,
one to the back of her head and one to the base of her neck. The first bullet stopped at the front-left side of
her brain. The second [*132] bullet shattered the first vertebra and severed her spinal cord, traveled
upward into the sinus cavity, and lodged just under the cheek skin.
Because the weather stayed cold until mid-January, ice and snow remained on the ground, hampering
efforts to secure physical evidence at the murder scene. One officer estimated that on January 3, there
were two inches of ice and four inches of closely packed snow in the alley. Eventually, on January 17,
police officers found two spent .380 caliber shell casings near a bloodstain remaining in the alley.
A forensic expert [***7] identified the two bullets removed from Stevens's body as .380 caliber bullets
fired from an automatic or semiautomatic firearm, particularly either a Colt government model or a Davis
P-380. The Davis P-380 comes in either steel or chrome models. Gunpowder residue on Stevens's clothing
indicated that she had been shot from less than four feet away.
In May 1996, Coleman shared a prison cell with Steven L. Kasler, an inmate at an Ohio correctional
center. Coleman told Kasler that he was awaiting trial for killing a drug informant named Melinda
Stevens, and that he thought "if he killed her * * * he could beat his drug charges." Coleman said he shot
Stevens twice in the back of the head using a Davis P-380. He also told Kasler that he shot her in an alley
under "pretty severe, blizzard conditions" because he thought the weather would hamper the investigation.
He then disclosed to Kasler that he had gotten rid of his gun and hidden his clothes in a doghouse in
Fayette's back yard. In fact, police never found the murder weapon, but did recover from the Strodeses'
doghouse a tennis shoe and a flannel shirt identified as clothing that Coleman wore on January 2.
Coleman was indicted in March [***8] 1996 for the aggravated murder of Melinda Stevens with prior
calculation and design. Count I of the indictment contained a death specification that Coleman murdered
Stevens, a witness to an offense, to prevent her from testifying in a criminal proceeding in violation of

Appendix H
Appx-0136

Page 4 of 15
85 Ohio St. 3d 129, *132; 707 N.E.2d 476, **476; 1999 Ohio LEXIS 809, ***8

R.C. 2929.04(A)(8). Count I of the indictment also contained a firearm specification in violation of R.C.
2929.71. Furthermore, the grand jury indicted Coleman for possession of a firearm while under a
disability.
The trial jury found Coleman guilty on all charges. Following the penalty phase hearing, the jury
recommended the death penalty, and the trial court sentenced Coleman to death.
The cause is now before this court upon an appeal as of right.
Counsel: Stephen Schumaker, Clark County Prosecuting Attorney, and Stephen Collins, Assistant
Prosecuting Attorney, for appellee.
David H. Bodiker, Ohio Public Defender, Kelly Culshaw and J. Joseph Bodine, Jr., Assistant Public
Defenders, for appellant.

Judges: FRANCIS E. SWEENEY, SR., J., MOYER, C.J., DOUGLAS, RESNICK, PFEIFER, COOK and
LUNDBERG STRATTON, JJ., concur.

Opinion by: FRANCIS E. SWEENEY, SR.

Opinion
[*133] [**482] FRANCIS E. SWEENEY, SR., J. Appellant has raised ten propositions of law for our
consideration, which we have fully reviewed [***9] according to R.C. 2929.05(A). Pursuant to State v.
Poindexter (1988), 36 Ohio St. 3d 1, 520 N.E.2d 568, and subsequent cases, we summarily reject without
discussion appellant's Propositions of Law Nos. VII, VIII, IX, and X because they involve settled issues.
(See Appendix.) We have independently assessed the evidence relating to the death sentence, weighed the
aggravating circumstance against any mitigating factors, and reviewed the proportionality of the sentence.
As a result, we affirm appellant's convictions and sentence of death.
INEFFECTIVE ASSISTANCE OF COUNSEL
In his first proposition of law, appellant contends that his trial counsel rendered ineffective assistance.
Reversal of convictions on ineffective assistance requires that the defendant show, first, "that counsel's
performance was deficient" and, second, "that the deficient performance prejudiced the defense * * * [so
as] to deprive the defendant of a fair trial." Strickland v. Washington (1984), 466 U.S. 668, 687, 104 S. Ct.
2052, 2064, 80 L. Ed. 2d 674, 693. Accord State v. Bradley (1989), 42 Ohio St. 3d 136, 538 N.E.2d 373,
paragraph two of the syllabus.
A. Failure to Challenge Insufficiency of Evidence

Appendix H
Appx-0137

Page 5 of 15
85 Ohio St. 3d 129, *133; 707 N.E.2d 476, **482; 1999 Ohio LEXIS 809, ***9

Coleman contends that his counsel failed to "adequately illustrate the insufficiency of the State's case"
against him. He asserts that no physical evidence linked him to the crime scene, that testimony against
him was inconsistent, and that a substantial [***10] number of leads pointed to a killer other than
Coleman. Yet, despite Coleman's claims, his counsel's [**483] tactical choices did not fall below "an
objective standard of reasonable representation." Bradley, 42 Ohio St. 3d 136, 538 N.E.2d 373, paragraph
two of the syllabus.
Coleman cites materials and documents that he claims his counsel did not fully exploit, and that reflect
witness bias, grounds for impeachment, and asserted inconsistencies between trial testimony and pretrial
statements or former testimony. However, Coleman largely cites and relies upon materials released by the
state in open pretrial discovery, as well as transcripts from other cases. Yet these materials were not in
evidence before the trial court and are not in the record before this court. Because "[a] reviewing court
cannot add matter to the record before it, which was not a part of the trial court's proceedings," Coleman's
attempt to have this court consider this material must fail. State v. Ishmail (1978), 54 Ohio St. 2d 402, 8
Ohio Op. 3d 405, 377 N.E.2d 500, paragraph one of the [*134] syllabus. Any allegations of
ineffectiveness based on facts not appearing in the record should be reviewed through the postconviction
remedies of R.C. 2953.21. State v. Cooperrider (1983), 4 Ohio St. 3d 226, 228, 4 Ohio B. Rep. 580, 582,
448 N.E.2d 452, 454.
Next, Coleman contends that no physical evidence linked him to the crime scene. However, Coleman
admitted [***11] to police the day after the murder that he was with Stevens at Riddle's Ribs, near the
murder scene, and that he left with her near the time of the murder. Additionally, Christopher Holtz, an
unimpeached eyewitness, saw both Stevens and Coleman at Riddle's and in the alley outside, shortly
before Holtz heard shots and the murder occurred.
Nor was it even necessary for the physical evidence to prove Coleman's identity as the killer. Over the
course of several months, Coleman repeatedly told eyewitnesses that he intended to kill Stevens and why
he intended to do so. On the day of the murder, he told Hope Strodes that he intended to shoot "the bitch"
that day; also that day, he told James White that he was "going to take care of it [the murder]."
Immediately after the murder, Coleman separately told Fayette Strodes and Lynnda Gaskins what he had
done, demonstrating to Gaskins how "the bitch fell like a rock." Later, he also admitted to White, Vera
Strodes, and Gaskins that he had shot Stevens. Months later, Coleman admitted to inmate Kasler how and
why he had shot Stevens and furnished details the killer would have known.
In any event, there was physical evidence and other testimony that [***12] reinforced Coleman's
admissions that he had killed Stevens. Inmate Donovan Hayes corroborated White's testimony. Fayette,
Gaskins, and White all testified to Coleman's obsession to get Stevens. Several witnesses testified that
Coleman wore a flannel shirt that evening, with cockleburs stuck on it. Police later found a flannel shirt
replete with cockleburs, identified as what Coleman wore that day, abandoned in a doghouse at the
Strodeses' residence.
Dr. Stewart, the pathologist, confirmed descriptions given by Coleman to Gaskins and Kasler as to where
and how Coleman shot Stevens, i.e., two bullets to the back of the head. Also, the severed vertebrae
corroborated Coleman's description that Stevens "dropped like a rock" when she was shot. Furthermore,
shells of .380 caliber bullets were found at the scene, and a forensic expert verified that the .380 caliber
bullets were likely fired from a Davis P-380,
the same type
Appendix
H of gun that Coleman told Kasler he used to

Appx-0138

Page 6 of 15
85 Ohio St. 3d 129, *134; 707 N.E.2d 476, **483; 1999 Ohio LEXIS 809, ***12

shoot Stevens. Additionally, Davis P-380 automatics come in chrome models and Hope Strodes saw
Coleman with a silver, semi-automatic gun less than an hour before the murder. Given the strength of this
evidence, Coleman's claim [***13] that a substantial number of leads point to another killer other than
Coleman is baseless. Nothing in the record suggests any other killer.
[*135] Coleman's counsel presented credible and competent representation by attempting to challenge
his identity as the killer, an enormous task given Coleman's propensity to talk about how he was going to
kill Stevens and, after the deed, how he had done so. Counsel examined prosecution witnesses about
uncertainties or inconsistencies in testimony. Counsel cross-examined witnesses about their asserted bias
or impeached their character, where appropriate. "[A] court [**484] must indulge a strong presumption
that counsel's conduct falls within the wide range of reasonable professional assistance[.]" Strickland, 466
U.S. at 689, 104 S. Ct. at 2065, 80 L. Ed. 2d at 694. Here, no deficient performance of duty occurred.
Additionally, Coleman fails to establish that any prejudice arose from his counsel's tactical decisions. To
show prejudice, "the defendant must prove that there exists a reasonable probability that, were it not for
counsel's errors, the result of the trial would have been different." State v. Bradley, 42 Ohio St. 3d 136,
538 N.E.2d 373, paragraph three of the syllabus. In view of the compelling evidence of Coleman's guilt,
different tactical choices would have made [***14] no difference.
B. Voir Dire
Coleman contends that his counsel failed to adequately voir dire prospective jurors. However, Coleman
fails to demonstrate that counsel's performance fell below "an objective standard of reasonable
representation." State v. Bradley, 42 Ohio St. 3d 136, 538 N.E.2d 373, paragraph two of the syllabus. As
we have noted, "the conduct of voir dire by defense counsel does not have to take a particular form, nor
do specific questions have to be asked." State v. Evans (1992), 63 Ohio St. 3d 231, 247, 586 N.E.2d 1042,
1056. Counsel exercise discretionary judgment when they question jurors and "need not repeat questions
about topics already covered by * * * opposing counsel, or the judge." State v. Watson (1991), 61 Ohio St.
3d 1, 13, 572 N.E.2d 97, 108. Here, counsel had the benefit of questionnaires filled out by each juror. This
court "will not second-guess trial strategy decisions" such as those made in voir dire. State v. Mason
(1998), 82 Ohio St. 3d 144, 157, 694 N.E.2d 932, 949.
Coleman complains that counsel in voir dire mischaracterized the nature and purpose of mitigation
evidence. However, Coleman mostly cites examples of individual voir dire of venirepersons who never sat
as jurors. Under the circumstances, these asserted misstatements by counsel could not have affected the
verdict. As for the two jurors mentioned by Coleman that were on the jury, Coleman claims that counsel
was deficient because of misstatements [***15] made while questioning individual jurors as to mitigation
and the burden of proof. However, the trial court later correctly instructed the jury on the burden of proof
and sentencing procedures, and a jury is presumed to follow the instructions given to it by the trial judge.
State v. Loza (1994), 71 Ohio St. 3d 61, 75, 79, 641 N.E.2d [*136] 1082, 1100, 1102-1103.
Additionally, asking jurors their views on individual mitigating factors "is not essential to competent
representation." State v. Phillips (1995), 74 Ohio St. 3d 72, 86, 656 N.E.2d 643, 659. See, also, State v.
Goff (1998), 82 Ohio St. 3d 123, 140, 694 N.E.2d 916, 929. Counsel also exercised discretion as to
questioning a prospective juror who never sat on the jury about a relationship with an unrelated murder
victim. "Trial counsel stands in the better position to determine which members of the venire merit in-

Appendix H
Appx-0139

Page 7 of 15
85 Ohio St. 3d 129, *136; 707 N.E.2d 476, **484; 1999 Ohio LEXIS 809, ***15

depth examination." State v. Phillips, 74 Ohio St. 3d at 85-86, 656 N.E.2d at 659. Accord State v.
McGuire (1997), 80 Ohio St. 3d 390, 398, 686 N.E.2d 1112, 1119.
Coleman claims that his counsel did not ensure the fairness of jurors or inquire as to their views on the
death penalty. Again, Coleman generally cites only examples of alternates or prospective jurors who never
sat on the jury. Logically, individual voir dire of venirepersons who never sat on the jury cannot affect a
verdict. Coleman fails to establish prejudice. Bradley, supra.
In fact, the record shows that counsel generally did question those individuals who sat on the jury about
their death-penalty views. Thus, Coleman's [***16] complaints "mostly amount to hindsight views about
how current counsel might have voir dired the jury differently." State v. Mason, 82 Ohio St. 3d at 157,
694 N.E.2d at 949. Since this court does not "second-guess trial strategy decisions," Coleman's claim of
ineffective performance lacks merit. Id.
C. Failure to Sever Disability Charge
Appellant claims that his counsel was ineffective for failing to request severance of Count II of the
indictment, having a weapon under disability.
[**485] Under Crim.R. 8(A), joinder of offenses is proper where the offenses are "based on the same act
or transaction." The law favors joining multiple criminal offenses in a single trial. State v. Franklin
(1991), 62 Ohio St. 3d 118, 122, 580 N.E.2d 1, 5. In Coleman's case, joinder was appropriate, since the
weapons under disability charge was based upon the same act as the aggravated murder charge, that is,
appellant shot and killed Stevens with a gun, which he was not permitted to have due to a prior conviction
in 1994 for dealing in drugs.
Had counsel requested severance, the trial judge could have properly denied any motion to sever, had one
been made. A defendant must affirmatively establish prejudice and an abuse of discretion where the trial
court refuses to sever multiple charges. State v. Lott (1990), 51 Ohio St. 3d 160, 163, 555 N.E.2d 293,
298; State v. Torres (1981), 66 Ohio St. 2d 340, 20 Ohio Op. 3d 313, 421 N.E.2d 1288, syllabus.
Appellant cannot show prejudice in this [***17] case. The state was required to prove that appellant sold
drugs to Stevens and that he subsequently killed her in order to prevent her from testifying against him.
Given the fact that the jury would hear of appellant's previous drug dealing, appellant was not [*137]
prejudiced by proof of an earlier drug conviction. See, e.g., State v. Davis (1988), 38 Ohio St. 3d 361, 528
N.E.2d 925. Moreover, "an accused is not prejudiced by joinder when simple and direct evidence exists."
State v. Franklin, 62 Ohio St. 3d at 122, 580 N.E.2d at 6. In this case, proof of the 1994 conviction was
very simple and direct, since it was done by stipulation of the parties in admitting proof of Coleman's
previous conviction. Thus, Coleman's argument lacks merit, as it fails to establish either deficient
performance of duty or prejudice under Strickland.
D. Gruesome and Cumulative Evidence
Coleman argues that his counsel were ineffective in failing to object to three autopsy slides of the victim.
Yet, counsel did object at the conclusion of the state's case. Regardless, nonrepetitive photographs, even if
gruesome, are admissible if their probative value outweighs the danger of material prejudice to an
accused. State v. Maurer (1984), 15 Ohio St. 3d 239, 15 Ohio B. Rep. 379, 473 N.E.2d 768, paragraph
seven of the syllabus.

Appendix H
Appx-0140

Page 8 of 15
85 Ohio St. 3d 129, *137; 707 N.E.2d 476, **485; 1999 Ohio LEXIS 809, ***17

In this case, the three autopsy slides were not particularly gruesome or cumulative [***18] but were
highly probative. Two slides from different perspectives showed the back of Stevens's head with two
bullet entry wounds. The third showed a facial laceration where one bullet had come to rest near her
cheek. These slides illustrated Dr. Stewart's testimony and directly corroborated the testimony of Gaskins,
Fayette Strodes, and Kasler, who knew from Coleman details the killer would have known. For instance,
Coleman told Kasler that one bullet had ended up in Stevens's face just below her eye, and Coleman told
Gaskins and Fayette about firing two shots to the back of the head. Thus, the probative value of the slides
clearly outweighs any risk of unfair prejudice.
Additionally, appellant asserts that his counsel were deficient for not objecting to the crack cocaine
exhibits or the recorded tapes of his drug sales. However, counsel did object but not until the conclusion
of the state's case. In any event, the court correctly admitted these exhibits, since they directly proved the
death-penalty specification. Coleman has not demonstrated prejudice by showing that a "reasonable
probability" exists that any different result would have occurred without these exhibits. State v. Bradley,
42 Ohio St. 3d 136, 538 N.E.2d 373.
E. Failure [***19] to Object to Trial-Phase Evidence
Coleman complains that his counsel failed to object to the state's introduction of the trial-phase exhibits at
the penalty hearing. However, counsel did not perform deficiently by failing to object. Almost all the trialphase evidence was ultimately admissible in the sentencing phase, since it related to the nature and
circumstances of the offense, to Coleman's history, character and background, to the R.C. 2929.04(A)(8)
aggravating circumstance, or to the R.C. 2929.04(B)(2) or (B)(7) mitigating factors that Coleman
specifically raised. In State v. DePew [*138] [**486] (1988), 38 Ohio St. 3d 275, 283, 528 N.E.2d 542,
552, we recognized that R.C. 2929.03(D)(1) permits "repetition of much or all that occurred during the
guilt stage," by way of introduction of trial exhibits that are relevant to the aggravated circumstances the
offender was found guilty of committing. Accord State v. Woodard (1993), 68 Ohio St. 3d 70, 78, 623
N.E.2d 75, 81. In this case, evidence of Coleman's drug sales to Stevens, including the crack cocaine, tape
recordings, and officer testimony, related directly to the R.C. 2929.04(A)(8) aggravating circumstance.
Appellant argues that evidence of Coleman's 1994 drug-trafficking conviction was not relevant in the
penalty phase, since its admissibility was based upon the weapons under disability charge. However, this
evidence was harmless. See Woodard, 68 Ohio St. 3d at 80, 623 N.E.2d at 82-83 (Sherck, [***20] J.,
concurring). A myriad of other evidence at trial demonstrated that Coleman was a drug dealer, and the
indictment for the sales to Stevens, which was directly relevant to the aggravating circumstance, also
referred to the 1994 drug trafficking conviction. Thus, appellant has failed to establish either deficient
performance or prejudice.
F. Failure to Present Additional Mitigation Evidence
Coleman argues that his counsel failed to investigate his background or present available mitigation
evidence. However, "failure to present mitigating evidence * * * does not in itself constitute proof of
ineffective assistance[.]" State v. Hamblin (1988), 37 Ohio St. 3d 153, 157, 524 N.E.2d 476, 480. Accord

Appendix H
Appx-0141

Page 9 of 15
85 Ohio St. 3d 129, *138; 707 N.E.2d 476, **486; 1999 Ohio LEXIS 809, ***20

Burger v. Kemp (1987), 483 U.S. 776, 107 S. Ct. 3114, 97 L. Ed. 2d 638; State v. Keith (1997), 79 Ohio
St. 3d 514, 684 N.E.2d 47.
The record does not support Coleman's speculation that further investigation would have produced
significant mitigating evidence. For example, Coleman argues that he had children, a potential mitigating
factor. However, Coleman may or may not have taken care of or supported his children and, without such
evidence, the fact that he fathered several children is hardly mitigating. Coleman argues that his friends
cared about him, but the record suggests that his friends were drug dealers or users. Such evidence is not
mitigating. Nor do we know that other family [***21] members had useful mitigating evidence to offer,
and his father's testimony does not support that claim. Nor does it appear that Coleman was gainfully
employed in a lawful occupation. Finally, counsel deliberately chose not to call the examining
psychologist or have Coleman testify or make a statement. Examining the record, the lack of mitigation
evidence does not indicate that counsel were ineffective. " 'It may be * * * that counsel conducted a
diligent investigation, but [were] unable to find [more] substantial mitigation evidence.' " State v. Otte
(1996), 74 Ohio St. 3d 555, 566, 660 N.E.2d 711, 722. Such would seem to apply in appellant's case.
[*139] In summation, the record does not support Coleman's claim that his counsel failed to adequately
investigate or present available mitigation. Coleman has not shown prejudice. "To do so would require * *
* [showing the availability of] mitigating evidence counsel failed to present and * * * a reasonable
probability that the evidence would have swayed the jury to impose a life sentence." State v. Keith, 79
Ohio St. 3d at 536, 684 N.E.2d at 67. Thus, Coleman's first proposition of law claiming ineffectiveness of
counsel lacks merit.
SUFFICIENCY OF EVIDENCE
In his second proposition of law, appellant argues that the state failed to introduce sufficient
evidence [***22] to prove aggravated murder beyond a reasonable doubt.
The standard for determining whether evidence is sufficient is "whether, after viewing the evidence in a
light most favorable to the prosecution, any rational trier of fact could have found the essential elements
of the crime proven beyond a reasonable doubt." State v. Jenks (1991), 61 Ohio St. 3d 259, 574 N.E.2d
492, paragraph two of the syllabus, following Jackson v. Virginia (1979), 443 U.S. 307, 99 S. Ct. 2781, 61
L. Ed. 2d 560. As discussed in Proposition of Law I, the evidence clearly supports appellant's conviction.
[**487]
Contrary to appellant's arguments, there was physical evidence that linked him to the crime. Stevens was
shot with a .380 caliber firearm, either a government issue Colt or a Davis P-380. Hope Strodes saw
appellant with a weapon resembling a Davis P-380, and appellant himself told Kasler that the murder
weapon was a Davis P-380. An eyewitness, Holtz, also placed Coleman at the murder scene, and Coleman
admitted to police that he was with Stevens shortly before she was shot.
Compelling evidence also established both Coleman's identity as the killer and prior calculation and
design. For several months before the murder, Coleman repeatedly told White, Fayette Strodes, and
Gaskins that he intended to kill Stevens so she could not testify in his [***23] drug trial. On the day of
the murder, he told White and Hope Strodes that he intended to shoot Stevens that day, and just after he
had done so, he also told Fayette Strodes and Gaskins what he had done. Later on, he also admitted to
White, Vera Strodes, Warren, and Kasler that he had shot Stevens. Apart from White, who received a
reduced sentence for testifying, these witnesses were neither biased against appellant nor was their

Appendix H
Appx-0142

Page 10 of 15
85 Ohio St. 3d 129, *139; 707 N.E.2d 476, **487; 1999 Ohio LEXIS 809, ***23

testimony inconsistent. In any event, "The weight to be given the evidence and the credibility of the
witnesses are primarily for the trier of the facts." State v. DeHass (1967), 10 Ohio St. 2d 230, 39 Ohio Op.
2d 366, 227 N.E.2d 212, paragraph one of the syllabus.
[*140] Furthermore, details Coleman gave to witnesses dovetailed with the autopsy results and other
physical evidence, i.e., that he shot Stevens twice in the back of the head and that she immediately
collapsed due to the severance of her spinal cord.
Coleman attempts to present additional evidence that allegedly points to other suspects and to
inconsistencies in testimony. Yet his claims are speculative at best and rest largely upon evidence that was
not before the trial court and that cannot be considered by this court. State v. Ishmail, 54 Ohio St. 2d 402,
8 Ohio Op. 3d 405, 377 N.E.2d 500, paragraph one of the syllabus. Viewed in a light most
favorable [***24] to the prosecution, the state clearly demonstrated sufficient evidence to convict the
appellant. Thus, we reject appellant's second proposition of law.
EVIDENTIARY ISSUES
Appellant argues in his third proposition of law that he was prejudiced by the state's introduction of
irrelevant and cumulative testimony and other physical exhibits from his prior conviction for aggravated
drug trafficking. The state introduced evidence of Coleman's three drug sales to Stevens from July to
August 1995. Witnesses testified to the details of these sales, and the state admitted several exhibits
including crack cocaine. Appellant argues that to prove the R.C. 2929.04(A)(8) death specification, the
state should have been limited to introducing two pieces of evidence: a copy of the indictment charging
Coleman with an offense and brief testimony by the state that Stevens would have testified against
Coleman at trial.
However, we believe that the trial court properly admitted evidence of Coleman's drug sales to Stevens.
The admission of the underlying facts regarding the three separate drug sales tended to prove the essential
elements of the specification. R.C. 2929.04(A)(8) requires that the state prove motive, and evidence was
introduced to [***25] demonstrate that Stevens was the key witness against appellant and that her murder
would hinder the state's case against him by preventing her testimony, which explained appellant's motive
and deep obsession with killing Stevens. Thus, the drug sales are not considered "other acts" evidence
limited by Evid.R. 404(B); rather, they were introduced to prove the R.C. 2929.04(A)(8) death-penalty
specification. In State v. Frazier (1995), 73 Ohio St. 3d 323, 338-339, 652 N.E.2d 1000, 1013-1014, we
held that evidence that the accused previously raped the murder victim was "inextricably linked" to the
murder when the victim was killed to silence her as a rape witness. Accord State v. Keene (1998), 81 Ohio
St. 3d 646, 661, 693 N.E.2d 246, 260.
As in Frazier, the state has proven in this case that Coleman purposefully killed his victim with prior
calculation and design, that he did so because she was a witness to a crime, and that she was killed to
prevent her [**488] testimony. As [*141] appellant himself stated to Gaskins, "If they don't have a
witness, they don't have a case." These were not "wholly independent" crimes; hence, the state could
reasonably prove not only that Stevens was a witness, but also precisely what crimes she witnessed and
that she was a key witness. Frazier, 73 Ohio St. 3d at 339, 652 N.E.2d at 1014. Nor do we find that the
evidence was cumulative, as each police witness explained only those events which [***26] that witness
directly observed. Thus, we find that appellant's third proposition of law lacks merit.

Appendix H
Appx-0143

Page 11 of 15
85 Ohio St. 3d 129, *141; 707 N.E.2d 476, **488; 1999 Ohio LEXIS 809, ***26

In his fifth proposition of law, appellant argues that the trial court abused its discretion in admitting four
tape recordings into evidence because the tapes were partly inaudible. Three of these tape recordings were
of the separate drug transactions in which appellant sold crack cocaine to Stevens. The fourth tape
recording was of appellant's statement to police the day after the murder. However, Coleman failed to
object at trial on this ground and thus waived all but plain error. State v. Campbell (1994), 69 Ohio St. 3d
38, 630 N.E.2d 339. Plain error is error of such magnitude that "but for the error, the outcome of the trial
clearly would have been otherwise." State v. Underwood (1983) 3 Ohio St. 3d 12, 3 Ohio B. Rep. 360,
444 N.E.2d 1332, syllabus.
To be admissible, a tape recording must be " 'authentic, accurate and trustworthy.' " State v. Rogan (1994),
94 Ohio App. 3d 140, 148, 640 N.E.2d 535, 540. Whether to admit "tape recordings containing inaudible
portions is a matter within the sound discretion of the trial court." State v. Gotsis (1984), 13 Ohio App. 3d
282, 283, 13 Ohio B. Rep. 346, 347-348, 469 N.E.2d 548, 551, citing United States v. Williams (C.A.8,
1977), 548 F.2d 228.
In this case, uncontested testimony by police officers present at the transactions established the accuracy,
authenticity, and trustworthiness of the tapes. The three tapes of Coleman's drug transactions with Stevens
are filled with background noises, [***27] muffled sounds, and muttered conversations, which make the
tapes impossible to understand at times except for scattered phrases. However, recorded tapes of actual
events, such as street drug sales, should be admissible despite audibility problems, background noises, or
the lack of crystal clear conversations, since they directly portray what happened. See, e.g., State v.
Rodriquez (1990), 66 Ohio App. 3d 5, 583 N.E.2d 384; State v. Rogan.
Given their authenticity, the trial court did not abuse its discretion in admitting the street tapes despite
audibility problems. Officers at the scene who directly heard the radio transmissions testified at trial in
order to make the recordings more understandable. Coleman had ample opportunity to cross-examine
these officers, "thereby clarifying any problems caused by poor quality, * * * as well as the opportunity to
offer his version of the inaudible portions[.]" Rogan, 94 Ohio App. 3d at 149, 640 N.E.2d at 541. An
authenticated tape is "much more likely to [*142] be free from error than the words of a witness
testifying from memory." State v. James (1974), 41 Ohio App. 2d 248, 250, 70 Ohio Op. 2d 456, 457, 325
N.E.2d 267, 269.
In contrast, the fourth tape, Coleman's taped interview with the police, was understandable despite low
voices, pauses, and inaudible phrases at times, and was authenticated by the detective who took Coleman's
statement on January [***28] 3. Defendant cross-examined the detective regarding the contents of the
taped statement. Appellant cannot demonstrate that the tapes are not accurate, authentic, or trustworthy.
Tape recordings are the best evidence of their content, not transcripts prepared from them. Rogan, 94
Ohio App. 3d at 148, 640 N.E.2d at 540. Moreover, Coleman's exculpatory conversation with police in
which he denied killing Stevens directly supported Coleman's trial strategy without the need for his
testimony. Coleman can demonstrate neither prejudice nor plain error; therefore, his fifth proposition of
law is overruled.
PEREMPTORY CHALLENGE
In his fourth proposition of law, appellant argues that prosecutors exercised a peremptory challenge in a
racially discriminatory manner. Batson v. Kentucky (1986), 476 U.S. 79, 106 S. Ct. 1712, 90 L. Ed. 2d
69, [**489] held that the Equal Protection Clause precludes "purposeful discrimination by the state in the

Appendix H
Appx-0144

Page 12 of 15
85 Ohio St. 3d 129, *142; 707 N.E.2d 476, **489; 1999 Ohio LEXIS 809, ***28

exercise of its peremptory challenges so as to exclude members of minority groups from service on petit
juries." State v. Hernandez (1992), 63 Ohio St. 3d 577, 581, 589 N.E.2d 1310, 1313. In order to make a
prima facie case of purposeful discrimination, an accused must demonstrate (a) that members of a
cognizable racial group were peremptorily challenged, and (b) the "facts and any other relevant
circumstances raise an inference that the prosecutor" used the peremptory challenges [***29] to exclude
jurors "on account of their race." Id. at 582, 589 N.E.2d at 1313.
Prospective juror Sandra Blackmon, an African-American, disclosed during voir dire that her son was in
prison for drug trafficking. The prosecutor explained his peremptory challenge by noting that when his
office prosecuted Blackmon's son for selling drugs to an undercover informant, Blackmon expressed "an
attitude * * * that her son could do no wrong and that everybody was lying about her son[.]" Since
Coleman's case involved murder of a drug informant by a drug trafficker, and Blackmon's son was then in
prison for drug trafficking, the prosecutor could reasonably decide not to have her on the jury.
The trial court did not abuse its discretion in accepting the prosecutor's explanation, which was raceneutral on its face. Courts have accepted prior involvement with drugs by family members of prospective
jurors as a race-neutral explanation after a Batson challenge. See, e.g., United States v. Fisher (C.A.5,
1994), 22 F.3d 574, 577; United States v. Hughes (C.A.7, 1992), 970 F.2d 227, 230. Nothing in the record
suggests a racial motivation, and " 'unless a [*143] discriminatory intent is inherent in the prosecutor's
explanation, the reason offered will be deemed race neutral.' " Purkett v. Elem (1995), 514 U.S. 765, 768,
115 S. Ct. 1769, 1771, 131 L. Ed. 2d 834, 839. Finally, a trial court's finding of no discriminatory intent
will not be [***30] reversed "absent a determination that it was clearly erroneous." State v. Hernandez,
63 Ohio St. 3d at 583, 589 N.E.2d at 1314. The prosecutor's race-neutral explanation was credible and
supported by the record; hence, it was not "clearly erroneous." Thus, we reject appellant's fourth
proposition of law.
DENIAL OF COUNSEL
Appellant argues in his sixth proposition of law that he was denied the right to the assistance of counsel
because he was detained in a county other than where he was charged. Coleman complains that he spent
most of the year prior to trial in various prisons outside Clark County.
Coleman was indicted on March 18, 1996. On May 6, counsel asked that he be housed in the Clark
County Jail pending trial. Counsel asserted that the Orient correctional facility, where Coleman was
housed at the time of the motion, was a ninety-minute drive each way from Springfield and that it took up
to an hour to process into that facility. The trial court denied the request. Coleman also asserts that at
times he was incarcerated at correctional facilities in Warren, Madison, and Ross Counties. However,
Coleman does not dispute that from December 13, 1996 until his trial began on February 10, 1997, and
throughout his trial, he was housed at the Clark [***31] County Jail.
Coleman relies on Geders v. United States (1976), 425 U.S. 80, 96 S. Ct. 1330, 47 L. Ed. 2d 592, which
held that a trial court's prohibition against counsel's consulting with the defendant during an overnight
recess, while the defendant was on the stand, interfered with the accused's Sixth Amendment right to
counsel. If the state unlawfully interferes with Sixth Amendment rights, an accused need not establish
prejudice. Perry v. Leeke (1989), 488 U.S. 272, 278-279, 109 S. Ct. 594, 599, 102 L. Ed. 2d 624, 632;
United States v. Cronic (1984), 466 U.S. 648, 659, 104 S. Ct. 2039, 2047, 80 L. Ed. 2d 657, 668, fn. 25.

Appendix H
Appx-0145

Page 13 of 15
85 Ohio St. 3d 129, *143; 707 N.E.2d 476, **489; 1999 Ohio LEXIS 809, ***31

Nevertheless, as Geders recognizes, trial judges "must have broad power to cope with the complexities
and contingencies inherent in the adversary process." Geders, 425 U.S. at 86, 96 S. Ct. at 1334, 47 L. Ed.
2d at 598. Thus, "not every restriction on counsel's time or opportunity to * * * consult with his client or
otherwise to prepare for trial violates [**490] a defendant's Sixth Amendment right to counsel." Morris
v. Slappy (1983), 461 U.S. 1, 11, 103 S. Ct. 1610, 1616, 75 L. Ed. 2d 610, 619.
In this case, Coleman has not established that the trial court abused its discretion in refusing to house
Coleman in the county jail. At times, courts have [*144] found no constitutional deprivation where an
accused pending trial was in prison some distance away, rather than in a local jail. See Trotter v. State
(Ind.1990), 559 N.E.2d 585, 587; State v. Orricer (1963), 80 S.D. 126, 120 N.W.2d 528; Smith v. State
(Ala.App.1996), 698 So. 2d 189, 213. Moreover, Coleman does not assert that his counsel lacked access
to him by mail, telephone, or personal travel to the prison.
Finally, because of continuances, counsel had over ten months to prepare their case. Furthermore,
Coleman was in [***32] the Clark County Jail for the eight weeks immediately before the trial. Even if
Coleman's rights were found to have been violated earlier, any remedy for Sixth Amendment violations
"should be tailored to the injury suffered from the constitutional violation." United States v. Morrison
(1981), 449 U.S. 361, 364, 101 S. Ct. 665, 668, 66 L. Ed. 2d 564, 568. In this case, the effect of any
violation clearly dissipated, given counsel's ready access to Coleman for nearly two months before trial.
Thus, Coleman's sixth proposition of law fails.
INDEPENDENT SENTENCE REVIEW
Pursuant to R.C. 2929.05(A), we must independently weigh the aggravating circumstance against any
mitigating factors presented by appellant and determine whether appellant's sentence is proportionate to
death sentences imposed in similar cases.
The evidence in this case clearly proves beyond a reasonable doubt that appellant committed the murder
of "a witness to an offense who was purposely killed to prevent the victim's testimony in any criminal
proceeding," and that the murder was not committed during or immediately after the offense to which the
victim was a witness, as set forth in R.C. 2929.04(A)(8).
In mitigation, Coleman presented the testimony of his father, who stated that appellant was "pretty much
like any other kid." He testified that Coleman had been active [***33] in Boy Scouts and in sports, was
generally obedient but somewhat "hardheaded" at times. Appellant had a normal childhood, and nothing
in his father's testimony suggests strong mitigating factors as to appellant's history, character, and
background.
The defense presented no other evidence, and Coleman neither testified nor made an unsworn statement.
At Coleman's request, the trial court instructed the jury on only R.C. 2929.04(B)(2) and (B)(7) as relevant
statutory mitigating factors.
Coleman argued at trial that the extensive pressures he was under were a mitigating factor under R.C.
2929.04(B)(2). However, Coleman's legal problems resulting from his voluntary choice to sell drugs do
not qualify as "duress, [*145] coercion, or strong provocation" specified in R.C. 2929.04(B)(2). The
"stress from the personal turmoil in [appellant's] life" does not qualify as a (B)(2) mitigating factor. State
v. Dickerson (1989), 45 Ohio St. 3d 206, 217, 543 N.E.2d 1250, 1261. Accord State v. Bedford (1988), 39
Ohio St. 3d 122, 133, 529 N.E.2d 913, 924.

Appendix H
Appx-0146

Page 14 of 15
85 Ohio St. 3d 129, *145; 707 N.E.2d 476, **490; 1999 Ohio LEXIS 809, ***33

Coleman argues in proposition of law seven, inter alia, that the facts of the crime are mitigating because
Stevens "was involved in a great deal of criminal activity and drug use." This fact does not fall within the
listed statutory mitigating factors. See R.C. 2929.04(B)(1)-(6). Moreover, "the unlawful taking of a human
life cannot be deemed less serious simply because the victim [***34] was involved in unlawful activity."
State v. Williams (1997), 79 Ohio St. 3d 1, 18, 679 N.E.2d 646, 661. Accord State v. McNeill (1998), 83
Ohio St. 3d 438, 454, 700 N.E.2d 596, 611; State v. Green (1993), 66 Ohio St. 3d 141, 153, 609 N.E.2d
1253, 1263. Thus, no mitigating weight should be assigned to Stevens's drug purchases or usage.
Coleman also relies on residual doubt, but that is no longer a mitigating factor. State v. McGuire, 80 Ohio
St. 3d 390, 686 N.E.2d 1112, syllabus. Moreover, the evidence here precludes any residual doubt.
[**491] None of the other statutory mitigating factors appears applicable. For instance, no evidence of
"mental disease or defect," R.C. 2929.04(B)(3), exists. Also, Coleman was twenty-seven at the time of the
offense; hence, R.C. 2929.04(B)(4), consideration of the youth of the offender, is inapplicable. The record
is also devoid of any mitigating (B)(7) "other factors." Coleman never expressed remorse for his crime or
accepted responsibility for it.
In sum, the sparse mitigation evidence presented by appellant clearly does not outweigh the aggravating
circumstance in this case beyond a reasonable doubt. After extensive thought and consideration, Coleman
deliberately executed a witness in order to escape prosecution, an act that "strikes at the heart of the
criminal justice system." State v. Keene, 81 Ohio St. 3d at 671, 693 N.E.2d at 266-267. Previous cases
involving the R.C. 2929.04(A)(8) specification have contained additional aggravating circumstances.
Nonetheless, even after considering that fact, we find appellant's [***35] death sentence appropriate and
proportionate to sentences imposed in similar cases where murder was used to silence witnesses. Cf. State
v. Keene; State v. Frazier; State v. Lawson (1992), 64 Ohio St. 3d 336, 595 N.E.2d 902; State v. Hooks
(1988), 39 Ohio St. 3d 67, 529 N.E.2d 429.
Accordingly, we affirm both appellant's convictions and sentence of death.

Judgment affirmed.
MOYER, C.J., DOUGLAS, RESNICK, PFEIFER, COOK and LUNDBERG STRATTON, JJ., concur.
[*146] APPENDIX
PROPOSITION OF LAW I: "When defense uses trial strategies that are harmful to their client and fails to
object to obvious constitutional errors during trial, a capital defendant is deprived of the right to the
effective assistance of counsel that is guaranteed by the Sixth, Eighth, and Fourteenth Amendments to the
United States Constitution and Article I, [Sections] 9, 10 and 16 of the Ohio Constitution."
PROPOSITION OF LAW II: "When the state fails to introduce sufficient evidence of aggravated murder,
a resulting conviction deprives a capital defendant of substantive and procedural due process as
guaranteed by the Eighth, Ninth and Fourteenth Amendments to the United States Constitution, as well as
Article I, Sections 1, 16 and 20 of the Ohio Constitution."
PROPOSITION OF LAW III: "A capital defendant is denied his rights to a fair trial, due process of law
and a reliable determination of his guilt and sentence as guaranteed by the Fifth, Sixth, Eighth, Ninth and
Fourteenth Amendments to the United States
ConstitutionH
and Article I, Sections 10 and 16 of the Ohio
Appendix

Appx-0147

Page 15 of 15
85 Ohio St. 3d 129, *146; 707 N.E.2d 476, **491; 1999 Ohio LEXIS 809, ***35

Constitution when irrelevant and cumulative testimony and other physical exhibits [***36] from a prior
trial are admitted into evidence when their prejudicial effect outweighs their probative value."
PROPOSITION OF LAW IV: "The defendant is entitled to a new trial when the state uses its peremptory
challenge in a racially discriminatory manner in violation of the Equal Protection Clause of the Fourteenth
Amendment to the United States Constitution and Article I, [Section] 2 of the Ohio Constitution."
PROPOSITION OF LAW V: "A conviction based on the admission of tape recordings which are so
inaudible as to create a danger of unfair prejudice substantially outweighing any probative value violates
the Fifth, Eighth and Fourteenth Amendments to the U.S. Constitution as well as Article I, [Sections] 2,
10 and 16 of the Ohio Constitution."
PROPOSITION OF LAW VI: "When a capital defendant is detained in a county other that [sic] that in
which he is charged for a capital crime, he is denied the rights to confer with counsel, assist in the
preparation of his defense, and the assistance of counsel as guaranteed by [the] Sixth and Fourteenth
Amendments to the United States Constitution and Article I, Sections 2, 9, 10, and 16 of the Ohio
Constitution."
PROPOSITION OF LAW VII: "Ohio's capital sentencing scheme is unconstitutional as applied because it
results in sentences which are inconsistent, inappropriate and disproportionate [**492] to the penalty
imposed in similar cases in violation of the Eighth and Fourteenth Amendments to the United States
Constitution [and] [*147] Article I, Sections 9 and 10 of the Ohio Constitution, and Ohio Revised Code
Section 2929.05(A)."
PROPOSITION OF LAW VIII: " Ohio Rev.Code Ann. [Section] 2929.04(A)(8) is unconstitutionally
vague. Therefore, [***37] a death sentence predicated on the (A)(8) aggravating circumstance violates
the Eighth and Fourteenth Amendments to the United States Constitution and Article I, [Section] 9 of the
Ohio Constitution."
PROPOSITION OF LAW IX: "Sentencing an individual to death in violation of treaties to which the
United States of America is a signatory violates the Supremacy Clause of the United States Constitution."
PROPOSITION OF LAW X: "The death penalty authorized by the Ohio Revised Code deprives capitally
charged defendants of their lives without due process of law, denies equal protection and imposes cruel
and unusual punishment in violation of the Ohio and United States Constitutions."
End of Document

Appendix H
Appx-0148

Case: 3:03-cv-00299-EAS-MRM Doc #: 231-18 Filed: 07/13/16 Page: 176 of 186 PAGEID #: 6504

IN THE COU RT OF _COMlVION PLEAS
CLA RK COU NTY , OHIO

. STA TE OF om o '
Plai ntiff ·

Cas e No. 95-C R-04 84 . .,/
Cas e No. 96-CR-0142 V
Jud geL orig

vs.
TIM OTH Y COL EM AN,

Defendant
DEC ISIO N AND
JUD GM ENT ENT RY

This matter is before the Cou rt on defendan

t's motions for leav e to file a motion

seq. and Crim.R. 33, moti ons for relie f from
for new trial purs uant to R.C. 2945 .79 et
f
successive petitions for post -con victi on relie
judg men t pursuant to Civ.R. 60(B), and
der
duplicate pleadings in the aggr avat ed mur
purs uant to R.C. 2953.23. Cole man filed
trafficking case. (95-CR-0484). For the
case (96-CR-0142) and in his earli er drug
RRU LED and the succ essiv e petitions
reasons that follow, the motions are OVE

for post-

conv ictio n relie f are DIS MIS SED .
premise that desp ite his
Each request for relie f is base d. on the same
is actually innocent of
and deat h sentence, defendant Cole man
Sapp, who
Stevens. Coleman alleged that "William

conviction

the mur der of Mel inda

was convicted and sentenced to death

killer of Stevens.
for an unre lated double murder, is the real
of actual inno cenc e is a two page
The prim ary support for Cole man 's claim
of
ed by Sapp. This affidavit bear s a date.
hand writ ten "!,ffidavit, purp orte dly sign
row since Decemb
Aug ust 3, 2001. Sapp has been on deat h

er 1999, following his

State
rape and murder of two pre- teen girls. See
conv ictio n in Clar k County, Ohio for the

Coleman Apx. Vol. 15 - Amended ·
Page Ji9

Appendix I
Appx-0149

Case: 3:03-cv-00299-EAS-MRM Doc #: 231-18 Filed: 07/13/16 Page: 177 of 186 PAGEID #: 6505

v. Sapp, Clark County Court of Common Pleas, Case No. 97 CR 177, Judge Richard l
O'Neill. The Sapp affidavit was notarize1 by one of Coleman's attorneys, Joseph Bodine
of the Ohio Public Defender.
Coleman also submitted several new_spaper articles about Sapp, the upshot being ·
that Sapp was linked to a number of violent and deadly assaults on female victims, both
in Ohio as well as out of state. In addition, Coleman submitted a psychological report on
Sapp, dated March 3, 1999, :from Dr. Nancy Schmidtgoessling, evidently prepared in
connection with Sapp's death penalty case before Judge O'Neill. However, neither the
news stories nor the psychological report made any reference to the murder of Melinda
Stevens. Apparently, Coleman submitt~d the articles and report to imply that the
allegation Sapp murdered Melinda Stevens was at least plausible, since Sapp had a
history of violent and deadly assaults on female victims.

( )

Finally, Coleman submitted a letter dated July 21, 2001, purportedly from
attorney Staughton Lynd. In that letter, Coleman was informed that Lynd represented
death row inmates Skatzes, Robb and Combs in various actions against the State.
Coleman was also informed that Lynd represented supennax prisoners in some sort of
class action suit. Evidently, these matters were unrelated to Coleman's case, since
attorney .L )'.Ild began his letter with the statement "Greetings. You d.o not know me." The
letter inform 9 Coleman that Lynd was told "by a person in position to know, that another
prisoner on death row wishes to confess publicly to the murder for which you have been
convicted." No other specifics were given in the Lynd letter. Even so, it appears that
Lynd was passing along second-hand inforn1ation. Since his initi~l filing in January,

2

Appendix I
Appx-0150

Coleman Apx. Vol. 15 - Amended
Page 171

Case: 3:03-cv-00299-EAS-MRM Doc #: 231-18 Filed: 07/13/16 Page: 178 of 186 PAGEID #: 6506

2002, Coleman h~s not offered any other evidentiary s;ubmission that either references the
Lynd letter or provides additional details about.it contents. ,
In a collateral claim that is subordinate to his claim of actual innocence, Coleman
alleged that Springfield police and the Clark County Prosecutor's office knew that Sapp
was the real killer of Melinda Stevens, The implication is that the Clari/county
Prosecutor not only failed to disclose the identity of the real killer, but purposefully
convicted the wrong man, Timothy Coleman, for her murder. Specifically, Colerrian's
allegation is that Sapp had confessed to police that he killed Melinda Stevens, and that
the prosecuto:r:did not disclose this exculpatory evidence to Coleman, in violation of
Brady v. Maryland (1963), 373 U.S. 83.

Coleman supported this allegation with two items. The first item is a two
sentence paragraph from the Sapp affidavit, where Sapp avers that he was interviewed by
~pringfield police detectives Graeber and Moody and told them "I killed Melinda
Stevens." Other than an implication that the interview took place after his arrest, no other
specifics are given. As reported in State v. Sapp, Clark App. No. 99CA0084, 2002-Ohio6863, this interview took place over the course of two days, April 2

nd

and 3

rd

,

1997. Id. at

,r 4. It is noteworthy that the interview with Sapp by detectives Graeber and Moody took
place after the jury returned a guilty verdict (February 18, 1997) and a death sentence
(February 26, 1997) against Coleman. Since his initial filing in January, 2002, Coleman
has not offered any other evidentiary submission that provides any details about Sapp's
alleged confession to detectives Graeber and Moody.
Coleman submitted a second item to support his contention that the Clark
County Prosecutor withheld exculpatory information that Sapp confessed to the murder

3

Appendix I
Appx-0151

Coleman Apx. Vol. 15 - Amended
Page 172

Case: 3:03-cv-00299-EAS-MRM Doc #: 231-18 Filed: 07/13/16 Page: 179 of 186 PAGEID #: 6507

76 2 PAC1t81.9
of Melinda Stevens. Th<:1-t second item is a copy of a letter that Sapp wrote to Una Gail
Timmons. Timmons was the victim of a felonious as_~.a~J!; kidnaIJping and attempted
rape perpetrated by Sapp, and she testified against Sapp in a jury trial over which this
Court presided. Sapp was convicted and in September, 1996, this Court sentenced Sapp
to a prison term of 15 to 55 years. Se~ Siate v. Sapp, Clark County Court of C()mmon
Pleas, Case No. 96 CR 120.
Following his conviction and sentence, Sapp wrote to Timmons and made many
disturbing threats to do her physical harm. In the same letter, Sapp also directed a
number of threats against the Clark County Prosecutor, evidently for his role in securing

a conviction of Sapp for the crimes against Timmons.
Coleman has also submitted a news story about the Timmons letter, published
just after Timmons notified the authorities she had received it. The date of this news
~icle is July 14, 1998, which was the time when Sapp was awaiting trial in his death
penalty case before Judge O'Neill. While the letter to Timmons does not bear a date, it
stands to reason that the letter was written just before the news article was published.
Thus, the Timmons lett~r was written more than a year after Coleman's conviction and
death sentence~ and more than two and a half years before the filing of his successor postconviction petition.
Coleman does not explain either how or when he became aware of the Timmons
letter and the news article about it. Moreover, it is evident the Coleman secured a copy
of the Timmons letter from a source other than the Clark County Prosecutor. This
circumstance is itself noteworthy, where a copy of the Timmons letter was presumably
secured by either the newspaper or, more likely, Sapp's defense team. Either way,

Coleman Apx. Vol. 15 - Amended
Page 173

Appendix I
Appx-0152

Case: 3:03-cv-00299-EAS-MRM Doc #: 231-18 Filed: 07/13/16 Page: 180 of 186 PAGEID #: 6508

7 2
Coleman had bis own copy of the Timmons letter, however and whenever he came to
posses it. Consequently, Coleman's real contention is. not that the Prosecutors' office
concealed the Timmons letter, but rather that the Prosecutor's office should have
delivered a copy to him, before he secured a copy by his own devices. Of course, a
necessary component of Coleman's contention is that the Timmons letter is exculpatory
of him as being the killer of Melinda Stevens.
There is no evidence that the Timmons letter is exculpatory of Coleman, or that
the Clark County Prosecutor had any reason to believe that the Timmons letter was
exculpatory of Coleman, and this Court so finds. The only linkage between the Timmons
letter and the murder of Melinda Stevens is Coleman's bare allegation. Neither the
Timmons letter nor the news article about it made any express reference to the murder of
Melinda Stevens. Coleman has not presented any evidence to support his bare claim of
linkage. fustead, Coleman presents only argument and supposition. Supposition,
however, can not take the place ofreal and credible evidence.
Coleman alleged that Sapp confessed, by implication, to the murder of Melinda
Stevens. fu the letter, Sapp wanted Timmons to believe that he was fully capable of
carrying out his threats .of violence towards her. In reminding Timmons of some of his
other crimes of which she was aware, Sapp wrote, ''Yeah, there's others but then again
you know that don't you? Just like you know I killed your friend over off of Pleasant, or
the bitch in Buck Creek over by the Sherman Street Apt' s." Coleman claims that:"your
friend over off Pleasant" is Melinda Stevens.
There is no evidentiary support for Coleman's allegation that in the reference to
"your friend over off of Pleasant", Sapp meant Melinda Stevens. There is no dispute that

5

Appendix I
Appx-0153

Coleman Apx. Vol. 15 -Amended
Page 174

Case: 3:03-cv-00299-EAS-MRM Doc #: 231-18 Filed: 07/13/16 Page: 181 of 186 PAGEID #: 6509

Stevens was killed in the alley directly behind Riddle's Ribs, which was located on
Pleasant Street. Since Pleasant Street is a main thoroughf-are in Springfield, a reference
to · a spot ''off of Pleasant" would encompass a substantial portion of town, as opposed to
a unique and singular locale. Consequently, the geographic i:eference in the Timmons
letter lends no evidentiary support to Coleman's allegation that Sapp is referring to
Melinda Steven;5.
Moreover, there is no averment in the Sapp affidavit that Timmons' "friend over
off of Pleasant" was a reference to Melinda Stevens. The wholesale silence of the Sapp
affidavit on this point casts additional sk_e pticism on Coleman's allegation of linkage.
Since the initial filing in Jan11arY ~002, Coleman has not offered any additional
evidentiary materials to support this contention. Thus, there is no evidence to support

(\
\

)

Coleman's allegation that the Timmons letter shows Sapp confessed to the murder of
Melinda Stevens. There is likewise no evidence to support Coleman's allegation that the
Clark County Prosecutor either knew or believed that the Timmons letter was exculpatory
of Coleman.
fu response to Coleman's filings, the State submitted an affidavit from Springfield

· police detective, now chief, Steven Moody. In bis affidavit, detective Moody denied that
Sapp ever claimed to have killed Melinda Stevens. The State also submitted an audio
recording of:tv.!'.oody' s interview with Sapp, along with a transcript of that interview. In
that interview, which took place on June 18, 2002, Sapp denied that he killed Melinda
Stevens. (Interview transcript, p. 29.) Sapp denied· ever telling detectives Moody and
Graeber that he killed Melinda Stevens. (Interview transcript, p . 26-27.) Sapp said that

6

Appendix I
Appx-0154

Coleman Apx. Vol. 15 - Amended
Page 175

Case: 3:03-cv-00299-EAS-MRM Doc #: 231-18 Filed: 07/13/16 Page: 182 of 186 PAGEID #: 6510
- - - - - - --~---------- -----

--- ------ - - - - -

Coleman 's attorney wrote the affidavit, and he simply signed it. (Interview transcript, p.

Followin
g these filings, the parties agreed to conduct scientific testing on a beer
,
I
bottle taken from the murder scene, as well as on a rape kit taken from the victim at the
hospital where she had been transported after the shooting. The results showed no
.
.":_

genetic material on the beer bottle, and insufficient genetic material from the rape kit for
DNA identification. Consequently, the outcome of this testing lent no support to
Coleman 's claim of innocence.

In evaluatio n of the merits of Coleman 's motions and successo r petitions, this
Court finds instructive the case of Staie v. Byrd (2001), 145 Ohio App. 3d 318,
discretionary appeal not allowed (2001), 93 Ohio St. 3d 1406. The Byrd case is notable
for its reference to the case of State v. Calhoun (1999), 86 Ohio St 3d 279, where the
Ohio Supreme Court determined that the trial court has discretion to judge the credibilit
y
of affidavits, especiall y where, as here, the Court before which the post-con viction
proceedings are brought is the same Court that presided over the original trial. Moreove
r,
the Byrd case is instructive in its explanation of how claims of"actua l innocenc e" are
to
be evaluated, in view of the decision of the United States Supreme Court in Herrera v.
Collins (1993), 506 HS. 390. Byrd, supra, at 330-331.

Coleman 's motions and successor petition are also to be evaluate d in view of the
provisions ofR.C. 2945.79 et seq. (new trial) and R.C. 2953.23 (succes·s or postconviction). These provision s contain commonalities in two respects. First, it is
incumbent upon the defendan t/petition er to produce evidence that meets the standards
of
relief set forth in these statutes. Second, it is incumbe nt upon the 1efendan t/petition er
to

7

Appendix I
Appx-0155

Coleman Apx. Vol. 15 - Amended
_
Page 176

Case: 3:03-cv-00299-EAS-MRM Doc #: 231-18 Filed: 07/13/16 Page: 183 of 186 PAGEID #: 6511

.

.

produce evidence of his diligence in bringing newly discoverefi evidence to the attention
of the Court.
The same considera tions apply even under the provision s of Civ.R. 60(B),
although Coleman 's motion under that rule is perforce untimely , since it was filed far
beyond the one year limitatio n applicabl e to claims of newly discovere d evidence or
miscond uctofthe adverse party.
With these principle s in mind, this Court finds that Coleman 's claim of actual
innocenc e is wholly without merit. It is founded on the affidavit of a confesse d double
murderer under a sentence of death, who thus has little to lose in claiming another
murder. Moreove r, the psych,ologi9al report on Sapp by Dr. Schmidtg oessling provides
a
myriad of reasons why Sapp's word, sworn or otherwis e, lacks reliability. The timing
of
the affidavit also causes skepticis m of its contents, where it was written and notarized
by
Coleman 's own attorney just two months after this Court denied Coleman 's first postconvictio n petition. In addition, Sapp disavowe d the affidavit during his interview with
detective Moody. These factors show that the Sapp affidavit lacks any credibilit y, and
thus falls far short of the evidentia ry threshold set forth in R.C. 2953.23( A)(l )(b) and
R.C. 2945.79 et seq.
Furtherm ore, the allegatio n that Sapp was with the victim moments before her
murder is contradic ted by Coleman himself, who freely admitted to police he was with
the victim at Riddle's Ribs minutes before she was shot in the alley. Neither Colem·an
nor any other witness reported seeing a neighbor hood stranger like Sapp anywher e
near
Riddle's Ribs before Stevens was killed. Consequ ently, Sapp' s dubious claim of

8

Appendix I
Appx-0156

Coleman Apx. Vol. 15 - Amended
Page 177

Case: 3:03-cv-00299-EAS-MRM Doc #: 231-18 Filed: 07/13/16 Page: 184 of 186 PAGEID #: 6512

re~ponsibility for the murder of Melinda Stevens sini~ly does ~mt fit with the facts of the
case.
Moreover, the compelling evidence of Coleman's guilt belies the statements in the
Sapp affidavit. The.State's witnesses showed how Colem.an made it known that he
intended to kill Stevens for being a witness against hini in his drug case, and how
Coleman bragged afterwards that he had made good on his promise. In the sentencing
opinion filed March 3, 1997, this Court found the State's witnesses to be credible. These
witnesses included several of Coleman's friends, who testified of his boasting about
planning the murder, as well as his boasting about having killed Melinda Stevens. This
Court's conclusion in that regard was upheld on appeal, where Coleman had contended
that the evidence against him: was insufficient fo support the verdict. See State v.

Coleman (1999), 85 Ohio St. 3d 129, 133-134.
Coleman's allegation that Willian1 Sapp is the real killer of Melinda Stevens is the
third version of innocence he has presented to this Court. During trial, Coleman alleged
that someone else killed Melinda Stevens, and specifically nained Charles Foster and
James Strodes as possible killers. (See Tr. pgs. 659-660.) In his first post-conviction
petition, Coleman claimed innocence based on an affidavit from his girlfriend Dana
Strodes, who averred that she was with him when the murder took place. This Court
rejected that second version of events, where it contradicted Coleman's own explanation
of his whereabouts made to police. That claim of alibi was also directly contradicted by
the trial testimony of Hope Strodes, Vera Strodes, Fayette Strodes and Lynda Gaskins.
See Entry denying the first post-conviction petition, filed June 1, 2001.

9

Appendix I
Appx-0157

Coleman Apx. Vol. 15 - Amended
Page 178

Case: 3:03-cv-00299-EAS-MRM Doc #: 231-18 Filed: 07/13/16 Page: 185 of 186 PAGEID #: 6513

On direct appeal, the ,Ohio Supreme Court found that ~'Given the strength of this
evidence [of Coleman 's guilt], Coleman 's claim that a substanti al number ofleads point
to another killer other than Coleman is baseless. Nothing in the record suggests any
other killer." State v. Coleman, supra, at 134. That conclusio n is equally applicabl e
to
this action. The third version of his actual innocen9 e claim, that William Sapp is the
real .
killer of Melinda Stevens, is the most preposter ous of the three, and this Court so finds.
This Court further finds that there is a complete failure of evidence as to the
diligence compone nt for actions under R.C. 2945.79 et seq. (new trial) and R.C. 2953
.23
(successor post-con viction). While the Staunton Lynd letter bears a date seven nionths
before Coleman commen ced the present action, Coleman submitte d no.evidentia ry
materials to explain the circumst ances behind the letter. Explanat ion was certainly called
for, where the letter reference d what Lynd purporte dly heard from an unidentif ied third
person about statemen ts presuma bly being made by another unidentif ied person. Given
the cryptic and secretive tone of the Lynd letter, in context of a complete lack evidentia
ry
explanati on by Coleman , this Court certainly will not assume that diligence requirem
ents
have been met.
The same consider ation applies to the newspap er stories about Sapp, the Timmon s
letter, and the psycholo gical report on Sapp. 'While the news articles would be easily
accessibl e by the general public, that certainly would not be the case with the Timmon
s
letter and the psycholo gical report on Sapp. Although the Timmon s letter and Sapp's
psycholo gical report predated the present :filings by more than two years, Coleman
presented no evidence to explain how or when he came across these materials . Given

10

Appendix I
Appx-0158

Coleman Apx. Vol. 15 - Amended
. Pag~ 179

Case: 3:03-cv-00299-EAS-MRM Doc #: 231-18 Filed: 07/13/16 Page: 186 of 186 PAGEID #: 6514

these circumstances, this Court will not ~sume that diligence requirements have been
met.
Based upon the foregoing findings of fact and conclusions of law, this Court
concludes that Coleman's motions are OVERRULED in their entirety and his successive
petition for post-conviction relief is DISMISSED.

cc:

Stephen Schumaker
Prosecuting Attorney

-

"''\1
,

,

.....

\ )

Kelly Culshaw
Robert Lowe
Assistant Public Defenders

F

\f,rt\
~

11

Appendix I
Appx-0159

Coleman Apx. Vol. 15 - Amended
Page 180

Case: 3:03-cv-00299-EAS-MRM Doc #: 231-12 Filed: 07/13/16 Page: 162 of 177 PAGEID #: 5367

FO r;:o•
'...,_

.-4.a

.,

Jn tlyt QI:nurt nf C!tnttUtU1Mc 1!!!c!lf n! flfffk C!tnunty. @qin
1

STATE OF OHIO

:?laintiff/

MA!'

:n,

2001

ENTRY

The d-efendant. 1 llimothy L. Coleman, hes iiled a post
eo:~r,dctian petition pursuant. to R. C. 2953. 21 et. seq.
!afore grl!nting a hearing on this petition, the

co·1.n.·t

mu:St

det:erminill:

-whetha,:

there

are

substantive

In m:akin.g this determination the

Cou:tt. has censidered,

in add.i tion to the petition and

s.uppo,rtin.g affidavit, all the files and records in the

Clerk of Court , the coi~rt reporte1:"s transcript as well
as

any

do<:H.t.mient.atic.n

attaohed

to

the

plaadings

and

mo,tions..
~he burdEN:-r. of proof is on the defendant. to submit

evi.dentiary 60,c.:iments which contain sufficient facts to
d~ons.trat.e the dE:nial of a

constitutional right and

resulting prejudice.
1

Appendix J
Appx-0160

Coleman Apx. Vol. 10 pg. ·

160

Case: 3:03-cv-00299-EAS-MRM Doc #: 231-12 Filed: 07/13/16 Page: 163 of 177 PAGEID #: 5368

Th.e defendant I s first ground for relief alleges that

the j udgl'ltent and sentence of the trial court are void or
voidable because of recent ·amendments to the Ohio post
violations of his

to-wit:

cox:.viction :::--elief process;

ao:istitu.ti.onal rights to due proees.s.
the

defendant

t.o

fails

identify

denial

a

of

a

co:ns:titu:tio.nal right which occurred at trial . Therefore,

this ground is s..'Wl'!l'darily DISMISSED.
Oef ~u1.d ant' s s-e~ond ground for relief alleges the

t:t'.ial court 1u:red in. ovf,n•ruling defenda:nt"s motion for
!:".f.t'tJld j ui:--y transcripts.

As

aeknowledg·e d

the

by

p,:t:-t.':l~eding-s sn:~- $f!u,ret..

defendant,

grand

jury

An accused is not entitled to

~ti-iew gr-an.-d jury testimony unless the ends of justice

reqnire it., and the:re must be a showing by t.be defense
t:h.ll'ltt

a pa:rt.ieu1a.ri2:ed need for :tt.s disclosure outweighs

the need for secrecy~

A particularized need was never

1'here£ore 1 the Court finds defendant's
second

£or

ground

Several

of

the

a.s .sistance o:£ cou:n.se·l.
Strickland

v.

is

relief

next

without

grounds

merit

allege

and

is

ineffective

As· noted by the Supreme Court in
(1984)

Washington.,.

466

U.S.

668,

the

2

Appendix J
Appx-0161

Coleman Apx. Vol. 10 pg.

161

Case: 3:03-cv-00299-EAS-MRM Doc #: 231-12 Filed: 07/13/16 Page: 164 of 177 PAGEID #: 5369

t~

~ ••

, ......,

benchmark of judging any claim of ineffective ness must be
whether

counsel's

conduct

so

undermined

the

proper

functioning of the adversarial process that the trial
ca:r~not be relied on as having produced a just result.
The fact that counsel might have erred is not the
issue.

An error by counsel,

even if professiona lly

unreasonab le, does not warrant setting aside the judgment
of a criminal p~oceeding if the error had no effect on
the

judgmellt.

The

purpose

of

the

Sixth ,Amendment

guarantee of counsel is to ensure that a defendant has

the assistance necessary to
outcome of the proceeding.

justify reliance on the

Accordingly , any deficiencie s

in counsel's performance must be prejudicial

to

the

defense in order to constitute ineffective assistance
under the Constitutio n.
A Court deciding an actual ineffective ness claim
must judge · the reasonablen ess of counsel's challenged

conduct on the facts of the particular case, viewed at
the time 0£ counsel " s

con.d uct.

A convicted defendant

making a claim of ine:ffectiV'e assistance mu.st identify
the acts and omi.ssions of counsel that are alleged not to
· have been the result o .f reasonable professiona l judgment.

The Court n,.ust then determine whether, in light · of all
3

Appendix J
Appx-0162

Coleman Apx. Vol. 10 pg.

162

Case: 3:03-cv-00299-EAS-MRM Doc #: 231-12 Filed: 07/13/16 Page: 165 of 177 PAGEID #: 5370

the circumstances, the identified acts or omissions were

outside

wide

the

of

professionally

ln making that determination!

assis,tance.

mind

in

keep

should

range

that

counsel's

competent
the

Court

funetion,

as

elaborated! in prevailing professional norms, is to make
th.e- adversarial testing process work in the particular

ease.

At th,e same time the Court should· recognize that

eounsel :ts strongly presumed to have rendered adequate
ill\S$ iSta.nce and make all significant decisions in the

exe:l:'cisa of reasonable professional jud91t1ent.
Clai.ms: of :in,e ffective a$sistance of counsel cannot
be -taken ligh:t! y.

At:torneys are presumed oomp-e tent, and

thel:'e .i s a wide :'ange of aei:eptable professional tactical

oho.ices.

i:vl'!-l'\

obvious errors do not render an attorney's

pe1:fomanee unaco~pt.able unless it is substantial and

~sul t ,s in prej udiee to the d-e fendant.

The type of

p-re j udice whioh must he shown to support su-ch a claim is

that wbioh rendered the outc:om.e of the tri.al totally
u.nreli.able..,
p-r;o cess.

(::aused by a

breakdown of the adversarial

As the :Supreme Co,u rt of Ohio noted in State v .

Rester ( 1 ~16'}

1

45 Ohio St. 2d. 71,. "the test ... is whether

the aiccus,ed ... . had a :fair trial and substantial justice
was done . ..
4

Appendix J
Appx-0163

Coleman Apx. Vol. 10 pg.

163

Case: 3:03-cv-00299-EAS-MRM Doc #: 231-12 Filed: 07/13/16 Page: 166 of 177 PAGEID #: 5371

:<,-;.,

.....

Additionall y in State v. Bradley (1989}, 42 Ohio St.
136, the Court wrote the fol.lowing syllabus paragraphs:

"2.

C,o unsel's

will

performance

not

be

deemed

ineffective unless and until counsel's performance is
proved to have :fa.llen below an objective standard of

:reas-:;:1::Jable representat ion and,

in addition,, prejudice

arises from counsel's perfoni.anee .
"3 • 't o show that a de:f endan,t has been prejudiced by

oo'!lns•el 1 s defici•a nt performance , the defendant must prove

t.h!a.t there iexists a reasonable probability t-hat were it

no-t for the. e.ow:us.e l, s errors, the result of the trial

There must be a

showing 0£ a substantia l vi·o lation of an essential duty,
eoup-l ed with z-esultant pre-ju.dice.
me~1H:1 a

ijesultant: prejudice

tu:':'eakdo:wn ,o :f the adve-r sarial process, with a

showing tba:t, but for the er.ro-r , th.e outcome o:f the trial
wo,u ld pro,b ably have been different.
tlefendant I s third ground for relief alleges that

trial -counsel was ineffective for £ailing to properly
investigate his need for grand jury transcripts .

The

substance of the defendant's claim is that a gun, alleged
5

Appendix J
Appx-0164

Coleman Apx. Vol. 10 pg.

164

Case: 3:03-cv-00299-EAS-MRM Doc #: 231-12 Filed: 07/13/16 Page: 167 of 177 PAGEID #: 5372

to be the murder weapon, was presented to the grand jury.

H01-1everr the State never claimed to have found the murder
weapon nor wa.s a murder weapon ever produced at trial .
!>sfense

counsel

something

.
sp~eulat.ion

that
is

could
was

not

never

be

found.

insufficient to

,groW1ds :for :t-Et:lief.

expected

to

examine

Unsubstantiated

establish substantial

:Oefendant. 1 s third ground for relief

tlefend.at'lt' ill fourth ground ft:u:· relief alleges his
tri.al .::ottn$el was :tne££eotive for failing to conduct
~. d~quatlll?

volr dire c.,f a bla(:.!k juror.

iDElf,endant '10nten.ds that Juror Jesse Wilkerson had

db~l()sed in hi$ que!irtio:nna.ir.e that he was a elose friend
iof

t;.hEi

cou:o:tr Pr¢seeu:tor

•or

his

staf:f:

and

this

siubst.~nt.b.lly imJiid..r«1d him in performing his duties as a
j~~o~.

t~.

~

~otrn:tr of this si.zi;e, such a situation is not

un.~onmon. A juX'Qr may f.mow a prosecuting atto:rney or a
det'EUlH

a:ttomay or both aind. still be able

to be a fair

In fact,. there is

n(rthing to slilggest that Mr.. Wilkerson was anything but
:fair and. impa:::tial and ab.le to serve.

Mr.

Wilkerson

st..tt.ed this. .in his voir di.re examination. Mr. Wilkerson

was a young,. Afri.can-American male,. like Coleman himself,
6

Appendix J
Appx-0165

Coleman Apx. Vol. 10 pg,

165

Case: 3:03-cv-00299-EAS-MRM Doc #: 231-12 Filed: 07/13/16 Page: 168 of 177 PAGEID #: 5373

1-"'f

,<-:,l
"

and defense counci.l's choice would seem reasonable and
proper.

The Court wil.1 not second guess trial counsel I s

strategy dec;isivn.s. Defendant's fourth ground for relief

lle-f,endant ... s

fifth g.rou.nd for relief alleges that

trial e<::runsel did not adequately investigate or interview

witnesse.s.
eo,u1sel.

Extensive diseovery was provided to defense

tl1l!l:f e~dant' s.

contention that trial eou.nsel 's

failure to ,a<)n,sul:t with Mr. Juergens does not rise to the
le•;rel

of

i:nQf:feetive a11u;.ista.nee of eounsel,

as Mr.

Ju,1u·gens. d.id n:o,t h.s:-.rta any additio~al f aets or information
tbM va.s n;,,::ve. knowi:i. by Mr. Doughty.

with Mr,

Ju~7':'9'~~s.

1'he failure to confer

could not and did not effeet the

o,u:t~ome of thill trial. ne:fendant 1 s. :fifth ground :for relief
is

~:siu:n.
OefeDd~nt 1 s

sixth

groun.d

for

relief

alleges

in,e,;:ffeetive iu;sistanee of counsel for failure to present

alibi tes·timony.

However, the purported alibi conflicts

with defe.ndcul:t"s own statements made to Detective Graeber
with l:'espect to defendant"s location on the evening in
quest.ion.

lle:fe:ndant _, s statements to the officers were

· co.nsiste·n t with his scatements to counsel. Presenting the
alleged alibi I lrbich appears untrue from the conflicting
7

Appendix J
Appx-0166

Coleman Apx. Vol. 10 pg.

166

Case: 3:03-cv-00299-EAS-MRM Doc #: 231-12 Filed: 07/13/16 Page: 169 of 177 PAGEID #: 5374

728 p~
af :fidavits andl defendant's own statements, could have
r.esu.l ted in more harm than help•.

Th-e alibi i.s contained in the affidavit of Dana
:Strcdes. Dana St.rodes claims the defendant was with her

from '6:30 p.m. on the night in question until the next
morning. .Defendant ts own statements to Detective Graeber
was tha·t be was at Riddles Ribs at 7 ;00 p.m. and at a pay

phone at 1 :30 ~ .m. :Defendant's statements contradicts his

ali bi .
Tb.e .ailib.i also conflicts with the statements of the
witnesses,.. Hope S.t rodes .,. Vera Strodes 1 Fayetta Strodes

a~d Lyxmda Gaskins. !l'herefore, defendant's sixth ground
for relief has no legitima:te grounds and is DENIED.

nefenda.n t I s

seventh

ground

for

relief

alleges

in,'l'est.igate im.p.roper polic$ influence in the arrest an.d
,P·X-O:tH;ACUt.i on of Timothy Coleman.

fails

to

A search of the record

disclose any substanti.al £acts to support this

all egation~ an.d therefore, _defendant's seventh ground for

relief is l>~NIE:tl.
nefen.dant 11 s eighth ground :for . relief alleges that
defe:nise ccru.nsel hur:ded through the case and used a
racial slur in reference to Mr.

Coleman because they

8

Appendix J
Appx-0167

Coleman Apx. Vol. 10 pg.

167

Case: 3:03-cv-00299-EAS-MRM Doc #: 231-12 Filed: 07/13/16 Page: 170 of 177 PAGEID #: 5375

believed Mr.

Coleman committed the crime and "did. not

know what was going on. "
claim

for

re·lief

'!'he evidentiary basis for this

founded

is

in

a

statement

by

John

Stojetz.

John Stojetz is a convicted felon currently on death
row- :for the murder of a prison inmate. The Doughtys were
also his at.terne,y s,

a.n d he has an obvious reason to

fu.~ther his position.

The Court. finds his statements

sus,pici-ous and without credibility.
Further, t he a:f:fid.avit of Jon Doughty at paragraph
S shOW$ that be worked 3$0 to 400 hours on t:ie case. The

reeord o:f the t rial and pre ... trial proceedings shows that
defense
and.

OC'l;!.ll:S~l

engaged in thorough extensive preparation

~11:amin:a:eio.n

of

state's

the

witness

and

any

i:oeonsisteneies in the stat.e's, evidence were identified.

1~£endant"'s "'ighth ground for relief is without merit and

is hereby nlfflIED.
nefendantKs :n,inth ground for relief alleges that

defens.e counsel failed to argue residual doubt in the

fir.st phase o:f t.he trial.

Residual doubt is "a lingering

un,c ertalnty about facts" ; :noweve:r, the State is required

to prove its ::::ase "beyond a reasonable doubt." To argue
resldual do·ubt: wo-u ld be imp.roper.

Further, a review of

9

Appendix J
Appx-0168

Coleman Apx. Vol. 10 pg.

168

Case: 3:03-cv-00299-EAS-MRM Doc #: 231-12 Filed: 07/13/16 Page: 171 of 177 PAGEID #: 5376

7 ,2

the evid.ence precluded any residual doubt. Defendant.' s
ninth. gro,und for relief is OVERRDLED.
Defenda:nt' s tenth ground for relief alleges that
defen.se

counsel

did

not

adequately

investigate

Mr.

Coleman's background for :miti.gating evidence.

1'he

ree:ord

reflects

interview def.andant's

t.bat

family,

defense

counsel

and defendant's

did

father

te:$,ti:fied in the mitigation hearing rega,rding his son's
l)efendlan.t I s

mother

was

interviewed

by

t.a t.11stify. Ftu:t.be:t'., testimony by Mr. Coleman 1 s father
tlntt h~ wa~ a l<:tving f~ther and a non-violent man does
tl.\\'l\'C:

':th~

,~vereome ·th~ agg:cava:tin•g ai.rcwnstanee in this ease.
ree,;;:ird

fu~ther

dio~s

not

inves:tiga:tio.n

suiiport defendan:t 1 s
would

have

claim

produced

any

that

more

mit:J. gating-1 ~•.ideti.~e, Defendant I s tenth ground for relief

a :z:,~eit.al of his previous claims that defense counsel
failed to oonduet an

adequate

investig.ation

for the

mitigation hearing o:r call defendant's mother, sister, or

girlfr.iend. to tastify at the mitigating hearing.
Mr. Doughty interviewed Eula Coleman an•d further

10

Appendix J
Appx-0169

Coleman Apx. Vol. 10 pg.

169

Case: 3:03-cv-00299-EAS-MRM Doc #: 231-12 Filed: 07/13/16 Page: 172 of 177 PAGEID #: 5377

prepared and planned for her to testify at the mitigation

hearing; however, on. the day that she was to testify, she ·

indicated that she could not d!o so because she was too
·u pset.

(Mr.

n·o ughty' s

Coleman's

father

ColematV's

background.;-

conclusion that

did

A£ f id.av it,

present

Paragraph

testimony

there

and

is

8)

as

no

to

Mr.

Mr.

reasonable

if' the defendant had presented more

etum.ulative te$timon,y that the o·u tcome of the proceeding

would have been different.

Defendant's eleventh ground

for relief is O·I NIEO.

tiefend.anths twel.fth ground for reli,ef alleges that
de::feuse eouns~l offered no psychological evidence at the

m.:ttiga:ting phase o:f th.fe t:t-ial.
the te.st.aony of

nr.

the defendant el.aims that

Earhard Eilmer, Ph. ti. , would be

that,¥ ba.s.ed upon tbe defen.dant 1 s, psychological profile,

it is highly 1.u'llikely that defendant could. have committed

De fen$e:
>l:Utnt.U:'' s

eo,t m:sel, s

tes.tim.o ny

decision

d:uring

the

understandable and rational.

:E ilm:er" s

t•estimony

would

he

"ti1vident.ia.."Y Rule 702 and 704 .

not

to

present

sentencing

phase

Dr.
is

It is doubtf"ul that Dr.

admissible

pursuant

to

Even assuming such an

opi:n.i on was a.d missible, the jury had already determined
11

Appendix J
Appx-0170

Coleman Apx. Vol. 10 pg.

170

Case: 3:03-cv-00299-EAS-MRM Doc #: 231-12 Filed: 07/13/16 Page: 173 of 177 PAGEID #: 5378

·•

1

that the defendant was guilty o.f this crime.

Dr. Eilmer

would simply be telling the_ jury that they were wrong,
thus removing mitigating arguments. Dr. Eilmerrs proposed
testimony indicated that Tim Coleman is highly suspicious
of other people which often makes him argumentative. He

does not assume responsibility for his problems, and he
tends to blame others or to rationalize his faults. He
views his world as a threatening place in which he gets

no rest or :::omfort unless he takes care of himself.
(Defendants' Ex. 40.)

Thus, the death of Melinda Stevens

cou.ld

"taking

be

viewed

as

care

of

himself".

The

tactical decision not ·::.o call Dr. Eilmer was entirely
reasonable.

Defendant

fails

to set forth

sufficient

facts to grant relief on this ground, and it is DENIED.
Defendant's thirteenth ground for relief alleges
that defense counsel failed to call Deputy Steve Williams

to ~estify that Mr. Coleman did not misbehave while under

his

supervision.

Defendant's

behavior was

open

and

obvious to the ,jury during th.e trial and the deputy

sheriff's testimony would have little weight compared to
their observatio·n s,

given the she,e r magnitude of the

aggravating circ-umstance in this case.

Def end ant has

:failed to demonstrate a reasonable probability that his
12 .

Appendix J
Appx-0171

Coleman Apx. Vol. 10 pg.

171

Case: 3:03-cv-00299-EAS-MRM Doc #: 231-12 Filed: 07/13/16 Page: 174 of 177 PAGEID #: 5379

sentence would have been different with the testimony of
Deputy Williams. Defendant's thirteen.th ground for relief
is DU:IED.

Defend.ant's fourteenth ground for relief alleges

that defense. counsel failed to present a eult.ural expert
as to the crime rate in the comm:unity, the drug culture
an<.i :fam.ily baokgrouJ1d. A cultural expert's testimony as
tc:, why Mr.

Coleman became a

drug

dealer would not

mitigate the, fact:. that he executed the mother of five
eh:Udrf!n:t.

l::u:aoause

1.1\\he wou.ld be

a

witness

in

a

drug

Even had such

ag9~~via:ti.n.; c:1irQt1mStant1e of this case .
fOtU:'.'t.ee:ntb

·~:t'tiUnd

Defendant's

for t"elie•f is tlElllED.

Defendant, s fifteerrth

g:tN'!lttnd.

for relief alleges that

dQfen$e eou1:uut¼l failed to presl'l)nt a substantial amount of
m:i:t..ig.iill'ting

~vidf:!!n.eEI£

i .n

the

0losing argument

As

noted

of

the

above,

da:ff;;ln.dant:,, s mtrt.her refuse.d to. testify and defendant's

exp.art. believed. "he could no•t. have done the crime."
tletendan:t's counsel argued that if it had no,t been for

the duress Coleman was under, he would not have killed
Meli,:oda Ste,vens.

:tn a sincere and honest manner, •defense

13

Appendix J
Appx-0172

Coleman Apx. Vol. 10 pg.

172

Case: 3:03-cv-00299-EAS-MRM Doc #: 231-12 Filed: 07/13/16 Page: 175 of 177 PAGEID #: 5380

·•
counsel

begged

evidence

and

1

for

mercy.

Given

eireumst.ane'.es,

:unreasonable.

~here

is

this

nothing

the

overwhelming

tactic

to

was

demonstrate

not

a

rea s.on.able• probability th,at the sentence would have been

d.ifferent..

nef.endan.t. 1 s fifteenth ground for relief is

sixteenth,

seventeenth,

eighteenth,

nineteenth and twentieth grounds for relief all deal with

au !ltlg'ttt:ions

that defe:tu:1e ecunsel failed tc examine or

4'.lt'01/i,S""exam.:tn~

or impeach witn,u;ses.

A rEr\ri~w ~f th$ :ra•cord shows few ixu:::ons istencies and

·CQ1t-tainly ~en~ of' su.bl5tantial error. The defendant has

faU~d to d:em<:::1nll»tl:'atll) s.uff icient grounds fo.r a hearing or
th.$ ~li&f be ::,a,eks.
':tlltt.Ei Ct:;.urt finds no suf:f ieient grounds to demonstrate

an;t l"~as.onable: probability that the o.uteome of th.e trial
w1t1ul.d hav~ been d.ifferent. ~he testimony and. physical

e·vi,d·emee- is compelling.

~here is substantial evidence

upon which t.be jury could reasonably conclude that all
el~en.t.s

of

t.he

offense

had

been

proved

beyond

a

re:ason.able d•oubt.
The

defendant

has

failed

to

show

ti:.at

defense

counsel's tactical choice would have made any di£ ferenc.e

Appendix J
Appx-0173

Coleman Apx. Vol. 10 pg.

173

Case: 3:03-cv-00299-EAS-MRM Doc #: 231-12 Filed: 07/13/16 Page: 176 of 177 PAGEID #: 5381

in

the

outcome

of

this

case

or that

any

prejudice

occurred from defense counsel's decisions.
Defendant's

sixteenth,

seventeenth , eighteenth,

nineteenth and twentieth. grounds for relief are DENIED.
Defendant.' s twenty-firs t claim. for relief alleges

that defendant's counsel failed to i~vestigate leads as
t •o the identi t.y
sbo,ws

::>f:.

the killer.

ove:rwhe!min.g

evidence

A review of the record

of

Mr.

Coleman's

guilt.

~estimony of 'th,1$ patb.o logist. along with defendant.' s own

a.dr.\lssions. ot."etwhelmi ngly point to Coleman. There is no

substantial evidence

to

the contrary.

Defendant's

tw'¢!aty ... fi . rst ground for relief' is l>il!NIED.

~he t:0urt. finds defendant., Timothy Coleman, bas not
met hi.s hu~e:n of ine.ffec:::tive assistance of counsel in

and

allege

def.andant~s s•.::Hlt•e nee,. is u.noonstitu tionaL

The doctrine

of ;res j ;ud;to,ll\ta is applicable here as defendant did raise

t.hese issues on direct appeal.
Based

on

the

foregoing

:findings

of

facts

and

cokl.clusion.:s of :taw 1 the Court finds:

1. :?etitioner~ s

request to conduct discovery to

further develop and support his claims

for relief is

15

Appendix J
Appx-0174

Coleman Apx. Vol. 10 pg.

174

Case: 3:03-cv-00299-EAS-MRM Doc #: 231-12 Filed: 07/13/16 Page: 177 of 177 PAGEID #: 5382

•
DENIED.

, 7 Q;6,J.
.'I.

Such proceedings are not appropriate in post-

co,n viction actions • State v. Smith ( 1986) , 30 Ohio App.
3d 138.

2. Petitioner 1 s request for an evidentiary hearing

is

DlfflI:E:J).

l.

Petitioner 's requests

that the Court declare

petiti•o ner' s conviction void. and grant him. a new trial,

o,r ,·

in

the

al te:rnative I

that

the

Court

declare

petitio:nert $ . sentence void and grant him a sentencing
hea:i:-i:og

be:fot'.'I':t

a

jury

or

o:rder

sen:tenced to. lite in prison are

Petitic:tn~:%:."'S

third

that

Petitioner he

PiNlED.

Mtended

petition

for

post

a~~

:0 * Sodik&lt'

s.

Collins

c~ ~:.~

. ,.

·-- .·.•

~·

- ·· .;r-

·~.:.·c:•7"11

:·~~g
--i

Appendix J
Appx-0175

w

Coleman Apx. Vol. 10 pg.

175

Case: 3:03-cv-00299-EAS-MRM Doc #: 231-3 Filed: 07/13/16 Page: 9 of 229 PAGEID #: 3590

Appendix K
Appx-0176

Case: 3:03-cv-00299-EAS-MRM Doc #: 231-3 Filed: 07/13/16 Page: 10 of 229 PAGEID #: 3591

Appendix K
Appx-0177

Case: 3:03-cv-00299-EAS-MRM Doc #: 231-3 Filed: 07/13/16 Page: 11 of 229 PAGEID #: 3592

Appendix K
Appx-0178

Case: 3:03-cv-00299-EAS-MRM Doc #: 231-3 Filed: 07/13/16 Page: 12 of 229 PAGEID #: 3593

Appendix K
Appx-0179

Case: 3:03-cv-00299-EAS-MRM Doc #: 231-3 Filed: 07/13/16 Page: 13 of 229 PAGEID #: 3594

Appendix K
Appx-0180

Case: 3:03-cv-00299-EAS-MRM Doc #: 231-3 Filed: 07/13/16 Page: 14 of 229 PAGEID #: 3595

Appendix K
Appx-0181

Case: 3:03-cv-00299-EAS-MRM Doc #: 231-3 Filed: 07/13/16 Page: 15 of 229 PAGEID #: 3596

Appendix K
Appx-0182

Case: 3:03-cv-00299-EAS-MRM Doc #: 231-3 Filed: 07/13/16 Page: 16 of 229 PAGEID #: 3597

Appendix K
Appx-0183

Case: 3:03-cv-00299-EAS-MRM Doc #: 231-3 Filed: 07/13/16 Page: 17 of 229 PAGEID #: 3598

Appendix K
Appx-0184

Case: 3:03-cv-00299-EAS-MRM Doc #: 231-3 Filed: 07/13/16 Page: 18 of 229 PAGEID #: 3599

Appendix K
Appx-0185

Case: 3:03-cv-00299-EAS-MRM Doc #: 231-3 Filed: 07/13/16 Page: 19 of 229 PAGEID #: 3600

Appendix K
Appx-0186

Case: 3:03-cv-00299-EAS-MRM Doc #: 231-3 Filed: 07/13/16 Page: 20 of 229 PAGEID #: 3601

Appendix K
Appx-0187

Case: 3:03-cv-00299-EAS-MRM Doc #: 231-3 Filed: 07/13/16 Page: 21 of 229 PAGEID #: 3602

Appendix K
Appx-0188

Case: 3:03-cv-00299-EAS-MRM Doc #: 231-3 Filed: 07/13/16 Page: 22 of 229 PAGEID #: 3603

Appendix K
Appx-0189

Case: 3:03-cv-00299-EAS-MRM Doc #: 232-5 Filed: 07/13/16 Page: 137 of 214 PAGEID #: 9140

Appendix L
Appx-0190

Case: 3:03-cv-00299-EAS-MRM Doc #: 232-5 Filed: 07/13/16 Page: 138 of 214 PAGEID #: 9141

Appendix L
Appx-0191

Case: 3:03-cv-00299-EAS-MRM Doc #: 232-5 Filed: 07/13/16 Page: 139 of 214 PAGEID #: 9142

Appendix L
Appx-0192

Case: 3:03-cv-00299-EAS-MRM Doc #: 232-5 Filed: 07/13/16 Page: 140 of 214 PAGEID #: 9143

Appendix L
Appx-0193

Case: 3:03-cv-00299-EAS-MRM Doc #: 232-5 Filed: 07/13/16 Page: 141 of 214 PAGEID #: 9144

Appendix L
Appx-0194

Case: 3:03-cv-00299-EAS-MRM Doc #: 232-5 Filed: 07/13/16 Page: 143 of 214 PAGEID #: 9146

Appendix L
Appx-0196

Case: 3:03-cv-00299-EAS-MRM Doc #: 232-5 Filed: 07/13/16 Page: 144 of 214 PAGEID #: 9147

Appendix L
Appx-0197

Case: 3:03-cv-00299-EAS-MRM Doc #: 232-5 Filed: 07/13/16 Page: 145 of 214 PAGEID #: 9148

Appendix L
Appx-0198

Case: 3:03-cv-00299-EAS-MRM Doc #: 232-5 Filed: 07/13/16 Page: 146 of 214 PAGEID #: 9149

Appendix L
Appx-0199

Case: 3:03-cv-00299-EAS-MRM Doc #: 232-5 Filed: 07/13/16 Page: 147 of 214 PAGEID #: 9150

Appendix L
Appx-0200

Case: 3:03-cv-00299-EAS-MRM Doc #: 232-5 Filed: 07/13/16 Page: 148 of 214 PAGEID #: 9151

Appendix L
Appx-0201

Case: 3:03-cv-00299-EAS-MRM Doc #: 232-5 Filed: 07/13/16 Page: 149 of 214 PAGEID #: 9152

Appendix L
Appx-0202

Case: 3:03-cv-00299-EAS-MRM Doc #: 232-5 Filed: 07/13/16 Page: 150 of 214 PAGEID #: 9153

Appendix L
Appx-0203

Case: 3:03-cv-00299-EAS-MRM Doc #: 232-5 Filed: 07/13/16 Page: 151 of 214 PAGEID #: 9154

Appendix L
Appx-0204

Case: 3:03-cv-00299-EAS-MRM Doc #: 232-5 Filed: 07/13/16 Page: 152 of 214 PAGEID #: 9155

Appendix L
Appx-0205

Case: 3:03-cv-00299-EAS-MRM Doc #: 232-5 Filed: 07/13/16 Page: 153 of 214 PAGEID #: 9156

Appendix L
Appx-0206

Case: 3:03-cv-00299-EAS-MRM Doc #: 232-5 Filed: 07/13/16 Page: 154 of 214 PAGEID #: 9157

Appendix L
Appx-0207

Case: 3:03-cv-00299-EAS-MRM Doc #: 232-5 Filed: 07/13/16 Page: 155 of 214 PAGEID #: 9158

Appendix L
Appx-0208

Case: 3:03-cv-00299-EAS-MRM Doc #: 232-5 Filed: 07/13/16 Page: 156 of 214 PAGEID #: 9159

Appendix L
Appx-0209

Case: 3:03-cv-00299-EAS-MRM Doc #: 232-5 Filed: 07/13/16 Page: 157 of 214 PAGEID #: 9160

Appendix L
Appx-0210

Case: 3:03-cv-00299-EAS-MRM Doc #: 232-5 Filed: 07/13/16 Page: 158 of 214 PAGEID #: 9161

Appendix L
Appx-0211

Case: 3:03-cv-00299-EAS-MRM Doc #: 232-5 Filed: 07/13/16 Page: 159 of 214 PAGEID #: 9162

Appendix L
Appx-0212

Case: 3:03-cv-00299-EAS-MRM Doc #: 232-5 Filed: 07/13/16 Page: 160 of 214 PAGEID #: 9163

Appendix L
Appx-0213

Case: 3:03-cv-00299-EAS-MRM Doc #: 232-5 Filed: 07/13/16 Page: 161 of 214 PAGEID #: 9164

Appendix L
Appx-0214

Case: 3:03-cv-00299-EAS-MRM Doc #: 232-5 Filed: 07/13/16 Page: 162 of 214 PAGEID #: 9165

Appendix L
Appx-0215

Case: 3:03-cv-00299-EAS-MRM Doc #: 232-5 Filed: 07/13/16 Page: 163 of 214 PAGEID #: 9166

Appendix L
Appx-0216

Case: 3:03-cv-00299-EAS-MRM Doc #: 232-5 Filed: 07/13/16 Page: 164 of 214 PAGEID #: 9167

Appendix L
Appx-0217

Case: 3:03-cv-00299-EAS-MRM Doc #: 232-5 Filed: 07/13/16 Page: 165 of 214 PAGEID #: 9168

Appendix L
Appx-0218

Case: 3:03-cv-00299-EAS-MRM Doc #: 232-5 Filed: 07/13/16 Page: 166 of 214 PAGEID #: 9169

Appendix L
Appx-0219

Case: 3:03-cv-00299-EAS-MRM Doc #: 232-5 Filed: 07/13/16 Page: 167 of 214 PAGEID #: 9170

Appendix L
Appx-0220

Case: 3:03-cv-00299-EAS-MRM Doc #: 232-5 Filed: 07/13/16 Page: 168 of 214 PAGEID #: 9171

Appendix L
Appx-0221

Case: 3:03-cv-00299-EAS-MRM Doc #: 232-5 Filed: 07/13/16 Page: 169 of 214 PAGEID #: 9172

Appendix L
Appx-0222

Case: 3:03-cv-00299-EAS-MRM Doc #: 232-5 Filed: 07/13/16 Page: 170 of 214 PAGEID #: 9173

Appendix L
Appx-0223

Case: 3:03-cv-00299-EAS-MRM Doc #: 232-5 Filed: 07/13/16 Page: 171 of 214 PAGEID #: 9174

Appendix L
Appx-0224

Case: 3:03-cv-00299-EAS-MRM Doc #: 232-5 Filed: 07/13/16 Page: 172 of 214 PAGEID #: 9175

Appendix L
Appx-0225

Case: 3:03-cv-00299-EAS-MRM Doc #: 232-5 Filed: 07/13/16 Page: 173 of 214 PAGEID #: 9176

Appendix L
Appx-0226

Case: 3:03-cv-00299-EAS-MRM Doc #: 232-5 Filed: 07/13/16 Page: 174 of 214 PAGEID #: 9177

Appendix L
Appx-0227

